<html>
<title> - ELIMINATING THE SOCIAL SECURITY DISABILITY BACKLOG</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                            ELIMINATING THE 
                   SOCIAL SECURITY DISABILITY BACKLOG 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2009

                               __________

                            Serial No. 111-9

                               __________

         Printed for the use of the Committee on Ways and Means

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-764 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 




























                    SUBCOMMITTEE ON SOCIAL SECURITY

                  JOHN S. TANNER, Tennessee, Chairman

EARL POMEROY, North Dakota           SAM JOHNSON, Texas, Ranking Member
ALLYSON Y. SCHWARTZ, Pennsylvania    KEVIN BRADY, Texas
XAVIER BECERRA, California           PATRICK J. TIBERI, Ohio
LLOYD DOGGETT, Texas                 GINNY BROWN-WAITE, Florida
RON KIND, Wisconsin                  DAVID G. REICHERT, Washington
JOSEPH CROWLEY, New York
LINDA T. SANCHEZ, California
JOHN A. YARMUTH, Kentucky

           SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                  JIM MCDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California       JOHN LINDER, Georgia, Ranking 
ARTUR DAVIS, Alabama                 Member
JOHN LEWIS, Georgia                  CHARLES W. BOUSTANY, JR., 
SHELLEY BERKLEY, Nevada              Louisiana
CHRIS VAN HOLLEN, Maryland           DEAN HELLER, Nevada
KENDRICK B. MEEK, Florida            PETER J. ROSKAM, Illinois
SANDER M. LEVIN, Michigan            PATRICK J. TIBERI, Ohio
DANNY K. DAVIS, Illinois

             Janice Mays, Chief Counsel and Staff Director

                   Jon Traub, Minority Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.























                            C O N T E N T S

                               __________
                                                                   Page

                               WITNESSES

The Honorable Michael J. Astrue, Commissioner, Social Security 
  Administration.................................................    12

                                 ______

The Honorable Patrick O'Carroll, Inspector General, Social 
  Security Administration........................................    74
Dan Bertoni, Director of Disability Issues for the Education, 
  Workforce & Income Security Team, U.S. government 
  Accountability Office..........................................    80
Peggy Hathaway, Vice President, United Spinal Association, Silver 
  Spring, Maryland; on behalf of Consortium for Citizens with 
  Disabilities Social Security Task Force........................   104
The Honorable Ron Bernoski, administrative law judge, Milwaukee, 
  Wisconsin; and President, Association of administrative law 
  judges.........................................................   131
James Fell, Hearing Office Director, Social Security 
  Administration Office of Disability Adjudication and Review, 
  Cincinnati, Ohio; and Immediate Past President of the Federal 
  Managers Association Chapter 275...............................   122
Rick Warsinskey, District Office Manager, Cleveland, Ohio; and 
  Immediate Past President, National Council of Social Security 
  Management Associations, Inc...................................   139

                       SUBMISSIONS FOR THE RECORD

Cary L. Bartlow, Ph.D., Statement................................   174
Dorothea Bawks, Statement........................................   175
Earl Tucker, Statement...........................................   176
Georgina Huskey, Statement.......................................   180
James F. Allsup, Statement.......................................   185
John Yent, Statement.............................................   187
Joyce R. Shoop, Statement........................................   190
Linda Fullerton, Statement.......................................   191
National Association of Disability Representatives, Statement....   202
National Council on Disability, Statement........................   205
Renee B. Jubrey, Statement.......................................   211


                            ELIMINATING THE
                   SOCIAL SECURITY DISABILITY BACKLOG

                              ----------                              


                        TUESDAY, MARCH 24, 2009

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:37 a.m., in 
room 1100, Longworth House Office Building, the Honorable John 
S. Tanner [Chairman of the Subcommittee on Social Security] 
presiding.
    [The advisory of the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON INCOME SECURITY
                           AND FAMILY SUPPORT

                                                CONTACT: (202) 225-9263
FOR IMMEDIATE RELEASE
March 17, 2009
SS-1

                    Congressmen Tanner and McDermott

                Announce a Joint Hearing on Eliminating
                 the Social Security Disability Backlog

    Congressman John S. Tanner (D-TN), Chairman, Subcommittee on Social 
Security, and Congressman Jim McDermott (D-WA), Chairman, Subcommittee 
on Income Security and Family Support, today announced a joint hearing 
on the Social Security Administration's (SSA's) large backlog in 
disability claims and other service delivery declines, including 
backlogs in program integrity activities. The hearing will take place 
on Tuesday, March 24, 2009 in the main Committee hearing room, 1100 
Longworth House Office Building, beginning at 10:30 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    In recent years, SSA's backlog of claims for Social Security and 
Supplemental Security Income (SSI) disability benefits has reached 
unprecedented levels, with more than 1.3 million Americans currently 
awaiting a decision on their case. The problem is particularly severe 
at the hearings level, where the backlog has more than doubled since 
2000--from about 310,000 to more than 765,000--and the average waiting 
time is now almost 500 days.
      
    These backlogs have resulted from years of underfunding as SSA's 
workload increased due to the aging of the population and additional 
responsibilities given to the agency. Resource shortages have also led 
to service delivery declines in other areas. SSA has significantly cut 
back on program integrity activities such as continuing disability 
reviews and SSI redeterminations, even though these activities have 
been demonstrated to generate considerable savings, as much as $10 in 
program costs for every $1 in administrative expenditures. In addition, 
service to the public has declined in SSA's field offices, as noted in 
a January 2009 report from the Government Accountability Office (GAO), 
and the backlog problem is of such severity that GAO included it in its 
biennial ``high risk'' list of federal programs.
      
    In the past two years, Congress has provided additional funding to 
begin to address these problems, and SSA has begun to implement a plan 
to eliminate the hearings level backlog by 2013. However, the agency 
continues to face new challenges. Disability and retirement claims are 
increasing due to the economic downturn in combination with demographic 
changes. From FY 2008 to FY 2009, initial disability claims are 
projected to increase by more than 12 percent and retirement claims by 
more than 8 percent, and both are expected to increase even further in 
FY 2010 and FY 2011.
    Finally, two provisions designed to increase access to professional 
representation for disability claimants are scheduled to expire during 
the 111th Congress; and legislative proposals have been offered 
relating to the disability determination process, such as changing how 
claimants give consent to release medical records.
      
    In announcing the hearing, Social Security Subcommittee Chairman 
Tanner said, ``Today thousands of Americans with severe disabilities 
must wait months--and sometimes years--to receive benefits. We are 
committed to ensuring that the Social Security Administration is on top 
of this problem and receives the resources it needs to eliminate the 
huge backlog in disability claims. We must also ensure the agency has 
the necessary resources to handle increased workloads associated with 
the economic recession, perform program integrity reviews, and provide 
the highest-quality service to the American people.''
      
    Income Security and Family Support Chairman Jim McDermott said, 
``Far too many of our most vulnerable elderly and disabled citizens are 
waiting too long to get the benefits that they deserve and are entitled 
to under the law. Congress has responded to this crisis by providing 
the Social Security Administration with increased funds in order to 
begin to actively address this problem, but it is time for the agency 
to take more action to significantly reduce the waiting period before 
an individual gets the benefits and services they need, while also 
ensuring the integrity of the process. I look forward to hearing about 
the initiatives that the agency is taking to address this problem and 
what additional steps Congress can take to help.''
      

FOCUS OF THE HEARING:

      
    This hearing will focus on SSA's large backlog in disability 
claims. The Subcommittees will examine the impact of the backlog on 
applicants with severe disabilities and SSA's plans for eliminating the 
backlog, including how the agency intends to use the additional funding 
that Congress has provided for the current fiscal year. The hearing 
will also examine the impact of resource shortages on other agency 
responsibilities, including SSA's substantial backlog in program 
integrity activities, and SSA's plans for addressing these challenges. 
The hearing also provides an opportunity for comment on legislative 
proposals or expiring provisions relating to disability determination.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Committee Hearings''. Select the hearing for which you would like to 
submit, and click on the link entitled, ``Click here to provide a 
submission for the record.'' Once you have followed the online 
instructions, complete all informational forms and click ``submit'' on 
the final page. ATTACH your submission as a Word or WordPerfect 
document, in compliance with the formatting requirements listed below, 
by close of business Tuesday, April 7, 2009. Finally, please note that 
due to the change in House mail policy, the U.S. Capitol Police will 
refuse sealed-package deliveries to all House Office Buildings. For 
questions, or if you encounter technical problems, please call (202) 
225-1721.
      

FORMATTING REQUIREMENTS:

      
      The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

      Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov

                                 <F-dash>

    Chairman TANNER. If we could, please, come to order.
    This is a joint Subcommittee--the Subcommittee on Social 
Security and the Subcommittee on Income Security and Family 
Support--hearing this morning to talk about the backlog that 
all Americans know about with regard to Social Security 
disability claims, as well as looking at the ability from the 
resource standpoint to reevaluate people who have been on 
disability and who may have improved to the point where their 
case needs to be re-evaluated.
    Mr. Johnson, who is the Ranking Member on the Social 
Security Committee, is going to be arriving soon. He has been 
in Texas, I understand. He is coming back.
    So we welcome Mr. Linder.
    I will try to keep my opening statement short, and I would 
hope that the other Members could see their way clear to do as 
well.
    We will be talking about a lot of numbers today. But, you 
know, behind the numbers are real people with real problems out 
there across the country who are waiting sometimes over a year.
    In my case, in Tennessee, it is an average waiting time--in 
Memphis, it is 16 months; in Nashville, it is a little more 
than that, 18 months; and all of us have anecdotal experiences 
with constituents who have been waiting to the point that many 
of them have died actually while waiting on an evaluation of 
their claim. So as we go through these numbers, I think it 
would be wise for us to keep in mind that there are real people 
out there that are in need, and so we will look at all of those 
questions that I have outlined.
    The prepared statement of Mr. Tanner follows:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman TANNER. So, at this time, I would ask Mr. Linder 
if he has any opening comments.
    Mr. LINDER. Thank you, Mr. Chairman.
    Today's hearing is really about two things. The first is 
the large backlog in Social Security and SSI disability claims 
and efforts to reduce it. That is a big problem, which we 
should work to fix.
    The second and the long-run, more important thing this 
hearing is about is the plummeting credibility of our ability 
to propose solutions for this country. There seems to have been 
adopted the axiom that anything that is wrong can be fixed by a 
big government program. We are here to talk about one that is 
failing, and we expect to vote this year on a government-run 
healthcare system that will also fail.
    I have a suggestion for our guests and viewers. Take the 
press release announcing today's hearing and substitute the 
words ``healthcare service'' for Social Security disability 
wherever they appear. The title of the hearing would be 
Eliminating the Health Care Service Backlog; the background 
would discuss how the backlog of claims for healthcare services 
has reached unprecedented levels and focus on the hearing would 
be on the large backlog in healthcare services.
    The reality is that the backlogs and ultimately rationing 
of services plaguing Social Security's disability claims system 
will be repeated or worse in a government-run healthcare 
system. To deny that is to deny the existence of problems that 
we will hear about today. Only the backlogs of the future won't 
just mean people don't get disability checks on time. It will 
mean people will die waiting for treatment or after receiving 
inadequate treatment.
    I ask unanimous consent to insert in the record an article 
published last week about one hospital in England where between 
400 and 1,200 more people died than would have been expected in 
a 3-year period at the National Health Service hospital. This 
led Prime Minister Gordon Brown to apologize to all of those 
who have suffered from the mistakes that have been made.
    [The information follows:]
    Mr. LINDER. Some mistakes the article notes is how visitors 
saw patients drinking out of flower vases. They were thirsty.
    I would like to remind you that about 30 years ago, the 
British National Health Service approved the use of 
administrative failure as an acceptable cause of death for a 
death certificate.
    Today's hearing is a cautionary tale for those who think a 
government-run healthcare system will efficiently deliver 
medical services in a timely fashion. It won't. If the 
government cannot adequately serve the 2.6 million Americans 
who annually apply for disability benefits today, what makes us 
think it will provide adequate healthcare services to 300 
million Americans tomorrow? Those who trust in this Congress to 
allocate just the right amount of social policy medicine to 
cure what ails us deserve the poor service they will surely 
get.
    Last, let me point out that the two largest budget problems 
that we face as a Nation are Social Security and Medicare. Need 
we create more? Will the same Congress that has, in the 
unanimous opinion of today's testimony, underfunded Social 
Security's disability process be generous with the government 
healthcare bureaucracy or its doctors, nurses, and specialist 
employees? What is the evidence of that? There is none.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you, Mr. Linder.
    Mr. Johnson has arrived. So, Mr. Johnson, you are 
recognized, sir.
    Mr. JOHNSON. Thank you, Mr. Chairman, and congratulations. 
I look forward to the good work we can accomplish together.
    I also want to welcome our new Members, our colleagues from 
the Income Security and Family Support Subcommittee. We all 
share a real concern about the delays our constituents face 
when they visit or contact a local Social Security office, call 
the 800 number or wait over 16 months for a decision in their 
disability appeal before an administrative judge.
    Mr. Astrue, I know you have done good work to try to fix 
that. At the same time, efforts to address program waste, 
fraud, and abuse have been curtailed, costing billions in 
improper payments, while reducing taxpayer confidence that 
their hard-earned tax dollars will provide the services they 
pay for and deserve.
    This Committee has worked on a bipartisan basis to obtain 
needed funding for the Social Security Administration. In the 
last 2 years, Congress sent an additional $275 million to the 
agency, above the President's request. In the economic stimulus 
plan, Social Security received an additional $1 billion for a 
new computer center and to help process a growing number of 
applications for retirement and disability benefits.
    Now it is time for you guys to step up and account for how 
the money is going to translate into real results. In the short 
term, Social Security must answer their phones, reduce the wait 
times for people in local Social Security offices, and tell 
people sooner whether their application for Social Security 
benefits has been granted or denied at all levels in the 
process.
    Whether Social Security can get the job done depends in 
large part on our having state-of-the-art computers driven by 
the latest proven software. Far from state-of-the-art, Social 
Security's main computer systems are stuck in the past. Social 
Security's main database still operates using 1950's 
technology, including COBOL programming language. Social 
Security is working to replace this language, but that project 
is not estimated to be completed until 2014.
    Last year, we learned the agency's 30-year-old computer 
center will be unable to carry its load after 2012. We are not 
so far from there. In the meantime, a second data center has 
been built in Durham, North Carolina, to run some of the 
agency's daily work and temporarily step in to keep basic 
operations running if needed. However, Durham is not going to 
be fully operational until 2012. They may not be able to cover 
all the agency's computing needs, at the same time now facing 
the difficult task of purchasing a new computer center using 
the $500 million they just received.
    Going forward, Social Security cannot get this wrong. So I 
would like the Commissioner to tell us his plan for maintaining 
agency computer operations while finishing the Durham data 
center and building a new computer center.
    I hope we can solve this problem, because we are worried to 
death about some disaster befalling that building and the only 
site that contains information goes defunct.
    I thank our witnesses for being here today and look forward 
to hearing their testimony.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you, Mr. Johnson.
    I would like to now ask Dr. McDermott, who is the chairman 
of the Subcommittee on Income Security and Family Support, for 
his statement and then----
    Mr. MCDERMOTT. Thank you, Mr. Tanner, for including us in 
this hearing.
    There are nearly six million disabled individuals who wait 
for SSI to provide them with a helping hand. This program 
really serves as a safety net to provide very modest cash 
assistance and medical coverage through Medicaid programs to 
those who have little or no income or assets.
    Disability benefits, either through Supplemental Security 
Income or Social Security programs, serve as a lifeline really 
for a number of people. The cash assistance and the healthcare 
coverage provided to these individuals gives them the help that 
makes it possible for them to make ends meet.
    Now, many are not in a position to wait months to receive a 
decision on their eligibility for assistance, particularly 
those with very limited resources who are seeking assistance 
through the SSI Program. You can imagine the clamor we would 
have if we had this kind of wait in our unemployment insurance. 
Yet, today, the average waiting time to secure a hearing for a 
disability claim at SSA is roughly 500 days, 16\1/2\ months. 
That is simply unacceptable. There must be a better way to 
serve the American public.
    To be fair, the Social Security Administration has operated 
in an insufficient funding level, as you heard, for a number of 
years. The agency did not have the resources it needed to keep 
pace with the normal volume of applications for assistance in 
Social Security and SSI, much less respond to rising claims 
that are associated with the aging of the baby boomers.
    The agency has received new responsibilities as part of the 
Medicare Modernization Act of 2003 and the Medicare 
Improvements for Patients and Providers Act of 2008. As a 
result, SSA has experienced severe staffing shortages, which 
led to a decline, actually, in service delivery.
    In response, the Committee has worked with our colleagues 
on the Appropriations Committee over the last 2 years to 
provide SSA with additional funding to allow them to begin to 
reduce the disability backlog; and the American Recovery and 
Reinvestment Act provided the agency with additional funds to 
address the recent increase in workload.
    We will continue to work with our colleagues and the 
Administration to assure the agency has the resources it needs 
to respond to individuals who need care. But it is now time for 
the agency to take bold steps to expeditiously reduce the 
length of time that a disability claimant must wait for a 
hearing, and it is imperative that this is done in a manner 
that firmly upholds the program's integrity so that benefits 
are only given to those who are eligible to receive them.
    It is also critically important that, while SSA adheres to 
all the necessary program integrity measures, it remains 
mindful of the precarious circumstances facing a disabled 
applicant who is awaiting a decision on its application. Many 
go hungry or lose their homes as they wait for a hearing and 
subsequent decision. Others go without desperately needed 
medical assistance and prescription drugs as they wait. And 
others see their health and medical conditions deteriorate. All 
of us in our district offices see these cases on a human basis.
    Meanwhile, a significant number of these applicants will 
eventually be determined to be rightfully eligible for benefits 
under the supplemental security act of Social Security. Most 
are judged to be eligible.
    Clearly, more need to be done to get these benefits out to 
the severely disabled Americans in a more efficient manner. The 
1.3 million people who are waiting for a decision to be made on 
their application deserve better.
    I am pleased to see you here, Mr. Astrue; and we are eager 
to hear your testimony. Thank you.
    Chairman TANNER. Thank you, Dr. McDermott.
    [The prepared statement of Mr. McDermott follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman TANNER. The Chair would ask that unanimous consent 
for anyone, any Member who wishes to submit a statement, an 
opening statement to the record, that be allowed without 
objection; and also the witnesses' testimony will be in the 
record in their entirety.
    We would ask, Commissioner, if you could hold your 
testimony to 5 minutes. We would appreciate it, and I will try 
to ask the Members to do the same.
    You are recognized, sir.

         STATEMENT OF MICHAEL J. ASTRUE, COMMISSIONER,
                 SOCIAL SECURITY ADMINISTRATION

    Mr. ASTRUE. Chairman Tanner and Chairman McDermott, Members 
of the Subcommittee, thank you for this opportunity to talk 
about the Social Security Administration's most important 
mission, service to the American people.
    Just over 2 years ago, on my second day as Commissioner, I 
testified here before you. Your frustration with mounting 
backlogs and service delivery issues was palpable; and, to your 
credit, you recognized not only that the agency needed to be 
more efficient, but that Congress needed to provide more 
resources. I pledged to work with you toward that goal; and 
together we have made progress even in these difficult economic 
times, although not as fast or as far as any of us would like.
    Here are some examples of service improvement:
    AT the DDS level, we have reduced processing time by about 
4 percent in each of the last 2 years. New electronic triaging 
systems accelerate payment to those who clearly meet the 
medical listings.
    This year, for about 4 percent of all claimants, 100,000 to 
125,000 Americans, the DDSs will approve their claims in about 
10 days.
    New support tools for examiners, such as the e-Cat System 
that is being tested in Michigan, Virginia, and Connecticut, 
are improving consistency and accuracy.
    We are expanding a highly successful pilot to access 
electronic medical records. An enormous amount of time, cost, 
error, and delay comes from chasing down scattered paper 
medical records. A new paradigm for receiving medical records 
will allow us to make exponential improvements in the speed and 
quality of our decisions.
    We are working hard to update regulations on our medical 
listings, and we are on schedule to update all of them every 5 
years.
    We are also expanding the listings to include rare diseases 
and conditions that clearly represent permanently disabling 
conditions.
    We hired and trained 190 new ALJs last year, and we expect 
to hire 157 more in the coming months. We plan to maintain a 
national average ratio of about 4.5 support staff per ALJ.
    At the hearing level 2 years ago, we were facing stubborn 
increases of about 70,000 more cases each year with no relief 
in sight. Due to a misguided effort to hold that number down, 
ODAR had been giving priority to the newest, easiest cases. So 
the predictable happened and the number of what the agency 
calls ``aged'' cases skyrocketed.
    At the start of fiscal year 2007, we had about 65,000 
``aged'' cases which were then defined as 1,000 days or older, 
and some were as old as 1,400 days, which is simply obscene. We 
cleared out all but a handful of them that year.
    For fiscal year 2008, we redefined the ``aged'' as 900 
days; and we resolved about 135,000 of those cases. We lowered 
the ``aged'' definition again this year to 850 days, and we are 
ahead of schedule to process those 165,000 cases. As difficult 
a challenge as this is, it is the right thing to do. So next 
year we will raise the bar on ourselves again.
    This decision is paying off. Two years ago, the Atlanta 
hearing office had the worst average processing time in the 
country of about 900 days. Today, nobody is waiting that long; 
and the time in Atlanta is 550 days. In fact, the worst average 
processing time in the country is now 726 days; and we have 
improvement plans in place for the 30 most backlogged offices. 
For example, we are providing relief to hearing offices with 
the most pending cases by transferring cases to the National 
Hearing Center; and we are expanding the number of National 
Hearing Centers dramatically in the next few months.
    We are also adding 10 new hearing offices. We are adding 
additional satellite offices, and those new hearing offices are 
already well into the GSA site selection process.
    In some of our field offices, as the GAO reports, service 
has deteriorated because funding has not kept up with 
workloads. The key source of relief has been the public's use 
of our much-improved electronic services. We have the three 
most user-friendly electronic services in the Federal 
Government, as measured by objective surveys; and the public 
has embraced them enthusiastically.
    For instance, so far this year, about 33 percent of our 
retirement applications are filed online, up from only 10 
percent 2 years ago. Without this choice, wait times in many 
offices would have been longer.
    Other efficiencies such as replacement of our antiquated 
telephones are under way, but the GAO is right that, 
ultimately, there is no substitute for adequate staff. 
Fortunately, passage of the Recovery Act and our annual fiscal 
year 2009 appropriation will allow us to hire over 5,000 people 
by the end of the year. Please keep in mind, though, that 
productivity suffers while we hire and train this many new 
people, and, for the most part, these new employees will not 
fully contribute until next year.
    Your recent legislative action will make a huge difference 
going forward, and timely passage of President Obama's 
recommended appropriation for fiscal year 2010 will make an 
even bigger difference.
    Lastly, I am pleased to report that we will send more than 
$13 billion in one-time recovery payments to eligible 
beneficiaries beginning in early May and continuing throughout 
the month, 3 to 6 weeks ahead of the statutory deadline.
    Again, thank you for your support. It has meant a lot to 
the agency. I look forward to continuing to build on our strong 
and productive working relationship.
    I would be pleased to answer any questions you may have.
    Chairman TANNER. Thank you very much, Commissioner, for 
that timely presentation; and your statement will be submitted 
to the record.
    [The prepared statement of Mr. Astrue follows:]
      Statement of The Honorable Michael J. Astrue, Commissioner,
                     Social Security Administration
    Thank you for inviting me to appear before you today to discuss the 
current state of the Social Security Administration and our plans for 
the future. We are grateful for your long-standing support of our 
programs and for providing us with additional funding for fiscal years 
(FYs) 2008 and 2009. Social Security is indispensable to the disabled, 
seniors, and survivors and is one of the most important and most 
successful Federal programs that our country has ever established.
    The programs we administer pay nearly $60 billion in benefits each 
month--they are an integral part of the American economy. We have a 
proud history of excellent service to the public, and I reiterate my 
promise to do everything in my power to continue that tradition.
    I would also like to thank you for providing us with additional 
funding in the American Recovery and Reinvestment Act (ARRA) of 2009 so 
that we can process our increasing workloads, replace our aging 
National Computer Center (NCC), and issue economic recovery payments. 
We are working with the Department of the Treasury to enable Treasury 
to issue the $250 one-time economic recovery payments as soon as 
possible. As required by law, a total of about $13.25 billion in 
economic recovery payments will be issued to nearly 55 million Social 
Security and Supplemental Security Income (SSI) beneficiaries. Although 
implementing the legislation requires extensive coordination with other 
Federal agencies, we are on track to ensure that these payments to our 
beneficiaries are issued in May--about 3 to 6 weeks earlier than the 
statute requires.
    Since I last testified, we published the first Agency Strategic 
Plan during my tenure. It outlines our strategies to meet the 
challenges we face and to deliver the level of service the public 
expects and deserves. Over the past 2 years, we have made significant 
progress in implementing initiatives to better serve the public and to 
reduce the hearings backlog. We could not have done so without your 
help. As a result of the funding that you provided in FY 2008, we were 
able to hire and train 190 administrative law judges (ALJs) and staff 
to support them. We are on track to hire an additional 157 ALJs and 
over 700 support staff this year. This additional staff will allow us 
to hear more cases and render more decisions. We have already seen a 
slight reduction in the number of cases awaiting hearings, a reduction 
which would have been even greater if we had not received more requests 
for hearing than we had anticipated.
    Unfortunately, but not surprisingly, we are not yet where we need 
to be. Despite our progress, we have significant challenges ahead. The 
economic downturn, combined with the retirement of the baby boomers, 
and the fraying of our physical and technological infrastructure have 
diminished our ability to address our rising workloads and backlogs. 
The uncertainty of our annual appropriations, which often leaves the 
agency without full-year funding at the start of the fiscal year, adds 
further complexities. Adequate and sustained funding is essential for 
providing high level service to the American public. Nevertheless, with 
your continued support, we will eliminate the hearings backlog by 2013.
The Services We Deliver
    We administer the Nation's social insurance programs and one of the 
Nation's largest means-tested income maintenance programs. Each year we 
send benefits totaling about $700 billion to approximately 60 million 
persons. Social Security and SSI benefits play a significant role in 
the Nation's economic security.
    The Old-Age, Survivors, and Disability Insurance beneficiaries 
programs benefit workers, their dependents, and survivors at critical 
junctures in their lives: when they retire, when they become disabled, 
and when a family's wage-earner dies.
    Through the SSI program, we assist the most vulnerable persons in 
our society. These payments provide a safety net for aged, blind, and 
disabled adults and children who have little or no income or resources.
    In addition to administering our own programs, we also assist the 
public in applying for food stamps and Medicare, including low-income 
subsidies under the Medicare Prescription Drug Plan. These programs 
also play a significant role in the economic security of the Nation's 
elderly and disabled.
How We Serve the American Public
    We administer our programs and services through a network of over 
1,400 offices that directly serve the public in communities throughout 
the country. About two-thirds of our over 60,000 employees deliver 
direct service to the public or support the services provided by these 
front-line workers. Field offices are our front door and the primary 
points for face-to-face contact with the public. Our employees also 
work in teleservice centers, card centers, processing centers, hearings 
offices, the Appeals Council, regional offices, and our headquarters in 
Baltimore.
    I am particularly proud of our dedicated workforce, and I am 
pleased that Equal Opportunity Magazine recently named Social Security 
the top government employer. We also received high marks from our 
employees in the 2008 Federal Human Capital Survey, with especially 
high marks for Job Satisfaction and Leadership and Knowledge 
Management, ranking among the top 10 Federal agencies in both 
categories.
    Recently, a leader in the customer service industry contacted one 
of our field offices for service. He praised the claims representative 
who helped him as one of the most personable, customer-oriented 
employees whom he had ever met, either inside or outside government. I 
am never surprised when I hear stories like this one; I know our 
employees are dedicated to our mission and to serving the public to the 
best of their abilities each and every day.
Field Offices
    I would like to take a few minutes to describe the demands our 
employees face during a typical day in one of our field offices. Our 
field offices are extremely busy, and our employees are pulled in a 
variety of directions every day.
    Employees have only about an hour each day before the office opens 
to prepare the daily schedule of appointments, attend training, read 
policy updates, and process pending claims and post-entitlement 
actions. Once the office opens to the public, employees have little 
time to process pending work because much of their day is spent serving 
visitors and processing time-sensitive actions, such as issuing 
immediate payments for lost checks.
    The two most common reasons for visiting our field offices are to 
file a claim for benefits or to obtain or replace a Social Security 
card.

    <bullet>  About 9 percent of field office visitors file claims for 
benefits, including retirement, disability, survivors, spouses, and 
children. Field office employees give this work their highest priority. 
Disability claims, much more complex than retirement claims, are 
particularly time intensive because our employees help claimants 
complete detailed forms about medications, treatment, medical testing, 
work history, and daily activities.
    <bullet>  About 30 percent of field office visitors seek new or 
replacement Social Security cards for employment or tax purposes, to 
replace lost or damaged cards, or to obtain State and local government 
benefits. This work is critical to preventing identity fraud and has 
become more complex and labor-intensive because of legislative changes 
and heightened national security.

    Once the office closes to the public, employees may have only a few 
minutes to take care of all remaining business. For example, employees 
often must gather additional data to verify allegations of resources 
and income, such as child support, unemployment benefits, or workers' 
compensation, in connection with the claims they had taken during the 
day.
    Our field office employees work extremely hard and handle a wide 
variety of services. To give you a sense of the volume and variety of 
work the field offices routinely handle, in FY 2008, we:

    <bullet>  processed over 18 million applications for Social 
Security cards;
    <bullet>  verified Social Security numbers (SSN) about 1 billion 
times;
    <bullet>  provided about 19 million benefit verifications;
    <bullet>  processed 3.7 million retirement and survivor claims, 
nearly 500,000 Medicare applications, over 1 million Medicare subsidy 
applications, and 62,000 food stamp applications; and
    <bullet>  processed over 22 million status changes for our 
beneficiaries, such as changes of address and requests for direct 
deposit.

Teleservice Centers
    Our other major point of contact with the public is through our 35 
Teleservice Centers (TSC). The TSCs provide agent assistance to the 
public from 7 a.m. to 7 p.m. Eastern Time on normal business days, as 
well as automated telephone services 24 hours a day, 7 days a week. TSC 
employees handle a variety of inquiries, such as changes of address and 
telephone number, and requests for direct deposit and replacement 
Medicare cards. They schedule appointments and answer inquiries about 
payments and claim status and allow field offices to concentrate on 
workloads which require face-to-face interviews, additional 
development, or resolution of complex issues.
Social Security Card Centers
    We currently have seven Social Security Card Centers located 
throughout the country. The card centers streamline and improve the 
integrity and stewardship of the Social Security number assignment 
process. Because of their specialized expertise, card center employees 
process applications for original Social Security numbers and 
replacement cards with a high degree of integrity, efficiency, and 
expertise. Applicants for a new or replacement card have shorter wait 
times in the card centers than in the field offices. Moreover, because 
the card centers handle much of the card-issuing workload, nearby field 
offices can focus on other critical activities, which results in 
quicker, more efficient service in field offices located in proximity 
to card centers.
    Our card centers are located in Brooklyn and Queens, New York; in 
Las Vegas, Nevada; in Downtown and North Phoenix, Arizona; in Orlando, 
Florida; and in Sacramento, California.
DDSs, Hearings Offices, and the Appeals Council
    Each month, we pay about $12 billion in disability benefits to more 
than 13 million disabled beneficiaries across the Nation. The State 
disability determination services (DDS), our hearings offices, and the 
Appeals Council are integral to processing disability claims. These 
components, like our field offices, struggle with workload increases 
while they try to drive down backlogs created by years of understaffing 
and inadequate resources.
    The disability claims process begins when a disability claimant 
completes an interview with a field office employee. We then forward 
the claim to 1 of 54 DDSs. These State agencies develop the medical 
evidence and make the initial determination of whether the claimant is 
disabled. We could not perform our disability adjudication process 
without the State DDS employees.
    A claimant who is not satisfied with the DDS's initial 
determination may request that the DDS reconsider it. If the claimant 
is dissatisfied with the reconsidered determination, he or she may 
request a non-adversarial hearing before an ALJ. At the hearing, the 
claimant may appoint a representative, testify, and call and question 
witnesses. (In the ten States in which the reconsideration stage has 
been eliminated, the claimant may request that an ALJ review the 
initial determination.) A claimant who is not satisfied with the ALJ's 
decision may request review by the Appeals Council. If the Appeals 
Council agrees to review a case and issues a new decision, a disabled 
claimant may appeal that decision to Federal district court. If the 
Appeals Council declines to review the decision, the ALJ's decision 
becomes the final administrative action, and it may then be appealed to 
the Federal district court.
Our Service Delivery Challenges
    We are an agency comprised of specialized staffs, but our common 
goal is to provide high-quality service. We face many challenges in 
meeting this goal, and we plan for those we can anticipate. For 
example, we knew that the demographics of the baby boomer generation 
would affect workload volumes across the agency. We also knew that our 
most experienced staff could soon retire because many of them are baby 
boomers themselves. In fact, according to our most recent estimate, we 
may lose 44 percent of our current employees by 2016.
    We also work carefully to forecast, to the best of our ability, the 
effect of other workloads on the agency. For example, we could not have 
predicted the new non-core workloads required by legislation, such as 
the Medicare Modernization Act, E-Verify, or the new Children's Health 
Insurance Program (CHIP) verification requirements. We use the 
additional targeted funding provided by Congress or reimbursement from 
other agencies for these specific workloads. We know from recent 
experience that more employers are using E-Verify voluntarily, and we 
will update through our established process with DHS reimbursement for 
these activities. In addition, we are now working to accommodate States 
that may choose to follow new CHIP rules for benefit eligibility 
determinations.
    Certainly, we could not have predicted the current weakened state 
of the American economy or the high unemployment rate, factors that 
contribute to an increase in the number of applications for benefits. 
These unexpected events hit at the same time our workloads were 
significantly increasing due to the baby boomer retirement wave.
    These additional and unexpected workloads are not our only 
challenges. Although we fully fund the State DDSs, they operate under a 
myriad of State personnel and budget rules. For example, due to budget 
constraints this fiscal year, some States have instituted statewide 
staffing freezes and furloughs. Some States have excluded DDS staff 
from these restrictions because they recognized the negative impact 
such restrictions would have on their disabled residents. Other States, 
though, have, over our vehement objections, chosen to treat DDS 
employees like other State employees and subject them to State 
restrictions, including furloughs.
    Our information technology infrastructure is outmoded and 
inefficient, but improving dramatically. For example, we are converting 
the agency's master files from an in-house developed data base 
management system, created over 25 years ago, to a modern industry 
standard data base management system. We have already migrated our 
enumeration master file, which is our largest in terms of number of 
records. This year we plan to do the same with our next largest file, 
which houses earnings information.
    During the 2 years I have been Commissioner, we have also started 
each year without a full-year appropriation. We spent all of FY 2007, 
almost one-third of FY 2008, and nearly one-half of FY 2009 operating 
under a continuing resolution. As you well know, during continuing 
resolutions, we must restrict our spending levels to that of the prior 
year's appropriated funding. This year it meant we operated through the 
beginning of March with nearly $300 million less than the President's 
budget. Even if our workloads remained level from year to year, the 
annual inflation in our fixed costs, such as building maintenance, 
security, and salary increases, while necessary to maintain our 
operations, would reduce the amount we have available for taking 
retirement and disability claims and providing the other services the 
American public requires.
    Workloads, though, have not remained level. In the past few years 
we have experienced a steady increase in the number of visitors to our 
field offices. Field offices averaged 800,000 visitors per week in FY 
2006; 826,000 in FY 2007; and 854,000 in FY 2008. So far, in FY 2009, 
we have helped, on average, over 852,000 visitors each week, but that 
number appears to be rising. In February 2009 alone, we helped an 
average of over 940,000 visitors per week; we expect this upward trend 
to continue throughout FY 2009. (See Appendix A for average daily 
visitors per month.)
    Even with all available field office employees and managers devoted 
to serving visitors, waits are long--31 percent of visitors without an 
appointment, about 5.8 million visitors, wait more than 30 minutes to 
be seen by staff; and 6 percent of visitors with appointments, about 
1.1 million visitors, wait more than 30 minutes. Not only is this 
unacceptable to you, to the public, and to us, it is also demoralizing 
to our employees, who have dedicated their careers to providing 
outstanding service to the public.
    There is also a clear connection between our inability to hire 
staff and the deterioration in service at our TSCs. Nearly 15 percent 
of callers who call our 800 number receive a busy signal. As a result, 
many of our customers who were unable to conduct their business over 
our 800 number chose to go to their local field office. This increase 
in visitors to field offices contributed to the higher field office 
waiting time I have described.
    Moreover, we now project a dramatic increase in workloads due to 
the economic downturn. This increase is a cause for concern. Recent 
projections indicate that we will receive over 300,000 more retirement 
claims in FY 2009 compared to FY 2008, an increase of nearly 9 percent.
    The current recession has also affected our disability workloads. 
Studies suggest a correlation between increases in unemployment and 
increases in disability filings, and we have seen a sizable increase in 
filings so far this year. We currently anticipate more than 2.9 million 
disability filings in FY 2009, an increase of over 300,000 cases over 
FY 2008. This number represents more than a 12 percent increase in new 
applications and is 13 percent higher than the amount assumed in the 
2009 President's budget.
    In addition, although it is difficult to project with precision, we 
believe we may receive approximately 50,000 more hearing requests in FY 
2009 than in FY 2008. We also expect to receive nearly 40,000 
additional requests for reconsideration and more than 20,000 requests 
for Appeals Council reviews in FY 2009 compared to FY 2008.
    We have paid the price for the growth in workloads and tight 
budgets in recent years. We have been forced to defer performing full 
medical continuing disability reviews (CDR) and other critical 
stewardship workloads, such as adjusting payments, correcting earnings, 
and processing wage reports and overpayments. We do not want to defer 
this work; these are critical workloads that ensure we are paying the 
right beneficiary the right amount at the right time. In addition, we 
know that for each dollar we spend performing CDRs, we recoup over $10 
in program funds. However, we have had to focus our limited resources 
on processing our initial claims workloads and getting eligible 
claimants paid, at the expense of performing this important work.
    As a result of this workload deferral, we estimate that we had a 
backlog of 1.4 million full medical CDRs at the end of FY 2008, and we 
expect the backlog to grow by another 100,000 to 150,000 in FY 2009. 
However, we expect to process significantly more CDRs in FY 2009 than 
in FY 2008 in large part because of the additional dedicated funding 
provided by Congress for FY 2009.
    In analyzing our challenges, our mission, and the public we serve, 
we have come to understand that simply working harder is not enough to 
overcome the workload challenges we face. Last fall, I outlined four 
key goals for the agency in our Strategic Plan: (1) eliminate our 
hearings backlog and prevent its recurrence, (2) improve the speed and 
quality of our disability process, (3) improve our retiree and other 
core services, and (4) preserve the public's trust in our programs. To 
move forward amidst our rising workloads, we must focus our attention 
on these key areas while modernizing the way we deliver service. We 
realize that achieving these goals will require sustained commitment 
and timely resources. If we are required to take on additional work, we 
will need sufficient funding to cover our full costs, as well as 
adequate time to implement any necessary regulatory, policy, process, 
training, or system requirements.
Investing in Our Agency Produces Results
    Despite our growing challenges, we have made real progress within 
the past few years. We have begun the hiring and work that--if not for 
the economic downturn--would have produced more visible results for the 
American public, not just in terms of reduced backlogs and processing 
times, but also in terms of shortened field office wait times and fewer 
busy signals. Although it may not be readily apparent in these 
challenging times, we have achieved measurable successes.
Service Delivery at the DDS Levels
    We are committed to a disability process that is fair, accurate, 
and as prompt as possible. Currently, though, our pending levels are 
too high, and claimants wait too long for a determination. Every day 
spent waiting for a determination creates additional burdens for many 
claimants who are already among the most vulnerable members of our 
society. This is simply unacceptable.
    The initiatives outlined below will modernize the disability 
process and improve our timeliness, accuracy, and efficiency.
    We must improve the beginning of the administrative process, even 
before a hearing is requested. Using new rules and technology, we can 
allow claims earlier in the process and improve service for disability 
claimants. I am pleased to report today that at the DDS level, we have 
reduced processing times by about 4 percent in 2007 and in 2008.
Policy Initiatives
    We are currently using two processes--the Quick Disability 
Determination (QDD) process and Compassionate Allowances--to fast-track 
about 4 percent of all disability cases, a significant increase from 
the 2.6 percent of cases fast-tracked last year. This year we will find 
100,000 to 125,000 Americans with the most severe disabilities eligible 
for benefits in about 10 days, instead of the 3 to 4 months it 
typically takes for an initial determination.
    Under QDD, a predictive computer model analyzes specific data 
within the electronic file. This model identifies cases with a high 
potential that a claimant is disabled and medical evidence is readily 
available. Through Compassionate Allowances, the model identifies 
claims for applicants with medical conditions so severe that their 
conditions by definition meet the required standard. These fast-track 
systems increase the efficiency of the disability process and free up 
resources.
    We have expanded our efforts to revise and update the medical 
listings. These listings allow us to make a favorable determination or 
decision for certain claimants without the need to consider that 
person's age, education, or work experience. When I became 
Commissioner, the medical listings had not been updated for decades. 
Some listings had last been updated in the 1970s, others in the 1980s. 
That is far too long. So, in the last 2 years, we have published final 
regulations for 3 of the 14 adult body systems, so they now reflect the 
updated advancements in medicine and technology. We are on schedule to 
update all of our medical listings every 5 years, and, in the future, 
we plan to update these listings as often as every 3 years. We are also 
in the process of expanding the listings to include rare diseases and 
conditions that clearly represent permanently disabling conditions.
    To improve consistency and accuracy on complex policy issues, we 
have instituted a process for resolving disagreements between DDS 
disability examiners and Federal quality reviewers. In cases where the 
two components disagree on substantive issues, staff experts review the 
case and reach consensus. We anticipate we will resolve our most 
complex cases through this Request for Program Consultation (RPC) 
process. In addition, the RPC enables us to quickly pinpoint training 
needs and clarify or modify policies where necessary
Systems Initiatives
    We are always looking for ways to use technology to improve our 
disability process. For example, we are on the forefront of the move to 
electronic health records and are primed to take advantage of the new 
and exciting possibilities related to health information technology 
(HIT).
    We began working with Beth Israel Deaconess Medical Center (BIDMC) 
in Boston last spring to determine how we could use HIT to make our 
disability decision-making more efficient and timely. Currently, when a 
claimant treated at BIDMC files a disability application, the Medical 
Evidence Gathering and Analysis through Health Information Technology 
(MEGAHIT) system automatically sends an electronic request for his or 
her patient's medical records. Almost immediately, the hospital 
electronically transmits back to us the individual's medical record 
through MEGAHIT. We receive these records in seconds and minutes, 
rather than the usual weeks and months.
    As part of our HIT initiatives, we are a leader in the development 
of the Nationwide Health Information Network (NHIN), the nation's 
electronic network of health information. On February 28, we took part 
in the first exchange of data across the NHIN as the healthcare 
provider MedVirginia forwarded records to us in connection with a 
disability claim. We will be tracking the flow of data from MedVirginia 
providers to us by way of the new system. This initiative will 
revolutionize the way we process disability claims by allowing us to 
automatically request and receive the medical records needed to make 
disability determinations. Yet we realize that this is a time of the 
great change in the HIT area and thus we remain committed to 
participation in the standards and certification process, as well as to 
the protection of the privacy of these records.
    We also continue to develop and improve our Electronic Case 
Analysis Tool (eCAT). This tool helps disability adjudicators work 
through the policy aspects of claims adjudication to yield consistent, 
policy-compliant outcomes and better service to claimants. We expect 
the use of eCat will produce well-reasoned determinations with easy-to-
understand explanations of how we reached our decision.
    We plan to develop and implement a common case processing system 
for the DDSs. Currently, each of the 54 DDSs has its own unique 
processing system. A common system will help us take advantage of 
rapidly changing healthcare industry technology and provide the 
foundation for a seamless electronic disability case processing system. 
Our DDS partners agree that we need a common system, and we are working 
closely with them to develop requirements. This essential improvement 
will modernize and streamline our disability process, and we can only 
make important improvements on a timely basis, such as eCat, if we have 
a common system.
Service Delivery at the Hearing Level
    As I have said many times, eliminating the hearings backlog is a 
moral imperative. Despite the additional workloads caused by the 
economic downturn, we have adjusted to changed circumstances and are 
still on track to eliminate the hearings backlog by 2013. Although it 
is difficult to project with precision, we believe we may receive 
approximately 50,000 more hearing requests in FY 2009 than in FY 2008. 
We have already taken preparatory actions in anticipation of this surge 
in hearing requests. We have moved to improve our processes, add new 
staff, and utilize new technologies.
    Through the hard work of our employees and with the support of 
Congress, we are making positive strides toward driving down the 
hearing backlog and providing Americans with disabilities the prompt 
service they deserve. In fact, we have already seen a slight reduction 
in pending hearing cases. These cases have dropped in the past two 
months. Furthermore, in the spirit of the President's directive for 
transparent government, we will post the backlog numbers on the 
internet quarterly along with a clear explanation about the hearing 
backlog.
    In May 2007, I announced my plan to eliminate the backlog of 
hearing requests and prevent its recurrence. This backlog reduction 
plan centers on:

    <bullet>  fast-tracked initial determinations;
    <bullet>  improving hearing office (HO) procedures;
    <bullet>  increasing adjudicatory capacity; and,
    <bullet>  increasing efficiency with automation and improved 
business processes.

    Earlier, I discussed our initiative to fast-track initial cases. I 
will now highlight some of the key components of the plan's other three 
elements.
Improving Hearing Office Procedures
    We remain committed to improving our hearing office procedures. We 
have significantly reduced the inventory of the most aged cases, those 
that have been pending the longest. Clearing these cases normalizes our 
hearing work flow and more importantly, claimants who have waited far 
too long for a hearing decision finally receive one. We defined aged 
cases in FY 2008 as those cases that would be at least 900 days old by 
the end of that fiscal year and cleared all but 281 of the more than 
135,000 we identified. For FY 2009, we raised the bar and redefined 
aged cases as those cases which will be at least 850 days old by the 
end of this fiscal year. There were 166,838 aged cases at the beginning 
of FY 2009, and we are ahead of our target and are more than halfway 
toward clearing all of them. We are looking to continue to attack the 
aged cases, and our probable goal for FY 2010 is to work the 825-day-
old cases, approximately 179,000 cases.
    We are also finding ways to expedite favorable decisions. We 
reinstituted the Attorney Adjudicator program to allow our most 
experienced attorneys in appropriate cases to make on-the-record, 
favorable decisions without a hearing. This program brings eligible 
applicants onto the disability rolls more quickly than if they had to 
wait for a hearing. Through the first five months of FY 2009, Attorney 
Adjudicators had issued 13,462 favorable decisions and are on target to 
meet our year end goal. We have also instituted a DDS remand process, 
special Federal Quality Reviewer screening units, and a Medical Expert 
Screening process to help identify cases that may be allowed without 
the need for a hearing.
Increasing Adjudicatory Capacity
    We are working to maximize our ability to issue decisions at any 
given point in the disability process. In collaboration with State 
DDSs, we are using the informal remand process to send pending cases, 
which have been profiled as likely to be allowed, back to the DDS for 
review and possible favorable determination. As a result of this 
initiative, we were able to dismiss 16,838 requests for hearing due to 
favorable DDS decisions in FY 2008. We are on target to meet our year-
end goal for DDS remands. All States are now able to process electronic 
informal remands, which will enable us to more easily transfer these 
cases to the DDSs.
    Our first National Hearing Center (NHC) is performing well. Located 
in Falls Church, Virginia, the NHC plays a crucial role in increasing 
our adjudicatory capacity and giving us the flexibility to address the 
areas of highest pending without waiting years to build or expand 
hearing offices. For example, transferring cases to the NHC from some 
of the offices with the highest number of pending cases has contributed 
to an improved average processing time in the hearing offices in 
Atlanta, Georgia; Cleveland, Ohio; and Flint, Michigan. The ALJs in the 
NHC hold hearings remotely using video conferencing and provides us the 
flexibility to better balance pending workloads across the country. In 
FY 2008, the NHC issued 2,151 decisions. We will open another NHC site 
in Albuquerque, New Mexico this month and plan to open one in Chicago 
in the upcoming months. We also plan to open a site in Baltimore early 
next fiscal year.
    We are also working with the General Services Administration (GSA) 
to expedite opening 10 new hearing offices. (See Appendix B for a map 
of the planned hearings offices.) We are adding centralized centers for 
case pulling and decision writing in the regional offices to more 
quickly accommodate our needs.
    We are also hiring new employees. In FY 2008, we hired and trained 
190 ALJs We have received a new certificate of eligible ALJ candidates, 
and we expect to hire 157 new ALJs this year. We have already hired 140 
new support staff in our hearing offices so far this year, and expect 
to hire over 700 additional support staff. This hiring will allow us to 
achieve a national average ratio of about 4.5 support staff to every 
ALJ.
    We are on target to eliminate the hearings backlog by 2013. We 
expect to reduce the number of pending hearings to 466,000 by FY 2013, 
which is the number of cases we will have when we reach our goal of an 
average processing time of 270 days. We are focused on hiring enough 
ALJs and support staff to achieve these goals given our current receipt 
and productivity projections. Our current estimate is that we will need 
1,400 to 1,450 ALJs to achieve our goals, and we are expanding our 
physical infrastructure, to the extent we can, so that we can reach 
that level. We expect to hire 208 ALJs in FY 2010, while maintaining a 
national average ratio of about 4.5 support staff per ALJ. We will 
continue to work with GSA Headquarters and the Regional GSA offices to 
ensure we have adequate space to handle this significant increase.
    Finally, we are seeking to increase our adjudicatory capacity by 
ensuring that our ALJs are providing the service the public deserves. 
At the beginning of FY 2008, our Chief ALJ issued a letter asking all 
ALJs to strive to issue 500 to 700 legally sufficient decisions a year. 
About 50 percent of full-time experienced ALJs are meeting this 
expectation. Productivity in our Office of Disability Adjudication and 
Review (ODAR) increased substantially for two consecutive years, in FY 
2007 and FY 2008. In FY 2008, ODAR conducted nearly 15,000 more 
hearings than in FY 2007; average dispositions per ALJ also increased. 
But we were not able to sustain that level in the first few months of 
FY 2009 due, in part, to the hiring and training of a large number of 
new ALJs late in FY 2008. It takes about 2 years to fully train and 
mentor newly hired ALJs and support staff. Thus, we expect these new 
judges to become increasingly productive throughout the year, and we 
have already seen a significant improvement in productivity in both 
January and February.
    The increase in adjudicatory capacity at the hearing level will 
generate increased workloads at the Appeals Council. To address this 
rising workload, we will hire additional administrative appeals judges 
and support staff for the Appeals Council, and make additional overtime 
available. In FY 2009, we expect to add a total of 135 new staff at the 
Appeals Council, while replacing losses due to attrition.
Automated/Improved Business Processes
    We have also taken steps to ``work smarter.'' In FY 2008, we made 
significant progress in eliminating the remaining backlog of paper 
folders and transitioning to an electronic environment.
    We are preparing more cases for hearing (``pulling cases'') this 
year. This increase in cases ready for hearing will give the ALJs more 
cases to hear and decide.
    We are expanding the use of video equipment and have initiated the 
Representative Video Project. Under this project, representatives of 
disability claimants may use their personal equipment to participate in 
hearings from their own offices. We are using desktop video units in 
claimant-only hearing sites in addition to the traditional video 
equipment used in hearing offices.
    We will be implementing an in-line quality review of the claim 
file, scheduling process, and decision writing to ensure timely and 
legally sufficient hearings and decisions.
    To balance pending workloads nationally, last fiscal year we 
realigned service areas and moved workloads from regions with heavy 
workloads to regions that had the capacity to process additional work. 
We continue to monitor our workload numbers and make additional 
adjustments as needed.
    Our plan is working--we have improved our hearing level 
performance. In FY 2008, we had an impressive 5 percent increase in our 
hearing dispositions and made important gains in reducing aged cases 
and average processing times in the most backlogged offices. But for 
the increase in filings due to the economic downturn, the number of 
pending cases would have dropped for the first time this decade. 
However, because of the increased workloads, we ended up with a 14,000 
case increase in pending cases. Yet, this is well below the annual 
increase of 70,000 cases we have seen in the years preceding the 
hearing backlog reduction plan.
    So far in 2009, our pending level rose in first 3 months, but 
dropped by 1,294 cases in January and by another 1,719 cases in 
February. Our pending level is currently up 4,700 cases over the level 
at the end of FY 2008. If we continue our present concerted effort, 
combined with the increased productivity of our recently hired judges, 
I am hopeful we can drive the hearings backlog downward this fiscal 
year.
    We have a unique opportunity to significantly improve our service 
to our disability claimants. Taken together, our initiatives address 
every aspect of the hearings backlog problem. If all of these 
initiatives are successful, there is light at the end of the tunnel.
Improving Retirement and Other Core Services
    We simplified our policies, improved our technology, and automated 
business processes to deal with our other significant workloads. As the 
Government Accountability Office recently indicated in its January 2009 
report on service delivery and the baby boomer retirement wave, our 
agency's service delivery has suffered because funding has not kept up 
with increasing workloads. The only way we have managed to hold our own 
is by offering the public the option of secure, user-friendly, 
electronic services.
    Perhaps the most dynamic and successful model illustrating how we 
plan to improve service in the future is our Ready Retirement project. 
In FY 2008, we began putting the key features of this transformational 
initiative into place by simplifying and further automating the 
processing of online retirement applications. We will continue to 
implement this initiative over the next few years using a multi-faceted 
approach: simplified enrollment, streamlined adjudication, and public 
education.
    The first key feature of Ready Retirement focuses on simplified 
enrollment. In December 2008, we introduced a new Internet application 
(iClaim) for retirement, disability, and aged spouses benefits. The new 
online claims application asks claimants questions that are pertinent 
to their own personal situation, relies on information already housed 
within our records, and contains navigational tools that make the 
application easy to use. As a result, iClaim not only simplifies the 
current process, but also shortens the time it takes to file online and 
eliminates the need for most online filers to visit their local field 
office. We have had incredible success with our launch of the iClaim 
media campaign featuring our spokesperson Patty Duke.
    The simplified enrollment process also hinges on efforts to update 
our policy. After thorough study, analysis, and vetting with agency 
components, we have simplified a number of policies that support Ready 
Retirement and other online initiatives. Future releases of iClaim will 
include authentication protocols to provide two-way online 
communication with online applicants while safeguarding personally 
identifiable information. We also are exploring new data exchanges and 
matching agreements to verify claims information online.
    Our efforts to streamline policy apply to both online claims and 
claims filed in person. For example, we know there have been concerns 
about our policy on advising claimants about their options for electing 
when to start receiving benefits. Our policy instructs employees to 
discuss all benefit types for which a claimant may be eligible, 
including options for when to start receiving benefits and does not 
prohibit employees from advising claimants about their benefit election 
options. The same policy holds true for Internet claims: claimants who 
file online have access to agency publications that explain all factors 
that they should consider when deciding when to retire; these 
publications also explain what other types of benefits are available to 
the claimants. Employees processing these online applications screen 
for other potential entitlements and contact claimants to discuss these 
and month of election options if there are questions.
    Our current version of iClaim, which is similar to our prior 
Internet application, currently requires manual review and adjudication 
because it does not take into account certain factors, such as non-
service months, protective filing, and retroactivity when presenting 
month of election options to claimants. I am excited to announce that 
in May 2009, we are introducing a new version of iClaim that will offer 
election options to claimants filing online based on all of these 
factors. This new version of iClaim will give online filers additional 
support and will reduce the need for employees to contact them. Our 
employees will continue to contact claimants as necessary to ensure 
that their benefit elections are clear and that accurate determinations 
are made.
    The second key feature of Ready Retirement is streamlined 
adjudication. The claims adjudication process includes many 
determinations, and the streamlined adjudication model is the next step 
in automating some of these manual decisions. All retirement 
applications require some manual processing, but streamlined 
adjudication will automate parts of the process. This automation will 
provide valuable efficiencies and administrative savings, while 
increasing our ability to provide a fully electronic claims process to 
the public. Improvement in adjudication will be implemented only after 
there are safeguards in place to protect applicants' rights to all the 
benefits to which they may be entitled.
    Finally, the last key feature, and really the foundation, of Ready 
Retirement is public education. Through our financial literacy 
campaign, we are educating the public about making an informed decision 
as to when to begin receiving retirement benefits.
    In the past year, we implemented several educational tools. We 
introduced an online Retirement Estimator to enable the public to get 
immediate and personalized benefit estimates, and we created a new fact 
sheet and accompanying podcast titled, ``When to Start Receiving 
Retirement Benefits.'' We also revised the Social Security Statement to 
provide more information to younger workers. For every Statement sent 
to a worker aged 25-35, we now include an insert called ``What young 
workers should know about Social Security and saving.'' This new 
supplement provides additional information about retirement planning 
and includes a chart showing how much difference just a little bit of 
saving can make.
    Our Internet services took top honors on the American Customer 
Satisfaction Index (ACSI) scorecard for the fourth quarter of FY 2008. 
The ACSI tracks trends in customer satisfaction and allows Federal 
agencies to benchmark their performance against comparable best-in-
class entities. Our Retirement Estimator and iClaim applications were 
the highest scoring applications in the ACSI's ``top performers'' 
category.
    The public has responded enthusiastically to the new iClaim 
process. So far this year about 33 percent of our retirement 
applications have been filed online, up from only 10 percent just 2 
years ago. Taken at face value, this increase alone is impressive. But 
to truly understand the importance of Ready Retirement for our field 
operations, let me explain to you what just one aspect of service in 
the field would look like today if Ready Retirement did not exist.
    In the first quarter of FY 2009, 161,000 applicants started their 
retirement applications online. Without Ready Retirement, those 
claimants would have visited their local field offices or filed by 
telephone. If all of these claimants had filed in their local field 
office, we estimate wait times would have increased by 5 percent and 
busy signals by 6 percent.
    We will continue to analyze customer satisfaction and the 
performance and usability of iClaim. It is more critical now than ever 
that we are able to continue to fund this important project. As I 
mentioned earlier, recent projections show that we now expect to 
receive over 300,000 more retirement claims in FY 2009 compared to FY 
2008. We must, to the greatest extent possible, push forward with our 
efforts to automate these applications. If our Ready Retirement 
initiatives are successful, we will not only be able to more 
efficiently and effectively handle the increase in applications from 
both baby boomers and the economic downturn, but also we will be able 
to expand these new processes to automate and streamline other high 
volume workloads.
Protecting America's Investment
    We are proud of all of our recent accomplishments, and I expect our 
momentum will continue. The additional funding in the ARRA together 
with our FY 2009 appropriation puts us in a much better position to 
deal with our fraying infrastructure and the current service challenges 
created by the economic downturn.
Use of American Recovery and Reinvestment Act of 2009 Funds
    Our NCC houses data critical to providing outstanding service and 
to paying benefits promptly and accurately. Because the NCC is over 30 
years old, it will soon no longer be capable of supporting the growing 
demands of our computer systems and computer-based services. Replacing 
the NCC will allow us to provide service 24/7 and avoid outages and 
slowdowns that disrupt service delivery.
    Now that we have the ARRA funding, we are continuing to work 
closely with the GSA--which manages federal construction projects--on 
all aspects of the pre-planning for the new NCC. The formal planning 
process with GSA will include formulating criteria for the new data 
center, selecting a site, and developing a detailed construction 
timeline. In consultation with us, GSA will be responsible for 
completing most of these steps.
    The ARRA also calls for a one-time payment of $250 to certain 
Federal beneficiaries, including Social Security and SSI beneficiaries 
and provides the administrative funding necessary to ensure that these 
critically needed payments are infused into the economy as quickly as 
possible. We are on track to make these payments in May, ahead of the 
statutory deadline.
    The ARRA also provides an additional $500 million to process our 
rising retirement and disability workloads, as well as the backlogs 
resulting from the economic downturn, and to invest in related 
information technology projects. Unlike annual appropriations, which 
must be used within a fiscal year, we will be able to use this $500 
million over the next 18 months.
Use of FY 2009 Appropriation
    We are handling workloads far above what we anticipated just 6 
months ago. Our full year appropriation, which supplies $126.5 million 
more than was included in President's FY 2009 budget, as well as the 
additional funding in the ARRA, will allow us to invest in information 
technology, to hire 5,000 to 6,000 new employees before the end of the 
year, and to allot additional overtime to process critical workloads. 
In addition to replacing all of our losses in FY 2009, we will assign 
new employees to our front-line operations where they will have the 
greatest impact--approximately 1,200 employees to our field offices, 
900 employees to our hearings offices, and 600 employees to State DDSs.
    Hiring new employees is critical to us, but operating under a 
continuing resolution, as we have this year, has impeded our ability to 
bring on new hires and have them fully productive before the end of the 
year. (See Appendix C for the effect of continuing resolutions on 
staffing trends.)
    Unfortunately, our new employees will not have an immediate impact 
on our current or backlogged workloads as hiring and fully training new 
employees is a lengthy and resource-intensive process. Hiring requires 
posting vacancies, reviewing applications and resumes, conducting 
interviews, conducting background checks, and offering positions. 
Often, new employees must relocate to their duty stations or give their 
employers sufficient notice so that they can seek a replacement.
    Once they report to work, training lasts from 13 to 17 weeks 
because of the complexity of our programs. After this initial training, 
new employees are assigned a mentor to act as a resource and to assist 
in learning the intricacies of processing our work. This ``on-the-job'' 
training for new employees typically lasts a full year. At the end of 
the year, though not fully proficient in all parts of the job, these 
employees would be making a significant contribution to workload 
processing. The time spent mentoring, however, reduces the time our 
more experienced employees have to process their own work. When we have 
significant increases in staffing levels, the time put into training 
and mentoring result in reductions in productivity in the short run.
Our Commitment for the Upcoming Year
    We made a commitment to the American public to work down the 
hearings backlog. We continue to improve productivity each year and to 
process more work. In FY 2009, we plan to process over 300,000 more 
retirement claims, 30,000 more initial disability claims, and 
approximately 70,000 more hearings than in FY 2008. The additional 
funding will also help us handle increasing visits to our field offices 
and calls to our 800-number.
    The FY 2010 President's budget proposes an increase of 10 percent 
above the FY 2009 level. This amount includes resources to increase our 
staffing levels in FY 2010, which will enable us to further increase 
our productivity.
Stewardship & Program Integrity Work
    Preserving the public's trust in our programs is one of the key 
aspects of our Agency Strategic Plan. We take pride in our ability to 
protect and carefully manage the resources, assets, and programs 
entrusted to us. We must ensure that we pay beneficiaries the correct 
amount of benefits and that they continue to be entitled to those 
benefits. Due to the budget constraints and increasing workloads, 
however, we have been forced in recent years to scale back these 
program integrity efforts. Our primary program integrity tools are CDRs 
and redeterminations of income and resources in the means-tested SSI 
program. The FY 2010 President's Budget includes $759 million for our 
program integrity efforts, an increase of $255 million from FY 2009. 
This will allow us to complete a total of 794,000 CDRs, of which 
329,000 will be full medical CDRs, and 2,322,000 SSI redeterminations. 
This funding will ensure that taxpayer dollars are being spent properly 
in the major entitlement programs.
Continuing Disability Reviews
    We conduct work and medical CDRs to determine whether or not 
beneficiaries continue to meet the definition of disability. We 
initiate CDRs based on work activity when a beneficiary voluntarily 
reports that he or she is working, when wages are posted to a 
beneficiary's earnings record, or when a beneficiary has completed a 
trial work period. In FY 2008, we conducted about 170,000 work CDRs, 
which resulted in cessation determinations in 850 cases.
    Generally, the law requires us to conduct medical CDRs on a 
periodic basis to ensure that only those who continue to be disabled 
receive benefits. We conduct medical CDRs using one of two methods. We 
periodically review cases when we expect that a beneficiary's condition 
will improve, and we have a DDS perform a full medical review. We also 
conduct medical reviews when we receive voluntary or third-party 
reports of medical improvement. In some cases, we send questionnaires 
to beneficiaries, whom we have identified using a statistical model, 
and evaluate their responses to determine if they remain disabled.
    In FY 2007, we began using a new statistical model to select cases 
with a higher likelihood of medical improvement. That year, we 
processed 747,170 periodic medical CDRs of which 189,955 required full 
medical reviews. We spent $281 million to process these CDRs. Of the 
CDRs processed, we notified 52,490 beneficiaries that we would be 
ceasing their benefits because they no longer met our definition of 
disability. We estimate that, after all appeals are exhausted, we will 
stop paying benefits to about 36,000 beneficiaries, along with their 
eligible dependents. We estimate that the present value of future 
benefits saved from this activity is $3.3 billion. Historically, the 
ratio of program savings to administrative costs for these cases is 
about $10 to $1. Fluctuations in the year-to-year savings-to-cost ratio 
may occur, however, due to changes in the distribution of CDRs 
processed under the disability or SSI programs and the percentage of 
cases where there is a high likelihood of medical improvement.
    Since FY 2002, however, we have processed fewer CDRs than come due 
in each year because of limited funding and the need to balance our 
service and stewardship efforts; we continue to face a significant 
backlog of initial claims and hearing requests. (See Appendix E for 
CDRs processed over the last several years.)
    In FY 2008, we processed 240,000 full medical CDRs, an increase of 
about 50,000 over FY 2007. The FY 2009 Omnibus Appropriations Act 
provides an upward adjustment to the discretionary caps to fund program 
integrity activities such as CDRs. At this level, we will be able to 
process 329,000 full medical CDRs this year, an increase of 89,000 
compared to FY 2008. Despite these increases, at the end of FY 2008, we 
had a backlog of 1.4 million full medical CDRs, and we project the 
backlog to grow by another 100,000 to 150,000 in FY 2009.
SSI Redeterminations
    We must also ensure that we pay SSI in the correct amounts. Due to 
the complexity of the SSI program and the large number of factors that 
can affect a recipient's eligibility and payment amount, these 
redeterminations can be particularly challenging. One of the ways we 
ensure accurate payments is by periodically completing redeterminations 
to review all the non-medical factors including income, resources, and 
living arrangements of SSI eligibility, such as resource and income 
levels and living arrangements. Based on this review, we determine 
whether a recipient is still eligible and still receiving the correct 
payment amount.
    There are two types of redeterminations: scheduled and unscheduled. 
Except for certain institutionalized recipients, we periodically 
schedule all recipients for a redetermination at least once every 6 
years. Moreover, using a statistical model to estimate the likelihood 
of overpaying SSI recipients, we target the most error-prone cases each 
year. We conduct unscheduled redeterminations on an as needed basis 
when recipients report, or we discover, certain changes in 
circumstances that may affect the SSI payment amount.
    In FY 2008, we conducted 1.221 million SSI redeterminations. We 
estimate that these redeterminations will produce $2.1 billion in 
retroactive payment recoveries and ongoing payment reductions. If we 
had the resources to conduct SSI redeterminations on all SSI 
recipients, approximately $5.7 billion in recoveries and ongoing 
payment reductions would accrue. In FY 2009, we expect to conduct 1.7 
million SSI redeterminations, an increase of nearly 500,000 compared to 
last year.
Future Program Integrity Work
    In short, we know our program integrity workloads are critical to 
ensuring well-run programs and accurate payments, but our ability to 
carryout such workloads depends upon resources including the 
availability of trained staff to do this work. With the additional 
funding we are receiving in FY 2009, we will perform more CDRs and SSI 
redeterminations. For FY 2009, we plan to process 329,000 medical CDRs 
and 1.711 million SSI redeterminations, an increase of 89,000 and 
490,000, respectively, from FY 2008 levels. Even with these increases, 
we still processed fewer program integrity reviews than we did earlier 
in this decade. Due to the tight budgets of the recent past, we had to 
make tough choices between service to the public and stewardship 
efforts. We believe that we are beginning to reverse the overall 
decline in program integrity reviews, and we expect further increases 
in FY 2010 because of the funding included in the President's FY 2010 
budget proposal.
Highlights of our Plan to Improve Service Delivery
    To keep pace, we know we have to modernize the way we do business, 
and we are making great strides to do so. We are searching for 
additional policies we can streamline, technologies that we can 
introduce or improve, and business processes that we can restructure or 
automate. Below are some of the innovations that we plan for the 
future. Without sufficient and timely funding, some of these 
innovations may be difficult to implement.
Service Oriented Architecture
    Historically, our systems were developed at different times to meet 
a specific need that arose. This reactive process resulted in a 
collection of technologies rather than a cohesive, fully integrated 
system. Our current strategy introduces seamless Service Oriented 
Architecture (SOA) to replace our aging online and in-office benefit 
applications. We will build our information services so that the core 
data and components can be shared rather than duplicated in many 
different systems. Without the need to consider multiple stove-piped 
systems, systems development of new business processes under SOA will 
be more efficient.
Disability Direct
    Although still in the planning stages, the Disability Direct 
initiative will automate the processing of online disability claims 
resulting in a much more efficient route from application to payment. 
It will improve the online disability claim and appeals process by 
collecting information once and re-using it rather than requiring 
applicants to complete the same information repeatedly, which will help 
offset our labor-intensive disability workload. This streamlined 
process will provide more time for employees to handle other workloads 
and help with field office and telephone traffic. It will also fulfill 
the public's expectation of convenient, effective, and secure 
electronic service delivery options.
Quick, Simple, and Safe SSN
    We are developing strategies and an implementation plan for 
reducing Social Security number related workloads so that we can 
improve service to the public while maintaining the integrity of the 
SSN. The goal of the Quick, Simple, and Safe SSN initiative is to find 
new ways to assign SSNs, update SSN information, and issue replacement 
Social Security cards using efficient and secure methods.
Additional Social Security Card Centers
    In addition to the seven current Social Security Card Centers, we 
plan to open four additional centers: two in Houston, Texas, one in 
Minneapolis/St. Paul, Minnesota, and one in Philadelphia, Pennsylvania.
Telephone Infrastructure and Automation Improvements
    We handle over 57 million calls on our national 800 number each 
year. The underlying telephone system structure is antiquated so we 
must make infrastructure improvements to ensure that our telephone 
service is convenient, accessible, and efficient.
    Over the next several years, we are replacing nearly all of our 
phone systems with Voice-over Internet Protocol (VoIP) technology. A 
project of this scope is initially costly, and we have moved cautiously 
so that we can address concerns that inherently arise with any new 
system. We believe the end result will improve customer service and 
lower long-term costs.
    VoIP gives us flexibility to route calls from busy sites to less 
busy sites when necessary. We also will be able to collect management 
information that will allow us to identify and make adjustments to 
improve service including some customization like language preference 
that may be prevalent in certain geographic locations.
    We plan to continue to add automated applications that are 
responsive to the public's needs. Callers who use our automated 
services can conduct a variety of transactions as well as listen to a 
variety of informational messages addressing frequently asked 
questions. Improving our telephone operations will allow callers the 
convenience they want while freeing us to work more complex workloads.
SMART Service
    After visiting several field offices, in January 2008, I asked my 
staff to examine our field office layouts and develop ways to improve 
field office reception areas so they are more efficient for conducting 
business. The ultimate goal of this initiative, known as Space 
Modernization and Reception Transformation Service (SMART Service), is 
to lay the groundwork for the ``SSA Office of the Future.'' In our 
field offices, we are currently piloting new technology that allows us 
to deliver service to rural areas through video, the public people 
about interacting with our agency by watching a Social Security 
satellite broadcast, and providing self-help computers to visitors who 
want to do business over the Internet with us but many not have access 
to a computer at home.
Conclusion
    Next year, our agency will celebrate its 75th anniversary of 
providing critical services to nearly every American. Over the last 
three-quarters of a century, our programs and responsibilities have 
continued to expand. Unfortunately, for too many years, we have not 
received sufficient and timely funding to allow us to keep pace with 
our increased workloads.
    You have started to change that pattern. Therefore, once again I 
want to acknowledge our appreciation for the funding you provided for 
FY 2008 and 2009 and in the ARRA. We will continue to use this money to 
reduce our backlogs by hiring and training new employees and expanding 
our use of technology. We will also protect the information we house 
and maintain the services we provide by building a much-needed new 
National Computer Center. Of course, we will work with Treasury to 
issue the $250 one-time economic recovery payments sooner than 
required. I am acutely aware that our Nation is in economic crisis, and 
we take the responsibility associated with the Administration's and 
your investment in our agency seriously.
    With your support, I am confident that we can successfully address 
our challenges, but it will take several years. I am compelled to 
stress that we will continue to need timely, adequate, and sustained 
funding beyond FY 2009. Last year, I testified that we were facing an 
avalanche of retirement and disability claims at the same time we were 
addressing large backlogs due to years of increasing workloads and 
limited resources. That situation has been exacerbated by the economic 
downturn and we are experiencing an increase of applications over what 
we projected.
    We did as much as we could to be ready to act when we received our 
budget. We are currently hiring thousands of new employees who we will 
need to train. Many of them will not become proficient this fiscal year 
delaying the positive effect they will have on our workloads. Our 
greatest opportunity for success is directly tied to timely and 
sustained funding.
    We are committed to working with Congress and the American people 
to address our challenges and improve service for the years ahead. We 
are confident that with your support, the support of our stakeholders, 
and the necessary resources, we can achieve our goals.
Appendix A
Average Daily Visitors Per Month

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Appendix B
Office of Disability Adjudication and Review: Regional and Hearing 
        Offices and Remote Sites

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

Appendix C
Continuing Resolutions (CRs) Cause Erratic Staffing Trends

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Appendix D
CDRs Processed by Fiscal Year

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman TANNER. I just have one question, and then I am 
sure that members will elaborate.
    You mentioned the electronic filing about 33 percent. I 
generally applaud efficiencies that can be achieved through 
electronic means otherwise. Do you have any data with regard to 
the error rate? Because, as we know, when an application is not 
in order, then not only is it delayed, but it causes even more 
work. And so as we try to go and streamline the system with 
electronic online, et cetera, I think we have to be sure that 
the error rate is not unacceptable? Do you have any data on 
that?
    Mr. ASTRUE. We do, And I appreciate that question, because 
it is an important one.
    Our quality office has looked very carefully at the online 
applications versus the applications taken in the field office, 
and there is no statistical difference between the quality of 
the ones done in the office and the ones that are taken online. 
To the extent that there is a difference, the error rate is 
actually slightly higher for the ones that are taken in the 
office. So we are confident about that.
    And one should also keep in mind that this is not a fully 
automated process, that in every case, even on something taken 
online, there is an individual in the office who is looking at 
that application and who does call people back if there is 
anything on the face of the application that would trigger any 
additional interaction with that person.
    Chairman TANNER. One other question then. When do you 
expect your plan to begin to take effect? You said 2 years ago 
that you had a plan to reduce it, and now it is as bad or 
maybe, in parts of the country, worse. With the additional 
revenue, can you give us a timeframe as to what we can expect?
    Mr. ASTRUE. We have adjusted the planning. Clearly, with 
the sudden deterioration in the economy, we needed to go back 
and revisit the assumptions of the original plan. And there are 
some small differences, but the big one is we need an increase 
in capacity.
    So when we first developed this plan and when I first 
testified before this committee, we had embraced the figure of 
1,250 administrative law judges as what we needed to drive the 
backlog down; and we were down at one point to just barely over 
1,000. In order to meet the targets for driving the backlog 
down over the next 4 years, we are going to need more capacity. 
So we are targeting 1,400 to 1,450 judges.
    Right now, the budget assumption is that when we finish the 
fiscal year 2010 hiring--assuming we get the appropriation that 
we hope from the Congress consistent with the President's 
budget and that we expand our space quickly enough--we will 
have enough space for the hiring of the new judges. Now it is a 
close call that we will be getting as much as we need for 
fiscal year 2010, but we are working hard on that. But if we 
hit the mark on the appropriation, we hit the mark with the GSA 
work, we should have, I believe, 1,452 judges at the end of 
that hiring.
    We lose about 60 judges a year to attrition, and the losses 
are not even over the course of the year. The departures tend 
to be toward the end of the year. So we will actually be 
momentarily over that target at the end of the hiring if 
everything goes according to the projection, and we need that 
additional capacity to hit the original goals. Otherwise, we 
are not going to make it.
    Chairman TANNER. The judges are fine. What about the staff 
assistants that prepare the cases? The judges--that is a 
problem, too, I am told.
    Mr. ASTRUE. It is indeed. And we will have a higher support 
staff ratio than we have had during most of this decade. We are 
targeting not only a national average of 4.5 per ALJ, but we 
are trying to keep to a floor of 4. There has been, in my 
judgment, too much variation in hearing office support from 
hearing office to hearing office. So, in addition to taking it 
up a tick to the 4.5, we are going to try to keep a floor of 4.
    Again, a couple of people will leave. The numbers will vary 
from time to time in offices for brief periods of time. But the 
goal is a floor of 4 and an average of 4.5, which should be 
adequate.
    Chairman TANNER. I may have some other questions to submit 
in writing to you. I don't want to take too much of my time.
    Mr. ASTRUE. Thank you, Mr. Chairman.
    Chairman TANNER. Mr. Johnson.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    You know, along that line, how many judges are hearing less 
than five cases a year?
    Mr. ASTRUE. Less than five cases a year?
    Mr. JOHNSON. Yeah.
    Mr. ASTRUE. I don't think any now. We had one judge that 
hadn't heard a case in 6\1/2\ years, and we have been working 
on counseling him. He is hearing about 50 a year now. I believe 
he is just largely allowing all those cases.
    Mr. JOHNSON. So we don't have anybody that is not pulling 
their weight right now?
    Mr. ASTRUE. We have certain judges pulled off for 
administrative work, and the president of the union by the 
contract is allowed to work full time on union business. 
Although, to his credit, he does hear some cases.
    Mr. JOHNSON. When you say ``some''. how many?
    Mr. ASTRUE. I don't know. I would have to check. We are now 
making that kind of information public which we haven't in the 
past.
    Mr. JOHNSON. Different subject. Why did we learn just last 
year that the NCC had to be replaced? The center is apparently 
30 years old, and surely somebody told you the problems that 
were existing there or were coming.
    Mr. ASTRUE. Certainly coming in I was not aware that this 
was a problem, and I was not aware that this was a problem 
until a bit into 2007. And I actually picked it up through our 
strategic planning process, where we said we have got to look 
at what we need to plan for the future, and it was clear that 
this was a major issue for us.
    It took a little while to get a handle on it. There had 
been a part of the organization that had started to look at 
this, and there was a study pending that came in in January of 
2008, and it took a little time to push back and look at the 
options. Because, you know, the first time someone comes in and 
says, ``I would like to spend three-quarters of a billion 
dollars for a new facility''. you don't say, ``Oh, fine''. So 
we spent several months going back and forth, seeing whether we 
could in any way extend the life of the existing facility, look 
at other options; and, finally, we came to the conclusion that 
we really did need to replace it. It took a little while.
    We communicated that to the Congress after the May----
    Mr. JOHNSON. Let me interrupt you, because we understand 
what the problems are. I mean, I have seen pictures of some of 
the facilities over there, and it seems to me it is a big fire 
hazard. If that building burnt down today, if the NCC failed, 
what are the chances of you recovering the information that 
would be destroyed?
    Mr. ASTRUE. The chances of recovering the information that 
is destroyed are extremely high. We run backup tapes daily and 
take them to an offsite location every day except Sunday. So 
restoring the----
    Mr. JOHNSON. I was told you didn't have any backup. Where 
do you take them?
    Mr. ASTRUE. There are two types of backup here. And there 
has been confusion, even when I was talking to computer people 
recently, they got confused about it. And it is probably my 
fault in terms of communication.
    So there are two types of backup. There is the computer 
power that actually runs the system, and then there is the 
storage for the data. So we take the data----
    Again, if I am making a technical error, we will correct 
this for the record.
    But, basically, we take the data on a daily basis, except 
Sunday, from the National Computer Center to a separate offsite 
location. So if there is a data storage type of problem, we can 
restore the data. The data doesn't disappear. We always have 
recent data.
    The issue is if there were a problem with running the 
National Computer Center. Right now, we do not have an adequate 
backup facitlity. We rely on a commercial facility in New 
Jersey that would only allow us to run most of our critical 
workloads at 30 percent capacity, so the agency would have to 
ration availability among the regions. It would be catastrophic 
until we came back online.
    Mr. JOHNSON. Well, if you copied those to discs and your 
computer system is so old, are there any computers that will 
run those discs after you copy them?
    Mr. ASTRUE. We can run on the commercial facility in New 
Jersey. The problem is our system is so huge there just isn't a 
commercially available facility that has the capacity to run 
all the transactions of the Social Security Administration.
    Mr. JOHNSON. What you are saying is we would have a 
failure. Would people fail to get their checks?
    Mr. ASTRUE. All of our current beneficiearies would 
continue to receive their checks. However, there would be a 
delay in new beneficiaries getting their checks.
    Mr. JOHNSON. Are you confident that we have a plan in place 
to rectify that problem? And it seems to me that 2012 for 
Durham is an awful long way off, and I don't know how long it 
is going to take us to build a new facility.
    Mr. ASTRUE. Let me give you some good news on Durham.
    I was just down at the facility about 2 weeks ago. The 
shell is up and completed. The first group of equipment is on 
the site and is being installed. It will take us about 6 months 
in all likelihood before we will get Durham up to where it will 
be the equivalent of the New Jersey facility, and then we will 
be adding additional capacity month by month after that.
    In about 6 months, month by month, it will get better than 
the status quo. It won't be perfect. IWe are moving a little 
faster than before. I would say probably about another 18 
months before we have Durham up to full recovery capacity.
    So with the additional resources, I have approved some 
amendments, some additional changes to Durham that will add 
capacity at Durham, too. So we have that coming, too. So it is 
getting better. We have to hold on for approximately 6 months, 
and at least it will be better than the status quo every month 
after that.
    Mr. JOHNSON. Thank you.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you, Mr. Johnson.
    Dr. McDermott.
    Mr. MCDERMOTT. Mr. Astrue, I assume you are on the side of 
the clients in this issue. So the question I ask really, or to 
try to understand what is going on, have you spent all the 
money that we gave you last year for additional people and 
space?
    Mr. ASTRUE. Absolutely. We went out and we had $148 million 
over the President's request and most of that went into backlog 
reduction. The most expensive part of that is hiring new 
judges. We hired 190 new judges. The Inspector General at our 
request did a study of the fully loaded cost of an 
administrative law judge. An administrative law judge fully 
loaded is about three-quarters of a million dollars a year. So 
you can see that for that $148 million, most of that went into 
the additional judicial capacity.
    Mr. MCDERMOTT. Have they been working full time for the 
last----
    Mr. ASTRUE. They have.
    Again, I know this isn't easy, so I have to plead for 
patience. The system is so complicated that it takes people a 
long time to become fully productive.
    We are thrilled by this class of judges. I think we did a 
better job in selection. We did more careful background checks. 
These people are working very hard. They are getting very high 
grades on how they are treating people.
    But in terms of productivity--I looked at the numbers just 
a couple of weeks ago. After about 9 months on the job for most 
of them, they are at about three-quarters of what a more 
experienced administrative law judge does. The good news is the 
trend line is up. They are going to get there. But it is 
probably going to take them 12 to 15 months before----
    Mr. MCDERMOTT. Isn't the trend line about the numbers of 
days waiting is exactly the same for the last 2 years? It is 
over 500.
    Mr. ASTRUE. With all due respect, Mr. Chairman, we are down 
to 488, I think, right now. Again, it is not dramatically down, 
but the average processing times are down.
    Mr. MCDERMOTT. The source of this data is from you guys, 
Social Security Administration. Those two columns over here are 
the same, basically; and I am not sure--I don't want to argue 
hours or days or whatever, what I want to understand is what is 
it that holds up--why somebody is 75 percent productive; why 
not 100 percent?
    Mr. ASTRUE. Because I think that----
    Mr. MCDERMOTT. You have had a year.
    Mr. ASTRUE. The complexity of the system is mind-blowing. 
They have to learn our rules about every possible medical 
disease or condition known to man, and our systems, which take 
time to learn too, because we are increasingly automated, but 
the systems aren't perfect yet.
    We have got terrific people. I have no qualms about the 
effort that they have put in. I think a lot of these new judges 
are working extremely hard. And almost all of them are on a 
satisfactory track of productivity. There are a couple who are 
having some issues, but it just takes time.
    And it is the same thing with claims representatives, tele-
service representatives. They are not productive immediately.
    Mr. MCDERMOTT. Anybody can see the trend of the line for 
the last 8 years. You don't have to be even close or have a 
reading test to see that trend. And the fact is that you are 
going to have 44 percent of your people retire by 2016. What is 
the planning for the future? Are we going to go into another 
climb in--because we lose all the people who have been there a 
long time and take this knowledge out the door with them, and 
we get these new people in that have to learn the system from 
the ground up.
    Mr. ASTRUE. And in the good news, bad news category, with 
the economy changing, the retirement rates have slowed down a 
little bit. So it does buy us a little time.
    Again, I wouldn't wish that on anybody who doesn't want to 
stay.
    Mr. MCDERMOTT. You are not wishing against Mr. Geithner and 
the President, are you?
    Mr. ASTRUE. No, no. But we are trying to hire as many 
people as fast as we can. We have broadened and moved faster 
our SES development candidate pool. We have brought 14s in for 
the first time so that we have a little bit broader pool. We 
will have a slightly younger age distribution than what we had 
before to try to maintain some continuity.
    We are doing what we can. But, at the end of the day, I can 
only hire as many people as we have the money to hire. We have 
moved extremely quickly.
    Mr. MCDERMOTT. How about space? Do you have problems with 
space? Somebody says it takes 24 months to get space out of 
GSA?
    Mr. ASTRUE. It does.
    Mr. MCDERMOTT. What is the reason for that? The military 
can put 500,000 people in Iraq inside of 3 months. Why can't 
GSA move a few people and get some offices open?
    Mr. ASTRUE. I hear this with some regularity. I actually 
think the people who are working for us have made this a top 
priority; and they are trying. But we have several issues.
    First of all, we have to negotiate sometimes with as many 
as four different unions before we can go to GSA, because we 
have to have a plan that is going to work under the collective 
bargaining agreements. That takes some time. And then GSA has a 
process to try to make sure the bidding is fair and objective.
    The kind of space that they choose--which I don't get to 
decide, they get to decide--makes a big difference. If they get 
space that is already existing, that fits our needs, that 
doesn't have to be redone, then we can often beat that 24 
months. But sometimes they build space from scratch. Sometimes 
they will renovate. Sometimes they find space that is in move-
in condition.
    We try to expedite this as much as we can. They have an 
inventory of excess space, and we have been all over that list. 
And we will sometimes change where we want to be if it doesn't 
make that much difference, if we actually think we can get into 
the space faster.
    So we have moved from having too much physical space, 
because we lost so many employees that we were awash in space. 
When we all of a sudden are trying to hire 5,000, I think we 
are going to be okay for this fiscal year, but it is a 
potential limitation, particularly getting the space in the 
right places. Because, for 20 years--and I don't know why this 
was true--the agency underallocated in the Midwest and the 
Southeast. And if you look at where the most backlogged hearing 
offices are, almost all of them, with all due respect to some 
members to whom this generalization won't apply, they are 
mostly in those parts of the country, and that is where the new 
hearing offices are going. We are pushing to get them open as 
quickly as we can, and we hope there will not be a limitation 
next year.
    Mr. MCDERMOTT. Thank you. I apologize for taking more than 
my fair share of time.
    Chairman TANNER. We will go, with the permission of the 
Committee, to two over here, since we have a great attendance 
this morning and a very highly interesting subject here.
    So may I call on Mr. Stark.
    Mr. STARK. Thank you, Mr. Chairman. Mr. Astrue, thank you.
    If I could just switch to a topic that has been a concern 
of mine for some time, and that is the issue of 30,000 children 
who receive SSA benefits and are in foster care. I don't want 
you to go auditing this, but, as someone who receives this form 
for his own children each year, I am aware of how closely you 
keep track of what my children receive and what I do with that. 
But I am afraid that you don't keep as close track of the money 
that these children receive.
    For the benefit of my colleagues, children who for one 
reason or another, SSI or because of disability or because of a 
parent who is disabled or dead, often receive Social Security 
benefits, a couple hundred bucks a month. And if they happen to 
be in foster care, I think it is fair to say that almost 
automatically this money goes to the State.
    And States vary in how they use that money. I suspect there 
are a few States which just dump it into the general revenue 
and could not account for the fact that it is used for these 
children. And there are arguments. Some say, why should foster 
children, who are entitled to a Social Security benefit because 
of a disability or lack of parenthood, have to pay out of 
basically their funds for foster care when other children 
don't? And I was going to see if I could ask Mr. Astrue if they 
are doing anything to review this.
    There is a system by which the representative, I guess it 
is called, is selected. But I doubt very much if you audit the 
States to see that each kid is entitled to some of this money. 
And the end result is that these are foster children who in 
many cases have mental disabilities, other--wherein a few 
thousand dollars when they mature out of foster care could be a 
great advantage, either a way to get to college or a way to get 
their first apartment for independent living.
    And I guess my question is, are you doing anything now to 
study or consider how the States apply this money--I know 
California does a good job and other States, too. But, as I 
say, I think some States take the money and pop it into general 
revenue. Is there any program going on now in Social Security 
that is reviewing either how a representative is selected or 
what they do with the money?
    Mr. ASTRUE. We know your interest, and I think it is a fair 
point, and it is on our list to talk to OMB. They are only up 
for business recently for anything but emergency issues, and we 
have a fairly long list of things that we would like to talk to 
them about. But we are prepared to look at that.
    I think, as with all questions with rep payers, we do have 
to go carefully, because we want to make sure that we don't 
discourage people from being rep payees or state agents. We do 
have difficulty in a lot of the country getting qualified rep 
payees.
    Mr. STARK. It is a very small amount for most States, but 
these are, it seems to me----
    Mr. ASTRUE. Again, I give you credit for your leadership in 
this area, because you did encourage us also to talk to 
California about the issue of seamless continuation. There were 
foster care children getting lost in the cracks when they were 
re-reviewed under the adult standards.
    Mr. STARK. When they age out.
    Mr. ASTRUE. We actually worked with Secretary Wagner in 
California on that. We have an improvement. It is a little 
awkward, but I think they are pretty happy with it. And we are 
now using that in other States.
    But part of what we want to do when we talk about foster 
care more broadly with OMB is to identify ways to make that a 
little bit more elegant and a little bit more efficient, too. 
So we are looking at that as well.
    Mr. STARK. Thank you very much. And I want to particularly 
thank your employees in both the Oakland and San Jose office 
for the wonderful service they give our--thank them for me.
    Mr. ASTRUE. Thank you. I will do. Thank you, Mr. Stark.
    Chairman TANNER. Thank you, Mr. Stark.
    Mr. LINDER.
    Mr. LINDER. Thank you, Mr. Chairman.
    Commissioner Astrue, you mentioned an administrative law 
judge who in his contract doesn't hear any cases because he is 
a labor union leader and he is full time on the labor union. 
How many are there such as that?
    Mr. ASTRUE. I believe the contract is a little complicated, 
but my understanding is that there is one who clearly does not 
have to hear cases, and that is the president of the union.
    There are, if I remember correctly--and I apologize if I 
don't do this correctly from memory--I believe there are 125 
other union officers who at least under some circumstances do 
reduced time and how much reduced time gets a little 
complicated. So what I would prefer to do, rather than make a 
mistake on this, is double check that number and give you the 
full details of the collective bargaining agreement in that 
regard.
    Mr. LINDER. All right. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LINDER. Why do you need for labor unions to approve 
space with the GSA?
    Mr. ASTRUE. The working conditions are covered under 
collective bargaining agreements. So we have to, as a general 
matter, as I understand it, go through and make sure that 
everything in the proposed space is compliant with the various 
collective bargaining agreements. And, again, ODAR, where we 
are doing the hearing office expansion, has all four unions 
that are representing ODAR. So it is probably more complicated 
at ODAR than it is at most of the rest of the agencies.
    Mr. LINDER. Why isn't that just administerial duty?
    Mr. ASTRUE. Because that is the way the Federal Labor 
Relations Act is written, is my understanding. We are just 
complying with the statute.
    Mr. LINDER. The Federal Labor----
    Mr. ASTRUE. That is my understanding. I don't purport to be 
an expert on it, and it does get highly technical. We have an 
office that deals with those issues. But it is my understanding 
that those are the types of issues that we are required to 
bargain.
    Mr. LINDER. I share Sam Johnson's concern about your 
computer capabilities and the age of the technology. Have you 
done any studies as to whether it would be less expensive to 
outsource it?
    Mr. ASTRUE. We did. And, actually, this study was, I 
believe, commissioned under Commissioner Barnhart's watch. 
There was a Lockheed Martin study that took a look at the 
options and concluded that we really needed to have our own 
facility.
    I think part of the issue is we have enormous constraints 
in terms of the sensitivity of the private information of the 
public that is in there. It makes it awkward to share with 
other facilities. We need a huge facility because of the scope. 
There just aren't data centers like that sitting around.
    Mr. LINDER. You don't think Google and Microsoft have that 
kind of capacity?
    Mr. ASTRUE. Actually, not for what we need. No, I don't 
think so. Even the great Microsoft I don't think has what we 
need on the shelf.
    And you know, we live in an age where it is not just the 
physical attacks of terrorists, but there is an enormous--and I 
don't think the public really appreciates the--concerted and 
constant effort there is to commit cyber-terrorism. I don't 
know whether the Committee has had a recent confidential 
briefing on that issue, but it may be a good idea. And that 
also makes it very difficult to go the private-sector route 
with everything that I think we need to do in order to meet 
those kinds of defenses. I think we did make the right choice.
    Again, I didn't like the answer in the beginning either; 
and we spent several months going back and forth looking at 
alternatives and seeing whether there was another way to do it. 
But I think we reluctantly concluded this was the best path 
forward. I know we got a lot of those same questions from 
Congress and tried to be as transparent as possible. We are 
very grateful that the Congress came to the same conclusion and 
so quickly, and it is going to make a huge difference for us 
going forward.
    Mr. LINDER. Thank you, Mr. Commissioner.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you, Mr. Linder.
    The Chair will be pleased to recognize Mr. Levin.
    Mr. LEVIN. Thank you. Thank you, Mr. Chairman.
    Welcome.
    Mr. ASTRUE. Thank you, Mr. Levin.
    Mr. LEVIN. It is tempting for me to spend time talking 
about the problems in the district I represent, and these are 
immense problems, and we have talked about them. But I want to 
go beyond the vital local issues and get to the nub of this 
issue, and some of the discussion from the minority I think 
illustrates that. We have in recent times acted to raise the 
amounts of money that are available to you, right?
    Mr. ASTRUE. Yes. In the last 2 weeks we have a real break 
from past practice, and I think it is going to make a big 
difference going forward.
    Mr. LEVIN. So let me ask you this. You have been involved 
in this work for how long?
    Mr. ASTRUE. It depends a little bit on how you look at it. 
Off and on for 30 years, probably 10 to some extent.
    Mr. LEVIN. And involved with just this government entity, 
right?
    Mr. ASTRUE. I was with HHS for 6 plus years, some of it 
entirely at Social Security but all that time at least 
partially doing Social Security work before I came back as 
Commissioner.
    Mr. LEVIN. I want to ask you this. If the organization has 
adequate resources, do you believe that it is able to carry out 
the function of handling disability cases in an effective way?
    Mr. ASTRUE. I do.
    And let me add a couple of caveats to that. We have, I am 
persuaded, some of the very best people in government, and I 
include the people that do the work for us in the State 
Disability Determination Services. I don't think it is a 
question of the people. I think it has been a question of the 
resources.
    We are facing all kinds of challenges now, particularly--
you know, one of the things I am working very hard on--and I 
got bad news from New Jersey this morning on the way to the 
hearing--is that more and more of the Governors are furloughing 
DDS employees or putting hiring restrictions on, which is 
crazy. Because we pay the fully loaded cost. We pay their 
salaries. We pay for the overhead.
    They are not saving any money by doing this to DDS 
employees. What they are doing is slowing up the processing of 
disability cases and keeping money out of their own States. And 
it is a real frustration to me. Again, we have persuaded a 
number of Governors not to do this. But we had another one in 
New Jersey who apparently decided to go ahead.
    Mr. LEVIN. So you said, if the resources are there, you 
have no question about the capability of this governmental 
entity to do the job well?
    Mr. ASTRUE. Yes, that is right, sir.
    Mr. LEVIN. So what we heard earlier--and I want to look 
ahead, but this has to be very clear cut--that this institution 
under its leadership for a number of years that provided 
inadequate resources are essentially attacking the entity 
because it failed to provide the adequate resources. What you 
are essentially saying--and somehow it wants to hopscotch into 
healthcare--that SSA, you are not capable of doing this because 
you are a governmental agency.
    Who appointed you?
    Mr. ASTRUE. I was nominated by President Bush, and it was 
confirmed in the Senate in February of 2007.
    Mr. LEVIN. And we welcome your efforts. And I really think 
that those who fail to provide adequate resources should not be 
the ones who are throwing the dagger at this agency. We in the 
last months have provided more resources instead of 
underfunding requests from the Administration. At times, we 
have gone beyond.
    And I just say this because there is a real crisis in 
almost every place in this country. It is utterly disgraceful 
that people have to wait years--most of them clearly disabled, 
as it turns out--they have to wait years in order for a 
response. And the problem has not been because it is SSA 
running the show, the problem in good measure has been because 
of the failure of this institution under previous leadership to 
provide you the resources, as you say, that are necessary to 
carry out your work.
    We are going to step up to the plate, and I hope we do that 
on a bipartisan basis, and we have done that.
    Mr. Johnson has been strong. He hasn't thrown arrows at 
SSA. He has been working with us to provide the moneys that you 
need.
    And the sad thing is, even though--and I finish with this--
we provide more resources, it is going to take you years to 
begin to catch up. We have to step up to the plate here, not to 
try to use this problem as an argument over something totally 
unrelated. We will argue healthcare some other forum. We have 
got to give you the equipment, the resources, et cetera, that 
you need to end this disgrace.
    Chairman TANNER. Thank you, Mr. Levin.
    The Chair will go to Ms. Berkley, and then we are going on 
the rule of who was here when the gavel went down and then to 
Mr. Brady after Ms. Berkley.
    Ms. BERKLEY. Thank you very much, Mr. Chairman, for calling 
on me; and it is very nice to see you again.
    Last year, I shared with you the problems that I was having 
in my district, which encompasses Las Vegas; and you were very 
responsive to my concerns and my problems. As you are aware, 
with your help, Las Vegas ranked about seventh out of 143 
offices nationwide last year with a wait time of about 325 
days. It wasn't anything to write home about, but it is far 
better than what has happened this year when we have--where we 
have slipped to 60th with a wait time of 458 days.
    I am asking you on behalf of the people I represent, and 
you know I have a very large senior population and growing 
population. And with the latest economic downturn, Las Vegas 
has suffered disproportionately; and it shows in the number of 
claims that continue to rise on a daily basis. What can you do 
and what can I do to help you ensure that Las Vegas doesn't 
slip any further? And what can we do to improve not only the 
quality of service but the number of people we have hearing 
these claims?
    Mr. ASTRUE. Las Vegas, as you pointed out has been one of 
our better offices. But you are also correct that there has 
been some slippage this year. That is not uncommon. This is why 
it is so hard to keep up on space, because the demographics 
change so quickly.
    For the three judges who are there, you have one of the 
higher support staff ratios in the country. So I don't think it 
is that. But I am looking at your pending--your judges are 
staying productive, but the pending is going up. It is just a 
function of caseload.
    So what we try to do if it gets really much worse than 
this, what we are trying to do is to take that pressure off of 
offices by moving cases electronically; and we will have 
substantial additional capacity in the coming months.
    The Albuquerque National Hearing Center, which is actually 
designed to help offices in the western part of the country, if 
I remember correctly, should start to be operational next week. 
We have a much larger one in Chicago that will open up over the 
summer, and then we will have another one in Baltimore.
    Right now, we don't have enough capacity in that way to 
help out those offices such as yours when there is a surge in 
cases. We will have that infrastructure in place to do an awful 
lot better in about 6 months. So I would say hang on. We will 
do the best we can.
    We will look at it as well. We are looking at a potential 
expansion of additional hearing offices. It may be that if 
these numbers hold up that you need at least a fourth judge and 
we need to look at the space situation in Las Vegas. I suspect 
that somebody has already done that, and I am not aware of it. 
So let me do this. Let me supply for the record a little bit 
more detail, but we will be on it. We will get back to you with 
more information.
    [The information follows:]
    Ms. BERKLEY. I appreciate that.
    Let me ask you something. You just stated, ``if it gets 
much worse,'' how much worse does it have to get to be red-
flagged? Because it is going to get worse in Vegas. It is very 
bad.
    Mr. ASTRUE. So I have to be candid here. Even at 364 days, 
which is the most recent month, that is still significantly 
better than our National average.
    Ms. BERKLEY. Well, I have 458 days. It was 325 days last 
year when we were seventh. We are in 60th place now with a wait 
time of 458 days.
    Mr. ASTRUE. If you just have the October numbers, those 
numbers, for reasons I could take up the whole hearing 
explaining, are atypical. But what I have in front of me is 
FY09 through February, and what my staff is telling me is 364 
days. I will check and verify that.
    I will be honest with you, normally 364 is not a place 
where we intervene. We still have offices with this rate that 
are helping out others around the country. But as you get close 
to the median, we start looking--and the median right now is 
about 488, and we start looking at the possibility of 
additional help.
    But I will be honest with you, it is not a science. It is 
an art. We are trying to do the best we can with what we have. 
We will have more ability to help offices. We should have about 
30 additional National Hearing Center judges shortly.
    Ms. BERKLEY. My time is up. Thank you very much.
    Chairman TANNER. Mr. Brady.
    Mr. BRADY. Thank you, Mr. Chairman, for holding this 
hearing.
    And before I begin my questioning, I would point out that I 
think this is a bipartisan problem. Pending cases and the 
backlogs have not materially improved over the last 2 years 
under Democrat control of the House and the Senate. I think 
looking at Mr. Tanner and Mr. Johnson, we have bipartisan 
support for significant actions to reduce those backlogs and 
are committed to working with you to do that.
    I want to turn to the issue of fraud in the disability 
system. By some estimates, it may be as much as $11 billion in 
fraud. It is hard to quantify that, but that is one of the 
estimates. I think we all have a responsibility to taxpayers 
and the truly disabled to make sure these precious dollars 
aren't lost to fraud and those who are gaming the system. 
Recently I had the opportunity to meet with the Inspector 
General O'Carroll down in Houston with our Cooperative 
Disability Investigative Program. I got to look at, first hand, 
the teamwork.
    On the front end of disability fraud, those who are 
applying for benefits and maybe feigning impairments, 
concealing medical improvement, and other fraudulent 
activities, it seems to me, at least in the Houston region in 
Texas, there seems to be a good job--we do a good job of 
catching fraud at the front end of the disability system.
    On the back end, though, it appears to be just the 
opposite; that the backlog of continuing disability review, 
especially medical review cases, continues to grow. It is about 
1.4 million today. It is anticipated it will grow another 
100,000 to 150,000 cases next year. Those investigations on the 
back end take more time, more resources, and they are both the 
medical issues as well as those concealing work. At the end of 
the day, though, fraud occurs.
    When we do launch these investigations, as Congress did, 
funded the 7-year program from 1996 to 2002, we made progress 
on that, dedicated funding to do that. Since then, Congress has 
not dedicated funding to those investigations and the backlog 
has grown and the funding recoupments have decreased or leveled 
off. It seems to me that studies show that we are saving 
between $10 and $14 for every dollar we invest in those 
fraudulent--investigations of fraud.
    So the question is, Commissioner, what is the game plan for 
attacking that growing backlog of continuing medical reviews, 
disability reviews? And what are the resources you need to 
successfully investigate and prosecute those fraud cases?
    Mr. ASTRUE. Thank you. Two questions. Let me deal with the 
CDI cases first. The Inspector General's office has done some 
great work with these units. It is a very high return to the 
taxpayer. The problem that we have with those units is the 
dollars compete against everything else that everybody wants us 
to do, and it is directly competing against service dollars. I 
think, until there is some sort of funding mechanism so that it 
refreshes itself, that it probably is going to be the case 
that, in the grand scheme, those efforts are going to be 
underfunded.
    Mr. BRADY. Would a dedicated stream of funding help provide 
continuity and certainty when building those teams, because it 
is a team effort, in actually pursuing them?
    Mr. ASTRUE. Absolutely. We have discussed this type of 
thing with OMB. I think they are interested in this and for 
program integrity work, generally looking for other ways so 
that this work doesn't diminish over time. You know, for most 
of this decade, not only did the backlogs get worse, the amount 
of program integrity work plummeted. So we have not only made a 
first dent in the backlogs, but we have also started increasing 
the program integrity work.
    But we have some real issues in gearing up in that a lot of 
our capacity has been lost and it will take time to get up to 
where we need to be. So I think you will see in the more 
detailed President's budget that is coming next month, the 
proposal for fiscal year 2010. My sense is that they see that 
as a transition and they want to do more and better the year 
after, but they realize that we need to buildup some capacity 
to get there. So my sense is that this new team at OMB is very 
concerned on the program integrity side.
    Mr. BRADY. Would you present to at least to the Social 
Security Subcommittee and perhaps to the Income Support 
Subcommittee a plan for tackling that backlog and estimates of 
resources to do that? Because I think the subcommittee ought to 
take a look at what it is going to take in real terms as we 
weigh recommendations on budget issues and resources.
    Mr. ASTRUE. What I would propose is, I think this will be a 
better conversation in about a month, after the President's 
budget is fully released, and we can see what the full 
assumptions are for next year and then we would be delighted to 
come up and have that conversation.
    Mr. BRADY. I appreciate that.
    Thank you, Mr. Chairman.
    Ms. BERKLEY. Mr. Chairman, if I could state for the record, 
I have got a national ranking report average processing time, 
month ending 2-27-2009, which shows that the Las Vegas 
processing time is 458. So if you have something different, I 
would appreciate seeing it. Thank you.
    Mr. ASTRUE. Mr. Chairman, if you give me just a moment; let 
me just talk here for a moment.
    Chairman TANNER. Sure.
    Mr. ASTRUE. Okay I think we have sorted it out. What I have 
in front of me are the statistics for this fiscal year, and I 
have been reassured that 364 is correct for the fiscal year. 
What you have is for the most recent month, which is February, 
and there are some reasons why, particularly when they are 
tackling older cases, there tends to be bizarre fluctuations 
from month to month. Month-to-month comparisons can be fraught 
with danger.
    But you are correct that for the month of February, the 
average processing time was 458. What that may reflect is that 
they moved from run-of-the-mill cases to going back to hit some 
of the aged cases. I don't know, but we will give you a more 
detailed analysis. So I would like to say, I think we are both 
right.
    Chairman TANNER. Commissioner, you told me something I was 
unaware of. I thought that the IG and the antifraud sector had 
its own budget. You said it was in competition with service 
dollars.
    Mr. ASTRUE. They do, but----
    Chairman TANNER. Am I incorrect in that?
    Mr. ASTRUE. They have their own separate budget, but we 
also have the capacity with our administrative budget to spend 
more on antifraud if we choose to do so, and we could if we had 
the resources to do it. And I think a lot of us would like to 
do that. But right now, you know, you have to take that away 
from telephone service or CDRs or backlog reduction, and we 
just don't have the option of doing that.
    In fact, there has been some concern as to some of the IG 
recommendations over the years. We have accepted about 2,500 of 
his recommendations in recent years of the 2,700 that he has 
made. And a lot of the ones we have not accepted, we just don't 
have the resources to do what they are recommending, usually 
from an antifraud point of view.
    Chairman TANNER. On the CDR evaluations, I am told that 
that runs around 90, 95 percent, and 5 percent are found to be 
improved to the point where they are no longer eligible. Is 
that--am I in the ballpark?
    Mr. ASTRUE. Let me double check. I think it is a little 
smaller than that.
    No, you are correct, Mr. Chairman, that is about right.
    Chairman TANNER. But CDR is different from fraud; is that 
correct?
    Mr. ASTRUE. Yes, that is right.
    Chairman TANNER. Basically which means you are doing a 
pretty good job on the front end of determining who is 
permanently disabled and who is not.
    Mr. ASTRUE. Yes, that is right. And there are a fairly 
small number of cases where there is a possibility of medical 
improvement or it was borderline in the beginning. Probably 
about half the applicants, you don't realistically expect that 
there is any real chance that they will come off the rolls.
    Chairman TANNER. All right.
    Ms. Schwartz, you are recognized.
    Ms. SCHWARTZ. Thank you, Mr. Chairman, and thank you for 
this hearing.
    And I actually recall a similar hearing, I guess was it 
last year or 2 years ago----
    Mr. ASTRUE. Last year.
    Ms. Schwartz [continuing]. Where we had some of the same 
conversation, I have to say, about backlog, and I realize you 
are making some progress.
    But certainly all of us in our districts hear from 
constituents who are very frustrated by the number of days and 
obviously that they have to wait, and they are all in some dire 
straits and feel that way.
    I specifically wanted to ask you about something you 
mentioned in your opening comments which should help this 
process, and that is the use of technology and information 
technology, particularly transmission of the medical records 
and helping to expedite that situation. A couple of questions, 
if I may, on this because I have great optimism, if I want to 
put it that way, in the fact that technology in the healthcare 
field can make a very big difference in streamlining time and 
savings for all of us within healthcare delivery and personal 
healthcare, but in this situation as well, the ability to get 
that information and to review it quickly.
    Now, there are some stumbling blocks on this, and one of 
them is your own system and the degree to which you can receive 
this information. But the other, of course, is the providers 
and whether they actually have the capacity at this point to 
provide you with that information and adequate information. So 
I want you to speak to that and the timing on, again, not only 
your preparation but those who are submitting that information.
    The second question is the issue of consent and the role 
the applicant has in providing that consent. I assume they do 
it now in releasing the information, but making sure that that 
is secure. You again pointed out the degree to which there are 
opportunities for concern about privacy, but I would suggest 
that it is dealt with in healthcare situations, but maybe you 
want to speak specifically to how you handle very sensitive 
information that is now sent electronically and might be more 
readily available to others or not.
    And the third question, if you would, is to speak to, you 
are not over-anticipating the good use of technology by 
reducing the number of people you need, the personnel you need, 
because in fact, we are not quite ready to do all of this and 
whether in fact you still have the adequate personnel to handle 
the applications in a timely fashion. And while I will say that 
Philadelphia is not worst on the list by any means, in fact, I 
think we actually do, I understand, a pretty good job with the 
offices in Philadelphia and the surrounding areas; we still are 
looking at almost 400 days, 377. Now you are reducing those 
number of days. That is a lot of days for people to wait.
    So if you kept track of those questions, if you would speak 
to them. And if not, I will----
    Mr. ASTRUE. If I miss one, remind me----
    Ms. SCHWARTZ. I am very supportive of the use of technology 
and health IT. I think this is all to the benefit of my 
constituents and to those who are applying and can really help 
streamline the process for you and for your staff, but I do 
want to make sure you are prepared, that doctors' offices can 
get you that information, that you haven't reduced personnel 
too quickly in handling that, and that you have dealt with the 
issues of privacy.
    Mr. ASTRUE. First of all, let me reassure you, there is no 
substitution of technology for people. I think a lot of the 
staff here will back me up. I have been up here regularly and 
often complaining about the fact that I don't have enough 
people and that the continuing resolutions have forced us to do 
some very damaging reductions in staff. And that is why we 
added, for the first time in the back of the written testimony, 
I know it is long and it is dull, but look at the end at 
staffing patterns and the effect of the continuing resolutions. 
They really have been devastating for us. So we need as many 
people as we can reasonably get. I don't think there is any 
likelihood Congress is going to give me more than we can 
productively use anytime soon, but we also need to use the best 
technology because we need to do both. We need to simplify our 
procedures when we can, too. We need all three in order to 
provide the best service that we can at any point in time.
    Now, you are absolutely right that the health information 
technology could be incredibly important for us, and I want to 
give Deputy Commissioner Gray, who runs systems for us, credit 
because, of course, he takes heat every time a computer blows 
somewhere in the 60,000-employee agency. But he was very 
forward-thinking in realizing how important this could be for 
us. We expend an enormous amount of effort chasing down medical 
records from multiple sources, and often we make decisions on 
the basis of incomplete medical records, which is a source of 
error. People do the best they can as fast as they can, but 
there is a misunderstanding of HIPAA, too, and they don't want 
to, or they just simply don't, turn over records to us easily. 
So this is a big deal for us.
    Ms. SCHWARTZ. That may be an issue that maybe we could be 
helpful if you are not getting the kind of response you need 
from a different department, a Federal agency. Maybe that is 
something, particularly as there is new administration, a new 
health IT, a head of that office who may be more responsive on 
this and be able to work with you on that.
    Mr. ASTRUE. The key is, and maybe we should come up and 
brief you in more detail, that systems did a pilot with Beth 
Israel Deaconess Hospital in Boston, which because of John 
Halamka, who is now on our new Systems Advisory Board, is right 
in the forefront of health IT, and they have got more done 
there. We have had a pilot where we were working out the 
technical issues, privacy, security over the Internet, all 
those types of things that are raised by our using health IT 
and getting to a point where if there is a Beth Israel patient 
who authorizes us to get the records, we can push a button, and 
we have got it, and we have got a complete record. And it is a 
thing of beauty. It increases accuracy. It cuts down on 
administrative time. It cuts down on costs. And we are going to 
try to get as much of the country moving in this direction as 
quickly as we can, and it is still a work in progress. We are 
talking to 10 healthcare systems around the country to try to 
take the Beth Israel Deaconess model and use it as quickly as 
we can. And we have made some progress, I know, in Virginia. We 
have got other States as well.
    Ms. SCHWARTZ. I am running out of time here, but I just 
want to say, there are a number of healthcare systems across 
this country. Obviously we have made a major commitment 
financially in the recovery package to scale that up to 70 
percent of hospitals and 90 percent of physicians in this 
country within 10 years, but I realize that takes a while. But 
there are major health systems that do have electronic medical 
records that probably would be ready, willing, and able to help 
if they----
    Mr. ASTRUE. Most of them are not quite there yet, but we 
think they are getting there very quickly. And you know, if we 
could, for instance, duplicate Beth Israel Deaconess with one 
of the ones that are further ahead, like Kaiser Permanente, 
which is a huge operation, it would be huge for us. We have 
worked out a lot of the technical issues. Again, there is still 
some fine-tuning of what needs to be done. I don't want to 
oversimplify the tasks that we have ahead of us.
    Ms. SCHWARTZ. But you did get $40 million in the recovery 
package. I am assuming that is going to help you move ahead----
    Mr. ASTRUE. We can spend up to $40 million of our $500 
million on health IT. We would----
    Chairman TANNER. I hate to interrupt, but we have got many 
Members here, and we have got some time constraints.
    Mr. Reichert, you are recognized.
    Mr. REICHERT. Thank you, Mr. Chairman.
    In my previous life, I was in law enforcement for 33 years, 
so I dealt with a lot of people that were attempting to get 
their Social Security checks and their Social Security 
benefits. And this was a long time ago, as you can tell by the 
color of my hair, unfortunately.
    Mr. ASTRUE. At least you have hair.
    Mr. REICHERT. Good point, sir.
    I just want to give a little bit of a historical 
perspective. It seems to me, and not being very experienced in 
this whole--this is my first visit here to this Committee, and 
I am very fortunate to be here. But I think most American 
people look at IRS and Social Security, and it is a long 
history of problem after problem after problem. I don't think 
the backlog issue is something that has just occurred within 
the last 2 years or the last 4 years or 6 years or 8 years, as 
we might be led to believe by some Members here, but this is an 
issue that has been going on almost since Social Security 
began. Don't you agree?
    Mr. ASTRUE. Yes. We had hearings on this issue, if I 
remember correctly, in the 1980s, when I was with the agency, 
and it is a tough one. I think part of what is going to be 
important for us to communicate more clearly is what we think a 
proper baseline is. It does take claimants some time to get 
legal representation and to accumulate their medical records, 
and then to give them time to do their job.
    And we have had a good discussion with the advocacy groups 
about how much time that is, and they said, you know, the 
preparation time you give us is too short. So we are looking at 
270 days as the baseline for delivering a hearing, and part of 
what is factored in is probably 60 to 75 days for the 
claimants' representatives to get ready and a little time on 
the front end for them to get organized. So it is giving us 
less than 6 months to do what we need to do.
    Mr. REICHERT. When it comes to the hearing, and I am from 
Washington State, and I think our wait time is about a year and 
a half, 507-plus days or so. One of my constituents who is a 
Social Security lawyer from my district who helps people 
navigate through the disability claims process said that there 
is kind of a perception that there is a bias against deciding 
claims favorably at the early stages of the process. His view 
is that a majority of the claims will be denied at the early 
stages, and then the ALJ will later give a favorable decision. 
He says, there is a sense in the community that this is 
purposeful because it prolongs the system, and it encourages 
people to drop out, and it saves money have. Have you heard 
this before?
    Mr. ASTRUE. Oh, yes. This was a charge made in a CBS 
evening news piece a couple years ago. Interestingly, the woman 
that coined the phrase ``culture of denial'' in that interview 
cornered me last weekend in a meeting to commend us on how much 
better we were doing in the Atlanta area where she works.
    But I understand what it looks like on the other side. You 
know, you have a lot of people who, even if they don't qualify, 
are very sympathetic people, and the system is slow, and people 
get frustrated. A lot of times it gets very toxic in terms of 
how they feel toward the agency. So I understand that on a 
human level, but if anything, I think if you talk to the people 
in the DDSs there is a presumption toward allowance, not the 
other way, in these cases.
    Mr. REICHERT. Do you keep track of the dropout rate? Do you 
know----
    Mr. ASTRUE. I am not sure what you mean by the dropout 
rate.
    Mr. REICHERT. If there are people who are actually just 
giving up, falling out of the system, and saying, I just can't 
go through this any longer.
    Mr. ASTRUE. Yes, we do.
    Mr. REICHERT. Do you know what that rate is?
    Mr. ASTRUE. It depends on the period of time, and it 
changes very rapidly; so why don't we supply you with some 
information for the record----
    Mr. REICHERT. Please. And then do you attempt to extend a 
hand to these people who are dropping out, to search them out 
and bring them back into the fold? You don't have time to do 
that probably----
    Mr. ASTRUE. No, we don't do that. What we are trying to do 
is look at some places the people who don't qualify can go to 
get help. We can't have that conversation efficiently one by 
one, but we are looking through our notices and electronically 
to see whether we can provide more information to help people 
in those situations.
    Mr. REICHERT. Mr. Chairman, I yield back.
    Chairman TANNER. Thank you.
    Mr. Higgins, we are glad to have you here.
    Mr. HIGGINS. Thank you, Mr. Chairman.
    Commissioner, can you help us, you have touched on it a 
little bit, but for the sake of context, just kind of walk us 
through, generally and briefly, the process of making an 
application for Social Security disability and what follows 
that?
    Mr. ASTRUE. Sure. There has been an uptick recently. About 
22 percent of the people now file online as opposed to about 5 
percent a few years ago, and we have not improved that form 
yet. We have an improvement that is coming. It is a few months 
away. We also want to have a Title XVI application form. Now if 
you are filing for Title XVI, you have to actually come to the 
office and go there through the process.
    Typically, though, people still come into the office. They 
have an interview. Intake is done in a field office, and then 
that information is transmitted to the State DDS. We have about 
15,000 employees who are State employees but work full time for 
us deciding these cases.
    And most of those States have two levels of review: an 
initial decision and what we call reconsideration. There are 
parts of about 10 States, some States in total, some States in 
part, that from an initiative of 10 years ago, don't have 
reconsideration, called prototype States. So sometimes there is 
recon, sometimes there is not.
    When a State has made a final decision, it goes up for a 
full hearing before an administrative law judge. We get about 
650,000 of those a year. We get about 3 million disability 
applications.
    And then there is a relatively small number of cases that 
are appealed to an agency appellate board, and then they go up 
to the Federal court from there.
    Mr. HIGGINS. It sounds very bureaucratic. Is it necessary? 
Could the process be streamlined?
    Mr. ASTRUE. Well, it is a bit of a Holy Grail in the 
agency. And one of the problems with a lot of the efforts to 
make it better is that the law of unintended consequences kicks 
in, and it has made it worse. So we are constantly looking at 
efforts to streamline.
    Some of the most dramatic streamlining probably would have 
to come from this room. Right now, I try to work within 
consensus and try to make the system within the consensus work 
as compassionately and quickly as possible. A lot of the things 
that you would need to do in order to cut out a lot of that 
would require legislative change.
    Mr. HIGGINS. You indicated you went from 5 to 22 percent 
for those applying online?
    Mr. ASTRUE. For disability, that is right.
    Mr. HIGGINS. Ideally what is the goal there relative to 
online?
    Mr. ASTRUE. There is no goal. My feeling is it is a choice 
for individuals, and that we should provide the best service in 
the office and the best service we can online. We are not where 
we want to be online with the disability yet, but we will be 
fully at some point next year.
    Mr. HIGGINS. Assuming you were fully funded, what would be 
the likely time from one's making an application to a final 
disposition on said application?
    Mr. ASTRUE. Well, I think that the biggest opportunity for 
collapsing the time up front for the biggest number of people 
is exactly what Congresswoman Schwartz mentioned. An enormous 
amount of time, effort, and money is spent chasing down 
scattered amounts of medical records on paper in lots of 
different locations, a lot of the time the claimant doesn't 
know where the medical records are, and our people do fairly 
heroic work trying to chase those down for the claimants. If we 
can eliminate that and go to a centralized single record for 
most Americans it would be huge.
    We have been cutting down the time in the DDSes, but 
ballpark a little under 100 days first go round; probably a 
little under 100 days for recon. We might be able to cut that 
by two-thirds if we can really integrate with electronic 
medical records in the way we think we can in the next 2 or 3 
years.
    Mr. HIGGINS. And the shame is, I mean, this is obviously, 
this is a systemic problem, but it hits probably the most 
vulnerable population of folks. And we have a situation in 
Buffalo that is unacceptable on its face, and while some good 
progress has been made, it is only within the context of a 
horrible situation that we started with. Progress is being 
made, which I think is good, but obviously, this is not a 
problem unique to Buffalo but obviously hits a place like 
Buffalo particularly hard as well.
    Mr. ASTRUE. The other thing that is important, I think the 
agency historically had a fairly high threshold for defining in 
its rules whether someone was disabled or not. We had to see a 
lot of cases of that, and my view is that that is wrong, that 
cumulatively there are an awful lot of cases that we weren't 
giving guidance on, and that is where an awful lot of the error 
and an awful lot of the delay was.
    So we are not just making the medical listings more 
current; we are trying to drive them down into a lot more rare 
diseases and conditions. We know a lot of those are 
automatically disabling. We are trying, with electronic 
screening to just pick those out and allow those. And as I said 
in my testimony, we are about at 4 percent now. We have gone 
from 2.7 to 4 percent in the last year. We were at zero the 
year before. We think we can get 6 to 9 percent of the cases 
decided in that way. Right now, it is an average of about 10 
days. We are hoping we can do that a little quicker. We have 
got some old rules that are process rules that we are looking 
at getting rid of, and so we might even be able to take that 10 
days and make it 5 days, and if we can do that, we will.
    Mr. HIGGINS. Thank you, Commissioner.
    I yield back.
    Chairman TANNER. Mr. Lewis, you are recognized.
    Mr. LEWIS. Thank you very much, Mr. Chairman. And, Mr. 
Chairman, I want to thank you for holding this hearing today.
    Mr. Commissioner, how long have you been commissioner?
    Mr. ASTRUE. A little over 2 years.
    Mr. LEWIS. Over 2 years.
    Mr. Commissioner, as you know, I represent metro Atlanta. 
The Atlanta and Atlanta North hearing offices have some of the 
worst backlogs in the Nation. Although there has been some 
improvement, not much since the last time that you were here.
    Mr. ASTRUE. Actually, Mr. Lewis, I think I would disagree 
with you. When I had my first hearing here just over 2 years 
ago, Atlanta and Atlanta North were the two worst in the entire 
country. Atlanta was at 900 days, and Atlanta North was a 
little bit south of that. Today we have cut almost a full year, 
in 2 years, off the Atlanta times, and we are at about 667, if 
I remember correctly, for Atlanta North.
    I agree with you that that is not acceptable, but we have a 
new office coming that we are calling Atlanta South, and it is 
centered in the Covington area. When that office opens, we 
ought to have all the offices in the Atlanta area, I would 
think, better than the national average. So we are making a lot 
of effort in Atlanta, a big effort with the National Hearing 
Center. We put four electronic hearing rooms into the Marietta 
field office to try to accommodate that. We have put an 
extraordinary effort into trying to improve what was 2 years 
ago the worst situation in the country, and it is not now.
    Mr. LEWIS. Mr. Commissioner, in Atlanta, I believe people 
are waiting 561 days. In Atlanta North, they wait 668 days for 
a hearing. People shouldn't be waiting that long.
    Mr. ASTRUE. I agree with that, but it is significantly 
better than 2 years ago and----
    Mr. LEWIS. I am not going to argue with you. It is better. 
But it is not much better. Waiting that long is too long.
    What has been done in Atlanta to address the issue? I am 
frustrated. I keep hearing talk about the union, GAO, OMB. Have 
you asked for more money during the past 2 years, more 
resources?
    Mr. ASTRUE. Absolutely.
    Mr. LEWIS. Do you get it?
    Mr. ASTRUE. Not very promptly. I mean, you have to 
remember, for the first 6 months of this year, we have been on 
a continuing resolution. Last year we got $148 million over the 
President's budget. I went back to OMB to ask for authority. 
That budget was not mine; that was Commissioner Barnhart's 
budget. But to argue for $100 million over the President's 
budget, it is very unusual to get that permission, and we got 
it.
    So I have been fighting for this agency's resources, and we 
have been trying to put them where they should have been for 
decades. And Atlanta has always been number one on my list. 
And, you know, in the first group of new hearing offices we 
approved was Atlanta South to take the pressure off of the 
Atlanta downtown and Atlanta North offices.
    So it is going to take time for the permanent solution. But 
in the meantime, we are using Office of Quality people to prep 
cases. We have had the National Hearing Center, the first test 
of the National Hearing Center with Atlanta downtown cases. We 
have put in an extraordinary effort in the short run to 
bringing those horrendous numbers down. We have made progress. 
I agree with you; it is not good enough. But there is more 
coming, and we are doing the best we can as fast as we can.
    Mr. LEWIS. As you take a long hard look, what are you doing 
about planning for the future in terms of resources, dollars, 
people, space?
    Mr. ASTRUE. We try to have, I think, a much more 
disciplined strategic planning process than we have had before. 
I think, in the past, the agency's strategic plan, which was 
required by OMB, was not much more than a revision of the 
budget document. We didn't do that. We went through a very 
serious process to say, what are our long-term needs? What are 
we not looking at that we need to plan for? And there are a 
number of things that we are doing now over the long run that 
are only going to make my life harder in the short run because 
I am not going to be here to get the benefit: replacement of 
the National Computer Center, and replacement of the Dictionary 
of Occupational Titles, which the Department of Labor stopped 
updating in 1991.
    So we are tackling a number of things where the agency had 
not been focused on what we needed to do over the long run to 
deliver service to the American people, and we have tried to 
identify those through our planning process and suck it up to 
make the investment even though there is a lot of pressure to 
put money in a lot of other places in the agency right now. We 
are trying not to forfeit the long-run future of the agency.
    Mr. LEWIS. Is there anything that can be done to make the 
decision in the front end rather than at the back end?
    Mr. ASTRUE. Yes. We are doing that as best we can. And, 
again, we have new systems in place to try to define those 
cases that ought to be automatic up front. That has gone from a 
small pilot with a handful of cases in 2 years to, now, 4 
percent of the country is benefiting from that, and our goal is 
to get that from 6 to 9 percent in the next few years. So that 
is a matter of updating and being much more specific and much 
more detailed about the medical listings, and we have been 
doing that, and we have been doing that extremely quickly. So 
that is one example of what we are trying to do.
    We also have some new computer systems in place that are 
promising in terms of queuing and reminding examiners on the 
front end what they need to do and what they need to document 
to lift the quality of the cases. Not quite ready for prime 
time, and we have a problem right now in that we have 54 
separate IT systems for the States. And it means, every time we 
have something that can improve processing, it is long, slow 
and expensive to roll it out. So what we are trying to do, and 
we have got the States behind us now---this failed once before 
10 years ago--is to develop a common IT system to get away from 
the COBOL, to get away from the legacy systems, and to get to a 
Web-based system for all the States that, when we have things 
that will improve things for claimants, we can roll it out very 
quickly.
    Right now, I can't. The money and the technology won't let 
me do it. So that is why it is really important that for these 
IT improvements, we get as much support as possible and the 
States stay behind this. Otherwise, the improvements that the 
smart technical people can make aren't going to get out there 
very quickly to help people, and that is what I want to do.
    Mr. LEWIS. Thank you, Commissioner.
    Thank you Mr. Chairman.
    Chairman TANNER. Thank you.
    Mr. Meek, then Mr. Davis, and Mr. Becerra.
    Mr. MEEK. Thank you, Mr. Chairman. And I am glad we have 
the witness back once again.
    I was here 2 years ago when you testified before us. And as 
you know, I am from Florida, and actually, your office is right 
across the parking lot from my office, so I do get a firsthand 
dose of individuals that are very concerned with the lack of 
movement.
    I was handed a national ranking report here, average 
processing time, and I am looking at this, and I can't help but 
notice, and I will start with Orlando, it says, in region 4, we 
have 476 days to process, and I would even go beyond that, 
because if you look at it from days, you really can't get a 
full appreciation for the time that people have to wait. So 
that is 111 days over a calendar year. You look at 
Jacksonville, region 4 again, it is 492 days. That is 120 days 
over a 12-month calendar year. You look at Tampa, 532, which is 
167 days over a calendar year. And the offices right across the 
street from mine, right across the parking lot from my office, 
has 674 calendar days, which is almost 2 years, just short of 2 
years, 309 days over a 365-day calendar year.
    When you are dealing with individuals, and as you all know 
and everyone over at the department knows, you are dealing with 
folks that 9 times out of 10 are dealing with the muddiness of 
life, and they are trying to make a claim, and guess what? A 
super majority of those individuals that come to my office end 
up winning their appeal. And I can't help but think that this 
has to be a major concern of yours and the department.
    Now, I know you are here asking us to do things, and I 
believe we have and we will continue to do things as we make 
life better for the agency. But I can tell you it is just truly 
hard for Members, for them to repeat what you have already 
said, that we understand, we understand we have a problem; we 
understand, we are trying to work through it, but there has to 
be a way that we can look at these appeals at a faster rate, 
especially now in this bad economy.
    So I wanted to ask you, as it relates to our financial 
situation, our present footprint right now in this economy and 
the individuals that are filing that are being denied, that are 
being placed in the appeal process, has there been any change 
whatsoever, any consideration taken by Social Security as it 
relates to these claims that have been made of understanding 
the financial strain that these applicants are under right now?
    Mr. ASTRUE. We do understand the strain that people are 
under, and that is why we have more and more mechanisms for the 
people who are truly entitled to try to identify them on the 
front end and pay them their benefits as close to immediately 
as possible. It is still a very difficult statutory standard. 
There are a lot of very sympathetic people who don't qualify 
for benefits, and that is your choice. It is a very expensive 
one. What we try to do is implement the statute as fair and 
square as possible. It has been difficult with the resource 
levels.
    Now, Florida is one of the States, as with Georgia, 
Michigan, and Ohio, that has been systematically under-
resourced over the years, and we are moving to address that. So 
in the first round of new hearing offices there was 
Tallahassee, and in the second round we sent to GSA was the 
Tampa-St. Petersburg area. So there is help coming, 
approximately 15 additional administrative law judges for the 
State of Florida.
    I think it is a credit to the people in this agency that, 
with this economy, they are still making service improvements 
and that we haven't had a significant deterioration in 
service--we have been making small progress. And that has also 
been in a time of very tight dollars. Until 2 weeks ago, I was 
well into my 3rd year as a Commissioner with one appropriations 
bill. I have spent the majority of my time managing this agency 
under a continuing resolution and that forces hiring freezes. 
That chokes off the very people who can help the people that 
you want to help.
    Now, again, I am not criticizing this Committee. This 
Committee and the Finance Committee have been extraordinarily 
useful in making the case to your colleagues, but I think a lot 
of your colleagues in the Congress still don't understand what 
they have been doing to this agency, and we need you and the 
others on this Committee to continue to be our advocates. We 
can't do it without your help. If we are back on continuing 
resolutions, you are just going to see the quality of the 
service go down.
    Mr. MEEK. Thank you, Mr. Chairman.
    I just wanted to make sure that the witness was able to 
share with us what we may need to know, maybe not necessarily 
what we all want to hear. But I think, at the same time, we are 
properly motivated; I know I am, because many of our cases 
outside of immigration cases in Florida that come from my 
district offices are dealing with the very claims that we are 
talking about here today, and I just wanted to make sure that 
there was maybe more license to be extra sensitive in these 
very hard times.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you, Mr. Meek.
    Mr. Davis, I am pleased to recognize you, sir.
    Mr. DAVIS OF ILLINOIS. Thank you very much, Mr. Chairman.
    And let me just agree, Commissioner, that continuing 
resolutions do hamper movement into projected budget activity 
for the coming year or even the year that we might be in.
    When I look back, though, it seems to me that decreased 
funding back during what I would call the Bush Senate kind of 
started us to escalate in relationship to a backlog. I was also 
thinking that we have had a lot of conversation in relationship 
to increased applications due to the recession. Let me ask, 
what specifics do you plan to put in place or do you have in 
place to make use of the stimulus money that is going to come 
to the agency? And how do you view that helping to reduce the 
backlog?
    Mr. ASTRUE. So here is the good news and the bad news. We 
need more people. As of a couple weeks ago, we had the money to 
do it. We are working as hard as we can to go out and try to 
hire about 5,000 people before the end of the fiscal year, and 
we will probably fall a little bit short. That is huge for us. 
We have had to move people around just to put the 
infrastructure back in to hire at that level. So we are trying 
to do that. We are also assuming, and you know I may hang on to 
regret this, that Congress will accept that we need more of 
this infrastructure in the baseline in the hearings office. And 
if we end up being told we have overbuilt and we are back, you 
know, on level funding again, then there will be consequences 
for having built up that infrastructure. But we have decided to 
take the leap of faith that Congress is sufficiently concerned 
about the backlog, that when you say we need 15 percent more 
capacity than we had a couple years ago, that Congress will 
continue to support that, and that is pretty critical for us.
    Mr. DAVIS OF ILLINOIS. I couldn't help but perk up a little 
bit when I heard my friend from Atlanta, Mr. Lewis, indicate 
that he was frustrated. And I said to myself, if he is 
frustrated, then I must be devastated because when I look at 
the Chicago experience and I look at the fact that we have 
actually gotten worse by 95 additional days, then when I hear 
that there are plans to open some new offices in the Midwest 
region or in the Chicago land area, but those offices are not 
scheduled for Chicago. As a matter of fact, they are scheduled 
for other locations, and it is my understanding that the 
decision is based upon under-allocations or the fact that they 
may have not been adequately staffed earlier. But it seems to 
me that if we have gotten 95 days worse in terms of a waiting 
period in Chicago, something must already exist or something 
must be going on that caused this discrepancy.
    Mr. ASTRUE. Sir, the way we are doing this is the way that, 
if we could all get in a room, we would agree is the right way 
to do it. We are trying to work down from the places where the 
wait is the worst and come down. So we still have a placeholder 
for two more, possibly three more hearing offices. The staff 
came up with the four recommendations. I took a quick look at 
that, and I looked at the national numbers, and I am concerned. 
This next round, the Chicago area is one of the ones that we 
need to have a discussion about. There is a placeholder for 
discussion. The straw man right now is for Gary, Indiana, 
because ODAR doesn't respect State lines. Chicago is supporting 
Indiana across the state line, and we are trying to have a 
conversation about, if we do do it in the Chicago area, what 
makes the most sense? How does that line up against the other 
four?
    So I can't tell you that we have made the decision to do 
that, but I don't disagree with you that you are in the next 
tier of offices where we need to think about additional 
support, and we may make that decision within the next few 
weeks. So we are close, but we are not there yet.
    Mr. DAVIS OF ILLINOIS. Well, let me thank you very much.
    And let me thank you, Mr. Chairman.
    And let me say, I certainly empathize with Gary a great 
deal, but I always, my mother, who told us that charity begins 
at home and spreads abroad, so I have got to be concerned about 
Chicago. Thank you very much.
    Mr. ASTRUE. Thank you.
    Chairman TANNER. Mr. Becerra.
    Mr. BECERRA. Mr. Chairman, thank you for holding this 
hearing.
    Commissioner, thanks for being with us again. Let me just 
repeat a few things. One million three hundred Americans 
waiting for a decision on their application for disability 
benefits; taxpayers, seniors, people who have contributed to 
the system that makes it possible for you and I to be here to 
talk about a disability system for Americans who have worked 
and now have become disabled. One million three hundred 
thousand of them waiting for a decision on whether they can 
finally receive benefits for which they paid when they were 
working. Total wait time on an appeal of a decision, as long as 
2 to 4 years. Since 2000, the number of people waiting for a 
hearing on their disability claim has more than doubled from 
310,000 to more than 765,000, as of February 2009.
    For far too many years, Commissioner, this government had 
disrespected taxpaying Americans, American seniors, who have 
earned the right to have a disability claim adjudicated. And I 
am not here to blame you or anyone within Social Security. What 
I am here to say is this: We can't do this anymore. You cannot 
come and testify and not ring the bells if you are not getting 
the resources you need. We are now trying to play catchup. We 
have a new President, a new Congress, and we are now trying to 
play catchup after years of underfunding the work you need to 
do to give Americans who pay taxes their right to a decision, 
yea or nay, on whether they qualify for disability benefits 
which they helped make possible through their taxpayer dollars.
    You need to speak up. You can't allow the administration, 
and I know you are constrained because the White House in years 
prior, the Office of Management and Budget, which handles the 
budget that the President submits, in years prior has made it 
difficult for you to speak. I hope with this new administration 
it will be different and you will be able to speak a lot louder 
because you can't catch up in 1 year for years of neglect of 
this agency for services people are entitled to. You need to 
speak up.
    Secondly, never again should we allow a White House and the 
administration or any Congress to tell seniors they have got to 
wait 2 to 4 years to have a disability claim adjudicated. Last 
year, actually 2 years ago, we finally got you more money than 
the President had requested in his budget for the Social 
Security Administration, but that was after several years of 
the President's not even seeking the money that you needed and 
you had told him you needed. So it is ridiculous for us to 
believe that this new President with a new Congress can undo 
years of neglect, but we have got to start.
    So when we come to you and say, by the way, you are going 
to do disability claims, you are going to adjudicate those, and 
on top of that, we are going to ask you to also administer the 
Medicare prescription drug program, we need to give you 
personnel because you can't ask someone to be doing 
adjudication and then be pulled off of that to go do Medicare 
prescription drug management of a program. When we say to you, 
you need to verify the work status of all people who want to 
work in this country to make sure that they are entitled to be 
in this country and work and to go through the E-Verify system 
and ask you to handle some of that load, you have got to then 
say, well, then you have got to give me some personnel and 
resources because, otherwise, I am pulling people away from 
disability claims for Americans who are waiting to hear whether 
they are going to get their assistance or not to do the work of 
verifying individual status to work in this country, which we 
must do. But you have got to shout and say, don't expect me to 
do all these things without getting the money.
    I think it is unfortunate that we have underfunded you $1.3 
billion for close to the last 10 years. It wasn't until, as I 
said, 2007 that you got, in fiscal year 2008, $150 million 
extra, but your staffing levels by the end of 2007 had dropped 
to levels not seen since 1972. And in that time since 1972, the 
population you are dealing with has more than doubled. So we 
have got to do something. You have got to be forceful.
    When we ask you a question, do you need resources, you have 
got to give us a straight answer. And I know you are limited, 
but this is just not right. You have got people who are 
disabled, who are waiting to hear on their claim, and it is 
frustrating because it is not your fault. It is not the good 
people who work for the Social Security Administration's fault. 
It is the fault of this Congress and the fault of previous 
administrations for not giving you the resources you needed. We 
shouldn't shortchange people because politically here in D.C. 
the tough decisions are not made.
    I have consumed all of my time, Mr. Chairman. I apologize. 
I don't know if the commissioner wanted to respond to anything.
    But it is just very frustrating because you can't just nod 
your head one way or the other if we ask you, do you need 
resources, and you know you are crying for more and you say we 
think we can make due or we are going to try to do the best we 
can with what you give us. That is not good enough.
    Mr. ASTRUE. If I can just try to take a minute, Mr. 
Chairman, to respond to that.
    So I understand that you are trying to help me here. My 
view is I have spoken up loud and hard for this agency. I don't 
grandstand because----
    Mr. BECERRA. Have you told us how much you need for this 
year? How much you need, not what you requested.
    Mr. ASTRUE. You are talking about fiscal year 2010?
    Mr. BECERRA. Yes.
    Mr. ASTRUE. Fiscal year 2010, my request, it gets 
complicated. I made two requests. We did one in September, and 
I wanted to go in September so it would be bipartisan so no one 
would say, it is an Obama budget or it is a McCain budget. The 
world changed between September and January. I redid the 
budget. I asked for substantially more money on the basis of 
the economic conditions and submitted it a second time. We have 
even informally tweaked it up a little bit since then.
    And you are right, I am constrained. I will say that we are 
very much in sync with this administration in what we think 
needs to be done in this agency. This is a 10-percent increase 
in terms of what the President has recommended. And I remind 
you that, when I got here, we had 15 straight years where the 
Congress was under the President's budget. When I started here, 
there was a furlough warning. There was a continuing resolution 
the whole year, and I spent an enormous amount of time 
groveling to get money from the pool for the emergency release 
so I wouldn't have to furlough my people.
    That is the baseline where I started; 2008 had already been 
submitted. I went back and got informal permission to go for 
$100 million more, and we ended up with $148 million more, and 
there was no veto threat on that. And I try not to grandstand 
and take credit. And a lot of people deserve credit for 
improving the situation in the agency. In fiscal year 2009, we 
got a 6.5-percent increase at a time when the domestic agencies 
were almost all at zero or cut. So we got a significant 
increase last year, and this year, we are in sync at a 10-
percent increase with this administration. So, you know, I may 
not get up and yell at public events about the--I don't think--
--
    Mr. BECERRA. What about privately then----
    Mr. ASTRUE. Well, I have been known to have a temper 
occasionally.
    Mr. BECERRA. Just defend your people and your mission. We 
want to be there for you.
    Mr. ASTRUE. And I agree with you, and I believe that I have 
tried to do that. And at some point, the question of your 
effort and your competency is the outcome, and I think we have 
had good outcomes the last 2 years. These are the 2 years that 
I have had to influence the budget.
    Mr. BECERRA. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman TANNER. Mr. Commissioner, I am going to thank you 
for your time and your testimony, and I hope you will be 
receptive if any of the Members have a written follow-up.
    Mr. ASTRUE. Absolutely. Thank you, Mr. Chairman.
    Chairman TANNER. Commissioner, thank you.
    We have about an hour left in this room, so I appreciate 
the panel's being so patient with us. If they would, please.
    We have the Honorable Patrick O'Carroll, who is the 
Inspector General of the Social Security Administration. We 
have Mr. Dan Bertoni, the Director of Disability Issues, 
government Accountability Office; Ms. Peggy Hathaway on behalf 
of Consortium for Citizens with Disabilities Social Security 
Task Force. We have the Honorable Ron Bernoski, the Association 
of Administrative Law Judges from Milwaukee; Mr. James Fell, 
Federal Managers Association Chapter 275; and Mr. Rick 
Warsinskey, the National Council of Social Security Management 
Associations, Incorporated, from Cleveland.
    What the Chair chooses to do is call on the panel in the 
order in which I have introduced them for their statements. All 
of you will have any statement you wish to submit for the 
record included in its entirety without objection.

    [12:36 p.m.]

    Chairman TANNER. If you could hold your comments to 5 
minutes, the panel would very much appreciate that.
    So, with that, Mr. Johnson, do you have an opening 
statement?
    With that, Mr. O'Carroll, welcome and thank you for being 
here. You are recognized.

 STATEMENT OF THE HONORABLE PATRICK O'CARROLL, JR., INSPECTOR 
            GENERAL, SOCIAL SECURITY ADMINISTRATION.

    Mr. O'CARROLL. Good morning, Chairman Tanner.
    Good morning, Mr. Johnson.
    Let me first thank you for this invitation to testify 
today. It is a pleasure to be here in front of both 
Subcommittees. With so many new members, I want to take just a 
moment to introduce SSA's Office of the Inspector General. We 
are 600 auditors, investigators, attorneys and other 
professionals. Our mission is to prevent and detect fraud, 
waste, and abuse.
    In February, Chairman Tanner was gracious enough to meet 
with me to discuss issues of mutual concern.
    Mr. Chairman, you mentioned a constituent who contacted you 
wanting an assurance that disability benefits are paid only to 
those entitled to them and that the stimulus funds provided to 
SSA are spent well and wisely. My testimony today is directed 
at that constituent and at the millions of others just like 
her.
    I would also like to thank Congressman Brady. Last week, 
Mr. Brady was kind enough to visit one of our offices that best 
illustrates the partnership we have forged with SSA and with 
State and local agencies to combat fraud.
    Our Houston Cooperative Disability Investigative Unit, or 
CDI, is one of 20 such units around the country that we formed 
in partnership with SSA more than a decade ago. CDI Units 
detect fraud at the initial application stage before any 
benefits are paid. With a return of $14 for every dollar 
invested, CDI units make sound fiscal sense. I thank Mr. Brady 
for his interest and his visit, and extend to all of you the 
same invitation to visit any of our CDI units. We will show you 
firsthand why there should be more.
    Both fraud and improper payments in the Title II and Title 
XVI disability programs are the focus of many of our efforts. 
Before I address the backlog, I would like to briefly mention 
some of our work in this area. Recent and ongoing audits 
looking at improper payments resulting from unreported wages 
and assets, unreported changes in living arrangements, and 
recipients residing outside of the United States are 
representative of our integrity work in the SSI area. And 
audits like the current one, reexamining how well SSA reacts 
when earnings are reported on a disability beneficiary's 
account, are representative of our integrity work in the Title 
II program.
    Since our inception in 1995, we have worked to ensure that 
SSA strikes an appropriate balance between its world-class 
service and stewardship. For this reason, our work is not only 
integrity-based, but conducted with the full awareness that 
service is just as important.
    The disability backlog, about which I testified twice last 
year, is currently the IG's highest priority, just as it is 
SSA's. We recently published an audit examining the entire 
disability process from the claimant's perspective and found 
that, while decisions on initial claims are made within 131 
days and decisions made on reconsiderations take 279 days, 
requesting a hearing before an ALJ means, on average, a wait of 
over 800 days. These numbers make it clear that much more needs 
to be done.
    As a result, we are conducting multiple audits aimed at 
providing SSA and Congress with information and recommendations 
to reduce the disability backlog. For example, at a hearing 
last year, a Subcommittee Member raised valid concerns about 
the effect of these long waits on disabled claimants. We are 
now conducting an audit in which we are interviewing 550 
disability applicants to learn about their experiences. Another 
current audit is examining the effects of States' decisions to 
furlough DDS employees. Five States have already implemented 
such furloughs, creating further delays in the disability 
determination process.
    In other ongoing audits, we are looking at optimum staffing 
ratios and skill sets in hearing offices; SSA's e-Pulling 
pilot; reasons why four particular types of disabilities create 
a disproportionate number of ALJ reversals; and the 
effectiveness of video hearings on productivity.
    Also, the American Recovery and Reinvestment Act provided 
SSA with $500 million to process disability and retirement 
workloads. As soon as SSA presents its plan for its use of 
these funds, my office will begin a series of audits to assess 
that plan.
    Mr. Chairman, you can tell your constituent we will be very 
thorough. I thank you again for this invitation to testify 
today, and I will be happy to answer any of your questions.
    [The prepared statement of Mr. O'Carroll follows:]
    Statement of The Honorable Patrick O'Carroll, Inspector General,
                     Social Security Administration
    Good Morning, Chairman Tanner, Chairman McDermott, Congressman 
Johnson, and Congressman Linder. Let me first thank you for your 
invitation to testify today. Your committees are staunch supporters of 
the work of the Office of the Inspector General, and I look forward to 
working with all of you on the many critical issues of great concern to 
us all.
    Of the 27 members of the two subcommittees, I am testifying before 
20 of you for the first time. While I won't take up much time with 
background information, I do want to take the opportunity to introduce 
the Social Security Administration's (SSA) Office of the Inspector 
General, or OIG, to those of you new to these committees. In business 
since SSA became an independent agency in 1995, the OIG is currently a 
team of 600 auditors, investigators, attorneys, and other professionals 
dedicated to our statutory mission--preventing and detecting fraud, 
waste, and abuse in SSA's programs and operations. Over the years, our 
audits and investigations have uncovered billions of dollars in fraud, 
improper payments, and Federal funds that can be put to better use. I'm 
extraordinarily proud to head an organization that works so tirelessly 
to protect the integrity of these government programs that touch the 
lives of nearly every American.
    In February, Chairman Tanner was gracious enough to meet with me 
and discuss issues of mutual concern. During that meeting, Mr. 
Chairman, you mentioned a constituent who had contacted you, wanting an 
assurance that disability benefits are paid only to those entitled to 
them, and that the stimulus funds put to that use are spent well and 
wisely. My testimony today is directed at that constituent, Mr. 
Chairman, and at millions more like her.
    While I'm always pleased to testify before the Social Security 
Subcommittee, I'm particularly pleased to be here before the 
Subcommittee on Income Security and Family Support as well. The Title 
XVI Supplemental Security Income program has been off the Government 
Accountability Office's high-risk list for years now, but this has not 
slowed the OIG's work on SSI issues. In addition to the audits related 
to the disability backlog that I will discuss today--most of which are 
equally applicable to Title II and Title XVI disability applicants--we 
have conducted several recent audits focused on the integrity of the 
SSI program.
    Last week, Congressman Brady was kind enough to visit one of the 
offices that best illustrates the partnership we have forged with SSA 
to combat fraud. Our Houston Cooperative Disability Investigation unit, 
or CDI, is one of 20 such units around the country that we formed in 
partnership with SSA more than a decade ago. Each is composed of an OIG 
Special Agent who acts as team leader, employees from SSA and that 
State's Disability Determination Service (DDS) who act as programmatic 
experts, and State or local law enforcement officers. Tapping the 
skills of each member, the CDI units receive benefit applications 
flagged as suspicious by the DDS and, where appropriate, investigate.
    Designed to detect fraud before benefits are ever paid, the CDI 
units have been an overwhelming success. Several years ago, the 
Government Accountability Office recommended expansion of the CDI 
program to all 50 states, and I share their enthusiasm. With a return 
of $14 for every dollar invested, CDI units make sound fiscal sense. I 
want to thank Mr. Brady for his interest and his visit, and extend to 
all of you the same invitation to visit any one of our 20 CDI units.
    The issue we're discussing today, however, is primarily one of 
service to the American public. Service is SSA's hallmark, and for 
fourteen years, we have urged SSA to strike an appropriate balance 
between that service and the stewardship incumbent upon a program that 
pays out over half a trillion dollars a year. Over that time, the OIG 
has always been there to help correct the Agency's path when its focus 
on service has threatened to overtake its commitment to stewardship. 
While the disability backlog is first and foremost a service issue, it 
also carries important integrity issues over which my office keeps a 
careful watch.
    Therefore, I will address both service and integrity aspects of the 
backlog in my testimony today. I'll be discussing the work that the OIG 
has completed, and the work we have underway, that is designed to 
provide information and recommendations to the Agency and to Congress 
with respect to improving the entire disability adjudication process. 
To do so, I'll speak first to the overall processing time for 
disability claims, then to factors related specifically to the hearing 
process, and finally, to a number of related audits in which the focus 
is on integrity, rather than service alone.
OIG Reviews Involving the Overall Processing Time for Disability Claims
    Our December 2008 report, Disability Claims Overall Processing 
Times, examined for the first time not merely the appeals process--
where most of the backlog exists--but the entire process of 
adjudicating a disability claim. Looking at the process from soup to 
nuts, we sought to determine SSA's average overall processing time for 
disability claims decided at the initial DDS level, upon 
reconsideration at the DDS, by an Administrative Law Judge, by the 
Appeals Council, or by a Federal Court--all of the stops at which a 
claim can be decided. This, we felt, would give a true claimant's-eye 
view of the entire process from when the claimant filed an application 
until SSA issued benefits or the claimant stopped appealing.
    We found that the average claim adjudicated in 2006, when decided 
initially by a DDS, was concluded in 131 days, but that if a claim was 
adjudicated upon a request for reconsideration, that time more than 
doubled, to 279 days. If a claim was appealed to an ALJ, the 279-day 
wait almost tripled, to 811 days, or 2.2 years. A trip to the Appeals 
Council (the last step under SSA's control) increased the total time to 
1,053 days, while a Federal Court appeal stretched the wait to just 
under five years: 1,720 days.
    We recommended that SSA publish this measure to show disability 
waiting time from the claimant's perspective, to better inform Congress 
and the public.
    We also have two audits underway that address overall claims 
processing time. The first, Impact of the Claims Process on Disability 
Applicants, stems from an issue raised by the Social Security 
Subcommittee during my testimony at a September 2008 hearing. The 
Subcommittee was concerned about the effect of the arduous disability 
adjudication process on already-disabled claimants. I share those 
concerns, and to address them, we are conducting a review in the course 
of which we will interview 550 randomly-selected disability 
beneficiaries. Of the 550, 250 had claims adjudicated at the DDS, 
either at the initial or reconsideration stage, another 250 were 
adjudicated by ALJs, and the remaining 50 were decided by the Appeals 
Council or a Federal Court. Our interviews are designed to elicit from 
these individuals information about their experiences in obtaining 
benefits and the effect those experiences had on them. We anticipate 
publication of this report in August of this year.
    Our second ongoing project in this area is a Quick Response 
Evaluation entitled Impact of State Employee Furloughs on SSA's 
Disability Programs. As you are aware, several States have implemented 
furloughs of their employees. In some of these states, the furloughs 
include employees of the State's DDS. The Commissioner sent a letter to 
each of the relevant Governors, reminding them that SSA, not the 
States, pays 100 percent of the costs of processing these disability 
workloads. In addition, SSA's Regional Commissioners urged their States 
to exempt DDSs from hiring restrictions and furloughs. Nevertheless, 
our preliminary findings indicate that of the 52 DDSs, five were 
experiencing furloughs, three were still under furlough consideration, 
and 44 either were not furloughing employees, or the DDSs had been 
exempted. Unfortunately, the five States that decided to furlough their 
DDS employees--California, Maryland, Massachusetts, Oregon, and 
Connecticut--comprise 15 percent of the national DDS workload each 
year.
    The impact of these furloughs on beneficiaries is apparent in our 
report, which will be issued shortly. For example, we found that 
California will encounter a shortfall of capacity of 10 percent due to 
furloughs. We estimate that this will delay over 2,300 applications 
from being processed, of which we estimate 776 would result in 
allowances. Those 776 beneficiaries will be forced to wait to receive 
their $648,000 in monthly benefits as a direct result of the furloughs.
    Since January 1, 2009, California's initial claims pending have 
increased by 9.7 percent and its reconsideration claims pending by 16.1 
percent as a result of increased applications and the State furloughs.
OIG Reviews Related to the Hearings and Appeals Process
    While issues surrounding the DDSs and the processing of both 
initial claims and requests for reconsideration are material to the 
overall backlog, the findings in our soup-to-nuts review establish that 
the real delays begin when an appeal is filed--it was at this stage 
that the processing time jumped from 279 to 811 days. As a result, the 
majority of our work related to the disability process focuses on this 
stage of the claim.
    In recent years, we have conducted a number of reviews in this 
area, studying ALJ productivity, hearing office performance, timeliness 
of medical evidence, and other factors. Our past work in this area can 
be viewed online at http://www.ssa.gov/oig/office_of_audit/
issuesmanage.htm, or I'd be happy to provide any of the Members with 
hard copies of any report.
    Today, however, I'd like to look ahead by sharing some information 
about the work we have in progress in these areas, in addition to the 
aforementioned audit on the impact of the process on disabled 
beneficiaries, which bridges the initial adjudication and the appeals 
processes.
    Electronic File Assembly, often referred to as e-Pulling, is a 
pilot initiated by SSA and designed to improve the process by which 
disability claim files are assembled and prepared for an ALJ hearing. 
Customized software, piloted at seven locations in the summer of 2008, 
is being evaluated by SSA to determine when e-Pulling should be 
implemented nationwide. The OIG is assessing the results of the pilot, 
as well as whether SSA's assessment procedures are effective with 
regard to making decisions about a nationwide rollout.
    In another review, we are studying the age of pending claims caught 
in the disability backlog and identifying obstacles that have prevented 
the oldest claims from moving forward. Our review, which includes 
hearing offices with the most aged cases and those with the fewest, is 
designed to identify best practices and make recommendations for 
reducing the number of aged cases.
    Hearing office performance and staffing is an issue we touched upon 
in our 2008 audit, ALJ and Hearing Office Performance. In that audit, 
we found that staff ratios and staff performance were ignificant issues 
in determining a hearing office's processing time.&n an audit now 
underway, we are delving deeper into these specific issues.&ur goal, to 
be accomplished through extensive field work in hearing offices across 
the country, is to identify optimum staffing ratios and staff skill 
sets to maximize hearing office performance.
    In an earlier analysis of DDS determinations, we determined that 
there were four impairments that, when denied by the DDS, were most 
likely to be reversed by an ALJ: disorders of the back, osteoarthritis 
and allied disorders, diabetes mellitus, and disorders of muscle, 
ligament, and fascia. A review now underway will, within the context of 
these four impairments, analyze multiple variables to include claimant 
age, the State in which the claimant resides, the hearing office that 
heard the case, whether the claimant was represented, claim processing 
time, and other factors. Our goal is to provide SSA with information 
that will be useful in considering changes that will allow these cases 
at the initial level, instead of being consistently denied and 
reversed, using limited resources.
    Video hearings are another initiative SSA has employed to reduce 
the disability backlog. By reducing ALJ travel to remote locations, 
SSA's intention was to increase ALJ productivity. As of fiscal year 
2008, SSA had procured and was installing 558 video teleconferencing 
units, and was planning to obtain and install another 112 units in 
fiscal year 2009. SSA is also installing smaller video units, called 
Desktop Video Units, which will not require a hearing room and will 
thereby expand the capacity of hearing offices. We have fieldwork 
underway on an audit designed to assess whether the use of these video 
units increases hearing office productivity and provides claimants with 
more timely service.
    Finally, the American Recovery and Reinvestment Act of 2009 
provided $500 million to SSA to process the additional disability and 
retirement workloads created by increased benefit applications brought 
about by the economic downturn. As stated in the Joint Explanatory 
Statement of the Committee of Conference accompanying the legislation, 
``These additional funds will allow SSA to process a growing workload 
of claims in a timely manner and to accelerate activities to reduce the 
backlog of disability claims.'' The OIG is charged with oversight of 
this and all SSA stimulus spending. In early April, as SSA provides the 
Office of Management and Budget with its plan for the use of these 
stimulus funds, our office will initiate an audit that will assess the 
Agency's spending plan.
    All of these ongoing audit efforts are designed with a single goal 
in mind: to help SSA and Congress in their efforts to improve service 
to disability beneficiaries. As I stated at the outset, however, 
service is only one side of the equation, and while the disability 
backlog is first and foremost a service issue, I would be remiss if I 
didn't also mention our integrity-based efforts in the disability 
arena.
    Integrity is at the very heart of the OIG's mission, and our 
efforts in this area take on myriad forms. From criminal investigations 
to complex audits, and from government-wide task forces to the CDI 
units I mentioned earlier, integrity is our bread and butter. The 
programs administered by SSA pay some half a trillion dollars a year to 
50 million beneficiaries and recipients nationwide and around the 
world. That money comes from the Social Security Trust Fund, the 
solvency of which affects every American, and from the general fund of 
the U.S. Treasury--all of it representing taxpayer dollars. We take our 
role as protectors of those funds very seriously, and while our work 
aimed at service issues, such as reducing the disability backlog, is 
every bit as important, service cannot be administered without 
safeguards adequate to ensure integrity. Thus, our work with regard to 
SSA's disability programs is by no means focused solely on service.
Integrity-Based Work Related to Disability
    Our work with respect to the integrity of the disability programs 
encompasses both improper payments and actual fraud. In both instances, 
the majority of these integrity issues are relevant with regard to both 
Title II and Title XVI disability, but the SSI program has unique 
characteristics stemming from its nature as a resource-based program 
that merit separate attention.
    For example, last year, we conducted an audit designed to detect 
both improper payments and fraud due to the failure of SSI recipients 
to notify SSA that they had been married, an event that impacts both 
eligibility and payment amount under SSI. We estimated that about 2,000 
recipients were overpaid about $25 million, and that by stopping these 
incorrect payments, SSA could save about $7 million over the following 
12 months.
    In another 2008 audit of the SSI program, we obtained bank data for 
a sample of SSI recipients to determine if it was cost-effective to use 
this type of information to identify SSI recipients who were no longer 
eligible by reason of being outside the United States. We analyzed the 
data to identify recipients with Automated Teller Machine withdrawals 
outside the country. Although we estimated a significant amount of 
overpayments--about $226 million--the audit was labor-intensive, as the 
bank provided paper, rather than electronic, records. SSA does not 
intend to pursue the use of this type of data due to resource issues.
    While these audits were SSI-based, we also conduct integrity work 
that by its nature is limited to Title II disability. In a review 
currently underway, we are following up on an earlier audit that 
examined SSA's treatment of Title II beneficiaries who had earnings 
reported to SSA, an event that is at least indicative that the 
individual may no longer be eligible for benefits. In 2004, we found 
that $1.37 billion in overpayments resulted from SSA's failure to 
identify about 63,000 disabled beneficiaries whose work activity 
resulted in earnings being posted to the Master Earnings File between 
1996 and 2000. In 2004, SSA implemented an automated system called 
eWork to assist in controlling and processing work-related Continuing 
Disability Reviews, or CDRs. Our current review revisits this issue, 
and assesses the success of SSA's efforts in this area over the past 
five years.
    We found that while SSA has made efforts to reduce these 
overpayments, there remains cause for concern. Based upon the sample 
population we reviewed, we are estimating that approximately $3 billion 
was overpaid to about 170,000 beneficiaries who had earnings reported 
between 2001 and 2006. While SSA identified $1.8 billion and 141,000 of 
these beneficiaries, the remainder ($1.2 billion to 45,000 
beneficiaries) went undetected. We believe that 21,000 of these 45,000 
beneficiaries are no longer eligible for benefits, and estimate that 
SSA will pay $346 million to them over the next 12 months if corrective 
action is not taken. Our report is currently with SSA for review.
    Finally, much of our integrity work covers both Title II and Title 
XVI disability. Like the Title II work-related CDRs, medical CDRs 
(Title II) and redeterminations (Title XVI) are a critical tool used by 
SSA to maintain the integrity of disability programs and processes. In 
recent years, resource limitations and other factors have resulted in 
fewer and fewer medical CDRs being conducted by the Agency. The 
Contract with America Advancement Act of 1996 provided funding for CDRs 
from 1996 to 2002, during which time SSA eliminated its entire backlog 
of CDRs and redeterminations. Since that funding expired, however, 
medical CDRs have decreased over 60 percent--from more than 679,000 in 
2003 to fewer than 250,000 in 2008. The backlog, as of the end of 
fiscal year 2008, was reported at 1.4 million CDRs, and SSA estimates 
that the backlog will reach 1.6 million by the end of this fiscal year. 
Redeterminations decreased more than 50 percent during the same period.
    We have initiated audits to determine the financial impact to the 
Social Security Trust Fund and the General Treasury as a result of the 
decrease in the number of medical CDRs and redeterminations being 
conducted, as well as the amount of funding that would be needed to 
eliminate the current backlogs.
    This brings us full circle, to the CDI units I mentioned at the 
outset. When a DDS suspects fraud in the course of conducting a CDR or 
redetermination, they will frequently refer such a case to the CDI unit 
for investigation and, where indicated, criminal prosecution. Both CDRs 
and CDIs are invaluable integrity tools and represent wise investments.
Conclusion
    The work I've detailed today, encompassing both integrity and 
service-related aspects of SSA's disability processes, is only a brief 
glimpse of the many ways in which our auditors are providing 
information and recommendations to SSA and keeping Congress and the 
public informed. I look forward to working with your Subcommittees in 
the coming years in this area, and in all aspects of the OIG's efforts, 
both audit and investigative, as we join together to prevent and detect 
fraud, waste, and abuse in SSA's programs and operations.
    Thank you again for the invitation to testify today, and I'd be 
happy to answer any questions.

                                 <F-dash>

    Chairman TANNER. Thank you very much for your timely 
opening statement.
    Mr. Bertoni, we are pleased to recognize you.

 STATEMENT OF DANIEL BERTONI, DIRECTOR, EDUCATION, WORKFORCE, 
  AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE.

    Mr. BERTONI. Mr. Chairman, Members of the Subcommittee, 
good morning. I am pleased to be here to discuss challenges 
facing SSA with respect to disability workloads and field 
office customer service. SSA provides services that touch many 
lives, including millions who apply for disability benefits 
each year and those seeking retirement benefits and a host of 
other critical services.
    For years, the agency has faced difficulties managing 
disability workloads and making timely decisions. In fact, over 
the last decade, the disability backlog grew to over half a 
million claims, and many claimants are waiting years for a 
final decision.
    In other mission-critical areas, SSA has also experienced 
service declines, with millions of customers waiting longer to 
be served and millions more having their phone calls go 
unanswered.
    My testimony today is based on our prior work and focuses 
on two areas, factors contributing to SSA's service delivery 
challenges and actions the agency is taking to better serve 
those who apply for disability benefits and other services. In 
summary, two key drivers have contributed to disability 
backlogs and other service delivery challenges, rising numbers 
of claims and staffing shortfalls.
    By the start of fiscal year 2007, backlog claims reached 
576,000, A growth rate of 120 percent over 1997 levels. And 
over the years, spikes in benefit applications due to economic 
downturns, aging baby boomers, referrals from other benefit 
programs, changes to program eligibility requirements and 
increased outreach have contributed to the backlog of claims. 
While backlogs have occurred at all stages of the process, they 
are most concentrated at the hearings level for 7 of the 10 
years that we reviewed.
    In concert with the growth of pending claims, processing 
times at most levels also increased. And for claims that were 
repealed, 30 percent, it took between 600 and 1,000 days to 
process. The rise in disability backlogs has coincided with 
high rates of turnover and attrition of experienced disability 
examiners, as well as shortfalls in a number of administrative 
law judges and hearing office support staff, such as decision 
writers, attorneys, claims technicians and others that prepare 
cases for review.
    Beyond the challenges associated with disability claims, 
SSA field officers face similar pressures driven in part by 
increasing workloads. Last year we reported that field office 
waiting times increased by 40 percent, and they had 3 million 
customers waiting more than 1 hour to be served. Moreover, 51 
percent of those calling SSA's field offices had at least one 
earlier call that had gone unanswered.
    Over the years, SSA has undertaken several initiatives to 
improve the disability process and address other challenges. 
Unfortunately, as we have noted in several prior reports dating 
back more than a decade, some initiatives have faltered for a 
variety of reasons, including poor planning and execution. 
Others improved the process but were too costly and 
subsequently abandoned.
    In 2006, SSA introduced a new set of comprehensive reforms 
to improve the accuracy, consistency and timeliness of the 
claims process called the Disability Service Improvement 
Initiative or DSI. However, this also yielded mixed results due 
to rushed implementation, poor communication and higher-than-
anticipated costs, and many aspects were ultimately suspended.
    In light of the considerable investment at DSI, we 
recommended that SSA conduct a thorough evaluation to determine 
what, if any, aspects should be continued. We also recommended 
that, going forward, SSA should develop a systematic planning, 
risk analysis and evaluation framework to increase the 
likelihood that future initiatives will succeed.
    In 2007, SSA outlined its current plan, which focuses on 
breaking the hearings-level backlog. Key initiatives include 
updating SSA's medical criteria, expediting cases for which 
approval is likely and improving hearings office capacity 
through hiring and other means.
    SSA has also received $500 million in stimulus funds to 
assist in processing key workloads. We currently have work 
underway assessing the plan's potential to eliminate the 
hearings backlog by 2013 as targeted. To address field office 
customer service challenges, the agency is redistributing work 
to offices at capacity, using managers to perform work 
typically conducted by lower-graded staff and deferring some 
program integrity workloads, such as continuing eligibility 
reviews. Unfortunately, this can result in some beneficiaries 
receiving payments who are no longer eligible.
    At present, it is unclear how SSA will meet future service 
delivery demands given its current organizational configuration 
and business processes. The volume of work conducted at SSA's 
field offices has increased markedly over time while staff 
turnover and losses persist. Moreover, projected staff 
retirements over the next several years will further tax the 
agency. And we have recommended that SSA develop a 
comprehensive service delivery plan to better position itself 
to serve changing customer demographics and service needs.
    Mr. Chairman, this concludes my statement, and I am happy 
to answer any questions you or others may have. Thank you.
    [The prepared statement of Mr. Bertoni follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman TANNER. Thank you, Mr. Bertoni.
    Ms. Hathaway, we are pleased to recognize you.

  STATEMENT OF PEGGY HATHAWAY, CO-CHAIR, SOCIAL SECURITY TASK 
        FORCE, CONSORTIUM FOR CITIZENS WITH DISABILITIES

    Ms. HATHAWAY. Thank you for inviting me here to testify 
today on behalf of the Consortium For Citizens With 
Disabilities. We bring the voice of the consumer to this 
debate, this discussion.
    Social Security Title II and SSI benefits, as well as the 
accompanying Medicare and Medicaid coverage, are the means of 
survival for millions of people with severe disabilities. They 
rely on SSA to promptly and fairly decide on their claims for 
disability benefits. Your constituent services staffs have 
likely reported the heartbreaking stories and consequences of 
intolerable delays in the backlogs.
    When a decision is appealed, people often wait years for a 
hearing, longer for a decision and even longer for actual 
payment of benefits. And as others have pointed out, that is 
even after they have gone through the several-months-long 
initial procedure. Behind the statistics, people's lives are 
unraveling. Families are torn apart. Homes are lost. Medical 
conditions deteriorate. Financial security crumbles, and many 
individuals die before a decision is made.
    This month, the National Organization of Social Security 
Claimants' Representatives, a CCD Member, conducted a quick 
survey of its Members to update how the backlogs are affecting 
claimants. Our written statement includes stories from a number 
of states. I just want to summarize a few of them briefly here 
for you.
    Ms. A from Tennessee filed her application for benefits in 
2007. She was forced to file for bankruptcy and lives on very, 
very little income. No hearing has been scheduled, and there 
has been no response to her request for an on-the-record 
decision.
    Mr. D from Georgia has terminal hepatitis C and depends on 
his girlfriend for all of his support. After his March 2007 
initial claim was denied, he filed for a hearing in October of 
2007 and a request for an on-the-record decision as a terminal 
case. A year and a half later, there is no hearing scheduled 
and no decision.
    Mr. A from Texas filed his application in September 2003, 
was denied, and requested a hearing in February of 2004. After 
several additional procedural steps, no decision has been 
issued 5\1/2\ years after the initial claim. In the meantime, 
Mr. A's house burned down, and he had to file for bankruptcy.
    Mr. L from Oklahoma, I am sorry to report, committed 
suicide when his case was denied consideration in May of 2008. 
His widow is awaiting the yet-to-be-scheduled hearing.
    Ms. S from South Carolina illustrates the importance of 
this determination for health coverage. She had no health 
coverage and no Medicaid because SSA had not yet found her 
disabled. After unhealing sores from diabetes went untreated, 
she died from complications of diabetes. At a posthumous 
hearing, the ALJ stated it was obvious that Ms. S had been 
disabled and issued a fully favorable decision. The medical 
care and Medicaid coverage that Ms. S did not receive due to 
the hearing delay most likely would have saved her life.
    Then there is Mr. H from Iowa who has multiple sclerosis 
and has had a claim pending since September of 2007. He sent a 
letter to his attorney, part of which I would like to read to 
you because it is so touching.
    He says, ``I am writing this brief letter to tell you about 
a few of the examples of what this disease has caused. Besides 
the day-to-day struggle just to live, it has caused my wife and 
me, along with our two children, financial ruin. My mortgage 
payment is as much as my wife makes. I receive no other income 
and worry day to day how to exist . . . as bad as this may 
sound, I have actually tried to end this with a suicide attempt 
in November of 2008. There isn't any way to describe this 
except to say it feels hopeless.''
    The primary reason for the increasing backlogs and 
reductions in other key services is that, as you have heard, 
until quite recently, SSA has been persistently underfunded 
over many years. For years, the Commissioner's budget came in 
at X dollars; the President's budget came in below that; and 
Congress appropriated even less than the President's budget, 
until, that was, fiscal year 2008.
    So on top of the retirement and disability applications 
from baby boomers, along comes the economic crisis with a huge, 
unexpected surge in both retirement and disability 
applications. We are encouraged and grateful for Congress's 
appropriating recent funds for SSA in the economic stimulus 
bill, in the 2009 appropriation, and in the President's 2010 
budget, including funds for program integrity. We also 
appreciate Commissioner Astrue's commitment to what he rightly 
calls the ``moral imperative'' to reduce the disability 
backlog.
    SSA must also find ways to operate more efficiently. Our 
written testimony has a number of recommendations.
    A note of caution: SSA must take care to determine how new 
initiatives will affect the very people for whom the system 
exists, people who meet the strict criteria for disability. 
These people face a host of personal, family, and financial 
circumstances that make it difficult or impossible to navigate 
the complex disability determination system without substantial 
assistance. SSA must continue to ensure that each individual's 
claim is fully developed before a decision is made.
    To prevent tragedies similar to those that I have 
described, CCD urges Congress to continuously provide SSA the 
resources necessary to carry out its mandated responsibilities 
and substantially improve its service to the public. Thank you.
    [The prepared statement of Ms. Hathaway follows:]
Statement of Peggy Hathaway, Vice President, United Spinal Association, 
  Silver Spring, Maryland; on behalf of Consortium for Citizens with 
                Disabilities Social Security Task Force
    Chairman Tanner, Chairman McDermott, Ranking Member Johnson, 
Ranking Member Linder, and Members of the Subcommittees, thank you for 
inviting me to testify at today's hearing on Eliminating the Social 
Security Disability Backlog.
    I am Vice-President for Public Policy of United Spinal 
Association.\1\ I am here in my capacity as a Co-Chair of the 
Consortium for Citizens with Disabilities (CCD) Social Security Task 
Force. CCD is a working coalition of national consumer, advocacy, 
provider, and professional organizations working together with and on 
behalf of the 54 million children and adults with disabilities and 
their families living in the United States. The CCD Social Security 
Task Force (hereinafter ``CCD'') focuses on disability policy issues in 
the Title II disability programs and the Title XVI Supplemental 
Security Income (SSI) program.
---------------------------------------------------------------------------
    \1\ United Spinal Association is an organization with members in 
all 50 states that has been securing equal rights and access for all 
Americans with spinal cord injuries and disorders since 1946 when it 
was formed by veterans paralyzed by World War II injuries. United 
Spinal Association is also an authorized VA Veterans Service 
Organization serving veterans with disabilities of all kinds.
---------------------------------------------------------------------------
    The focus of this hearing is extremely important to people with 
disabilities. Title II and SSI cash benefits, along with the related 
Medicare and Medicaid benefits, are the means of survival for millions 
of individuals with severe disabilities. They rely on the Social 
Security Administration (SSA) to promptly and fairly adjudicate their 
applications for disability benefits. They also rely on the agency to 
handle many other actions critical to their well-being including: 
timely payment of their monthly Title II and SSI benefits to which they 
are entitled; accurate withholding of Medicare Parts B and D premiums; 
and timely determinations on post-entitlement issues that may arise 
(e.g., overpayments, income issues, prompt recording of earnings).
    We recognize and appreciate that Commissioner Astrue has made 
reduction and elimination of the disability claims backlog a top 
priority. However, despite increases in productivity, the backlog in 
disability determinations continues to grow, at least in part due to an 
unexpected increase in the number of appeals.\2\ People with severe 
disabilities are experiencing increasingly long delays and decreased 
services in accessing these critical benefits to which they are 
entitled. We believe these problems have been caused primarily by 
persistent under-funding of SSA over many years. We are encouraged by 
recent additional funding for SSA but we caution that it will be offset 
at least in part by the unexpected surge in both disability and 
retirement claims due to the economic crisis.
---------------------------------------------------------------------------
    \2\ Plan to Eliminate the Hearing Backlog and Prevent Its 
Recurrence, Annual Report FY 2008, SSA Office of Disability 
Adjudication and Review (``SSA Backlog 08 Report'').
---------------------------------------------------------------------------
THE IMPACT ON PEOPLE WITH SEVERE DISABILITIES OF INSUFFICIENT FUNDING 
        FOR SSA
    We must recognize the real-life impact of the backlog and the 
ensuing delays for individuals with disabilities who must file claims 
for disability benefits and wait for a decision. Behind the numbers are 
individuals with disabilities whose lives have unraveled while waiting 
for decisions--families are torn apart; homes are lost; medical 
conditions deteriorate; once stable financial security crumbles; and 
many individuals die. Numerous recent media reports across the country 
have also documented the suffering experienced by these individuals.
    The National Organization of Social Security Claims Representatives 
(NOSSCR), a member of the CCD Social Security Task Force, recently 
conducted a quick survey of NOSSCR members for an update on the impact 
of the backlog on claimants waiting for decisions on their claims. The 
stories are located at the end of this testimony beginning on page 11. 
Your constituent services staffs are likely to be well aware of the 
situations faced by people living in your districts and provide 
valuable assistance and help, where possible. An attorney in Jackson, 
TN, told us:

           We hear on a daily basis how the claimants are struggling to 
        keep their homes, obtain their needed medications, and seek 
        proper medical attention. When we hear our clients' stories, 
        the first thing we suggest to them is to contact Congressman 
        Tanner's office. We inform them that his office is there to 
        help them. Sometimes our office seeks assistance from 
        Congressman Tanner's office on behalf of our clients. The staff 
        at [his] office is always willing to assist. . . . However, 
        despite efforts of Congressman Tanner's office, there is still 
        a long wait time for our clients. Our clients are experiencing 
        an average of 18 months from the time we file for their 
        hearings until one is actually scheduled. For some of our 
        clients, it has been three (3) years between the date they 
        filed for their benefits and their hearing before the 
        Administrative Law Judge. This delay has put an extreme 
        hardship on all of our clients, but some are struggling more 
        than others.''

    Many other claimants' representatives have similar stories about 
the impact of the long waits on their clients. Because many claimants 
have no access to health insurance while they wait for a decision, 
their health deteriorates because they cannot obtain necessary medical 
treatment, sometimes as simple as antibiotics. For those who can afford 
COBRA coverage, the lengthy wait goes beyond the period when they can 
extend the coverage. Sadly, many individuals die unnecessarily or 
commit suicide. One attorney in Georgia had at least six clients die 
over the last year while waiting for decisions. Appropriate family 
members are more frequently substituted as the claims proceed following 
the deaths of their loved ones.\3\ Foreclosures have increased with 
claimants losing their homes and vehicles.
---------------------------------------------------------------------------
    \3\ If a claimant dies while a claim is pending, the SSI rule for 
payment of past due benefits is very different--and far more limited--
than the Title II rule. In an SSI case, the payment will be made in 
only two situations: (1) to a surviving spouse who was living with the 
claimant at the time of death or within six months of the death; or (2) 
to the parents of a minor child, if the child resided with the parents 
at the time of the child's death or within six months of the death. 42 
U.S.C. Sec. 1383(b)(1)(A) [Section 1631(b)(1)(A) of the Act]. In Title 
II, the Act provides rules for determining who may continue the claim, 
which includes: a surviving spouse; parents; children; and the legal 
representative of the estate. 42 U.S.C. Sec. 404(d) [Section 202(d) of 
the Act]. Thus, if an adult SSI claimant (age 18 or older) dies before 
actually receiving the past due payment and if there is no surviving 
spouse, the claim dies with the claimant and no one is paid.
---------------------------------------------------------------------------
PERSISTENT UNDER-FUNDING OF SSA Despite Increased Workloads
    In recent years, SSA's workload has increased dramatically due to 
an increase in the number of retirement and disability claims and 
addition of new SSA responsibilities. During the 5-year period from FY 
2004 to FY 2008, retirement and survivors applications grew by 22 
percent and Social Security disability claims grew 7 percent.\4\ During 
the same period, applications for SSI disability/blindness grew by 11 
percent and SSI aged applications grew by77 percent.\5\ Additional 
duties have been imposed on SSA, including implementation of new 
Medicare programs and verification for employment eligibility.\6\
---------------------------------------------------------------------------
    \4\ Social Security Administration: Workloads, Resources and 
Service Delivery, p. 10, Kathleen Romig, Congressional Research 
Service, R40207, 2/6/09 (hereinafter CRS 2/6/09 Rpt), p. 3.
    \5\ Id. p. 4.
    \6\ Id. p. 6-8.
---------------------------------------------------------------------------
    Even though workloads increased from FY 2004 through FY 2008, SSA's 
staffing level decreased by 4 percent.\7\ SSA's staffing level is 
currently about 61,000 Full Time Equivalents (FTE's) the lowest level 
since the early 1970's.\8\ Moreover, many SSA employees have already 
taken early retirement and many more are eligible to retire.\9\ SSA 
could soon be deprived of its most experienced and knowledgeable 
employees.
---------------------------------------------------------------------------
    \7\  Id. p. 11.
    \8\  Id. p. 11 and SSA Major Strategic Accomplishments FY 2008, p. 
5.
    \9\ CRS 2/6/09 Rpt., p. 11.
---------------------------------------------------------------------------
    Despite the increase in workloads, SSA's administrative expenses 
(known as LAE--Limitation on Administrative Expenses) have, until 
recently, been persistently under-funded.\10\ Every year from 1998 
through 2007, the President's Budget requested less than the 
Commissioner's requested budget, and Congress appropriated even less 
than the President's request.\11\ Between FY 2000 and 2007 alone, the 
resulting administrative shortfall was more than $4 billion. The 
dramatic increase in the disability claims backlog coincides with this 
period of under-funding the agency, leaving people with severe 
disabilities to wait years to receive the benefits to which they are 
entitled.
---------------------------------------------------------------------------
    \10\  Id. See also OMB, Budget of the U.S. Government: Appendix, FY 
1996-FY 2009; SSA Budget Justification FY 2002-FY 2009. SSA Major 
Strategic Accomplishments, FY 2008, p 5.
    \11\ CRS 2/6/09 Rpt, p. 10.
---------------------------------------------------------------------------
    In 2008, the tide finally changed for the first time in a decade, 
when Congress appropriated $148 million over the President's 
budget.\12\ This additional amount allowed the agency to hire some new 
Administrative Law Judges (ALJs) and other staff. However, given the 
many years of under-funding and the need for a $400 million annual 
increase just to keep up with fixed costs,\13\ additional funding is 
required to reduce and eliminate the backlog and to provide essential 
services to the public.
---------------------------------------------------------------------------
    \12\ Id. p. 9.
    \13\ Id. p. 10.
---------------------------------------------------------------------------
    Building on the FY 2008 appropriation, three recent developments in 
funding for SSA's administrative expenses are encouraging:

    <bullet>  Economic Stimulus legislation. Pursuant to the American 
Recovery and Reinvestment Act of 2009 (ARRA), SSA received $500 million 
to handle the unexpected surge in both retirement and disability 
applications due to the economic downturn. SSA also received badly 
needed funds to replace its aged National Computer Center.
    <bullet>  FY 2009 appropriation. The FY 2009 omnibus appropriations 
bill, just enacted this month, provides SSA with more than $700 million 
over the final FY 2008 appropriation. With this increase and the ARRA 
funding, SSA expects to hire 5,000 to 6,000 new employees.
    <bullet>  President's request for FY 2010. President Obama's Budget 
Overview for FY 2010 provides $11.6 billion in administrative expenses 
for SSA, a 10 percent increase over the FY 2009 appropriation.

    These developments come at a critical moment because the economic 
downtown has led to an unexpected surge in benefit applications. The 
result has been an increase of 17 percent in retirement claims over one 
year ago (28 percent over two years) and a 10 percent increase in new 
disability claims through March 13 of this fiscal year. Pending initial 
disability claims are up 12.5 percent so far this year and hearings 
filed are up 9.5 percent, with numbers increasing as the recession 
deepens.
    We urge support for the full $11.6 billion FY 2010 appropriation 
for SSA's LAE. These increases will help SSA not only to significantly 
reduce the backlog, but also keep local offices open and better 
staffed, provide adequate telephone services to the public, and 
maintain the integrity of its programs by performing more continuing 
disability reviews and SSI redeterminations.

    Performing Program Integrity Activities. The processing of 
continuing disability reviews (CDRs) and SSI redeterminations is 
necessary to protect program integrity and avert improper payments. 
Failure to conduct the full complement of these activities has adverse 
consequences for the federal budget and the deficit. According to SSA, 
every $1 spent on CDRs yields $10 in program savings, and every $1 
spent on SSI redeterminations yields $7 in program savings.\14\ 
However, the number of reviews actually conducted is directly related 
to whether SSA receives the necessary funds.
---------------------------------------------------------------------------
    \14\ CRS 2/6/09 Rpt, p. 23 and 24.
---------------------------------------------------------------------------
    President Obama's FY 2010 budget request includes $759 million for 
SSA program integrity work. We support this request, but it is 
important to note that there is a tradeoff between program integrity 
efforts and efforts to reduce the disability backlog and process new 
claims, given the limited capacity of the state Disability 
Determination Services (DDSs). DDS workers are trying to keep up with 
the unexpected surge in applications due to the economic downturn, and 
some of the same DDS personnel process CDRs. An increase in staff 
attention to one function is likely to result in decreased performance 
in the other, which could lead to more delays in the processing of new 
claims.
IMPACT OF UNDER-FUNDING ON SSA FIELD OFFICES AND THE STATE DDSs
    SSA field offices. In addition to concerns regarding the disability 
claims backlog, SSA field offices are experiencing significant 
increases in the volume of their work and service difficulties. A 
recent Government Accountability Office (GAO) study found that the 
number of field office staff fell 4.4 percent from FY 2005 to2008.\15\ 
GAO found that at least 51 percent of customers calling field offices 
had at least one previously unanswered call, and in FY 2007, over one 
million customers waited for over an hour to be served.\16\
---------------------------------------------------------------------------
    \15\ SSA Service Delivery Plan Needed to Address Baby Boom 
Retirement Challenges, Government Accountability Office Report GAO-09-
24, January 2009, p. 2 and 3 (hereinafter ``GAO 1/09 Report'').
    \16\ Id.

    State DDSs. The state Disability Determination Services (DDSs), 
which determine whether a claimant is disabled, experienced a 7 percent 
increase in disability applications for the last quarter of 2008, 
compared to the last quarter of 2007.\17\ Yet during the 5 year period 
from FY 2004 through FY 2008, the number of DDS staff declined by 8 
percent.\18\ To make the problem worse, even though DDS salaries, 
offices and overhead are fully funded by SSA, due to severe state 
budget problems, some states are imposing hiring restrictions and 
furloughs of employees including DDS workers.\19\ Commissioner Astrue 
has written to Governors asking them to exempt DDS from these hiring 
freezes and furloughs--which exacerbate staffing shortages and severely 
affect the processing of disability claims.\20\
---------------------------------------------------------------------------
    \17\ NADE, Statement for the Record Regarding Possible and 
Previously Imposed Furloughs of DDS State & Consideration of the 
Potential Impact of Hiring Freezes on DDS Services, 1/15/09 (``NADE 
Stmt 1/15/09'')
    \18\ CRS 2/6/09 Rpt, p. 13.
    \19\ NADE Stmt 1/15/09. Some or all DDS employees have been 
furloughed in California, Massachusetts, Maryland and Oregon. Hiring 
freezing are affecting DDSs in Indiana, Maine, Washington and 
Wisconsin. Florida is considering a pay cut.
    \20\ Commissioner Astrue Asks Governors to Exempt State DDS 
Employees from Hiring Restrictions, SSA Press Release 2/3/09.
---------------------------------------------------------------------------
THE HEARING LEVEL: PROCESSING TIMES HAVE REACHED INTOLERABLE LEVELS FOR 
        CLAIMANTS
    The most significant delays in SSA's disability determination 
process are at the hearing level. The average processing time for cases 
at the hearing level has increased dramatically since 2000, when the 
average time was 274 days.\21\ In the current fiscal year, SSA 
estimates that the average processing time for disability claims at the 
hearing level will be 506 days,\22\ or nearly 17 months. We appreciate 
the effort by SSA to reduce the processing time, but an average of 17 
months--close to one and a half years--is still too long for 
individuals waiting for a hearing decision. In addition, the average 
processing times at the initial and reconsideration levels have grown 
over the last ten years by about 20 days at each level, with some cases 
taking much longer.\23\
---------------------------------------------------------------------------
    \21\ Social Security Disability: Better Planning, Management, and 
Evaluation Could Help Address Backlogs, GAO-08-40 (Dec. 2007)(``GAO 12/
07 Report''), p. 22.
    \22\ Social Security Administration: Fiscal Year 2009 Justification 
of Estimates for Appropriations Committees (``SSA FY 09 Budget 
Justification ''), p. 6. Available at: http://www.ssa.gov/budget/
2009cjapp.pdf.
    \23\ GAO 12/07 Report, p. 20.
---------------------------------------------------------------------------
    The current processing times in some hearing offices are striking, 
and much longer than the 506 days targeted by SSA in FY 2009. Through 
February 2009, SSA statistics for 149 hearing offices \24\ indicate 
that the average processing time was 499 days. It is important to keep 
in mind that this is an ``average'' and that many claimants will wait 
longer. However, the average processing time at 61 offices--41 
percent-- was above the 499 day February 2009 national average, with 26 
offices over 600 days and 7 offices over 700 days.
---------------------------------------------------------------------------
    \24\ ``National Ranking Report by Average Processing Time'' 
(Hearing Offices) for the Month Ending February 27, 2009.
---------------------------------------------------------------------------
    Hearing offices more than one month over the current national 
average include: Tampa, FL (532 days); Minneapolis, MN (536 days); 
Nashville, TN (547 days); Los Angeles, CA-West (554 days); Bronx, NY 
(590 days); Milwaukee, WI (594 days); Birmingham, AL (614 days); 
Detroit, MI (643 days); Columbus, OH (640 days); Atlanta, GA-North (668 
days); Miami, FL (674 days); and Oak Park, MI (714 days).
    Other hearing office statistics reflect the lengthy waits that 
claimants must face. The ``average age of pending'' cases at nearly 
one-third of the offices is above the national average of 313 days, 
with wide variation. Perhaps even more disturbing is the extremely 
large disparity in the average caseload of ALJs--currently ranging from 
around 300 to 1442 cases per ALJ, with an average of 670.

    Is the Hearing Backlog Improving? The number of pending cases has 
increased dramatically since 1999, reaching an all-time record high of 
768,540 cases in December 2008. Through February 2009, the number 
dropped slightly to 765,527, but has not dropped below 760,000 since 
June 2008. In a recent report, the Government Accountability Office 
(GAO) noted that the hearing level backlog was ``almost eliminated'' 
from FY 1997 to FY 1999, but then grew ``unabated'' by FY 2006.\25\ The 
number of pending cases at the hearing level reached a low in FY 1999 
at 311,958 cases.
---------------------------------------------------------------------------
    \25\ GAO 12/07 Report, p. 20.
---------------------------------------------------------------------------
    We remain concerned about the impact of the current economic 
downturn on the backlog. The number of hearing requests has increased 
9.5 percent during the first 5 months of FY 2009, compared to the same 
period in FY 2008. This hearing level increase does not yet reflect the 
additional and unexpected 9.6 percent increase this year in the number 
of initial applications over the same period last year. As a result, we 
can expect to see an additional surge of hearing requests when the new 
application cases, attributable to the recession, reach the hearing 
level.

    The impact of staffing on the hearing backlog. Over the last 
decade, concurrent with the marked increase in the disability claims 
backlog, we have noted the loss of ALJs and support staff in hearing 
offices around the country. Former Commissioner Barnhart had planned to 
hire an additional 100 ALJs in FY 2006 but due to cuts in the 
President's budget request, she was able to hire only 43. The real 
impact of the burden on the current ALJ corps can be seen by comparing 
statistics from 1998 and 2006. In FY 1998, there were 1,087 ALJs 
available to conduct hearings. This number dropped to 1,018 in FY 2006, 
while the number of pending cases more than doubled.\26\
---------------------------------------------------------------------------
    \26\ GAO 12/07 Report, p. 31.
---------------------------------------------------------------------------
    SSA received funding in FY 2008 to hire approximately 190 new 
Administrative Law Judges and some additional support staff. However, 
productivity is not related solely to the number of ALJs, but also to 
the number of support staff. According to the GAO: ``By the close of 
fiscal year 2006, SSA saw the highest level of backlogged claims and 
the lowest ratio of support staff over this period [FY 1997 to FY 
2006].'' \27\ While SSA senior managers and ALJs recommend a staffing 
ratio of 5.25,\28\ in 2006, the ratio of support staff to ALJs was 
4.12. The actual ratio represented nearly a 25 percent decrease from 
the recommended level, at a time when the number of pending cases had 
increased dramatically. When the support staff to ALJ ratio was higher 
(FY 1999 to FY 2001),\29\ the number of pending cases older than 270 
days was much lower.
---------------------------------------------------------------------------
    \27\ GAO 12/07 Report, p. 32.
    \28\ Id.
    \29\ Id.I21In a recent report, the SSA Office of Inspector General 
(OIG) found that ALJs with higher disposition levels were more likely 
to be in hearing offices with staffing ratios above the FY 2007 
national average of 4.46 staff members per ALJ. The OIG found that 
hearing offices ranked in the top half for productivity were ``much 
more likely to exceed the national average staff ratio than hearing 
offices ranked in the lower half for productivity.'' \30\The quality 
and composition of staff also must be considered. As the OIG points 
out: ``[A]n office may have an ideal staff ratio, but if it does not 
have enough writers to prepare decisions or if the writers do not 
prepare quality decisions, the hearing office's productivity may be 
impacted negatively.'' \31\This concern may account for the February 
2009 statistics that show a mounting number of pending cases for 
decision writers, about 9,000 more pending cases waiting for a decision 
than one year ago, despite a significant increase in the number of 
decision writers.
    \30\ Congressional Response Report: Administrative Law Judge and 
Hearing Office Performance, No. A-07-08-28094 (Aug. 2008) (``OIG 8/08 
Report'') (available at: www.ssa.gov/oig/ADOBEPDF/A-07-08-28094.pdf). 
This report was requested by the previous Chairman of the Social 
Security Subcommittee, Rep. Michael McNulty, and by Ranking Member Sam 
Johnson.
    \31\ OIG 8/08 Report, p. 6.
---------------------------------------------------------------------------
IMPROVING THE DISABILITY CLAIMS PROCESS AND ELIMINATING THE BACKLOG
    Money alone will not solve SSA's crisis in meeting its 
responsibilities. Commissioner Astrue is committed to finding new ways 
to work better and more efficiently. CCD has numerous suggestions for 
improving the disability claims process for people with disabilities. 
We believe that these recommendations and agency initiatives, which 
overall are not controversial and which we generally support, can go a 
long way towards reducing, and eventually eliminating, the disability 
claims backlog.
Caution Regarding the Search for Efficiencies
    While we generally support the goal of achieving increased 
efficiency throughout the adjudicatory process, we caution that limits 
must be placed on the goal of administrative efficiency for 
efficiency's sake alone. The purposes of the Social Security and SSI 
programs are to provide cash benefits to those who need them and have 
earned them and who meet the eligibility criteria. While there may be 
ways to improve the decision-making process from the perspective of the 
adjudicators, the critical measure for assessing initiatives for 
achieving administrative efficiencies must be how they affect the very 
claimants and beneficiaries for whom the system exists.
    People who find they cannot work at a sustained and substantial 
level are faced with a myriad of personal, family, and financial 
circumstances that will have an impact on how well or efficiently they 
can maneuver the complex system for determining eligibility. Many 
claimants will not be successful in addressing all of SSA's 
requirements for proving eligibility until they reach a point where 
they request the assistance of an experienced representative. Many face 
educational barriers and/or significant barriers inherent in the 
disability itself that prevent them from understanding their role in 
the adjudicatory process and from efficiently and effectively assisting 
in gathering evidence. Still others are faced with having no ``medical 
home'' to call upon for assistance in submitting evidence, given their 
lack of health insurance over the course of many years. Many are 
experiencing extreme hardship from the loss of earned income, often 
living through the break-up of their family and/or becoming homeless, 
with few resources--financial, emotional, or otherwise--to rely upon. 
Still others experience all of the above limits on their abilities to 
participate effectively in the process.
    Proposals for increasing administrative efficiencies must bend to 
the realities of claimants' lives and accept that people face 
innumerable obstacles at the time they apply for disability benefits 
and beyond. SSA must continue, and improve, its established role in 
ensuring that a claim is fully developed before a decision is made and 
must ensure that its rules reflect this administrative responsibility.
Technological Improvements
    Commissioner Astrue has made a strong commitment to improve and 
expand the technology used in the disability determination process. CCD 
generally supports these efforts to improve the disability claims 
process, so long as they do not infringe on claimants' rights. Some of 
the technological improvements that we believe can help reduce the 
backlog include the following:

           1. The electronic disability folder. The initiative to 
        process disability claims electronically has the prospect of 
        significantly reducing delays caused by the moving and handing-
        off of folders, allowing for immediate access by different 
        components of SSA or the DDS, and preventing misfiled evidence.

           2. Expanding Internet access for representatives. Electronic 
        Records Express (ERE) is an SSA initiative to increase the use 
        of electronic options for submitting records to the electronic 
        folder for disability claims. Registered claimant 
        representatives are able to submit evidence electronically 
        through an SSA secure website or to a dedicated fax number, 
        using a unique barcode assigned to the claim. While this 
        initiative holds great promise, significant problems with the 
        current process exist. Under the current process, 
        representatives are to be provided with a CD of the exhibited 
        or ``pulled'' file shortly before the hearing and earlier in 
        the process after the appeal has been filed. Due to staffing 
        shortages in hearing offices, representatives have frequently 
        had problems obtaining the CDs and often find that all of the 
        medical records they have submitted are not part of the 
        exhibited list of evidence used at the hearing. This can cause 
        significant delay both during and after the hearing.
           We hope that these problems will be resolved in the near 
        future. A group of representatives is involved in an SSA pilot 
        that allows them to download the contents of electronic folders 
        through the ERE website. Once SSA resolves security and 
        authentication issues, we hope that the agency will begin to 
        rollout this initiative. It should make the hearing process 
        more efficient for all parties involved.

           3. Use of video hearings. Video hearings allow ALJs to 
        conduct hearings without being at the same geographical site as 
        the claimant and representative and have the potential to 
        reduce processing times and increase productivity. We support 
        the use of video teleconference hearings so long as the right 
        to a full and fair hearing is adequately protected; the quality 
        of video teleconference hearings is assured; and the claimant 
        retains the absolute right to have an in-person hearing as 
        provided under current regulations.\32\ However, we have 
        received complaints from representatives that, in some cases, 
        ALJs are discouraging claimants from exercising their right to 
        an in-person hearing. A new SSA pilot allows representatives to 
        participate in video hearings from their own private offices, 
        with their clients present in the representative's office. The 
        representative must agree to the terms established by SSA. This 
        pilot provides claimants with another option for their 
        hearings.
---------------------------------------------------------------------------
    \32\ 20 C.F.R. Sec. Sec. 404.936 and 416.1436.

Other Improvements at the Hearing Level
    1. The Senior Attorney Program. This program allows senior staff 
attorneys in hearing offices to issue fully favorable decisions in 
cases that can be decided without a hearing (i.e. ``on the record''). 
We are pleased that Commissioner Astrue decided to authorize the 
program for at least the next two years.\33\ In FY 2008, senior 
attorneys decided 24,575 cases. Through February 2009, the program is 
on pace to exceed last year's total, with 13,462 cases decided through 
the first five months of this fiscal year.\34\
---------------------------------------------------------------------------
    \33\ The interim final rule reinstating the program was published 
in August 2007 and became effective on October 9, 2007. 72 Fed. Reg. 
44763 (Aug. 9, 2007). The final rule was published at 73 Fed. Reg. 
11349 (Mar. 3, 2008).
    \34\ ``National Caseload Analysis Report: ODAR Workload and 
Performance Summary for the Month Ending Feb. 27, 2009.''

    2. Informal remands to DDSs. Under this initiative, SSA screens 
pending hearing level cases according to a profile and remands the 
cases to the DDSs for possible favorable decisions. In FY 2008, hearing 
offices remanded more than 50,000 cases and the DDSs reversed their 
prior decisions and allowed 16,838 cases, about 32 percent of the 
remanded cases,\35\ with the remainder returned to hearing offices for 
a hearing and decision. Claimants do not lose their place in the queue 
if the remanded case is sent back to the hearing office. When the FY 
2008 informal remand allowances are combined with the senior attorney 
allowances, more than 41,400 claimants received favorable decisions--
and the benefits to which they are entitled--in a more timely way.
---------------------------------------------------------------------------
    \35\ Plan to Eliminate the Hearing Backlog and Prevent Its 
Recurrence: Annual Report Fiscal Year 2008 (SSA, ODAR). Available at: 
http://www.ssa.gov/appeals/Backlog_Reports/
Annual_Backlog_Report_FY_2008-Jan.pdf.
---------------------------------------------------------------------------
    Generally, we support this initiative. However, the procedures used 
by DDSs have not been uniform and vary from state to state, with some 
representatives reporting that they are not notified that a remand has 
taken place so that they can assist with development of evidence.

    3. Findings Integrated Templates (FIT). FIT is used for ALJ 
decisions and integrates the ALJ's findings of fact into the body of 
the decision. While the FIT does not dictate the ultimate decision, it 
requires the ALJ to follow a series of templates to support the 
ultimate decision. Representatives can use the FIT template, which is 
available on the SSA website, to draft proposed favorable decisions. 
Many representatives are now using the template either when requested 
by the ALJ or on their own initiative. When the draft proposed decision 
is submitted to the ALJ, it can lead to a speedier decision.

    4. Increase time for hearing notice. We have previously recommended 
that the time for providing advance notice of the hearing date be 
increased from the current 20 days to 75 days. This increase will allow 
more time to obtain medical evidence before the hearing. The 75-day 
time period has been in effect in SSA's Region I states since August 
2006 \36\ and, based on reports from representatives, has worked well.
---------------------------------------------------------------------------
    \36\ 20 C.F.R. Sec. 405.315(a).
---------------------------------------------------------------------------
Improvements at the Initial Levels
    CCD supports initiatives to improve the process at the initial 
levels so that the correct decision can be made at the earliest point 
possible and unnecessary appeals can be avoided. Improvements at the 
front end of the process can have a significant beneficial impact on 
preventing the backlog and delays later in the appeals process.

    1. New Screening Initiatives. We support SSA's efforts to 
accelerate decisions and develop new mechanisms for expedited 
eligibility throughout the application and review process. We encourage 
the use of ongoing screening as claimants obtain more documentation to 
support their applications. However, SSA must work to ensure that there 
is no negative inference when a claim is not selected by the screening 
tool or allowed at that initial evaluation. There are two initiatives 
that hold promise:

    <bullet>  Quick Disability Determinations. We have supported the 
Quick Disability Determination (QDD) process since it first began in 
SSA Region I states in August 2006 and was expanded nationwide by 
Commissioner Astrue in September 2007.\37\ The QDD process has the 
potential of providing a prompt disability decision to those claimants 
who are the most severely disabled. Since its inception, the vast 
majority of QDD cases have been decided favorably in less than 20 days.
---------------------------------------------------------------------------
    \37\ 20 C.F.R. Sec. Sec. 404.1619 and 416.1019.
---------------------------------------------------------------------------
    <bullet>  Compassionate Allowances. In July 2007, SSA published an 
Advance Notice of Proposed Rulemaking (ANPRM) on a proposed new 
screening mechanism to be known as Compassionate Allowances.\38\ SSA is 
``investigating methods of making `compassionate allowances' by quickly 
identifying individuals with obvious disabilities.'' While there is no 
definition of disabilities that are considered ``obvious,'' there is 
emphasis on creating ``an extensive list of impairments that we [SSA] 
can allow quickly with minimal objective medical evidence that is based 
on clinical signs or laboratory findings or a combination of both. . . 
.'' SSA has published an initial list of 50 conditions on its website, 
with more to be added at a later date. Unlike the QDD screening, which 
occurs only when an application is filed, screening for compassionate 
allowances can occur at any level of the administrative appeals 
process.
---------------------------------------------------------------------------
    \38\ 72 Fed. Reg. 41649 (July 31, 2007).

    2. Improve development of evidence earlier in the process. In 
previous testimony, CCD has made a number of recommendations to ensure 
that disability claims are properly developed at the beginning of the 
process. Claimants' representatives are often able to provide evidence 
that we believe could have been obtained by the DDSs earlier in the 
---------------------------------------------------------------------------
process. Our recommendations include:

    <bullet>  Provide more assistance to claimants at the application 
level. At the beginning of the process, SSA should explain to the 
claimant what evidence is important and necessary. SSA should also 
provide applicants with more help completing the application, 
particularly in light of electronic filings, so that all impairments 
and sources of information are identified, including non-physician and 
other professional sources.
    <bullet>  DDSs need to obtain necessary and relevant evidence. 
Representatives often are able to obtain better medical information 
because they use letters and forms that ask questions relevant to the 
disability determination process. However, DDS forms usually ask for 
general medical information (diagnoses, findings, etc.) without 
tailoring questions to the Social Security disability standard. SSA 
should review its own forms and set standards for state-specific forms 
to ensure higher quality.
    <bullet>  Increase reimbursement rates for providers. To improve 
provider response to requests for records, appropriate reimbursement 
rates for medical records and reports need to be established. 
Appropriate rates should also be paid for consultative examinations and 
for medical experts.
    <bullet>  Provide better explanations to medical providers. SSA and 
DDSs should provide better explanations to all providers, in particular 
to physician and non-physician treating sources, about the disability 
standard and ask for evidence relevant to the standard.
    <bullet>  Provide more training and guidance to adjudicators. Many 
reversals at the appeals levels are due to earlier erroneous 
application of existing SSA policy. Additional training should be 
provided on important evaluation rules such as: weighing medical 
evidence, including treating source opinions; the role of non-physician 
evidence;\39\ the evaluation of mental impairments, pain, and other 
subjective symptoms; the evaluation of childhood disability; and the 
use of the Social Security Rulings.
---------------------------------------------------------------------------
    \39\ This evidence is often given little or no weight even though 
SSA's regulations provide that once an impairment is medically 
established, all types of probative evidence, e.g., medical, non-
physician medical, or lay evidence, will be considered to determine the 
severity of the limitations imposed by the impairment(s).
---------------------------------------------------------------------------
    <bullet>  Improve the quality of consultative examinations. Steps 
should be taken to improve the quality of the consultative examination 
(CE) process. There are far too many reports of inappropriate 
referrals, short perfunctory examinations, and examinations conducted 
in languages other than the applicant's.

ADDITIONAL RECOMMENDATIONS
    In addition to addressing the backlog and SSA's funding issues, 
there are several other legislative proposals that the Subcommittee may 
be considering this year.

    <bullet>  Protecting claimants' privacy rights. We understand that 
it can be cumbersome for SSA to obtain medical records, as it is for 
claimants and their representatives, and that SSA is exploring more 
efficient ways to secure the necessary evidence. While we support ways 
to make this process more efficient, we believe that claimants' privacy 
rights must be protected. We will work with SSA to find a way to 
obtain, as efficiently as possible, a claimant's authorization for 
release of medical records to SSA, while protecting the individual's 
privacy rights.
    <bullet>  Extension of the fee demonstrations in the SSPA. Access 
to experienced and qualified representatives through the lengthy and 
complex application process is critically important to claimants. To 
this end, we support allowing claimants to enter into voluntary 
agreements with representatives for fee withholding and direct payment 
procedures whether under Title II or Title XVI. The Social Security 
Protection Act of 2004 (SSPA), P.L.108-203, established two 
demonstration projects that we believe should be made permanent because 
they have proven to be effective in increasing claimants' access to 
effective representation: (1) Extension of the Title II attorney fee 
withholding and direct payment procedures to claims under Title XVI 
(SSI); and (2) Allowing non-attorney representatives to qualify for fee 
withholding and direct payment provided they meet certain requirements. 
Unless they are extended or made permanent, the demonstrations will 
sunset March 1, 2010.
    <bullet>  Increase and indexing of the fee cap. Rep. John Lewis has 
introduced H. R. 1093, which contains two provisions regarding the 
current $5,300 fee agreement fee cap: (1) Increase the current fee cap 
to $6,264.50 (which represents the figure if it had been adjusted for 
inflation since the last increase in 2002); and (2) Index the fee cap 
for future years to the annual COLA. We support these changes since 
they ensure that there will be a knowledgeable, experienced pool of 
representatives available to represent claimants.
    <bullet>  Work incentives. The Ticket to Work and Work Incentives 
Improvement Act (TWWIAA) was enacted nearly ten years ago and is 
overdue for evaluation of its effectiveness in employment of those 
receiving Title II and XVI disability benefits. We urge renewal and 
permanent extension of expired/expiring provisions including (1) SSA's 
Title II demonstration authority to test promising approaches for work 
incentives and related provisions; (2) Demonstration to Maintain 
Independence, set to expire this year, to provide Medicaid buy-in 
coverage to working individuals whose conditions or disabilities are 
not yet severe enough to qualify them for disability benefits; (3) 
Protection and Advocacy for Beneficiaries of Social Security, set to 
expire this year, to protect the rights of beneficiaries as they 
attempt to return to work; and (4) Work Incentives Planning Assistance, 
set to expire this year, which provides state grants for outreach and 
education to individuals with disabilities about supports and services 
regarding employment.
    <bullet>  Caution about e-Verify. E-Verify is an automated system 
for employers to verify the name/SSN/citizenship/work authorization of 
new hires by checking against SSA and Department of Homeland Security 
databases. SSA's workload has expanded rapidly due to demand by 
employers and new state laws mandating requiring use of this 
system.\40\ The problem is that the e-Verify system is hampered by 
inaccuracies in the DHS and SSA records. Mandating large numbers of 
employers to use it would require in an unknown but substantial number 
of U.S. citizens and legal immigrants to interact with SSA to verify 
their employment eligibility status and provide documents to prove that 
they are eligible to work. The additional burden of this labor-
intensive work could divert resources from SSA's core duties including 
making disability determinations within a reasonable time. It is 
essential that any proposal that would increase the use of e-Verify 
should only be enacted if it fully funds the resulting increased 
administrative burden on SSA and if the databases are accurate 
regarding employment.
---------------------------------------------------------------------------
    \40\ GA0 1/09 Report, p. 10.
---------------------------------------------------------------------------
    <bullet>  Staffing shortages cause serious post-entitlement 
problems for beneficiaries. When beneficiaries faithfully notify SSA of 
earnings or other changes that may reduce their benefit payment 
amounts, due to staffing shortages \41\ it may be months or years 
before SSA sends an overpayment notice to the beneficiary, demanding 
repayment of sometimes tens of thousands of dollars of accrued 
overpayments. It is shocking to beneficiaries to receive these notices, 
when they reasonably assumed that SSA had processed the information 
they submitted, and it is challenging if not impossible for someone 
subsisting on benefits alone to repay the overpayments. It would be 
helpful for SSA to develop a better reporting and recording system and 
promptly adjust benefit payments--thus preventing these overpayments. 
It is important to note that. in and of themselves, overpayments do not 
indicate fraud or abuse as beneficiaries are encouraged to work if they 
are able. The problems arise when reported earnings are not properly 
recorded and monthly overpayments are not properly adjusted.
---------------------------------------------------------------------------
    \41\ GAO 1/09 Report. P. 10-12
---------------------------------------------------------------------------
CLAIMANT STORIES PROVIDED BY REPRESENTATIVES IN MARCH 2009
FLORIDA
    <bullet>  Mr. O was a 53 year old Wal-Mart cashier in Bradenton, 
Florida. He developed HIV in the mid 1980s, and continued to work until 
2006 when his condition deteriorated and he was diagnosed with AIDS. He 
filed his application for Title II and SSI disability benefits soon 
thereafter in early 2006. While waiting for his hearing, he suffered a 
brain aneurysm and died in 2008. An estate was opened and the estate 
representative was substituted on the disability claim. The ALJ denied 
the request for an on-the-record decision, despite the numerous medical 
reports documenting that Mr. O's condition clearly met the impairment 
listing for HIV. In the meantime, the autopsy report showed that the 
brain aneurysm was most likely caused by Mr. O's deterioration due to 
AIDS and its complications. They are still waiting for a hearing date.
    <bullet>  Mr. M is a 57 year old man who worked as a Vocational 
Rehabilitation Specialist for over 20 years in Florida. He developed 
severe arthritis throughout his body, wears bilateral hand splints, 
knee splints, has developed severe joint degeneration, spinal cord 
degeneration, is agoraphobic, depressed, and anxious. He cannot take 
care of himself and he has no family to help him. He is about to lose 
his home. Mr. M has exhausted his savings and his attorney writes 
monthly letters to his mortgage company asking for extensions on his 
payments while he is waiting for his hearing. Nevertheless, the company 
is about to foreclose on his home.
GEORGIA
    <bullet>  Mr. C lives in Kennesaw, GA. Despite having only a 9th 
grade education, he has worked all of his adult life. He had back 
surgery many years ago, but continued working. His back pain became 
worse and worse until he was unable to work. He has degenerative disc 
disease throughout his back and herniated discs, some of which press on 
nerve roots, and depression. As a result of his back disorders, he has 
severe back pain, which radiates down into his legs. He must walk with 
a cane and can only obtain relief with narcotic medications. Mr. C 
filed for a hearing in November 2006 and a request for an on-the-record 
decision was filed by his attorney. Despite numerous attempts to 
follow-up with the hearing office, no decision has been reached and no 
hearing has been scheduled, 27 months after the hearing request was 
filed. Not only is Mr. C's condition adversely affected by this great 
delay, but he is unable to support his children.
    <bullet>  Mr. D lives in Doraville, GA. He was diagnosed with 
chronic hepatitis C with cirrhosis. He continued working, but became 
increasing symptomatic with severe fatigue, bone pain, and numbness and 
tingling in his legs and feet. He also has severe depression and 
anxiety. As early as June 2007, his doctor stated Mr. C was suffering 
from very advanced and terminal hepatitis C. Mr. C is now bedridden and 
must depend on his girlfriend for all of his support. Mr. C filed an 
application for Social Security and SSI disability benefits in March 
2007. The claim was denied and a request for a hearing was filed in 
October 2007. Mr. D's attorney filed a request for an on--the-record 
decision as a TERI (terminal) case. Despite numerous follow-ups to the 
hearing office, the only response has been to transfer his case to the 
National Hearing Center. To date, no hearing has been scheduled.
IOWA
    <bullet>  Mr. H lives in southeast Iowa and has been diagnosed with 
multiple sclerosis. He has a number of lesions in his brain, has 
difficulty walking, and suffers from debilitating fatigue. He has not 
been able to work since July 2007, and his claim has been pending since 
September 2007. He sent a letter to his attorney, which states:

               To Whom It May Concern: I am writing this brief letter 
        to tell you about a few of the examples of what this disease 
        has caused. Besides the day to day struggle just to live it has 
        caused my wife and me, along with our 2 children, financial 
        ruin. My mortgage payment is as much as my wife makes. I 
        receive no other income and worry day to day how to exist. As 
        far as what this has done to my state of mind, I am finding it 
        impossible to keep fighting this and feel like giving up. As 
        bad as this may sound, I have actually tried to end this with a 
        suicide attempt in November 2008. There isn't any way to 
        describe this except to say it feels hopeless and wonder if 
        there's any hope.

MARYLAND
    <bullet>  Mr. X, is a 57 year old Army veteran. Once his claim was 
allowed, he still had to wait for 120 days to get his retroactive 
benefits of $50,000. Each time he called the local SSA field office in 
Prince Georges County, Maryland, he was told there was ``nothing we can 
do.'' On one occasion, they told him ``do not call any more.'' 
Meanwhile, the veteran was forced to file for Chapter 13 bankruptcy, 
and almost lost his home. It took 16 months from the reconsideration 
denial to the hearing decision.
    <bullet>  Ms. Y is 50 years old and only speaks Spanish. She waited 
90 days to receive her past due benefits and had considerable problems 
with the field office, which could not find a Spanish interpreter. As a 
result, there was marked confusion about the SSI offset against the 
Title II benefits, and she could not obtain a Medicare card. Ms. Y is 
indigent and homeless and she is currently living with a relative. She 
is in dire need of medical services. From reconsideration to hearing, 
it took about 20 months.
    <bullet>  Ms. F is a 43 year old Army veteran. Her case has been 
pending since 2006. Her hearing was just held but no decision has been 
issued. She filed for Chapter 13 bankruptcy. She is in dire need of 
medical care and desperately needs Medicare eligibility. She is now 
homeless.
MISSOURI
    <bullet>  Mr. D, from the Trenton, MO, area, was diagnosed with 
multiple sclerosis. His truck was repossessed and his home was 
threatened with foreclosure. The local chapter of the MS Society 
advanced him six months of house payments to save the home. His hearing 
was scheduled but then delayed for two months, even as an ``expedited 
hearing'' because the vocational expert's copy of the electronic record 
on a CD was corrupted when he received it so he could not prepare to 
testify for the original hearing date. Eventually, Mr. D received a 
favorable decision and was able to keep his home.
    <bullet>  Mr. M, in his mid-40s, committed suicide because of his 
inability to afford medical care and take care of his family while 
waiting for a hearing. He had suffered horrible burns while pouring 
asphalt on his former job.
    <bullet>  Ms. N died while waiting for her hearing. Her attorney 
had attempted on three occasions to get an on-the-record decision but 
received no response from the hearing office. Ms. N died from medical 
complications related to her disabling conditions. At her death, she 
was virtually homeless, living in dilapidated travel trailer. 
Tragically, both her child and husband also died while she was waiting 
for a hearing.
NEW JERSEY
    <bullet>  Ms. W. lives in Newark, NJ. She previously worked as a 
counselor, laboratory technician, and outreach coordinator for various 
medical facilities. She has been diagnosed with major depression, 
anxiety disorder, and post-traumatic stress disorder. She applied for 
Social Security disability benefits in December 2007. She was denied 
through the reconsideration level (11 months after she applied) and 
requested a hearing in December 2008. Ms. W. has been sued for 
foreclosure and cannot afford her mortgage. If she were approved for 
benefits, she could afford to stay in her house, but it is not clear 
that she will have her hearing before it is too late and she loses her 
home.
    <bullet>  Ms. L, a resident of New Jersey, is a 57 year old former 
junior college instructor who has long-standing problems with arthritis 
and depression. Her case has been pending for over three years from the 
date the application was filed. As a result, she has been forced to 
take out home equity loans of more than $70,000 against her home. She 
can no longer borrow against her home as she has no visible means of 
repaying her obligations. She has borrowed from every friend or family 
member she knows in order to make payments on her loans. Currently, she 
has a payment plan for $400 per month that she is unlikely to be able 
to meet. She can no longer afford to see doctors or pay for her 
medications. Her case has been pending at the hearing level for ten 
months. Her attorney has asked that the case be expedited in light of 
her imminent homelessness and he is hopeful that will happen. If it is 
not expedited, she could wait an additional six months. She calls her 
attorney every week and cries.
    <bullet>  While waiting for her hearing, a woman in the Atlantic 
City, NJ area almost lost her apartment because of non-payment of rent. 
She had such severe mental problems that her attorney knew that if the 
client was forced to relocate to a smaller apartment, without her 
belongings, the client's mental health would deteriorate further. The 
attorney has tried to keep the client in her apartment while waiting 
for a hearing, which was requested in August 2007. The hearing was not 
held until February 2009, and they are waiting for a decision.
OHIO
    <bullet>  Mr. N is a 55 year old former maintenance supervisor who 
lives in Chillicothe, OH. He has small vessel ischemia, cerebrovascular 
disease, lumbar scoliosis, degenerative joint disease, vision loss, 
migraine headaches, depression, anxiety, fatigue, memory loss, and 
partial paralysis to his left side caused from two strokes. Mr. N filed 
his request for hearing in September 2007. While waiting for a hearing, 
he has had five liens put on his home, and does not have medical 
insurance to receive the medical treatment that he needs. His primary 
care physician has discussed his treatment options and has explained 
that his health will continue to decline, and that it is crucial for 
him to receive treatment as soon as possible.
    <bullet>  Ms. L was a 60 year old woman with a 12th grade education 
whose past work included kitchen helper and clothing folder. She lived 
in Eaton, OH, and suffered from pain and loss of range of motion due to 
a 2004 fractured right shoulder and right knee, with three unsuccessful 
surgeries which prevented her from working. Ms. L filed an application 
for Social Security disability benefits on June 15, 2006, alleging 
onset of disability in 2004 when she suffered the fractures. She 
developed rectal cancer in late 2006, and died on October 29, 2007, at 
the age of 60. A hearing was held with a substituted party on January 
8, 2009, 14 months after her death, at which time she was found 
disabled as of the 2004 date through the date of her death.
    <bullet>  Mr. W, a 37 year old fork lift driver from Columbus, OH, 
has a head injury and bipolar disorder, which prevent him from working. 
He filed his application for disability benefits in November 2006. 
While waiting for a hearing, he and his family were evicted from their 
apartment and his wife left him. He is living in a house with a friend 
and is unable to pay rent. However, when he is awarded benefits, he 
will owe back payment for the rent and continues to fall further into 
debt.
    <bullet>  Mr. P, a 60 year old data entry person who lived in 
Columbus, OH, had back and knee problems, epilepsy, and number of 
infections that kept occurring throughout his body. He filed his 
application for disability benefits on April 25, 2006. While waiting 
for a hearing, Mr. P became increasingly ill due to infection and 
chronic lymphedema. He died on December 11, 2007. An on-the-record 
favorable decision was made on October 9, 2008, ten months after his 
death. Mr. P was found disabled as of May 1, 2002 (four years before he 
applied for benefits) through the date of his death.
    <bullet>  A 57-year old quality-control inspector in Ohio with 
severe macular degeneration and uncontrolled high blood pressure 
applied for disability benefits in February 2008. He has exhausted all 
of his savings and, out of desperation, had to take in a boarder, but 
that income is not enough to keep the heat and lights on. His attorney 
filed his request for a hearing in November 2008, and told him to be 
prepared for an 18 to 24 month wait in the Cleveland, OH area, unless 
the ALJ issues an on-the-record decision or there is an informal remand 
to the DDS.
    <bullet>  Mr. S, who lives in the Cleveland, OH area, has 
peripheral vascular disease and severe arthritis in his right shoulder 
requiring surgery. While waiting 27 months for his hearing, he lived 
with various relatives, including his ex-wife and mother. Without any 
source of funds to purchase prescriptions, he used the $25 jury duty 
pay, after being called for jury duty. This allowed him to afford the 
$5 co-pay on his prescriptions at the county hospital where they have a 
sliding scale. A fully favorable bench decision was issued by the ALJ 
on the day of his hearing.
    <bullet>  Ms. T, from the Cleveland, OH area, waited 29 months for 
her hearing. She has been diagnosed with borderline intellectual 
functioning and epilepsy. While waiting for a hearing, she exhausted 
her time limit for TANF benefits and nearly lost her home. Her mother 
used her own income tax refund to save it from foreclosure, and then 
tried to make small payments on the utilities so that Ms. S and her 
children, aged 5 and 7, would have lights and heat.
    <bullet>  Mr. C, a 48 year old men's clothing salesman from the 
Cleveland, OH area, struggled for years with severe rheumatoid 
arthritis. He had undergone one hip replacement and needed another. 
When his savings ran out while trying to afford COBRA premiums, he 
would regularly call his attorney to help him. He applied for benefits 
in April 2007. He was fortunate enough to win ``quickly'' at the 
reconsideration stage, 13 months later, but it was too late to save his 
house, which he lost to foreclosure.
    <bullet>  Mr. A, a factory worker, lives in the Cleveland, OH area 
and is 46 years old. He had returned to work for 10 years after a rare 
but successful kidney/pancreas transplant. But finally, he applied for 
disability benefits because his gout and joint pain, requiring multiple 
knee and shoulder surgeries, plus weakness after a mild stroke, became 
too much for him to bear. His wife was diagnosed with cancer herself 
while his case was pending and she could no longer work or take care of 
him. Thanks to an expedited hearing, he won his case 19 months after he 
applied in August 2007.
    <bullet>  Mr. G is a 34 year old graphite factory worker with 
severe mental illness and Hepatitis C. He calls his attorney frequently 
to let her know that he is at the mental health crisis center again or 
staying with someone he met there. He was evicted last summer and has 
no regular place to live. His attorney worries that he may harm himself 
out of sheer desperation. His attorney filed a request for hearing in 
October 2008, but must continually tell him that he must steel himself 
for what could be the full 18 to 24 month wait that the Cleveland 
hearing office warns about in its notice.
    <bullet>  Ms. C is a 50 year old cook who tried to hold onto her 
part-time job at a tavern, but even the 10 hours per week got to be too 
much. Her back, leg and bladder problems finally led the owner to let 
her to go. She was so ashamed that she cried when she resorted to 
asking the local probate court for a loan against the funds being held 
for her son (based on a court settlement years ago). She did this in 
desperation because she did not know how else to hold onto her house. 
Her 16 year old son agreed that the court should allow her to access 
the funds, because he could not bear to see his mother under the 
stress. Ms. C was eventually allowed disability benefits and she repaid 
the money right away after she received her past due benefits.
    <bullet>  Mr. F is a 35 year old factory worker with borderline 
intellectual functioning. He worked for years as a laborer, then stayed 
home with his children while his wife went to school. He fell off a 
ladder while trying to clean out his father's gutters and shattered his 
heel, requiring surgery. He now has an MRI showing multiple fractured 
vertebrae, probably also a result of the fall a year and a half ago. 
The family has already lost their house. When his attorney filed the 
request for hearing last summer and told him it could be another year 
or two before his hearing, he and his wife and their three small 
children were sleeping in a tent in his parents' backyard. They hoped 
that when the weather got too cold, they would be able to move into the 
living room to sleep on the floor at night.
OKLAHOMA
    <bullet>  Mr. L lived in Norman, OK, and obtained representation in 
April 2008, upon receiving the initial denial of his Social Security 
disability claim. His attorney immediately requested reconsideration. 
His attorney explained to him that it most likely would be at least two 
to three months before he would receive a decision on the request for 
reconsideration; that most reconsideration requests result in another 
denial; and, if denied on reconsideration, it would be about one year 
before a hearing would be scheduled. The attorney obtained and 
submitted additional hospital records of the claimant's emergency 
treatment for acute exacerbation of asthma which occasionally required 
intubation.
           A mere two weeks after the appeal was filed, Mr. L's claim 
        was denied at reconsideration in May 2008. Upon learning of the 
        denial, the claimant committed suicide. His surviving spouse 
        has been substituted and they are presently awaiting a hearing 
        on the request for hearing that was filed in June 2008. In late 
        February 2009, the hearing office notified Mr. L's attorney 
        that the claim was ``ready for review.'' The attorney responded 
        that all evidence has been submitted and that the claim should 
        be scheduled for a hearing. To date, no hearing has been 
        scheduled. The individual's medical records do not reflect 
        treatment for any mental disorders.
OREGON
    <bullet>  An attorney in Eugene, OR, received a call in 2006 from 
Mr. E who lived in a rural Oregon town and was chronically mentally 
ill. He had heard from a social worker that the attorney coordinated a 
federally funded project called HOPE that helped chronically homeless 
disabled people apply for benefits. (Unfortunately, this project ended 
in 2008 and has not been re-funded.) He had been living outdoors for at 
least 10 years. He heard voices that told him to do bad things, 
including stealing from stores, which lead to multiple terms of 
incarceration. He also was in terrible physical pain. The attorney 
arranged transportation to her office and assisted him in filing for 
SSI disability benefits. His claim was denied at the initial and 
reconsideration levels because of a lack of evidence. Meanwhile, Mr. E 
spent another winter in the snow and rain, in terrible pain. He finally 
had a date set for hearing but a few days before his hearing, his 
stomach hurt so much that his brother persuaded Mr. E to go to the 
emergency room. He was diagnosed with end-stage pancreatic cancer. He 
brought a letter to the ALJ from the emergency room doctor verifying 
that he had less than 6 months to live. The ALJ immediately approved 
the claim without a hearing, but the claimant died three days later, 
before he ever received a check.
PENNSYLVANIA
    <bullet>  Mr. D lives in Dalmatia, PA. He is a veteran of the 
Vietnam War and is a victim of Agent Orange and has other war-related 
health and mental problems. He had obtained a favorable decision on his 
Social Security disability claim. However, because of a mix-up at SSA, 
it was nearly two years until his attorney was able to straighten out 
his payments. He has a son with the same name and the SSA system had 
the two individuals mixed in with each other. While waiting for his 
payments, Mr. D's house went up for a Sheriff's sale, after 
foreclosure. Two days before the sale, he called his attorney, crying, 
and said that he had no more reason to live. Out of sheer desperation, 
they called Rep. John Kanjorski's office, which was able to help get 
the Sheriff's sale postponed. Further, within two weeks, someone at SSA 
was trying to straighten out the mix-up. Within two months, the 
payments started. Mr. D's attorney notes that he does not believe this 
would have been accomplished if Rep. Kanjorski's office had not 
intervened.
    <bullet>  Mr. W lives in Wilkes-Barre, PA, and is waiting for an 
expedited hearing. He has Stage III colon cancer, yet his disability 
benefits claim was denied. He is undergoing infusion therapy at home. 
He called his attorney to say that he has no money to pay his rent and 
does not know where he will be living next month. Despite repeated 
requests for an expedited hearing, no hearing is scheduled.
    <bullet>  A little girl from Plymouth, PA, was the victim of sexual 
abuse at the age of 2 and was left with both mental and physical 
problems that will stay with her for her entire life. She cannot 
function in school due to anger issues and fear of men. She has had to 
undergo surgery for injuries related to the sexual abuse and will 
probably have additional surgeries throughout her life. Her parents 
applied, on her behalf, for childhood SSI disability benefits. They 
received a favorable decision, but it took nearly 17 months.
    <bullet>  Ms. L is 50 years old and lives in Pennsylvania. She has 
been diagnosed with cirrhosis of the liver caused by Hepatitis C. 
Although she has finally received a hearing date, the wait has been a 
struggle for her. She has had her utilities shut off, her car 
repossessed, and her health has worsened. Ms. L's medical care is very 
costly. She has been non-responsive to certain treatments for her 
cirrhosis and is now on the liver transplant list.
SOUTH CAROLINA
    <bullet>  Ms. S was 38 year old woman who had uncontrolled 
diabetes. Ms. S lived in her sister's home with her own two teenage 
children. She did not qualify for Medicaid under South Carolina 
guidelines because she had not yet been found disabled by SSA. Since 
she had no treating physician, every time her blood sugar went too high 
or too low, her sister took her to the local emergency room (ER) where 
she was given treatment. She continually complained to the ER staff 
that she had a sore on her right foot that would not heal. No one 
evaluated her for this because they were concerned with getting her 
blood sugar under control. Every ER visit had notations of her 
unhealing sores but provided no treatment.
           Eventually, the unhealing sores on her right foot got so bad 
        that one night at the ER, she and her sister insisted that the 
        doctor look at her foot. Once the doctor saw her foot, she was 
        immediately admitted and the next day her leg was amputated 
        below the knee. However, the surgeon who amputated her leg 
        stated he could not remove all of the leg that needed to be 
        removed as it would be too much of a shock to her system and he 
        wanted to wait until the following week. The sores were so bad 
        that even with the amputation, osteomyelitis had set in and 
        before the surgeon could perform the next amputation, Ms. S 
        died. The cause of death on the Death Certificate said 
        ``Complications of Diabetes''.
           Records for every ER visit to that hospital and other 
        hospitals were submitted for consideration to the ALJ. By the 
        time the case was set for hearing, Ms. S's sister was the 
        substituted party. By the time all the Exhibits were labeled, 
        there were 52 ER visits and 14 inpatient visits in 18 months. 
        Yet no on-the-record decision was granted even though it was 
        requested. At the hearing, Ms. S's sister described the pain 
        and agony her deceased sister had gone through. At the hearing, 
        the ALJ stated it was obvious that Ms. S had been disabled as 
        of her alleged onset date and he issued a fully favorable 
        decision. However, there were no family members who could 
        receive the past due benefits. As a result, the family had to 
        find the money for Ms. S's funeral costs. Neither the hospitals 
        nor the surgeon will be paid for their services, because there 
        was no Medicaid coverage due to no SSI benefits being paid.
           The hearing delay led to a lack of medical care for Ms. S 
        under the Medicaid program (based on SSI eligibility), which 
        most likely would have saved Ms. S's life.
    <bullet>  Mr. C was 42 years old client with a long history of 
coronary artery disease and morbid obesity. It took 22 months to get a 
hearing and by the time the hearing took place, Mr. C had died from a 
massive heart attack. Mr. C's mother was substituted. Mr. C's 
representative provided records at the hearing level from 15 ER visits 
where Mr. C had been taken, unconscious, by ambulance. In addition, the 
attorney provided over 30 ER and inpatient admissions for coronary 
artery disease with chest pain, shortness of breath, and the inability 
of the medical staff to find pulses in various parts of Mr. C's body. 
Mr. C was prescribed 7 cardiac medications for hypertension, chest 
pain, and hypercholesterolemia. At the ALJ hearing, his mother 
testified there were other ER visits that her son had forgotten to 
mention to anyone, including the attorney, because he could not keep 
track of all of them. One of the reasons for this memory problem was 
that his hypertension caused such severe headaches that sometimes he 
simply forgot that his family or emergency services had taken him to 
the ER. Despite all of this evidence and Mr. C's cause of death, the 
ALJ denied the claim. The ALJ denial has been appealed to the Appeals 
Council.
    <bullet>  Mr. O has been waiting 19 months for a hearing in South 
Carolina. He has a multitude of orthopedic problems as well as post-
traumatic stress disorder. Six months ago, Mr. O was bitten by a brown 
recluse spider and was admitted to the local hospital for 8 days where 
he was put on IV antibiotics and then told to follow up with his 
regular treating physician. [These spiders have a powerful poison in 
their bite which can cause necrosis of soft tissue and more serious 
symptoms.] Mr. O has no money or insurance and is not eligible for 
Medicaid. Because he cannot obtain medical care, including antibiotics, 
Mr. O has been trying to take care of the wound himself. It is getting 
worse and he has been told that if he does obtain antibiotic treatment 
soon, he will lose his entire left leg as the infected wound is only 
inches from his left hip. If his hearing had been held sooner, he could 
have obtained the treatment he needed for the bite and he could have 
received treatment for his orthopedic problems and possibly returned to 
work.
TENNESSEE
    <bullet>  A 50 year old man who lives in Alamo, TN, has non-
alcoholic steatohepatitis, advanced hepatic fibrosis, cirrhosis (end 
stage liver disease), esophagus varices, chronic obstructive pulmonary 
disease, and myeloproligerative disease. He lost his TennCare insurance 
in November 2008. He is not able to obtain his needed medication or 
seek the proper medical treatment needed to monitor his impairments. He 
was also recently diagnosed with four bulging discs that are impinging 
on nerves. He filed his application for disability benefits on February 
13, 2007, and his attorney requested a hearing on May 28, 2008. His 
attorney anticipates that this client will have to wait until the end 
of 2009 or early 2010 before his ALJ hearing.
    <bullet>  A 47 year old woman who lives in Milan, TN, is now in a 
wheelchair because she is unable to obtain the medical testing to 
determine what is wrong with her knees. The biggest roadblock to the 
necessary testing is that she has no medical insurance. She filed for 
disability benefits in February 2007 and a hearing was requested in 
February 2008. This is an extremely long period of time between the 
application date and the hearing request date. In this case, her 
attorney requested reconsideration (the first administrative appeal) in 
June 2007. However, the paperwork was lost. When her attorney's office 
called to check the status in October 2007, there was no record that 
the reconsideration request was filed. This caused an additional four 
months of delay.
    <bullet>  Mrs. J., from Camden, TN, applied for widow's disability 
benefits in October 2007, when she was 50 years old. She has chronic 
obstructive pulmonary disorder (COPD). Before the loss of health 
insurance, she was able to have oxygen at home. At her husband's death, 
she had no income, no health insurance, no car, and no telephone. She 
lived far away from her treating source, the Carroll County (TN) Health 
Department. Mrs. J. was denied at reconsideration in June 2008 and 
filed a request for an ALJ hearing the same month. In November 2008, 
during a very cold period, she had no heat and a neighbor gave her a 
wood stove. However, she put her health at even more risk as her former 
lung specialist did not want her to be around wood smoke, but Mrs. J 
had no choice. She also had no gas money for a trip to the health 
department. Her attorney requested an on-the-record decision, which was 
granted, and the ALJ issued a favorable decision in January 2009.
    <bullet>  Mrs. B. lives in Dyersburg, TN. She stays with an 
alcoholic, abusive husband because she has little choice for 
alternative housing. She obtained representation in November 2006. She 
had a hearing in February 2007. The ALJ denied the claim and she 
appealed in March 2007. The Appeals Council remanded the case for a new 
hearing more than 18 months later in October 2008. Her attorney called 
the hearing office about the status of the new hearing in February 
2009. The hearing office claimed it did not know about the remand 
order. Her attorney immediately faxed the order to the hearing office. 
Since then, her attorney has called the hearing office and left two 
messages to confirm receipt of the remand order but no one has returned 
the calls.
    <bullet>  Mr. T. is homeless. Relatives and friends in the 
Dyersburg, TN, area allow him to occasionally stay with them. He 
obtained representation for his disability claim in May, 2005. He 
formerly lived in another state and a hearing request was pending in a 
third state. His attorney was able to request a transfer but the claims 
file was mistakenly sent to the Selmer, TN SSA field office and was 
eventually forwarded to the Memphis hearing office. His first hearing 
was held in October 2005 and denied in December 2005. He filed an 
appeal to the Appeals Council in December 2005 and the Appeals Council 
issued a remand order in August 2006. The remand hearing was scheduled 
to be held in Memphis, some 90 miles from where Mr. T is living. He had 
great difficulty collecting money for transportation to the hearing. 
The remand hearing was held in August 2007 and denied once again. Mr. T 
appealed to the Appeals Council for a second time in September 2007. He 
is still waiting for a decision from the Appeals Council, 18 months 
later.
    <bullet>  Mrs. X, a 43 year old radiology/CT scan tech, lives in 
Clarksville, TN. She is unable to work due to diabetes, depression, 
anxiety disorder, fluid and arthritis in her knees, spondylothesis, 
spinal stenosis, degenerative disc disease, broad based disc bulges and 
severe pain and weakness in both legs. She filed her application for 
disability benefits in June 2007. While waiting for her hearing, Mrs. X 
and her family have been evicted from their home. Both of their 
vehicles have been repossessed, and they are having extreme 
difficulties paying for their day to day living. Her husband is on the 
verge of being laid off and, if that happens, there will be no income 
at all for this family. Due to the backlog, this claimant and her 
family may lose everything before she is able to get a hearing date and 
decision.
    <bullet>  Ms. A is 61 years old and lives in Milan, TN. She has 
Major Depressive Disorder, which prevents her from working. She filed 
her application for benefits in 2007. Ms. A's hearing has not yet been 
scheduled but her attorney has requested an on-the-record decision. She 
and her husband, who is currently employed, were forced to file for 
Chapter 7 bankruptcy in order to keep their house. The majority of her 
husband's check is going to the bankruptcy trustee each pay period, 
leaving them with only $4 to $27 per pay period for all of their other 
expenses, such as groceries and utilities
    <bullet>  Mr. C was a 57 year old man who lived in Big Sandy, TN. 
He was diagnosed with hypertension and renal dysfunction. His 
application for benefits was filed in 2006; however, before a hearing 
could be scheduled, Mr. C died in June 2007. His widow was substituted 
as the party and was able to obtain a favorable decision without a 
hearing, but not until August 2008. It took over six months for the 
payment center to process the claim and release the funds to Mr. C's 
widow.
    <bullet>  Mr. S is 36 years old and lives in Madison County, TN. He 
has musculoskeletal impairments and obesity, which prevent him from 
working. He filed his application for benefits in 2007 and was approved 
in late 2008, after his attorney requested an on-the-record decision. 
However, while his claim was pending, he lost his home, his wife left 
him, and his mother has taken him in.
    <bullet>  Mr. D, a 48 year old man who lives in Gibson County, TN, 
has musculoskeletal impairments. He filed his application for 
disability benefits in 2007. Mr. D's hearing has not yet been 
scheduled. He has lost his home and his wife left him. He is 
essentially homeless, living with various family members and friends.
    <bullet>  Mr. W is 53 years old and currently lives in Haywood 
County, TN. He has been diagnosed with musculoskeletal impairments. He 
filed his application for disability benefits in late 2004. It was 
denied and he had to appeal the case to federal district court. The 
court remanded the case, but not until mid to late 2008. After a remand 
hearing in 2009, his claim was allowed. However, while waiting for the 
decision, he lost his home and has had to live with various family 
members.
    <bullet>  Ms. M, a 58-year old woman who lives in Dyer County, TN, 
has musculoskeletal and mental impairments. She initially filed her 
application for benefits in 2004. A hearing was held in September 2005; 
however, a decision was not issued until January 2007. The decision was 
unfavorable and was appealed to the Appeals Council in February 2007. 
More than two years later after the appeal was filed, and five years 
after the application was filed, the Appeals Council has not yet made a 
decision on Ms. M's claim. She is essentially homeless, living with 
friends or family members.
TEXAS
    <bullet>  Mr. A is 45 years old and lives with his wife in Mission, 
TX. He has degenerative disc disease of the lumbar spine status post 
lumbar laminectomy, major depressive disorder, and borderline 
intellectual functioning, which prevent him from working. He filed his 
application in September 2003. The claim was denied initially in 
November 2003 and at reconsideration in February 2004 and he requested 
a hearing a few days later. While waiting for a hearing, Mr. A's house 
burned down in November 2004. His hearing was finally held in June 
2006, more than two years after he filed his appeal. The hearing was 
continued in order to obtain a psychological consultative examination 
and a supplemental hearing was held in July 2007. The ALJ denied the 
claim and on appeal, the Appeals Council remanded the case back to the 
ALJ. During this period, Mr. A was forced to file for bankruptcy. He 
had a remand hearing in February 2009 before the same ALJ who 
previously denied his case. At the remand hearing, the ALJ announced he 
would be awarding a fully favorable decision, but Mr. A has not yet 
received the decision.
    <bullet>  Mr. R is 48 years old and lives in San Antonio, TX. He 
has back pain, joint pain, hearing problems, Hepatitis C, and a head 
injury, which prevent him from working. He filed his application for 
benefits in January 2007. While waiting for a hearing, he became 
homeless and cannot receive proper medical attention. Mr. R has to rely 
on the kindness of friends for his basic necessities.
WEST VIRGINIA
    <bullet>  Ms. M is 42 years old from West Virginia. She has several 
conditions that prevent her from working. She has been diagnosed with 
bipolar disorder, and neck and back problems. She filed her application 
for benefits in the winter of 2007. She struggles daily with worsening 
of her health and financial needs. Her medical care is costly. She has 
tried to work several times but is currently on assistance. She has 
lost her home while waiting for a hearing.
                               * * * * *
    Thank you for the opportunity to testify today. For people with 
disabilities, it is critical that SSA be given enough funding to make 
disability decisions in a timely manner, improve its process for making 
disability determinations, and carry out its other mandated workloads.
    We also support changes to improve the disability claims process so 
long as those changes do not affect the fairness of the procedures used 
to determine disability and the rights of claimants.
ON BEHALF OF:

------------------------------------------------------------------------------------------------------------------------------------------------
American Association of People with
 DisabilitiesAmerican Council of the BlindAssociation of University Centers
 on DisabilitiesBazelon Center for Mental Health
 LawCommunity AIDS National Network
 (TIICANN)Easter SealsEpilepsy FoundationNational Alliance on Mental IllnessNational Association of Disability
 Representatives
                                     National Council on Independent
National Council for Community        Living
 Behavioral Healthcare     
------------------------------------------------------------------------


                                 <F-dash>

    Chairman TANNER. Thank you, Ms. Hathaway.
    Your testimony reminds me of what I said at the beginning, 
that they are real people. It is just not numbers. So thank you 
for being here.
    Next is the Honorable Ron Bernoski.
    Well, we will go to Mr. Fell then.
    Mr. Fell, you are recognized.

STATEMENT OF JAMES FELL, IMMEDIATE PAST PRESIDENT, CHAPTER 275, 
OFFICE OF DISABILITY ADJUDICATION AND REVIEW, FEDERAL MANAGERS 
                          ASSOCIATION.

    Mr. FELL. Thank you, Chairman Tanner, Chairman McDermott, 
and Ranking Members Johnson and Linder.
    My name is Jim Fell. I am here today representing managers 
in the Social Security Administration's Office of Disability 
Adjudication Review in my current role as Immediate Past 
President of the Federal Managers Association Chapter 275.
    Currently I serve as the Hearing Office Director in the 
Cincinnati, Ohio, ODAR office and recently accomplished 38 
years of Federal service, 35 with SSA. Please keep in mind that 
I am here on my own time and my own volition representing the 
reviews of FMA, and I do not speak for SSA.
    Within ODAR, there are over 765,000 pending requests for a 
hearing, an increase of almost 5,000 cases since the beginning 
of the fiscal year. Much of the increase in cases this year can 
be attributed to the current economic slowdown. It now takes an 
average of 499 days to process a request for hearing. As 
managers within ODAR, we are acutely aware of the impact this 
backlog has on our ability to deliver the level of service the 
American public deserves.
    I appeared before the Subcommittee just 2 years ago, and I 
am here once again to reconfirm that the backlog of cases is 
the result of the ongoing lack of adequate staffing levels and 
resources. The underfunding of the agency by Congress over the 
last decade has worsened the situation. Several years of 
untimely budgets further compound the problem. If these delays 
and inadequacies continue, clearing the disability case backlog 
will be impossible.
    We at FMA appreciate the attention the Subcommittees and 
Commissioner Astrue are placing on addressing remedies to the 
problem. In my written testimony, I discuss the Commissioner's 
four-pronged approach to eliminating the backlog. As mentioned, 
there are over 765,000 cases pending. In February, 
administrative law judges averaged 2.2 dispositions per day. 
With 250 work days in a year and 1,142 judges in SSA, ODAR 
could reasonably dispose of 628,000 cases in a year. This is 
not an unrealistic figure. However, it only allows us to work 
on the incoming cases, but it has little impact on the backlog. 
It is clear that ALJs will not meet this level if they do not 
have the staff to prepare the cases and write the decisions.
    Another troubling problem is the vast imbalances from 
region to region. Average pending cases per ALJ range from a 
low of 477 in the Dallas region to a high of 903 in Seattle. 
Five regions average over 700 pending cases per ALJ. Individual 
offices range from a low of 288 pending cases to a high of 
1,442, and nine offices exceed 1,000 cases per ALJ.
    It is our experience that distribution of judges and staff 
is often based on physical space and not an office's caseload. 
We must find an efficient way too better balance and 
redistribute the work if we are serious about tackling the 
backlog.
    Ultimately, this is a numbers game. None of the 
Commissioner's initiatives, whether alone or combined, is the 
silver bullet that will eliminate the backlog. We either have 
to slow the cases coming from the front end, which would 
require significant legislative changes, or we have to increase 
the capacity at the back end. The challenge is yours.
    To enable SSA to meet its goals, Congress must approve a 
sufficient level of funding. In the decade prior to fiscal year 
2008, Congress appropriated far less than the President 
requested each year. Without a doubt, this has had a 
devastating effect on the services provided to the American 
public.
    Recognizing the needs of SSA, Congress appropriated $126 
million above the President's fiscal year 2009 request. 
Unfortunately, we operated under a continuing resolution for 
the first 6 months of the year, and as a result, ODAR endured 
hiring, budget and overtime limitations. Continuing resolutions 
have become the norm rather than the exception, and it is 
significantly hindering our ability to get the job done. In 
order for funds to be properly spent, budgets must be 
implemented by October 1st. Not doing so ties the hands of an 
already beleaguered organization.
    To remedy the backlog situation, Congress should at a 
minimum pass President Obama's 2010 budget request of $11.6 
billion before the start of the fiscal year. This is a 10-
percent increase over the current fiscal year. We applaud the 
President for his commitment to eliminating the backlog problem 
and urge Congress to appropriate his request.
    I would like to close my statement with a personal story. 
In my office, about 5 feet from where I sit, I have a fax 
machine which I call the congressional fax. It is dedicated to 
the congressional staff, your staffs, for your constituents. 
Every day I receive inquiries, most of which are critical in 
nature and dire in need. I review heart-wrenching letters about 
homes being lost, crucial medications being skipped because 
they can't be afforded, college funds which are depleted, and 
overall despair. They do not understand why it takes years to 
receive a hearing.
    With your help, I would like to have no further use for 
this fax machine. Thank you for your time and consideration of 
our views, and I am happy to answer any questions you may have.
    [The prepared statement of Mr. Fell follows:]
   Statement of James Fell, Hearing Office Director, Social Security 
     Administration Office of Disability Adjudication and Review, 
Cincinnati, Ohio; and Immediate Past President of the Federal Managers 
                        Association Chapter 275
    Chairman Tanner, Chairman McDermott, Ranking Member Johnson, 
Ranking Member Linder and Members of the House Ways and Means 
Subcommittees on Social Security and Income Security and Family 
Support:
    My name is Jim Fell and I am here today representing nearly 800 
managers in the Social Security Administration's Office of Disability 
Adjudication and Review (ODAR) in my current role as Vice President of 
the Federal Managers Association (FMA) Chapter 275 and Vice Chairman of 
FMA's Social Security Conference. Please allow me to take a moment and 
thank you for this opportunity to present our views before your 
Subcommittees. As federal managers, we are committed to carrying out 
the mission of our agency in the most efficient and cost effective 
manner while providing necessary services to millions of Americans.
    Currently I serve as the Hearing Office Director in the Cincinnati, 
Ohio, Office of Disability Adjudication and Review and recently 
accomplished 38 years of federal service, 35 of which were with SSA. I 
have been in SSA management for 29 years, the first 12 in SSA 
Operations in district field offices and the last 17 in ODAR, first as 
a hearing office manager and now as a Hearing Office Director. I was 
also an active member of the Hearing Process Improvement (HPI) Steering 
Committee created by former Commissioner Kenneth S. Apfel to study the 
effectiveness of HPI. I have held the positions of President and Vice 
President of FMA Chapter 275, Office of Disability Adjudication and 
Review Managers Association (ODARMA) for the past 15 years. Please keep 
in mind that I am here on my own time and of my own volition 
representing the views of FMA and do not speak on behalf of SSA.
    Established in 1913, the Federal Managers Association is the 
largest and oldest association of managers and supervisors in the 
Federal Government. FMA was originally organized to represent the 
interests of civil service managers and supervisors in the Department 
of Defense and has since branched out to include some 35 different 
federal departments and agencies including managers and supervisors 
within the Social Security Administration. We are a nonprofit, 
professional, membership-based organization dedicated to advocating 
excellence in public service and committed to ensuring an efficient and 
effective Federal Government. As the ODAR Managers Association within 
FMA, our members and their colleagues are responsible for ensuring the 
successful administration of the Social Security Administration's 
disability determination process and providing needed services to 
American customers.
    As you are keenly aware, the Social Security Administration plays a 
vital role in serving over 160 million American workers and their 
families. Each month, SSA pays out benefits to 48 million 
beneficiaries, including over seven million low-income Americans who 
depend on the agency's Supplemental Security Income program to stay 
afloat in a cost-inflating world and nearly 7.2 million disabled 
Americans who receive benefit payments through Social Security 
Disability Insurance. These programs amount to the agency paying out 
nearly $650 billion in benefits per year. At a February 28, 2008, 
hearing before the House Appropriations Committee, Commissioner Astrue 
testified that SSA's productivity had increased over 15 percent since 
fiscal year 2001. Considering the magnitude of its mission, the Social 
Security Administration does a remarkable job administering critical 
programs.
    In the Office of Disability Adjudication and Review, however, there 
are 765,527 pending requests for a hearing, an increase of 4,714 cases 
since the beginning of the fiscal year. It now takes an average of 499 
days to process a typical request for a hearing and these delays 
continue to tarnish SSA's otherwise strong record of service to the 
American public. At the beginning of 2002, SSA had 468,262 pending 
hearing requests. In seven years, that number increased to over 
765,000, despite the fact that dispositions are at record levels. The 
files simply awaiting preparation for review by an Administrative Law 
Judge (ALJ) at the close of February 2009 totaled 456,442 cases, an 
increase of 25,173 cases since the beginning of the fiscal year.
    As managers and supervisors within ODAR, we are acutely aware of 
the impact these backlogs are having on our ability to deliver the 
level of service the American public deserves. I appeared before the 
Social Security Subcommittee just two years ago and I am here once 
again to confirm what you've heard several times before--the ongoing 
lack of adequate staffing levels and resources have directly 
contributed to the backlog. The lack of resources can be directly 
contributed to the underfunding of the agency by Congress over the last 
decade. Several years of untimely budgets further compound the problem. 
If these delays and inadequacies continue, clearing the disability case 
backlog will be impossible and service delivery will continue to 
deteriorate.
BACKGROUND
    By way of background, when a request for a hearing is received at a 
local Social Security office, it is automatically propagated into our 
computer system by a case intake employee in ODAR who adds ODAR-
specific coding such as ALJ assignment, site of the hearing and the 
representative involved. Basic screening is done to ensure timeliness 
of filing, verify procedural issues are met and determine the need for 
critical or expeditious handling. An acknowledgement is prepared and in 
some offices, a CD is burned and bar codes are prepared to send to the 
claimant or representative.
    If staffing allows, ALJs or attorneys will screen the cases for 
anything that might qualify it as an ``on the record'' (OTR) decision. 
This allows for cases to be decided favorably and paid without a 
hearing based on the evidence in file. However, such cases are rare and 
if an OTR is not possible, the electronic record will await preparation 
for ALJ review. The national average for this period of inactivity is 
164 days. In the Dallas region, a file will wait only 66 days on 
average, but in the Chicago Region, the wait averages 229 days. In all 
but 75 offices, the wait for folder preparations exceeds the national 
average. The files simply awaiting preparation for review by an 
Administrative Law Judge (ALJ) at the close of February 2009 totaled 
431,269 cases, a decrease of 22,729 cases since the beginning of the 
fiscal year. We are encouraged by this decrease and the promise it 
holds. However, these delays will continue to exist simply due to the 
volume of work coming in and the lack of staff to tackle it.
    The disproportion of workloads among the regions also continues to 
be a cause for concern and must be addressed. Significant efforts were 
made to address this situation within the last two years but without 
ongoing attention and fine tuning to make the best effort to balance 
resources and workload, these efforts will not yield the desired 
results. With the promised addition of staff, we will be able to begin 
to address these backlogs; however, once again, we are seeing staffing 
decisions being made on the basis of where there is physical room to 
put the ALJs and employees rather than caseload. Continuing to make 
staffing decisions using these criteria only perpetuates the existing 
staff and workload imbalances.
    Cases are generally worked in hearing request date order. Those 
cases deemed critical or in dire need may be given preference. The 
``workup'' of the file involves a support person who reviews and orders 
the evidence, identifies each exhibit, obtains the jurisdictional 
documents and provides a brief summary of the evidence in file. Once 
the file is completed and the exhibit list is prepared, it is referred 
to an ALJ for review and scheduling instructions. It is then scheduled 
for a hearing based on the individual ALJ instructions. Scheduling 
requires coordinating the schedules of the ALJ, the claimant, the 
representative, medical and vocational experts, a reporter and hearing 
room availability. The claimant and representative must be given a 
Notice of Hearing at least twenty days in advance of the hearing. These 
hearings can be done in person or by video in the local hearing office, 
a permanent remote site or a temporary remote site, such as a hotel or 
local government office.
    After the case is heard, the ALJ can make a decision or order 
supplemental records and a consultative examination if necessary. Once 
the ALJ has all the evidence and testimony needed to make a decision, 
he/she will write instructions for the decision writer. At the end of 
February, there were 32,270 cases nationally in which an ALJ had made a 
decision but was waiting for an attorney or paralegal to draft the 
decision. This number has been growing in part because the Senior 
Attorney Adjudicator's availability to address decision writing is 
reduced by the time they spend on their adjudication responsibilities, 
such as review of existing claims and drafting of on the record 
decisions.
    When the written decision is completed, it is made available for 
the ALJ to review, edit, return for redraft if necessary and 
electronically sign. After it is signed, an alert is sent to the 
support staff to print, mail and code the case to completion. It is my 
understanding that this mailing process will be shortly automated to 
send the decision to a central mailing site. Once the decision is 
mailed and the coding is complete, we have a disposition.
WHERE WE ARE TODAY
    We at FMA appreciate the attention the Subcommittees and 
Commissioner Astrue are placing on examining the reasons for the 
backlog and addressing remedies to the problem. ODAR began fiscal year 
2009 with 456,442 pending cases awaiting preparation for a hearing. 
Those cases will wait at least one year before any action is even 
initiated to prepare them for review and hearing in front of an 
Administrative Law Judge. In February, processing times across the 
nation ranged from a low of 346 days in the Boston region to a high of 
616 days in the Chicago region. Once again, the large difference in 
regions is disconcerting. The American public deserves better service.
    Within ODAR, production is measured by the number of dispositions 
completed per day by an Administrative Law Judge. In FY05 and FY06, 
this record-level figure was 2.2 dispositions per day per ALJ. In FY08, 
ALJs went even further by averaging 2.3 dispositions per day. Current 
performance through February is back in the 2.2 range and likely 
represents the best achievable level of production. This level of 
performance will allow ODAR to meet the 500 disposition per ALJ figure 
that was requested as a minimum by the Office of the Chief ALJ last 
October. At the end of February 2009, SSA employed 1,142 ALJs, which 
would allow us to dispose of 571,000 cases if each ALJ worked 500 
cases. The problem with this production level is that it's only good 
enough to handle the incoming work, not the backlog. For the current 
fiscal year through February, receipts totaled 256,831 (an increase of 
22,219 during the same period last year), while ALJs completed 237,758 
dispositions. As you can see, without significant increases in the 
number of ALJs and appropriate support staff levels, the best we can do 
is stay even, which means the number of pending hearing requests 
remains above 765,000.
    Let's take a closer look at the numbers. Five years ago, SSA 
leadership determined that a fully productive ALJ could produce a 
maximum of 2.5 dispositions per day, a number we have yet to achieve. 
With 250 work days, an ALJ should dispose of 625 cases in any given 
year. We currently employ 1,142 judges, which under this scenario would 
mean ODAR could dispose of 713,750 cases in a year. Even if ALJs 
produced only 2.2 dispositions per day, ODAR could dispose of 628,100 
cases a year. The math is clear. Without holding ALJs to a stronger 
level of production and supply them with adequate staff to prepare 
cases, the backlog will never stop being a backlog.
    We at FMA believe that it is imperative that both the agency and 
Congress recognize the reality of the ALJ production level. It is the 
key to the solution. By acknowledging what has been defined as 
acceptable and using it to compute the number of potential 
dispositions, we can accurately foresee where we can go in terms of 
working down the backlog. From there, we can compute what we need to 
achieve an appropriate pending case level. With an average disposition 
level of 2.2 per day, we will not be able to reduce the backlog without 
more judges and staff to support them.
    In FY08, SSA hired 190 Administrative Law Judges, which could 
translate into an additional 94,500--132,300 dispositions if each ALJ 
issued 500--700 dispositions per year, as requested by the Chief ALJ. 
However, 68 judges retired during the same period. In FY09, SSA is 
planning to hire an additional 157 judges, but is projected to lose 60 
to retirement. While this is certainly a step in the right direction, 
Administrative Law Judges alone will not solve the problem. Without 
additional staffing, the current level of prepared work would be 
distributed among more judges, essentially resulting in the same 
dispositional outcome. Without adequate support staff to prepare cases 
for the judges, both existing and new, we will not achieve an increase 
in hearing dispositions. In recent years, however, budgetary 
constraints have forced the agency to hire additional Administrative 
Law Judges without providing adequate support staff to prepare the 
cases for hearing. We recognize that the Commissioner is trying to 
address the backlog by adding these judges; however, additional ALJs 
without the supporting clerical staff to prepare cases in a timely 
manner will not solve the problem.
    With the recent increase in funding for SSA from Congress, it is 
likely ODAR will be filling 400--500 staff positions. We are encouraged 
by this, but in order to maintain an adequate ALJ to staff ratio in 
each office, several hundred more staff will have to be hired. The 
Commissioner is publicly acknowledging the need for support staff and 
hiring authority is coming our way. Unfortunately, we are already half 
way through the fiscal year and training staff can take upwards of a 
year. As the first six months of FY09 were funded with a continuing 
resolution (CR), it is unlikely that we will see much impact from the 
current influx until FY10. The untimely passage of budgets is further 
tying our hands from getting the job done. While we are grateful 
Congress is beginning to recognize the needs of the agency, this feast 
or famine approach is hindering the agency's productivity.
    As mentioned, adequate clerical support is necessary to prepare 
cases for hearing, as well as staff to write a disposition after the 
ALJ has made his/her decision. As it currently stands, hearing offices 
do not even have the staff to accommodate the current judges, let alone 
enough staff to accommodate the new judges and process the over 51,366 
new cases the Office of Disability Adjudication and Review receives 
each month. If receipts remained flat, over 765,000 cases will remain 
pending, 36 percent of which are over 365 days old. At the beginning of 
FY09, ODAR had 166,838 cases that would reach 850 days by the close of 
FY09. As of March 12, ODAR had disposed of 100,833, or 61 percent, of 
the 850 day old cases. We are on target to complete the remaining cases 
by the end of the year and the Commissioner and staff should be 
commended on their dedication to tackling this portion of the backlog.
    With the aging Baby Boom population, as well as the current 
economic downturn, it is reasonable to assume that receipts will 
continue to out-pace dispositions. In fact, ODAR received almost five 
percent more cases than anticipated in FY08 and ended the year with 
14,069 more cases than at the close of FY07. Additionally, the first 
quarter of FY09 saw receipts higher than expected, mainly due to our 
ongoing economic challenges. When the economy slows, disability claims 
increase. As the requests for hearings continue to rise, more is 
demanded from ODAR staff on all levels. The bottom line is that the 
hearing offices lack sufficient staff to process the work on hand, much 
less even begin to work on new cases. It is evident that under the best 
case scenario, the current staffing levels in ODAR barely maintain the 
status quo. That means that the backlog stays the same and processing 
times continue at a rate which nears 500 days.
    The accepted staff to ALJ ratio is roughly four and one half 
production staff per ALJ. However, this only ensures productivity 
necessary to handle incoming work, not the backlog. For offices with 
heavy backlogs, the four and one half to one standard is inadequate. 
Quality and composition of staff also impacts productivity. 
Additionally, management and administrative employees should not be 
included in these figures, as they are not the employees performing the 
production work on hearing requests. It is our experience that 
distribution of judges and staff is often based on physical space and 
not an office's caseload. This must be addressed if we are serious 
about tackling the backlog in the most efficient manner possible.
    Average pending cases per ALJ range from a low of 477 in the Dallas 
region to a high of 903 in Seattle. Five regions average over 700 
pending cases per ALJ. Individual offices range from a low of 288 
pending cases to a high of 1,442 and nine offices exceed 1,000 cases 
per ALJ. On a national level, processing times range from 346 days in 
Boston to 616 in Chicago. At the end of February, 32,270 decisions have 
been made by the ALJs but are waiting to be drafted by a decision 
writer.
    The solutions to the backlog problem start with timely budgets and 
adequate staffing levels which will allow us to address the pending 
cases. As of last month, just over 765,000 requests for a hearing were 
pending. However, it is worth noting that the agency can reasonably 
process 450,000--550,000 cases during a given fiscal year. As such, the 
actual ``backlog'' at this point is around 300,000 cases.
COMMISSIONER'S PLAN TO ELIMINATE THE BACKLOG OF HEARINGS
    SSA has undertaken 37 initiatives to achieve each of the four 
aspects of Commissioner Astrue's plan to eliminate the backlog. The 
Commissioner should be applauded for his commitment to delivering a 
level of service acceptable to the American public and as managers and 
supervisors in ODAR, we are dedicated to working with the Commissioner 
to reach his goals. A commitment from Congress is also necessary if we 
are to succeed in providing a level of service acceptable to the 
American people we serve.
Compassionate Allowances
    The first point on the Commissioner's plan is to accelerate the 
review of cases likely or certain to be approved, otherwise know as 
Compassionate Allowances. This concept has been introduced in a variety 
of iterations over the years. The idea is admirable; however, we expect 
that this will have little impact on ODAR's pending cases, as many of 
these are issued at the initial and reconsideration levels.
Improve Hearing Office Performance
    The Commissioner also laid out a number of initiatives designed to 
Improve Hearing Office Performance, the second of his four-pronged 
approach. As previously noted, there are 166,838 cases that will age to 
850 days in FY09 and we are on track to tackle this unacceptable level 
of service by the close of this year. Additionally, giving adjudication 
powers to attorney advisors has the benefit of adding to dispositions; 
however, it redirects the work of these very skilled attorneys from 
reviewing and advising ALJs on the most difficult cases and makes them 
unavailable for decision writing. In many instances, these employees 
are not replaced with others to do their original tasks and those tasks 
go uncompleted or are redirected to others who are already 
overburdened. Improving Hearing Office Performance will never be 
achieved without additional staff.
Increase Adjudicative Capacity
    The third aspect of the Commissioner's plan is to Increase 
Adjudicative Capacity through Streamlined Folder Assembly, which has 
made additional folders available for hearings as evidenced by the 
52,533 cases prepared using this method in fiscal year 2008. It has 
been expanded to the electronic folder, but this process was optional 
for ALJs and requires additional review time on their part because of 
the ``rough'' nature of the preparation.
    The introduction of the National Hearing Center (NHC) has the 
potential to greatly expand the agency's capacity to redirect the 
resources where the cases are. It is our understanding that installing 
video centers in heavily impacted parts of the country so that the 
claimant can go to a video center in order to have his/her case heard 
by the NHC or other Hearing Office via video is the goal. We believe 
the potential for delivery of service with this process is huge. 
However, we once again caution that in order to hear these cases, we 
still need staff to prepare, schedule and draft decisions. Without 
adequate staff support, the NHC will have no cases to hear. In FY08, 
the NHC received 4,650 cases, but was able to make decisions on only 
2,151 of those cases. In order to even begin making a dent in the 
backlog, several thousand more cases will have to be heard at the NHC.
    Along the same lines, additional video equipment has the potential 
to expand the number of video hearings. In fact, in some impacted 
areas, we understand that stand alone video sites are being built that 
will allow assistance to be provided from around the country. However, 
we must not forget that without adequate staff to prepare cases, 
additional electronic capacity is a moot point. Furthermore, 
regulations allow the claimants and their representatives to opt out of 
the process and our business process also allows the ALJs to opt out. 
The practice only works when you have parties that will use it.
    Under this section of the Commissioner's plan is an expectation in 
place regarding the productivity of ALJs. As mentioned earlier, a 
productive, trained ALJ should reasonably be able to dispose of 500--
700 cases a year. Not surprisingly, ALJs conducted 14,733 more cases in 
FY08 than in FY07.
Increasing Efficiency with Automation and Business Processes
    Increasing Efficiency with Automation and Business Processes is the 
final aspect of the Commissioner's plan. There are a large number of 
initiatives under this goal. The greatest percentage of case files are 
now in the electronic folder format. Increasing our electronic 
capabilities will allow us to balance workloads more efficiently. 
Although many cultural and training challenges remain, we believe this 
will ultimately provide for an efficient process. Acquiring new 
buildings and hiring and training staff simply take too long to have 
any immediate effect on the backlog. In fact, by the end of FY08, 
655,457 cases were filed electronically representing 86 percent of 
ODAR's caseload.
    Much of ODAR's initial promise of increased efficiency was tied to 
the success of the ePulling initiative; however, the pilot program did 
not prove successful. We have heard that there is a new iteration of 
this program that holds promise. Our ability to pull cases and serve 
the public may very well rest on this new program. However, ePulling is 
still very much a work in progress and we are unlikely to see any 
progress this fiscal year. Implementation of eScheduling would 
certainly free up additional individuals whose services could be used 
to complete other tasks, including folder preparation. Given the 
complicated nature of the scheduling process, which takes into account 
many schedules and many individual scheduling preferences, we believe 
this will be a difficult challenge.
    The temporary service area realignments went a long way to 
adjusting some of the imbalances in the workloads. We believe that the 
electronic nature of our cases provides us with significant 
opportunities to expand this concept to individual work categories. Any 
office with excess writing or pulling capacity should have that 
capacity redirected to offices with significant backlogs. No office 
should be allowed to process their work in an average of under 300 days 
when there are 30 offices with processing times of around 400 days and 
26 offices with processing times above 600 days. We must find an 
efficient way to better balance and redistribute the work.
    The Electronic Records Express (ERE) initiative also has 
significant promise and a pilot project is currently underway. While 
representatives have the ability to submit records using this process, 
currently they do not have access to the files via a secure Web site. 
This requires the local office to provide CDs with the evidence and we 
believe results in significant duplicate submissions since they cannot 
confirm what evidence is on file.
    Many reports are available to provide enhanced management 
information and management training has been improved. These 
initiatives are certainly supported by FMA, as management of the 
workload is enhanced by trained employees and adequate tools; however, 
the critical issue once again is the lack of adequate staff to actually 
do the work. We know what needs to be done; we simply do not have 
enough people to do it. Furthermore, management is not allowed to hold 
employees accountable for production standards, making ongoing 
performance measures a challenge.
    Ultimately, this is a numbers game. Should Congress define what it 
considers to be an adequate level of service, we believe the agency can 
define what we need to get there. None of the initiatives outlined 
above, whether alone or combined, is the silver bullet that will 
eliminate the backlog. We either have to slow the cases from coming in 
at the front end, which would require significant changes in 
legislation, or we have to provide more capacity on the back end. The 
challenge is yours.
WHERE WE GO FROM HERE_INCREASED FUNDING
    To enable SSA to meet the goals set forth in Commissioner Astrue's 
plan to eliminate the hearing backlog, Congress must approve a 
sufficient level of funding for the agency. Between 2001 and 2007, 
Congress appropriated, on average, $150 million less than the President 
requested each year. The value of this differential is equivalent to 
processing an additional 177,000 initial claims and 454,000 hearings. 
In the ten years prior to fiscal year 2008, Congress appropriated 
nearly $1.3 billion less than the President's request. Without a doubt, 
this has had a devastating effect on the services provided to the 
American public, as evidenced by the situation we are in today.
    Recognizing the needs of SSA, Congress appropriated $150 million 
above the President's request for FY08 in an effort to bring down the 
backlog. Congress should be applauded for their commitment to serving 
the American people in this capacity. In fact, it is this increase 
which allowed the agency to hire the additional 190 ALJs. Imagine what 
we could have accomplished with adequate staff to provide support to 
the additional ALJs.
    Unfortunately, for the first six months of FY09, we operated under 
a continuing resolution (CR) and as a result, ODAR has had to endure 
hiring and overtime limitations. Continuing resolutions have become the 
norm rather than the exception and it is significantly hindering our 
ability to get the job done. With the passage of the FY09 Omnibus 
Appropriations bill (P.L. 111-8), these restrictions have been lifted. 
The bill included $126.5 million above President Bush's FY09 request, 
which was already six percent over the FY08 appropriation. This will 
allow the agency to go forward in hiring staff. However, hiring and 
training staff takes time and consequently, we will not see the 
benefits of this funding increase until FY10 has started. In order for 
funds to be properly spent, budgets must be implemented by October 1st 
every year. We simply can no longer afford to pass budgets halfway 
through the fiscal year, essentially tying the hands of our already 
beleaguered organization.
    In addition to the increase in FY09 funding, the economic stimulus 
bill (P.L. 111-5) provided necessary and timely funds to SSA in order 
to improve its service delivery issues. It is crucial SSA allocate 
these funds to the areas that need them the most. Of the $1 billion 
provided to SSA in the stimulus, it is estimated the agency will be 
able to hire 5,000--6,000 employees with $500 million of the funds. The 
remaining $500 million will replace the National Computer Center to 
ensure the new facility is functional prior to the time the current 
center is no longer operational. We encourage the agency to ensure the 
new hires are placed where the agency needs them the most--in field 
offices and as clericals in hearing offices.
    In his first budget to Congress, President Obama requested $11.6 
billion for SSA's administrative expense in FY10. This is an increase 
of $1.1 billion or ten percent over the current fiscal year. Without a 
doubt, these funds would have a direct impact on the service delivery 
of the agency. We applaud the President for his commitment to solving 
the backlog problem and urge Congress to appropriate his request.
    To remedy the unprecedented backlog situation, Congress should at a 
minimum pass the President's 2010 budget request of $11.6 billion for 
SSA's Limitation on Administrative Expenses account before the start of 
the fiscal year. Under his budget, the agency would be able to process 
tens of thousands of more hearings in FY10 than in FY09. It is 
estimated that forty percent of SSA's 65,000 member workforce will 
retire by 2014. In FY06 and FY07, SSA replaced one worker for every 
three that retired. The President's budget will allow for a 1 to 1 
replacement ratio and maybe even some additional staff. While this will 
not allow us to eliminate the backlog immediately, we will be able to 
make significant strides to reducing it. We must reiterate that if we 
are forced to endure another CR, service delivery will suffer.
    In addition to having an immediate impact on the current backlog, 
underfunding the Social Security Administration will negatively impact 
every service area of the agency. Staffing at SSA will soon reach its 
lowest level since 1972; however, SSA today has nearly twice the number 
of beneficiaries it had in 1972. Never has hiring sufficient staff been 
more crucial. Reversing this trend is a necessary step to reduce the 
backlog.
CONCLUSION
    While the President's budget request for FY10 is a start, it is 
certainly not a cure all solution. Throwing money at the problem will 
not fully solve it without a well-trained, dedicated staff of federal 
employees willing to avert a crisis in the coming years. We believe 
this is the workforce we have now, strengthened under the leadership of 
former-Commissioner Barnhart and Commissioner Astrue. By fully funding 
the President's request, we can continue this tradition.
    In this era of shrinking budgets, SSA has attempted to maximize its 
use of scarce resources to provide the best possible service to the 
American public. The challenges faced by the managers and supervisors 
are not short term; they are a demographic reality. The same citizens 
putting stress on the Social Security trust fund because they are 
approaching retirement are also entering their most disability-prone 
years. ODAR is struggling to handle the current workload and will be 
hard pressed to manage the anticipated increase in hearing requests 
without additional staff.
    We are the men and women who work with disabled Americans everyday. 
We see people of all ages come in and out of our offices seeking the 
services they depend on for survival from the Social Security 
Administration. We are committed to serving a community of Americans in 
need, but we need you to provide us with the necessary resources to 
help them. Thank you for your time and consideration of our views and I 
am happy to answer any questions you may have.

                                 <F-dash>

    Chairman TANNER. Thank you, Mr. Fell.
    Judge Bernoski, you are recognized.

   STATEMENT OF THE HONORABLE RONALD G. BERNOSKI, PRESIDENT, 
           ASSOCIATION OF ADMINISTRATIVE LAW JUDGES.

    Mr. BERNOSKI. Mr. Chairman, thank you for inviting us to 
testify here today.
    As administrative law judges, we are keenly aware of the 
disability case backlog because we work with it on a daily 
basis. Administrative law judges continue to work hard at 
Social Security.
    During the past decade, we have been rendering case 
dispositions on a record basis. In 2008, we issued dispositions 
in about 550,000 cases, which amounts to over 2 cases per day, 
per judge. The only agency study that we know of regarding ALJ 
production was part of a 1994 agency reform plan. This study 
concluded that a judge could efficiently produce about 25 to 55 
cases a month. This would have the judge devoting between 3 to 
7 hours to each case on an incremental basis. We don't believe 
that this is too much time for a case that is worth around 
$250,000, including Medicare.
    We have prepared a chart, which is part of our statement, 
which shows that our judges, our rendering case dispositions in 
a bell curve manner, with most of the judges of course being in 
the center of the chart. A second chart also shows that the 
more cases that a judge issues, the higher the pay rates 
become.
    Now, these charts were based on information provided to a 
newspaper by the agency. This continued increase in case 
production has come in spite of the fact that the electronic 
files have slowed our work process and e-polling is showing 
signs of failure. E-polling is an electronic system to prepare 
our exhibit files for hearings, and it eliminates the need for 
the manual process.
    The failure of this system proves our past comments to this 
Committee, that Social Security has a history of overselling 
benefits of technology. For example, last year the agency 
claimed that e-polling reduced the need for the five-to-one 
support staff ratio for judges. Instead, this failure now shows 
that we will continue to require this support staff ratio. In 
fact, at the last hearing before this Committee last year, 
evidence was introduced to support a six-to-one staff ratio for 
judges.
    The GAO and the IG have both concluded that judges would 
decide more cases if the files were available for hearing. 
Despite this hard work by our judges and other employees of the 
agencies, we continue to fall behind, and the case backlog 
continues to grow.
    If history remains consistent, the current economic 
recession will add to our backlog. The agency is in need of 
additional resources to address this problem. The resources are 
needed, as has been indicated, to hire additional 
administrative law judges and support staff.
    Social Security hearings are based on an inquisitorial, 
rather than an adversarial, model. The judge is responsible for 
ensuring that the hearing record is complete and that both the 
claimant and the trust fund receive a fair hearing. This places 
more responsibility on the judge and the assistance of staff as 
necessary to allow judges to complete their work. We work as a 
team with our staff, and the support staff is needed to set up 
the file, send a notice of hearing, assist during the hearing, 
monitor post-hearing developments and prepare draft hearing 
decisions.
    Now, in this time of tight budget, additional support staff 
could be obtained by closing the ODAR regional offices and 
assigning those workers to hearing offices to support the 
hearing process.
    However, Mr. Chairman, money alone is not enough and 
substantive reform is also needed to improve the process. Cases 
that meet the standard for disability must be taken out of the 
system before they meet the administrative law judge hearing, 
before they get to that level. This change can be done by 
adopting a system like the Federal that was in the DSI program 
or by using our attorneys to achieve this result. Vocational 
rules could also be revised to reflect our increased longevity 
and our changing workplace.
    The initiatives that the commissioner has implemented have 
had little impact on reducing the disability case backlog. 
Ideas such as the streamlined files, the National Hearing 
Center, centralized printing and mailing, and the electronic 
filing system have done little and, in many cases, have added 
to our workload and have increased the backlog.
    Now, we have prepared a white paper with our 
recommendations for addressing the Social Security disability 
program, and we would offer into the record with the chairman's 
content. And----
    Chairman TANNER. Without objection.
    Mr. BERNOSKI. Thank you very much. And that concludes my 
statement.
    [The prepared statement of Mr. Bernoski follows:]
  Statement of The Honorable Ron Bernoski, Administrative Law Judge, 
Milwaukee, Wisconsin; and President, Association of Administrative Law 
                                 Judges
    Thank you for inviting us to testify at this hearing. My name is 
Ronald G. Bernoski. I am an administrative law judge (ALJ) who has been 
hearing Social Security Disability cases in Milwaukee, Wisconsin, for 
about 28 years. I also serve as President of the Association of 
Administrative Law Judges (AALJ), a position I have held for over a 
decade. ALLJ represents the administrative law judges employed at the 
Social Security Administration (SSA) and some administrative law judges 
at the Department of Health and Human Services. One of the stated 
purposes of the AALJ is to promote and preserve full due process 
hearings in compliance with the Administrative Procedure Act for those 
individuals who seek adjudication of program entitlement disputes 
within the SSA and to promote judicial education for administrative law 
judges. The AALJ represents about 1100 of the approximately 1400 
administrative law judges in the entire Federal Government.
    The Association of Administrative Law Judges is most grateful for 
the oversight of the Social Security disability program provided by the 
Subcommittee. We too find it most painful that the American people, who 
are in the disability hearing process, have been disadvantaged by long 
delays in their cases.
History of Administrative Law Judges
    The 1946 Administrative Procedure Act was enacted to protect, inter 
alia, the American public by giving administrative law judges 
decisional independence. ``Congress intended to make hearing examiners 
(now administrative law judges) `a special class of semi-independent 
subordinate hearing officers' by vesting control of their compensation, 
promotion and tenure in the Civil Service Commission (now the Office of 
Personnel Management) to a much greater extent than in the case of 
other federal employees''. [Ramspeck v. Federal Trial Examiners 
Conference, 345 U.S. 931 (1953)]. The agencies employing them do not 
have the authority to withhold the powers vested in Federal 
administrative law judges by the Administrative Procedure Act.
The Roles of Administrative Law Judges and Support Staff in Hearing 
        Offices
    The Social Security Administration's adjudication system is in the 
Office of Disability Adjudication and Review (ODAR), formerly the 
Office of Hearings and Appeals (OHA). It is one of the largest 
adjudication systems in the world.
    Since much of the disability problem involves staff shortages it is 
critical that members of Congress understand the role of staff in the 
disability claims process. When case files arrive in a hearing office, 
they must be ``worked up'' or ``pulled'', that is prepared for use in 
the hearing. This is a significant task requiring skill and one to 
three hours of time. The task is done only by Senior Case Technicians. 
Whether the claim is a paper file or electronic file, the contents 
arrive in random sequence, unidentified, unpaginated, with duplications 
and without any numbered exhibits or table of contents to locate the 
exhibits. The Senior Case Technician identifies and eliminates 
duplications, identifies exhibits from the same source, labels them, 
arranges them in chronological order, numbers and paginates the 
exhibits and prepares the List of Exhibits. After it is worked up, the 
file goes to the assigned judge for review.
    The judge reviews all the evidence in the file, an average of 
around 400 pages, and many of the administrative pages, then requests 
the staff obtain such additional medical evidence as may be needed. 
When fully developed the judge then needs to determine whether a 
favorable decision can be made on the record presented, without a 
hearing. In most cases a hearing is required and the judge then 
determines what expert witnesses will be required for the hearing. 
After this review, the staff secures the expert witnesses and schedules 
the case for hearing. Once the hearing is scheduled, the judge 
continues to be involved with the case to review newly submitted 
evidence, to consider and resolve prehearing motions and issues. 
Typically, a day or two before the hearing, the judge will conduct 
another review of the file to insure familiarity with the facts and 
issues for the hearing. When the hearing is concluded the judge must 
prepare thorough decisional instructions for the writing staff, review 
and edit the draft decision and sign the decision.
    In courts and other agencies, trials and adjudications are 
conducted under the adversarial process. Under this system the case is 
developed during trial by evidence introduced by opposing counsel. The 
judge studies and reviews the evidence as the trial progresses. 
However, in Social Security disability hearings, administrative law 
judges preside over an inquisitorial process, in which it is the duty 
of the judge to develop the facts and develop the arguments both for 
and against granting benefits. This is in large part required because 
the Social Security Administration is not represented at the hearing. 
Therefore, Social Security judges are required to wear the so-called 
three hats (to protect the interest of the claimant, of the trust fund 
and to render a decision based on the evidence in the hearing record). 
Nearly all the evidence is gathered and entered into the record before 
the hearing begins. After reviewing the evidence, the judge often sees 
a need for additional evidence which must be obtained. The 
inquisitorial system relies more on the administrative law judge and 
places more responsibility on the judge. Hearings based on this model 
are more time consuming and labor intensive for the judge.
Need for Large Additions to Support Staff
    SSA has the lowest staffing level in decades. SSA acknowledges the 
need for qualified personnel but not in sufficient numbers, apparently 
believing that automation will replace experienced personnel. GAO, 
SSA's OIG and numerous other observers have all noted that ALJs could 
decide many more cases if only they received more processed claim 
files. This is the specific locus of the backlog, the pileup of cases 
waiting for the senior case technicians to prepare the claim files. The 
judges have not seen these files.
    It is critical to understand that currently, of the 765,000 total 
pending cases, over 455,000 of them, 60% of the total backlog, are 
waiting in the hearing offices to be worked up for a judge to review. 
This is the precise location of the blockage causing the backlog.
    That blockage in the flow, the lack of Senior Case Technicians, is 
upstream from the judges and the hearing process. Adding hundreds of 
judges downstream from this blockage will have no effect on the 
blockage. It will however actually decrease the productivity per judge; 
the number of cases worked up will not increase and will be divided 
among a larger number of judges
    In 2008, SSA hired about 150 new judges and plans to hire another 
150 in 2009. Few staff have been added and many of those have gone to 
various headquarters areas. What has been, and is still needed first, 
is more staff to support the current judges and then to provide 
adequate support to any new judges added.
    As the SSA Inspector General correctly noted in testimony before 
this Subcommittee, a sufficient number of competent and well trained 
staff is critically important to the ability of a judge to process his 
or her caseload.\1\
---------------------------------------------------------------------------
    \1\ Statement of the Hon. Patrick O'Carroll, Inspector General, 
SSA, before the Subcommittee on Social Security of the House Committee 
on Ways and Means, Sep 16 2008., page 5.
---------------------------------------------------------------------------
    The number of cases being pulled each month is less than that 
requested by the judges for their dockets and less than the number of 
dispositions each month. Judges in many, if not most, offices are 
unable to get the number of pulled cases to fill the dockets they have 
established.
    We would like to discuss support staff to judge ratios as these are 
occasionally quoted by SSA officials. However, the formula is not 
available. Further, managers have informed us that in 2007 SSA changed 
the formula for calculating the staff to judge ratio, adding in 
administrative and supervisory staff who do not actually support the 
adjudication process. The current staff to judge ratios therefore may 
show a false increase since 2006 and are no longer a valid measure of 
staff support.
The Backlog
    Towering over SSA is a backlog of over 765,000 cases claiming 
disability benefits under Title II and Title XVI of the Social Security 
Act.
    SSA has blamed the backlog on insufficient appropriations from 
Congress, the aging of the baby boomers and at times on the ALJs who 
decide these cases.
    A December 2007 \2\ GAO report on the Social Security disability 
case backlog concluded that the increases in the case backlog during 
the last decade were caused by a substantial growth in initial 
applications, staff losses (including administrative law judges), and 
management weaknesses evidenced by the number of failed reform 
initiatives [emphasis added].
---------------------------------------------------------------------------
    \2\ Better Planning, Management and Evaluation Could Help Address 
the Backlog, (GA O-08-40), Government Accountability Office, December 
2007.
---------------------------------------------------------------------------
    The SSA OIG has confirmed there are a number of factors outside of 
the control of the judge that affect productivity: the ratio of staff 
to judge, quality and composition of the staff, State Agency Disability 
Determination Service (DDS) allowance rates and quality of case 
development, and the availability of worked-up cases for hearings. 
Additional factors are continued inadequate funding for Social 
Security, the failure of SSA to hire adequate support staff for judges, 
the failure of Social Security to manage and forecast the impact of the 
baby boomers and increased case receipts during the mid-1990's and the 
failure of the agency to implement a plan to address the same and the 
failure of many of SSA's reform initiatives.
    Higher staff ratios allow a Judge to be more productive. More cases 
can be scheduled for hearing in offices where there are sufficient 
numbers of support staff to prepare the files; there are times when 
ALJs do not have as many hearings scheduled as requested because there 
is insufficient support staff to prepare the cases. The Agency's 
failure to hire sufficient support staff should be questioned as this 
has a direct impact on productivity and increased processing times.
    The quality of staff will affect the number of cases a Judge can 
handle; some decision writers are attorneys and others are former 
clerical employees. Resources may be distributed unequally to the 
Judges within an office, which will impact the ability to issue 
decisions.
ALJ Productivity History and Overview of ALJ Productivity
    The Commissioner of Social Security (COSS) has complained to 
Congressional committees that some ALJs are underproductive and a 
contributing cause of the backlog. However SSA's own statistics show 
SSA's ALJs have each year produced steadily increasing numbers of 
decisions with decreasing numbers of staff and of judges. There is no 
evidence to support laying the blame for the backlog on the SSA ALJs.
    This was confirmed by a recent SSA OIG report \3\ which 
specifically addressed factors affecting hearing office productivity. 
From FY 2005 to FY 2007 the average number of case dispositions issued 
per ALJ increased 13%. Because of this progress, less room remains to 
increase the level of ALJ productivity.
---------------------------------------------------------------------------
    \3\ Congressional Response Report: Administrative Law Judge and 
Hearing Office Performance, Office of the Inspector General, Social 
Security Administration, A-07-08-28094.
---------------------------------------------------------------------------
    Much is made of Agency ``expectations'' as if these expectations 
had any basis in fact. They do not. The Agency's expectation is five 
hundred to seven hundred dispositions per year. It is not based on any 
time study of how long it takes for a Judge to handle a case.
    SSA's last study on the matter, Plan for A New Disability Claim 
Process, conducted in 1994, projected a time line for a disability 
claim at all levels of the process, including the administrative law 
judge level. The study, based on an average month of 4 and \1/3\ weeks, 
concluded that a reasonable disposition rate for a judge should be 25 
to 55 cases per month. The monthly disposition rate, according to the 
study, should average 40, or 480 per year. The judges are averaging 
over 500 dispositions per year.\4\
---------------------------------------------------------------------------
    \4\ See Appendix, Table 2
---------------------------------------------------------------------------
    The study results revealed that a judge would spend 3 to 7 hours of 
time in processing each case. The Agency allows writers to spend four 
hours just drafting a favorable decision and eight hours to draft an 
unfavorable one.
    It is acknowledged that there have been changes in the process 
since 1994, but, at the present time, most of those serve to slow down 
not speed up the process. The average file size grows every year. The 
review of electronic files (eFiles) at present is considerably slower 
than use of paper files. Even electronic signing (eSign) of decisions 
takes about four times as long as a ``wet signature''.
    In considering numerical performance it is important that the 
Congress understand a judge must carefully review the voluminous 
documentary evidence in the claimant's file to effectively prepare and 
conduct the hearing and to issue a correct decision. Each case carries 
an average cost to the trust fund of $250,000. A judge hearing 40 cases 
per month is entrusted to correctly decide on $10,000,000 of cases per 
month, $120,000,000 annually.
    AALJ strongly supported the reform effort known as DSI. We still 
believe the Federal Reviewing Officer (FEDRO), or a similar reform, 
would provide an unbiased method to award benefits earlier in the 
process and prevent these cases from going to an administrative law 
judge hearing.
    The Administrative Procedures Act (APA) seeks to insulate 
administrative law judges from their agencies' dictating their 
decision-making to satisfy a certain goal du jour. We saw this in the 
early 1980's when SSA wanted to cut people off the rolls and we have 
seen it again in recent years when various measures have been taken 
which create a perverse incentive to pay cases to get them out the door 
as quickly as possible without regard to the effect on the trust fund, 
known as ``paying down the backlog''. In both periods the judges have 
been a moderating influence in not rigidly adhering to SSA's policies, 
but rather trying to judge each case on its merits. This has created 
tension between the judges and SSA management, with management 
complaining that the judges do not follow SSA's current policies. This 
was precisely the aim of the APA and it is precisely why the APA must 
not be stretched or cut to permit federal agencies to impose policies 
on their administrative law judges which would affect decisional 
independence and deprive claimants of their right to due process under 
the law.
    These are not isolated incidents. SSA has a long history of 
interference in the functioning of its administrative law judges. In 
another instance, in the early 1980's, for political reasons, SSA 
embarked on a review of just allowance decisions of just those ALJs who 
had a high rate of allowances. The program, called Targeted Ongoing 
Review or Bellmon review, was specifically designed to effect 
behavioral change in the high allowance judges. If no such change 
occurred the judge's file was turned over to the Office of Special 
Counsel for ``appropriate action".\5\
---------------------------------------------------------------------------
    \5\ AALJ v, Heckler, 594 F.Supp 1132, (D.D.C. 1984)
---------------------------------------------------------------------------
    ALJs have increased their dispositions thirteen percent from FY 
2005 to FY 2007--this in spite of insufficient resources and an 
electronic file system that slows the processing of cases for the 
judges. This increased productivity comes on the heels of increases in 
ALJ productivity for the several years prior to 2005 as well.
    Examining the productivity of judges for FY 2007 \6\ shows this in 
more detail.\7\ There is variance in the number of decisions issued by 
each judge, however, such a distribution is normal in all human 
activities, usually graphed as a ``bell curve'' \8\ and here is further 
dependent on the numerous factors noted above which are outside of the 
control of the judges. Note that most of the judges are in the center 
of the curve. Note there are but 12 Judges out of 1,100--1%--who issue 
a very low number of decisions and who are full time judges.\9\ Some of 
these judges may have had extended illnesses, themselves or in the 
family, or may need assistance in the skills involved. This is 
discussed further in Standards for Administrative Law Judges, below.
---------------------------------------------------------------------------
    \6\ Total for FY 2008 show still more improvement, but AALJ has not 
yet obtained 2008 detailed data.
    \7\ See Appendix, Table 1
    \8\ See Appendix, Chart 1
    \9\ Statement of the Hon. Patrick O'Carroll, Inspector General, 
SSA, before the Subcommittee on Social Security of the House Committee 
on Ways and Means, Sep 16 2008.,
---------------------------------------------------------------------------
Systemic Problems
    Reports of the GAO and SSA's OIG show the Social Security 
disability process is plagued with serious systemic problems and that 
``silver bullet'' solutions or attempts to scapegoat one or more 
classes of employees will not address, let alone solve, the problems 
confronting the agency.

    Over-reliance on future technology. A careful review of SSA's plans 
to reduce the backlog discloses an over-reliance on future gains from 
technology. Social Security has consistently over-estimated the 
benefits of technology and has often implemented the technology before 
it has been ready for general use. Further, technology does little to 
assist the judge or reduce the time they spend doing their work. They 
still need to review the case before the hearing, conduct the hearing, 
prepare the hearing decision instructions, and edit the draft decision. 
The Agency has been claiming that technology, ePulling and other 
software, will reduce the number of staff employees needed to support 
administrative law judges. This claim too has proved false. The 
ePulling software, said to be able to do most of the ``pulling'' of 
claim files, has not succeeded. Meanwhile the refusal to hire new staff 
has now left the Agency with it lowest levels of staff in decades.

    Paying Down the Backlog. Several Agency policies actually work to 
increase the backlog. The Agency's policies act to encourage ``paying 
down the backlog'', that is paying cases to get rid of them as quickly 
as possible. Higher producing judges pay a higher percent of 
claims.\10\
---------------------------------------------------------------------------
    \10\ Statement of the Hon. Patrick O'Carroll, Inspector General, 
SSA, before the Subcommittee on Social Security of the House Committee 
on Ways and Means, Sep 16 2008., page 5.
---------------------------------------------------------------------------
    As one HOCALJ pointed out, If goals are too high the corners get 
cut and the easiest thing to do is to grant a case.'' \11\
---------------------------------------------------------------------------
    \11\ Id.
---------------------------------------------------------------------------
    The first result is that some claims are paid which should not be 
paid. For decades judges have paid an average of 65-70% of claims. The 
judges doing up to 600 dispositions per year are still in that range. 
However the judges doing more than 600 dispositions per year pay 
considerably more; 6,500 claims more in 2007 at an annual cost to the 
trust fund of 1.6 billion dollars.\12\
---------------------------------------------------------------------------
    \12\ Appendix, Chart 2
---------------------------------------------------------------------------
    But it does not stop there. If SSA conducted integrity such cases 
to cease the benefits, that would add several thousand more cases to 
the backlog.
    At best, the net result is SSA permits overpaying of claims then 
adds to its own burden by adding cessation claims to its case load. At 
worst, as in recent years, SSA has not reviewed the cases and the 
benefit hemorrhage continues, even though it is well-known that every 
dollar spent on integrity reviews returns ten dollars.\13\
---------------------------------------------------------------------------
    \13\ Statement of the Hon. Patrick O'Carroll, Inspector General, 
SSA, before the Subcommittee on Social Security of the House Committee 
on Ways and Means, Sep 16 2008

    Top-Heavy Management. Another major problem and irony in ODAR is 
that in addition to a chronic shortage of clerical support staff, it is 
``top heavy'' with managers. In this time of declining resources, we 
recommend that the number of managers in the ODAR regional offices be 
reduced and instead be transferred to the hearing offices to work on 
disability cases. We have further recommended that the ODAR regional 
offices be closed and the staff personnel be transferred to the hearing 
offices. There is a hearing office in each regional office city and 
this reform will not cause a change of location for any of the 
employees. In this electronic age, the functions of the ODAR regional 
offices can be more efficiently handled by the Office of the Chief 
Administrative Law Judge who can now easily communicate with all 
---------------------------------------------------------------------------
hearing offices without delay.

    Other Management Problems. Replacing paper files with electronic 
files (e-files), begun under former Commissioner Jo Anne Barnhart, is 
an initiative that the AALJ endorses and supports. What is 
unacknowledged is that the system, like virtually all new systems, has 
difficulties. It needs some additions and it is slower to use in 
reviewing the file and in conducting a hearing. SSA's expectation is 
that once the system has matured it will require fewer people to do the 
same work. That may be true some day, but it is not yet true. When the 
system will be fully de-bugged and running smoothly is unknown. SSA's 
rigid adherence to this doctrine in failing to replace lost staff has 
resulted in serious shortage of staff.
    While we embrace the use of technology in the future, current 
Agency initiatives do little to reduce the disability case backlog. For 
administrative law judges, electronic files slow down the process 
because pages take longer to ``load'' and view. Electronic organizing 
of files has not yet been perfected. Equipment failures cause delays, 
some for long periods, because the system is often not strong enough to 
handle peak work loads.

    Dial-A-Judge. The use of desktop monitors to conduct hearings and 
conducting video hearings from the offices of attorneys, termed Dial-A-
Judge by some commentators, is fraught with dangers. The first is that 
the claimant can easily be prompted by an unscrupulous representative 
out of sight of the camera. Most important is that the administrative 
law judge hearing is the first time in the Social Security disability 
process where the American citizen has a chance to meet face-to-face 
with a high ranking government official and be permitted to explain the 
elements of his/her case. A major part of due process is making the 
claimant feel that he/she had a day in court and received a full and 
fair hearing. This basic reassurance of fairness is essentially lost if 
a government official is not present at the hearing site. Is it also 
more difficult to assess credibility using a computer monitor and hence 
more problematic in delivering a full and fair hearing to both the 
claimant and the trust fund.

    ``Shortcuts'' are more often counterproductive. A ``streamlined'' 
claim file is one which is not worked up, i.e., prepared for hearing. 
Duplicates of often hundreds of pages of exhibits are not removed. 
Exhibits are not identified, placed in chronological order or even 
numbered. This allows the clerks to spend less time in preparing a case 
record. However it requires that the judge, the decision writer, 
medical experts and the representative, all of whom are at a higher pay 
grade, to spend far more time reviewing the record. There are also 
serious questions of whether or not the ``streamlined'' file violates 
due process when the claimant is handed an unorganized mass of evidence 
and whether or not the ``streamlined'' file preserves an adequate 
record for subsequent reviews.
    Another Agency initiative, the ``rocket docket'' changes scheduled 
hearings to a ``cattle call'' in which unrepresented claimants are told 
to appear at the beginning of the day. The purpose is to determine 
which ones will not appear. Their claims are dismissed. Those who 
appear are told their hearings will be held in the near future. This 
discriminates against unrepresented claimants who may have to travel 
long distances to the hearing office on more than one occasion to have 
their cases heard.
Smoke and Mirrors
    Many of SSA's highly publicized ``Initiatives to Reduce the 
Backlog'' in fact can have little if any effect on actually reducing 
the backlog. A few examples:

           The National Hearing Center took five judges from several 
        offices and put them together in a new office in Falls Church. 
        Moving five judges does nothing to reduce the backlog.
           As explained above, hiring 150 new judges without adding 
        adequate staff is a hollow gesture. It is equivalent to 
        purchasing 150 new trucks and fuel for 20.
           SSA has expended approximately 50,000 hours of overtime to 
        aid ODAR in getting its work done. The faults are that the 
        money was spent on non-ODAR personnel who do not know the ODAR 
        work and the overtime was viewed as a benefit and thus rotated 
        among field office personnel. The personnel who learned the job 
        this week were replaced the following week by new personnel who 
        did not know the job. With time lost for on-the-job training 
        plus overtime premium, the cost to SSA has been excessive and 
        the production sub-standard.
           Even the initiative to clear out all cases more than 1,000 
        days old, while very commendable, did not reduce the backlog. 
        Dozens of pages in releases and reports have been devoted to 
        hailing this as reducing the backlog when in fact it merely 
        shifted the production effort from one group of claims to 
        another.
           SSA's Public Relations machine is endeavoring to convince 
        Congress and the public that it is reducing the backlog but a 
        review of the initiatives discloses that, while they may give 
        the appearance of reducing the backlog, in fact most do not.

Standards for Administrative Law Judges
    The judges are not the problem. The judges did not cause the 
backlog and as a group have worked hard, with ever-decreasing 
resources, to contain the backlog. The Commissioner has at times 
acknowledged that the judges in Social Security are ``producing at 
record levels'' as they have year after year. Nonetheless criticisms 
are being leveled at SSA's judges. It is undisputed that judges work at 
different levels of efficiency and varying levels of diligence. That is 
equally true of any group of working people including SSA employees 
generally.

    Accountability. The Commissioner argues that there must be 
accountability for the judges. The judges accept accountability but not 
simply measured by the number of decisions produced. Judges are 
accountable to the claimants to ensure they get a full and fair 
hearing. They are also accountable for the trust fund to ensure that it 
is not abused.

    Pay Rates. Judges must be responsible for the percentage of claims 
paid as discussed above under Paying Down the Backlog. Although pay 
rates are subject to external variables such as the regional work 
ethic, unusually high or low percentages of certain types of cases, 
local unemployment rates, among others, pay rates at the very high and 
low extremes should be suspect. AALJ is unaware of any effort by SSA to 
review this important issue.

    Judges with Lower Dispositions. The Association of Administrative 
Law Judges has repeatedly offered its assistance to the Social Security 
Administration to meet with the judges the agency contends have the 
lowest case production to attempt to determine the reasons for the work 
production, and to attempt to address any existing problems. SSA has 
refused to give us the data to identify judges with lower dispositions. 
Recently AALJ was able to obtain the data from the website of a 
newspaper which was given the data by SSA. As a result AALJ initiated a 
program of contacting those judges with lower dispositions and offering 
to provide assistance of other judges to help those judges who may be 
having problems handling as many claims as they would like.
    The Social Security Administration (SSA) is proposing an amendment 
of the current and longstanding regulatory practice that authorizes the 
administrative law judge to set the time and place for hearing in an 
attempt to force administrative law judges to hear and decide more 
cases. Not only do the data show this unnecessary, it is well-
established that production quotas not only violate the APA, but also 
are inconsistent with 5 USC 4301& 4302. See Nash v Bowen, 869 F.2d 675 
(2d Cir 1989) which holds that while production goals are a permissible 
exercise of Agency management, dispositional quotas are not 
permissible.

    Rules of Conduct for Administrative Law Judges. AALJ has long 
recommended that the American Bar Association's Model Code of Judicial 
Conduct be adopted for administrative law judges. It should be noted 
that the last American Bar Association model judicial code specifically 
included administrative law judges. However, since the 1970's, the 
Agency has consistently refused to work with us in this effort.
    AALJ is concerned with the lack of appropriate standards of conduct 
for administrative law judges. Currently some judges are being charged 
with ``conduct unbecoming an administrative law judge'' which is 
nowhere defined and can mean whatever the Agency wishes it to mean in a 
given case.

    Needs. From SSA and AALJ, communication and cooperation are almost 
absent and both are needed. Carrots and sticks are not needed.
    From the Congress, adequate funding to bring the support staff to a 
sufficient level before more judges are hired, with oversight to ensure 
it is fully accomplished. Additionally AALJ believes more oversight is 
needed to ensure that the systemic changes discussed herein are fully 
effected including responsibly reducing the number of claims which go 
to hearing; conducting integrity reviews; reviewing extremely high and 
low pay rates; adoption of the ABA's Model Code of Judicial Conduct; 
review of management needs in the Agency, among others.
Conclusion
    We thank you very much for this opportunity to address you on these 
issues that are literally vital to many Americans. Social Security 
judges are working hard to attempt to address the disability case 
backlog. The AALJ had an excellent relationship with former 
Commissioner Barnhart, and worked hard with her to reform the hearing 
process. The AALJ and its members stand ready to do their best to 
reduce the backlog, reduce the hemorrhaging of benefits and to adopt 
proven new technologies.
    We are not the problem and we are prepared to be part of the 
solution.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman TANNER. Thank you, Judge.
    Mr. WARSINSKEY.

 STATEMENT OF RICHARD E. WARSINSKEY, IMMEDIATE PAST PRESIDENT, 
 NATIONAL COUNCIL OF SOCIAL SECURITY MANAGEMENT ASSOCIATIONS, 
                              INC.

    Mr. WARSINSKEY. Chairman Tanner and McDermott, Congressmen 
Johnson and Linder, my name is Rick Warsinskey, and I represent 
the National Council of Social Security Management 
Associations.
    Our association represents the Field Office and Teleservice 
management from over 1,300 offices nationwide. The Field 
Offices are your local Social Security offices that handle 
walk-in Social Security business such as applications for 
benefits and replacement Social Security cards. The Teleservice 
Centers are where the 57 million 1-800-772-1213 calls to SSA 
are answered throughout the Nation. We are the frontline 
representatives of the agency.
    I also help coordinate the activities of the SSA Advocacy 
Group, and I have been a manager of the Social Security Office 
in Downtown Cleveland for 14 years.
    I am pleased to have the opportunity to be here today. We 
are very appreciative of the fact that Congress appropriated 
$126.5 million more for SSA in Fiscal Year 2009 than the 
President recommended. We are also very appreciative of the 
funding included for SSA in the American Recovery and 
Reinvestment Act. And finally, we are pleased to see the 
President recommended a funding level of $11.6 billion for 
SSA's administrative funding for Fiscal Year 2010. All of this 
is a lot of money, but these funding levels are absolutely 
necessary to address the severe challenges facing SSA that are 
growing with the deepening recession.
    Let me outline several of the key challenges SSA faces:
    One, SSA's hearing backlog is at a near record level of 
765,000 hearings, up from about 300,000 earlier this decade. 
Hearing processing times have stayed in the 500-day range.
    Two, the number of hearings received this Fiscal Year has 
increased by about 10 percent. These hearings are related to 
claims filed before the recession started.
    Three, the number of new initial disability claims is 
increasing on a weekly basis and is up nearly 14 percent this 
calendar year.
    Four, retirement claims being filed are up 28 percent from 
2 years ago.
    Five, the number of customers walking into Field Offices 
continues to grow and is at record levels, even though Internet 
claims filed have doubled this year. Waiting times are up 61 
percent since 2002, and nearly 80,000 people are leaving our 
offices without service every week this year due to the long 
waits.
    Six, the Field Office telephone service is deplorable. I 
repeat, deplorable. Nearly 50 percent of the over 54 million 
business-related callers who try to contact Social Security 
Offices receive a busy signal.
    Seven, Field Offices and Teleservice Centers are struggling 
to provide training to their staff to keep them updated because 
the staff needs to be moving workloads.
    Eight, SSA is facing a major retirement wave over the next 
few years.
    And finally, nine, there is a backlog of 1.4 million CDRs 
and 700,000 fewer SSI redeterminations that are being done this 
year than earlier this decade. This is costing taxpayers over 
$10 billion.
    Ideally, it would be wonderful if we could address all of 
these challenges in one year. The reality is that the 
challenges SSA faces cannot be fixed with 1 year's funding, 
especially as the recession is adding so much more work to SSA. 
Hard decisions will need to be made where to direct agency 
resources as there is both a strong need to address the growing 
workloads and backlogs and to address workloads such as CDRs 
and SSI redeterminations.
    But the funding we receive this year and hopefully next 
year will be a major boost to addressing our backlogs and 
providing improved service. We ask for your continued support 
for adequate funding for SSA. We also ask that you take a hard 
look at legislative changes that would reduce our 
administrative costs and improve program fairness. These are 
outlined in our written statement. We believe that the American 
public demands and deserves to receive good and timely service 
for the tax dollars they have paid to Social Security. We also 
believe the stewardship of the public's hard-earned tax dollars 
needs to be at the highest level.
    I thank you for this opportunity to appear today and 
welcome any questions you may have.
    [The prepared statement of Mr. Warsinskey follows:]
Statement of Rick Warsinskey, District Office Manager, Cleveland, Ohio; 
   and Immediate Past President, National Council of Social Security 
                     Management Associations, Inc.
    Chairman Tanner, Chairman McDermott, Congressman Johnson, 
Congressman Linder, and Members of the Subcommittees, my name is 
Richard Warsinskey. I represent the National Council of Social Security 
Management Associations (NCSSMA). I have been the manager of the Social 
Security office in Downtown Cleveland, Ohio for nearly fourteen years 
and have worked for the Social Security Administration for thirty-three 
years.
    I also help coordinate the activities of the Social Security 
Administration (SSA) Advocacy Group. This group works to improve SSA's 
services at all levels. Members include senior citizen organizations 
and disability support groups from across the country, SSA and 
Disability Determination Services associations, and Federal management 
associations and employee unions. On behalf of our membership and in 
support of our SSA Advocacy Group, I am pleased to have the opportunity 
to submit this written testimony.
    NCSSMA is a membership organization of about 3,400 Social Security 
Administration (SSA) managers and supervisors who provide leadership in 
more than 1,300 Field Offices and Teleservice Centers throughout the 
country. We are the frontline service providers for SSA in communities 
all over the nation. We are also the federal employees with whom many 
of your staff members work to resolve problems and issues for your 
constituents who receive Social Security retirement benefits, survivors 
or disability benefits, or Supplemental Security Income. From the time 
our organization was founded over thirty-eight years ago, NCSSMA has 
been a strong advocate of prompt and efficient locally delivered 
services nationwide to meet the various needs of beneficiaries, 
claimants, and the general public. One of NCSSMA's top priorities is a 
strong and stable Social Security Administration, one that delivers 
quality and prompt community based service to the people we serve, your 
constituents. We also consider it a top priority to be good stewards of 
the taxpayers' moneys.
A New Day for the Social Security Administration
    Let me begin by saying that we are very appreciative of the support 
that the House Ways and Means Committee has provided SSA for so many 
years. Your leadership in recognizing the critical need for adequate 
resources at SSA has resulted in vital funding that will help bring a 
``new day'' to our agency. We greatly appreciate the support for 
funding at a level above the President's proposed budget in FY 2009 and 
for the $1.092 billion in funding included for SSA in the American 
Recovery and Reinvestment Act of 2009. We hope you will also support 
the President's FY 2010 Budget Request of $11.6 billion for SSA's 
administrative expenses.
    Our testimony will focus on the current challenges facing SSA and 
why it is essential that the agency continues to receive the resources 
it needs from Congress to provide assistance that the American public 
deserves. Many of the challenges we will focus on in this testimony 
were also highlighted in the recently released January 2009 Government 
Accountability Office (GAO) report on SSA entitled: ``Service Delivery 
Plan Needed to Address Baby Boom Retirement Challenges.'' Please see: 
http://www.gao.gov/new.items/d0924.pdf. We fully support the 
conclusions of this report.
Summary of Challenges Facing SSA
SSA's Funding Shortfalls
    In FY 2008, Congress appropriated $148 million above the 
President's Budget Request for SSA's administrative funding. This 
action marked an important milestone related to SSA's administrative 
funding. From FY 2001 to FY 2005, Congress appropriated significantly 
less per year for SSA's administrative funding needs than the President 
requested. It is also important to note that the level of funding 
requested by the President was often significantly less than the level 
of funding recommended by the Commissioner of Social Security. In FY 
2006 the final funding level approved by Congress was $300 million less 
than the President's Budget Request and almost $1 billion less than the 
Commissioner's Budget Request. In FY 2007 the final level approved by 
Congress was $200 million less than the President's Budget Request and 
$930 million less than the Commissioner's Budget Request. The 
inadequate level of resources available to the agency for so many years 
had a direct and negative effect on SSA's services in a number of ways.
Hearing Offices and the Disability Backlogs
    The most visible result of this under funding has been the massive 
increase in the number of pending disability appeals hearings. The 
annual number of pending hearings, as compared to earlier in the 
decade, has increased by over 400,000. Currently there is a near record 
level of 765,000 hearings pending, and over 80,000 have been filed by 
veterans. The average wait time for a final hearing decision has also 
increased from about 300 days to about 500 days. The long wait to be 
heard by an Administrative Law Judge for many can lead to bankruptcy, 
homelessness, the breakup of families and loss of friends, lack of 
critical medical care, and sadly, some individuals die while waiting 
for a hearing. This is happening in every state and territory in the 
nation.
    The number of pending hearings has been over 750,000 since December 
of 2007 even though the number of available Administrative Law Judges 
(ALJs) has increased from 943 in June 2008 to 1064 in February 2009. 
This represents a 12.8% increase in available ALJs. Because all of 
these new ALJs needed to be trained, their hearing dispositions are 
only just now increasing as they gain experience and become more 
efficient and productive.
    At the same time new hearing requests have increased 9.5% since the 
beginning of Fiscal Year 2009. Thus the increased number of hearings 
has added to the challenges faced by the Office of Disability 
Adjudication and Review (ODAR). This increase in hearings does not even 
include a new wave of requests that will start hitting ODAR later this 
year.
    Beginning in the fall of 2008, disability claims filed in SSA Field 
Offices have accelerated and the number is increasing daily. This 
increase in the number of claims being filed started just as the major 
downturn in the economy hit the nation. Since the beginning of Fiscal 
Year 2009 the State Disability Determination Services (DDSs) have 
received 10.0% more initial disability claims than they did during the 
same period last year. The percentage of initial disability claims 
filed each week has increased in every consecutive week of this fiscal 
year. In fact the increase per week for Calendar Year 2009 to date is 
13.7% versus the 10.0% for Fiscal Year 2009 to date. At the same time 
the number of pending claims in the DDSs has increased from 556,670 to 
623,349 (as of March 13). This is a 12.0% increase. There are 
projections that this workload could climb to 800,000 as the impact of 
the recession deepens. One major challenge the DDSs face is whether 
they have the ability to expand quickly enough to address this 
workload.
    It takes on average about 10 months for a new initial disability 
claim that is not approved to become a new hearing. As a result, by 
late this summer we will see the leading edge of this increasing 
disability claims tsunami hitting ODAR.
    We are also very concerned about how the furloughs of state 
employees working for DDSs will impact the disability backlogs. 
California has already implemented a furlough plan consisting of two 
days off per month. This is a 10% reduction in the number of hours 
worked in the DDSs. This can only exacerbate the backlogs. In Oregon, 
the state is proposing 177 DDS employees be furloughed a total of 24 
days during the next two years. Reducing the number of disability 
claims being processed could scarcely come at a worse time. What is 
most perplexing is that the DDSs receive their funding from the Federal 
Government. So there is no financial advantage to the states that 
furlough DDS employees. In fact, SSA will withhold funds from a state 
for DDS employees while they are on furlough.
Baby Boomer Customers
    As all of this is occurring, SSA Field Offices are facing a tsunami 
of their own: the Baby Boomers. This year applications for Social 
Security retirement benefits are up nearly 28% from two years ago and 
17% from this time last year.
    SSA Field Offices are also seeing a record number of customers as 
more and more people are coming to our offices for assistance. The week 
ending January 9, 2009 was a record-setting week as 1,067,089 customers 
came into our offices. Waiting times in many offices have increased 
significantly and the number of people who left without service has 
also increased. SSA Field Offices also had 2.5 million more customers 
in Fiscal Year 2008 as compared to Fiscal Year 2006.
    In Fiscal Year 2008 about 3.5 million customers waited more than 1 
hour to be served. This fiscal year to date, the waiting times are 61% 
higher than they were in 2002. Some offices such as Houston Southwest 
and McAllen, Texas; Chicago Southeast and Chicago Heights; South Bronx 
and Brooklyn Flatbush, New York; Norfolk, Virginia; Jersey City and New 
Brunswick, New Jersey; and right here in Washington, DC (M Street 
Office) averaged nearly an hour or more wait for customers from the 
opening of the office in the morning until the closing at the end of 
the day during FY 2009. These times are certainly excessive, but they 
are not the most extreme. The highest waiting times are in Puerto Rico 
where some customers must wait nearly 100 minutes. Note, some of this 
is attributable to the fact that Internet applications are not 
available in Spanish. In addition, the Orlando Social Security Card 
Center which sees nearly 500 people a day averages approximately 43 
minutes waiting time per customer this year.
    SSA Field Offices are also seeing a significant increase in the 
number of people who leave without receiving service. In fact, this 
calendar year to date we are averaging nearly 80,000 people a week, or 
8.4%, that leave our offices without receiving service. Many Field 
Offices have a much higher percentage. Examples of these Field Offices 
are:

        Memphis South, TN: 10.5%
        Seattle Downtown, WA: 12.8%
        Charleston, SC: 14.0%
        Mobile, AL: 14.1%
        Houston Northeast, TX: 14.8%
        Chicago East, IL: 15.2%
        Austin, Texas: 16.0%
        Norfolk, VA: 16.8%
        Oakland, CA: 19.8%
        Brooklyn Flatbush, NY: 20.1%
        Clearwater, FL: 21.7%
        Baltimore NE, MD: 27.0%
        North Las Vegas, NV: 33.7%

    In a Survey of our field management that was conducted in February 
of 2009, about 70% of the respondents indicated they had seen an 
``increase'' or ``significant increase'' in waiting times in the last 
year.
    What is alarming about this increased number of customers and 
waiting times is that this has occurred while the number of Social 
Security claims filed on the Internet doubled from the previous year. 
For Fiscal Year 2008 about 14% of all Social Security claims were filed 
on the Internet; that number is now approaching nearly 30%.
    Part of our challenge is that Social Security Field Offices offer 
appointments both for in-office customers and by telephone. As a 
result, most Field Office interviewers are often providing assistance 
to individuals with appointments and cannot accommodate customers who 
come in without appointments. At the same time, many offices cannot 
increase the number of available appointments because they do not have 
enough interviewers. Quite simply, there are just not enough staff in 
SSA Field Offices to adequately serve the American public.
    This concern was articulated by a comment we received from an 
Assistant District Manager in our recent NCSSMA Survey of Management 
Report:

          We can't do walk-ins because everyone is interviewing 
        appointments, and we don't have enough staff to handle the 
        demands of our service area. We simply are not able to stay 
        within twenty-one days on our appointments.

    Another Assistant District Manager voiced these concerns about 
trying to handle all the customers that walk through the doors:

          The waiting time in our Field Office for walk-in traffic is 
        usually anywhere from 1-3 hours. Our waiting room is often 
        times packed full and extends into the hallway of the building. 
        Our office has a very high volume of walk-in traffic and this 
        makes it difficult to anticipate the volume of people who come 
        in and need to see Claims Representatives each day. There have 
        been days where we are so busy that we are not able to fully 
        serve all of the people who walk through the doors. We must 
        resort to setting up appointments and making them return on 
        another day. The Field Offices really need additional staff to 
        be able to handle the volume of walk-in traffic and to be able 
        to balance this with providing high quality service. Often 
        times the Claims Representatives are so busy interviewing that 
        they rush and make careless mistakes which may result in 
        payment errors, missing entitlements, and possible recontacts.

    In order to relieve very overcrowded locations with high waiting 
times, there is a compelling need to open new offices and expand the 
size of current offices to adequately staff existing locations. This 
has become an escalating problem as there have been significant 
population changes in certain parts of the country. For example, in 
1984 there were 13 million people in the state of Texas. Today there 
are 23 million people. This is a 77% increase in population. In 24 
years, one new Social Security office has opened in Texas (Mid-Cities) 
and one office (Nacogdoches) has closed. The population of Houston 
alone has doubled in the last 24 years. Yet, there are the same six 
Field Offices with only two-thirds of the staff. The same could also be 
said of the San Antonio area.
Field Office Telephone Service
    A recent study by SSA's Office of Quality Performance (OQP) focused 
on the agency's Field Office telephone service. It stated that in FY 
2007, 45% of the approximately 54 million callers who tried to reach a 
Field Office by telephone said that they had received a busy signal or 
a recording that all lines were busy. Because many of these callers may 
have called more than once and on multiple days, the actual busy rate 
is likely much higher than the 45% indicated by the study.
    In our Survey of Management last month the question was asked: 
``What is most needed to improve telephone service?'' 84.6% of 
respondents indicated they did not have sufficient staff to answer 
their phones and meet other service demands.
    The challenges of our telephone service are evident in the 
responses received from two District Managers to our recent Survey.

          ``Most days, we are so short of staff that we don't even 
        assign a person to answer the incoming lines. What we do 
        instead is just pick up the phone when it goes to over ring, 
        which is 20 minutes after it goes to hold. Usually I am the one 
        who answers it then. Our phone service is deplorable. And we 
        are so busy interviewing face-to-face or teleclaims or 
        adjudicating Internet claims that we don't return phone calls 
        left on voicemail promptly either. It's not that we don't want 
        to provide excellent phone service but that with our staffing 
        so low, we just can't!''

          ``Field Office telephone service is essentially non-existent 
        in terms of incoming calls. This is due directly to the fact 
        that Field Offices are generally understaffed. Field Offices 
        handle more phone calls yearly than does SSA's 800 Number 
        system, yet for many years the focus in terms of telephone 
        service has been on the performance of the 800 Number system 
        and has essentially ignored the prime telephone service 
        delivery system in SSA.''

    The recently issued GAO report on Field Offices recommended that 
SSA establish standards for Field Office customer wait times and 
telephone service. However, SSA did not agree with this recommendation 
as it would create problems for SSA by diverting an already thin staff 
away from processing claims and post-entitlement work. This 
disagreement shows a core challenge facing SSA. The agency simply can't 
do everything, especially reducing waiting times and improving 
inadequate telephone service, without the necessary resources. Field 
Offices are struggling now to keep up with the large increase in 
Internet claims. It is a high priority to move these claims so hard 
choices are being made on where to direct resources on an hour-by-hour 
basis. One key challenge of the Internet claims is that most require a 
telephone contact to go over the application with the individual. This 
is to verify proper completion of all questions and to ensure the 
proper payment is made. This often requires pulling Field Office staff 
from the interviews coming in to make these calls. This not only 
increases waiting times but it also ties up the telephone lines 
resulting in busy signals for other customers who may be trying to 
reach the office by telephone. As a result, Field Office management and 
staff are forced to make service delivery choices that are 
unsatisfactory to our staff and customers alike.
Training
    In our most recent Survey less than half the managers agreed or 
strongly agreed that their staffs received adequate training. Of those 
who believed that employees in their offices did not receive adequate 
training, 63% stated inadequate staffing was the primary reason. And 
about 39% said they had insufficient time to prepare and deliver 
training.
    It is obvious that training is being shortchanged in many Field 
Offices due to the lack of resources. These responses from our recent 
Survey demonstrate how the lack of resources impacts training in our 
offices:

          ``We must use all of our hours that we are not open to the 
        public to get the work completed. We are lucky to allow one 
        hour a week for training. This is a shame for the employees and 
        the public who will end up with poor service due to this. Lack 
        of training impacts our wait times as well as repeated visits 
        to get actions completed if not done properly the first time.''

          ``The problem in the case of new hires is that we cannot pull 
        anyone full time to train continuously due to the interviewing 
        and workloads. In addition, more training could technically be 
        provided to our staff; however, if we train multiple times per 
        week before the office opens, the staff does not have adequate 
        time to process workloads. We try to maximize the training 
        provided without taking too much ``down time'' away from the 
        Claims and Service Representatives. It's an unfortunate choice 
        to have to make.''

    It should be noted that the two main public contact positions in 
the Field Offices are both highly technical and the half-life of that 
technical knowledge spans only a 3-year period. Policies and processes 
change routinely and new software improvements are implemented multiple 
times per year. When the agency short changes the ongoing training of 
its technicians, it is impossible to take advantage of the resource 
savings that these process improvements can ultimately provide. When it 
comes to training delivery, we are caught in a vicious cycle; we can't 
train because we are too busy processing workloads and we can't process 
workloads in the most efficient manner because we have not been 
trained.
SSI Program Integrity and Quality
    In Fiscal Year 2008, 1.2 million SSI redeterminations were 
completed. (An SSI redetermination is a review of an SSI recipient's 
benefits to ensure that they are being paid properly.) Over the five-
year period from FY 2004 to FY 2008, the number of SSI redeterminations 
completed declined by 47%. Over the ten-year period from FY 1999 to FY 
2008, the number of redeterminations completed declined by 43%. This 
reduction in the number of SSI redeterminations completed was directly 
related to the level of appropriated funding received by the agency 
during those fiscal years.
    The reduction in the number of SSI redeterminations completed was a 
contributing factor in the increase of the SSI overpayment error rate 
from 6.4 percent to 9.1 percent from FY 2005 to FY 2007. The 
overpayment error rate is currently at its highest rate in over 30 
years. There is a direct correlation between the increasing error rate 
and the decline in the number of SSI redeterminations completed. In FY 
2007 the projected overpayments totaled $3.9 billion. These substantial 
losses to the Treasury and the trust funds will continue unless the 
trend toward completing fewer redeterminations is reversed. It is very 
important to note that conducting SSI scheduled redeterminations saves 
$10 for every $1 spent in administrative dollars.
    In FY 2009 the increased appropriated funding for SSA will allow 
the agency to increase the number of SSI redeterminations by an 
additional 500,000 cases, but this will still be 700,000 cases below 
levels completed earlier this decade and results in 700,000 missed 
opportunities to save program dollars.
    In our most recent Survey, responses indicated that while 22.5% of 
managers felt that the quality of work produced in their office had 
improved in the last two years; nearly one-third of managers (33.6%) 
reported that the quality of work produced in their offices was worse 
or significantly worse. Of those, 65.6% cited two factors as the 
principle reasons for the diminished quality--not enough staff desk 
time (38.1%) and not enough staff (27.6%).
    The responses below from the Survey address the challenges facing 
SSA related to quality of work product:

          ``There are a variety of reasons for quality not being as 
        high as in the past. Certainly, we need more staffing, but 
        there is so much work and not enough staff to do the work. 
        There is not enough time to devote to training to learn new 
        policies and procedures.''

          ``The constant pressure to meet appointment goals, coupled 
        with our walk-in and telephone traffic not only exceed the 
        limits of our ability to monitor newer employees but also their 
        capacity to spend thoughtful time researching unfamiliar 
        issues. There is always a drumbeat: just get it done; just get 
        it done.''

          ``The fact that we have no staff to check work that goes out 
        is frightening.''

Continuing Disability Reviews
    SSA has also significantly reduced the number of medical Continuing 
Disability Reviews (CDRs) that are completed. (A medical CDR is a 
review of a Social Security or SSI disability beneficiary's eligibility 
for benefits based on their medical condition. If their condition has 
improved enough to show they can work then their benefits will be 
terminated.) In Fiscal Year 2008, a total of 235,000 full medical CDRs 
were conducted. This is down from 800,000 per fiscal year from earlier 
this decade. The reduction in the number of CDRs was directly due to 
the level of appropriated funding provided for SSA. SSA has a backlog 
of 1.4 million unworked medical CDRs.
    The savings realized by completing medical CDRs are substantial. As 
of Fiscal Year 2007, for every $1 spent there is a $11.70 savings in 
Social Security trust fund assets, SSI funds from General Revenues, and 
Medicare and Medicaid payments. In Fiscal Year 2007 the Disability 
Determination Service offices spent $281 million to complete CDRs. The 
lifetime savings realized by completing these CDRs was an astounding 
return of $3.3 billion. Clearly from the stewardship standpoint, it is 
imperative that the agency be provided with the necessary resources to 
catch up the medical CDR workload and keep it current.
    However, the same DDSs that are also dealing with a large increase 
in new disability claims would also be called upon to conduct these 
additional reviews. In order to meet both of these challenges and to 
also assist ODAR in reviewing old disability cases for potential 
allowances, DDS capacity must be significantly increased. Such an 
increase in capacity may take several years to accomplish, but planning 
for this would need to start immediately to meet these multiple 
challenges.
    The DDSs are also facing a significant retirement wave. Much like 
the Field Offices, they did significant hiring in the 1970s when the 
SSI program started. DDSs also have a high attrition rate. In fact in 
FY 2009, DDS attrition was 8.1% overall and 10.1% for examiners.
    Fortunately there is substantial DDS hiring planned for this year 
utilizing the Stimulus Bill resources and through the FY 2009 Omnibus 
Appropriations funding. But the training of DDS examiners takes up to 
six months. And it takes about 18 months before an examiner can do a 
full range of work. The DDSs also have to pull a substantial number of 
senior examiners to train and mentor the DDS examiners.
    The CDR cases are also handled by the most senior examiners. A 
concern that must be addressed is how can these examiners absorb an 
increase in completing CDRs in FY 2010 while they are also trying to 
move a large increase in new disability claims, address the additional 
reconsiderations, assist ODAR with their backlog, and finally mentor 
all the new hires.
    Realistically SSA may not have any capacity to complete additional 
CDRs in FY 2010. Many of the DDSs also have significant space issues 
and will need to have time to expand their space to absorb a large 
increase in hiring. The President's FY 2010 Budget Request calls for an 
increase of $255 million in program integrity funding. If SSA increases 
the number of redeterminations to the maximum level, this would still 
leave at least $150 million unspent. If an additional 200,000 or so 
CDRs were completed this could utilize the additional money. With a 
backlog of 1.4 million CDRs it certainly would be desirable to spend 
this funding as $150 million spent on CDRs would save over $1.7 
billion. We suggest that there really needs to be a multiyear plan to 
allow the DDSs to ramp up and move the CDR backlog while still 
continuing to handle the additional initial claims, reconsiderations, 
and assist ODAR. This plan will need to take into account all of the 
additional workloads, in addition to the need for increased training 
and space and equipment for the DDSs.
New Workloads for SSA
    SSA Field Offices have struggled to keep up with new workloads as 
Congress continues to add to SSA's list of responsibilities, such as 
administering new requirements for Medicare Parts B and D, and 
conducting Social Security Number verifications and other immigration-
related activities such as the E-Verify program. However, SSA's 
administrative funding has not kept pace with the agency's increased 
responsibilities. We are especially concerned about additional 
workloads from the E-Verify program that are being discussed. We are 
also concerned about the additional work that could result from 
increased enforcement of ``no match provisions.'' It is imperative that 
the Department of Homeland Security (DHS) reimburse SSA for these 
costs.
SSA's Retirement Wave
    SSA completed a substantial amount of hiring in the 1970s when the 
agency began to administer the SSI program. SSA reduced staffing levels 
significantly in the 1980s. The agency did little hiring during this 
period. This has created both a doughnut hole and bubble in SSA's 
staffing demographics. Additionally, the agency hired new employees on 
a very limited basis during the early 1980s through the late 1990s. As 
a result, there are only a limited number of mid-career employees. Over 
53% of SSA staff is eligible to retire by 2017. Not only is there a 
need to increase the number of staff due to rising workloads and large 
backlogs, there is a need to get people hired and trained before we 
lose so much of our institutional knowledge and experience.
    In addition to the issues above, 70% of the SSA management 
employees will be eligible for retirement by 2017. This significant 
loss of leadership is compounded by the fact that many of our current 
management positions are not being filled because of concerns about 
supervisory ratios. With the challenges of ever-increasing workloads 
and reduced staffing levels, it is extremely important to have 
sufficient management to lead SSA employees. Also, a more aggressive 
and proactive approach is needed for succession planning to develop our 
next generation of leaders.
How Recent Funding Approved for SSA Will Improve the Agency's Services 
        and Stewardship
    Recent legislation approved by Congress has included additional 
resources for SSA. Both the American Recovery and Reinvestment Act 
(Stimulus Bill) and the FY 2009 Omnibus Appropriations Act include 
significant funding for SSA. In addition, the President has proposed a 
level of $11.6 billion for SSA's FY 2010 administrative funding. If 
approved this would result in a $1.1 billion increase in SSA's 
appropriated funding from FY 2009 to FY 2010.
    The Stimulus Bill included $1.092 billion for SSA. Roughly half of 
the funds, $500 million, provided for SSA in the Stimulus Bill should 
result in immediate improvements related to SSA's services and 
stewardship. Of this amount, $40 million was included for health 
information technology research and activities which should assist in 
the adoption of electronic medical records in disability claims. This 
technology could improve the disability claims process by shortening 
the length of time it takes to render a decision on a disability claim 
and improving the accuracy of initial claims decisions. Additionally, 
$90 million was included for SSA to administer the cost of the $250 
economic stimulus payments to Social Security beneficiaries and SSI 
recipients. The remaining funds, $500 million, are allocated for the 
much-needed replacement of the National Computer Center, the full cost 
of which is estimated to be about $750 million.
    If the President's Budget Request of $11.6 billion for SSA's 
administrative funding is approved for Fiscal Year 2010 the agency will 
be able to continue improving its services and stewardship activities. 
SSA must receive at least a $400 million increase just to address the 
increased inflationary costs from FY 2009 to FY 2010. Any additional 
resources could then be directed toward other SSA workloads.
    Some recommendations related to where these resources could be 
appropriately and effectively utilized:

          1. Resources are needed for the Office of Disability 
        Adjudication and Review, Disability Determination Services, 
        Program Service Centers, and Field Offices.
          In order to reduce the unconscionable backlog in hearings and 
        to process the increased receipts of disability claims and 
        hearings due to the severe recession, additional resources are 
        necessary. In ODAR many more Administrative Law Judges will be 
        needed along with support staff. For every one Administrative 
        Law Judge (ALJ), about 4.5 support staff are needed. If SSA is 
        able to hire 200 more ALJs, then it would result in the need 
        for about 900 more support staff to adequately assist them. To 
        support this additional staff more space and equipment will be 
        necessary.
          The Disability Determination Services (DDSs) are currently 
        staffed at about 900 fewer positions than they were allocated 
        three years ago. The DDSs currently have about 13,600 
        positions. The DDSs are receiving about 10% more disability 
        claims this year compared to last year, and this number is 
        growing on a weekly basis. This indicates the need of at least 
        1,300 more positions plus the necessary costs to support these 
        additional positions. This increase does not include additional 
        positions that would be required to complete additional CDRs 
        (see information above and below on CDRs). Additional positions 
        could also be used to perform more remands from ODAR. If more 
        remands could be performed this would reduce the number of 
        hearings.

          2. Field Offices must have additional staff to answer the 
        telephones and provide quality service to the public when they 
        visit community based Field Offices. Additional staff would 
        also assist Field Offices in handling the significant increase 
        in Internet workloads.
          Current telephone busy rates and in-office wait times are 
        unacceptable. Clearly a busy rate of nearly 50% when you call a 
        Field Office is an unacceptable level of service. The 61% 
        increase in waiting times in Field Offices since 2002 is also 
        unacceptable. In our recent Survey, 77.4% of respondents 
        reported having insufficient staff to keep workloads current. 
        Only 20.1% thought that their offices were adequately staffed. 
        Managers estimated that they would need a staffing increase of 
        13.5% (over 3,600 positions) to have sufficient resources to 
        provide adequate levels of service. Managers specifically 
        attributed the effect of inadequate staffing levels on the 
        ability of their offices to provide a satisfactory level of 
        public service.

          3. A significant increase in SSI redeterminations and CDRs 
        could be accomplished with additional resources.
          In fact, if an additional 700,000 SSI redeterminations and 
        470,000 CDRs were completed SSA would be at the same level the 
        agency was at earlier this decade.
          The President's FY 2010 Budget Request calls for spending 
        about 50% more, or $255 million, on SSI redeterminations and 
        CDRs in FY 2010 over FY 2009. This additional expenditure of 
        administrative resources could save taxpayers over $2.5 
        billion. If more funds were appropriated to SSA in FY 2010 this 
        savings could be even higher. As mentioned earlier in this 
        statement, the backlog in CDRs is currently 1.4 million.
          In Fiscal Year 2009 the unit cost for completing each CDR was 
        $847. To work the entire backlog down in FY 2009 dollars it 
        would cost $1.186 billion. The potential savings would be 
        $13.92 billion.

    Obviously there probably isn't sufficient funding available to 
eliminate the backlog in SSI redeterminations and CDRs in one year. 
This is especially true considering the enormous backlog in hearings as 
well as growing workloads in both Field Offices and the Disability 
Determination Services. However, SSA may not be able to increase the 
number of CDRs completed at all next year with the growing workloads in 
the DDSs. But this analysis shows that SSA desperately needs all of the 
resources from the Stimulus Bill, the FY 2009 Omnibus, and at least the 
$11.6 billion proposed in the President's FY 2010 Budget Request to 
continue to make progress.
Reducing SSA's Costs to Oversee the SSI Program
    SSA administers a very complicated Social Security and SSI program. 
The agency has been working to streamline policies to reduce 
administrative costs. We firmly agree this should be done so long as it 
does not disadvantage the public.
    In addition, there are many areas where administrative costs could 
be saved through legislation. This is especially true of the SSI 
program which is very labor intensive and we therefore urge the Ways 
and Mean Committee to consider legislative changes that would result in 
administrative savings. We offer a few key areas in the SSI program 
which are very labor intensive and if modified, could save us 
administrative dollars. These are:

          1. Simplify the rules on Living Arrangements and In-kind 
        support and maintenance.
          2. Eliminate couple's benefits.
          3. Allow payment of retroactive benefits of either Title II 
        or Title XVI payments first in order to prevent delay of past 
        due benefits. This proposal would greatly simply the 
        computation of offset computations.
          4. Eliminate the Dedicated Account Provision and 
        Installments.
          5. Simplify the earned income provisions: Increase earned 
        income disregard to reflect inflation and expand what is 
        acceptable proof of wages.

    There is one other area that we urge the Committee to examine 
thoroughly: That is the resource limit of $2,000 for SSI for an 
individual and $3000 for a couple. This limit has been in place for 20 
years and severely discourages any savings for an SSI individual as 
well as practically guaranteeing a life of very minimal means and near 
poverty. An increased limit would also reduce a lot of resources 
development for Field Offices. It is important to note that the 
resource limit for Part D Medicare Income assistance is $12,510 and 
$25,020 for a couple.
Legislative Change to Assist In Reduction of the Disability Hearings 
        Backlogs
    Current law requires that 50% of all approved initial and 
reconsideration Title II disability cases and Title XVI adult 
disability and blindness cases be reviewed before a final approval is 
made. The intent of this was to lead to more consistency in approvals 
in all states as this review is completed by SSA (a Federal review) as 
opposed to being completed by the DDSs. However no more than 5% of the 
disapproved cases are reviewed. Thus, at least 95% of the denied cases 
are not reviewed. As a result, there is no early opportunity to prevent 
some cases from moving to the Hearing Offices. With an increased review 
of denied cases, some of these cases will be approved. This will also 
result in many claimants who have been denied benefits not having to 
wait nearly two years for a hearing. It will also save substantial 
administrative dollars in ODAR.
    We believe that a truly random review of all initial and 
reconsideration disability cases should be implemented instead. The 
review would be equally split between approvals and denials. This 
increased investment in the disability area would reduce the hearings 
backlog, save administrative dollars, and prevent many unnecessary 
hardships for claimants. This revised review method might actually be 
less expensive in the long run as it could reduce the very high cost 
that often results from a hearing on a case.
The SSA of the Future
    We firmly believe that SSA cannot stay a static organization. We 
believe that the agency should continue to invest in our systems to 
process our cases faster and reduce costs. We need to have information 
technology that is fully supported by an up-to-date National Computer 
Center. Allocating resources to replace the National Computer Center, 
which is nearing its capacity, is a wise investment.
    SSA is also investing resources to improve our Internet product as 
the public demand for this product grows. We also think this is a wise 
investment.
    We do believe the public should be given a choice in how they will 
interact with SSA. This can be in person, by phone, or via the 
Internet. In future years, we do anticipate a shift toward the public 
using online services more and more. SSA will need to constantly assess 
this as the agency considers its expensive infrastructure costs and the 
number and location of SSA offices. In the interim, there is a need to 
have an adequate number of offices in growth areas such as Texas (as 
cited earlier in this statement).
Recommendations
    We have these key recommendations to improve services in SSA and 
stewardship of funds:

          1. Approve at least the $11.6 billion funding level proposed 
        by the President for FY 2010.
          2. Look at multiyear funding to accelerate the number of SSI 
        redeterminations and CDRs completed to save billions of 
        taxpayer dollars. It will take a number of years to work down 
        this backlog.
          3. Exclude SSA's administrative funding from any cap that 
        sets an arbitrary ceiling on discretionary spending. There is a 
        $2.3 trillion trust fund for SSA to draw on for most of this 
        funding.
          4. Remove SSA's administrative funding from discretionary 
        budget caps and provide a separate limit in the Budget 
        Resolution.
          5. Pass legislation that withholds funds such as stimulus 
        funds from states that furlough DDS employees.
          6. Pass legislation that would streamline labor intensive 
        regulations that could save the agency millions of 
        administrative dollars. This is especially true in the SSI 
        program.
          7. Pass legislation to ensure a more consistent and thorough 
        review of approved and denied disability cases.

Conclusion
    The programs SSA administers are vital to our nation. John F. 
Kennedy said this on June 30, 1961:

           ``It is with great satisfaction that I have signed into law 
        the Social Security Amendments of 1961. They represent an 
        additional step toward eliminating many of the hardships 
        resulting from old-age, disability, or the death of the family 
        wage earner. . . . A Nation's strength lies in the well being 
        of its people. The social security program plays an important 
        part in providing for families, children, and older persons in 
        time of stress, but it cannot remain static. Changes in our 
        population, in our working habits, and in our standard of 
        living require constant revision.''

    While we are facing a very severe recession we all want SSA to do 
its very best to continue to serve our nation by ensuring all Americans 
receive the benefits they paid for or deserve on a timely and accurate 
basis.
    We are very appreciative of your ongoing support for adequate 
resources for SSA. We certainly believe the American public has paid 
for and deserves to receive good and timely service from the Social 
Security Administration. Consistent and adequate resources for SSA are 
essential to ensure this. Increased investment in SSA is money well 
spent as the agency has a proven record of effectiveness and 
efficiency. In fact, from FY 2002 to FY 2008, SSA's productivity has 
increased by about 18.7 percent, which is an average of 2.7 percent per 
year. We look forward to your support for SSA funding in FY 2010 of at 
least the $11.6 billion proposed by the President.
    On behalf of the members of the NCSSMA and in support of the SSA 
Advocacy Group, I thank you again for the opportunity to submit this 
written testimony to the Subcommittees. NCSSMA members are not only 
dedicated SSA employees, but they are also personally committed to the 
mission of the agency and to providing the best service possible to the 
American public. We respectfully ask that you consider our comments and 
would appreciate any assistance you can provide in ensuring that the 
American public receives the necessary service that they deserve from 
the Social Security Administration.

                                 <F-dash>

    Chairman TANNER. Well, let me, on behalf of the Members, 
thank all of you for your time and your attention to this 
matter. Let me assure you that your testimony will be gone over 
by the members and our staff in great detail because this 
Committee intends to be very active this year, and we may be 
asking you to come back in 6 months as we monitor what is 
happening.
    This is, as I said at the outset, is a national problem 
that has dire consequences for real people, and your devotion 
to this cause is admirable, and the Committee wants to thank 
you.
    Judge, you said something that struck me. I asked the 
commissioner when he was here if the error rate on electronic 
filing, was there was any data to support what I have to 
believe would be a higher error rate than if one who is making 
application can sit down and talk with a human being who is 
knowledgeable in these matters about it. His response was, if 
you were here, that they thought the error rate was about the 
same. My thought, if that is true, then maybe I don't have a 
concern.
    But if it is not true, it seems to me that that is in 
itself clogging the system with inaccurate or erroneous 
applications that have to be pitched out before one can get to 
the merits of the case. Do you have a comment on that, sir?
    Mr. BERNOSKI. As far as the errors in the application and 
the errors of the type that the commissioner referred to, by 
the time that claim gets to the administrative law judge level, 
we are at the end of the food chain. Those types of corrections 
have invariably been made in the file. So we are not being 
burdened with that type of problem.
    But the electronic file does slow down the process as far 
as we are concerned in the way we handle the file. It takes 
longer to open up an electronic file than it does a paper file. 
It takes longer for the case to boot up when coming to the 
screen. It takes longer to turn a page electronically than it 
does to turn a page in a file. Also, it is more difficult to 
read electronic files. If you are going to--if a judge is 
sitting there or a clerk or any type of person sitting there, 
reads from a screen all day long, that has an impact on your 
eyes; it has an impact on the back of your neck. All of these 
problems have impacted on us and, in fact, has slowed down our 
ability to handle those files.
    Also sometimes the system just breaks down because there is 
so much traffic on the network that it can't handle it or it 
slows down considerably. All of these things have impacted us.
    Now this e-polling is another problem that is going to have 
a dramatic effect on us, because that was a system that was 
implemented to pull the duplicates out of the file. Before, we 
had to do that manually when we had paper files. Clerical 
people had to go through and set up the case and remove the 
duplicates because we have an inquisitorial system. We get the 
evidence rather than the attorneys bringing them in. Now, 
electronically, if that system fails and we have to, in fact, 
kind of do it manually with an electronic system, it takes a 
much longer, longer period of time. And it takes about, I spoke 
with some of our people in our office before I left on Friday 
because I thought we would be talking about that today, And 
they said it takes about twice as long now with the electronic 
system as it did manually with the broken process.
    Chairman TANNER. Thank you.
    Mr. Warsinskey, do you have a comment?
    Mr. WARSINSKEY. I think part of your question was directed 
at the Internet claims which the Commissioner was referring to. 
And he said that the quality on the Internet claims, what you 
called electronic claims, is really good. The study I think he 
was referring to, indicated a little bit better quality than a 
claim that is filed in the office. And the study that they did, 
did show that. The Internet claims are usually a little cleaner 
than the average case that we get in an office right now.
    But the reason why the accuracy is good is because we 
review the cases very thoroughly. The claims representative 
reviews them before they are actually paid out or adjudicated. 
So that is why we have the good quality. We don't have any 
claims going through the Internet right now without some kind 
of review to make sure it is paid correctly.
    Chairman TANNER. Mr. Johnson.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    I just have one or two questions.
    Mr. O'Carroll, how much of the work at local offices and 
hearing offices is completed using the Social Security computer 
system that he says doesn't work?
    Mr. O'CARROLL. Mr. Johnson, the vast majority of the work 
in SSA offices is done on computers. We are proponents of 
electronic service. We believe that using the Internet for 
applications is a wise use of technology. We are monitoring it 
all the time in terms of looking at the accuracy rate. We are 
finding it is very accurate. When a person is sitting down and 
filling out a form, they are putting a lot of thought into it. 
They think, they complete their application logically, and we 
find that that works very well.
    To give you an example, years ago, when somebody was 
applying for a Social Security card, they would sit down with a 
claims rep with a paper form and go through it. The SS-5 would 
be complted, and then it would be transcribed to an electronic 
record. Now, with the electronic SS-5 assistant, ieach step is 
electronically recorded. And then they ask for the applicant's 
identification. This is making the application process for a 
Social Security card easier and more accurate, and we applaud 
the system.
    Mr. JOHNSON. Well, the system is, I mean, you have got old 
technology in that computer system. Is that causing a problem, 
and does it ever go down?
    Mr. O'CARROLL. Well, to a degree, yes it is causing a 
problem. And that is one of the reasons for modernizing the 
system.
    A lot of the front-end process, as an example, the SS-5 
assistant, isn't being done using the mainframe. It is being 
done using a server, and then that data is put into the 
mainframe, which is the old technology. This is one of the 
biggest problems. The front end is using the modern technology, 
while the older COBOL program is used at the NCC. If the NCC 
was updated, the process would be much more streamlined and 
quicker.
    Mr. JOHNSON. How about telling me what would happen in your 
opinion if there were a failure in the system?
    Mr. O'CARROLL. Congressman, that is something that is of 
great concern to us. We have been looking at it a lot. We are 
very concerned. Regarding one of the questions earlier in the 
hearing, why has this degradation of the system just recently 
been identified? And it is quite significant. Our concern is 
that, if the system does go down, it is going to take a long 
time to bring it back up again. Yes, the records are kept. Yes, 
they are on tapes. Yes, they are in other locations. But it is 
going to be such a long process, and I think, as the 
Commissioner mentioned, if the tapes are brought to New Jersey, 
which is the current location, it takes about a week to 2 weeks 
just to bring in all the equipment, get it loaded, and get it 
running.
    As everybody knows, and one of the reasons we are 
concerned, is that the daily process of SSA, which affects many 
Americans, would be suspended for several weeks. And then, when 
you think about all of these benefit claims, until that system 
is up, they will have to be taken on paper forms. Then all 
those papers have to be uploaded into the system. So I do 
believe that having redundancy, having a second site that is 
identical to the Baltimore site is necessary for all of us to 
be able to----
    Mr. JOHNSON. If it went down at the end of the month, 
people wouldn't get their checks; is that true?
    Mr. O'CARROLL. No, sir. They would get a check. We have 
looked into that. They would use records forwarded from 
Treasury the previous month. Maybe some deceased people would 
also receive checks. Maybe some people that needed a check 
wouldn't get one, but the vast majority would get a check based 
on the records of the month before from the Treasury 
Department.Mr. Johnson. So the Treasury has a second record; is 
that true?
    Mr. O'CARROLL. Yes, sir.
    Mr. JOHNSON. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman TANNER. Dr. McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    I don't know who to ask, whether it is Mr. Fell or Dr. 
Bernoski or Judge Bernoski or whatever. I am reading these 
cases that Ms. Hathaway brought in here, and I think that if 
you put two or three or four reasonable people around the table 
reading the cases, even these one-paragraph synopses that are 
given to us, in almost every case, we would say, this person is 
eligible for disability benefits.
    So when you tell me that there are 999 cases pending in 
Seattle for an average of 500 days, I ask myself, why is that 
happening? Explain to me--I mean, I was a witness. So I have 
been in your courts in the administrative law procedure on 
various cases. And what I don't understand is, are they held up 
because it is little pieces of paper that aren't there, and 
therefore, we don't go ahead with them, and we put them off 
another month? Is that what happens? Or is it that these are 
such difficult decisions--I mean, if you read the case of Ms. T 
was waiting 29 months for a hearing. She had been diagnosed 
with borderline intellectual functioning and epilepsy. While 
she was waiting for her hearing, she exhausted her time limit 
on TANF benefits, lost her income. Her mother used her income 
tax refund to prevent foreclosure on the house. It doesn't 
sound to me like there is any doubt that that woman is 
ultimately going to be judged disabled and eligible for 
benefits. So what is the hang-up in this system?
    Mr. FELL. The first part of it, probably Judge Bernoski on 
the disability part of it.
    Some of the hold-up is due to demographics. for instance, 
the Chicago region is so inundated where maybe the Philadelphia 
region and the San Francisco region are not. The Seattle region 
is heavily inundated.
    Part of the problem is getting to the files. We do have a 
process where claims are looked at when they come in. And if a 
flag goes up, they are given to attorneys to look at to see if 
there is a possibility of an on-the-record decision. Maybe it 
only needs one more piece of evidence.
    But what happens on a lot of these, I mentioned there are 
over 765,000 requests; of those requests, over 400,000 are 
awaiting preparation for the judges to see them. And that--what 
Judge Bernoski talked about the length of time it takes to 
prepare these for the judge, that can be 4 to 6 hours, 
depending on the size of the case. That is where the huge 
backlog right now is. If they are not caught at first through 
this screening process, where we will often look at cases where 
people are 50 or over, then when they are finally discovered is 
at the point that the file is prepared or from offices where we 
do get something from a congressional liaison stating that, 
wait a minute, this person has got a problem. Here is some 
updated medical.
    So there are a number of things that can happen and we do 
have things in process to keep it from going that far. But 
there are so many cases in the system. If one gets through, 
they are not going to be discovered until they get to the point 
of preparation.
    Now, as far as the issue on the type of disability and 
should that be approved, I am going to turn that over to Judge 
Bernoski, the actual medical part.
    Mr. MCDERMOTT. We have a thing on welfare claims on 
Medicare--Medicaid claims, that if they don't, you know, happen 
in a certain number of days, they get paid anyway and they get 
money on top of it. They get the--the doctors get additional 
money and interest because it hasn't been paid, right? What is 
the problem with just letting these cases through and reviewing 
them, and then, if there is one, you can call them back? Is it 
that you can't reclaim the money? Is that the problem? I don't 
understand. Because somebody set up this Rube Goldberg system 
to keep from paying benefits. There is no question looking at 
it, coming in here again and again, we hear the same thing we 
heard last year. Why don't you just--why doesn't the system let 
them through?
    Mr. BERNOSKI. Well, I guess one of the process--reasons 
that we don't have the system that you described is that is not 
part of the regulation or the law. So we couldn't do it at 
least now.
    But the fundamental problem is that our system is 
overloaded at this point. We just have more work than we can 
possibly handle. That is why we need more judges. We need more 
staff. We need more money, as has been said repeatedly during 
the course of this hearing.
    Also, this is what we suggested in the course of our 
testimony, is that it would be helpful if we would have a 
mechanism in the system to look at the case more formally 
before it gets to the administrative law judge hearing. The 
Federal concept of that was part of DSI, where before the case 
would come to the administrative law judge, a person would have 
a function within the process that would look at that case and 
review it and determine whether it could be paid on the record, 
maybe a little bit of additional evidence would be needed to 
pay that case, but to pull all of these cases out of the system 
as early as possible and not allow them to move and progress 
until they get to the administrative law judges.
    We are doing it the slowest and most expensive way, because 
we are hearing all of these cases at the back end of the 
process, as Mr. Lewis said, at the back end of the process, 
with the employees that are making the most money--
administrative law judges are probably one of the highest paid 
people in the system. And so we are--that is the type of system 
that we have put together where we are hearing the cases later 
by the more highly skilled and more highly paid people. Where 
we suggest there should be something earlier in the process to 
pull some of these cases out. That would help. That would help, 
we believe.
    Mr. MCDERMOTT. So you are saying it needs a total rewrite 
of the regulations of how the system works? The system is 
dysfunctional?
    Mr. BERNOSKI. It doesn't take a total rewrite of the 
regulations. We could do a Federal system like we have now or 
we could build on what we have. We have staff attorneys and 
attorneys in the program right now where we could just expand 
on what we have got and give them that additional function 
where they would be doing this work earlier in the process.
    We have a senior attorney program now which does some of 
that work, but the problem with the senior attorney program 
that we have is that they look at the case and either--they 
either award it or it goes forward. The type of benefit from 
their expertise to help develop the case is not done. So the 
skill that they have and the knowledge that they have acquired 
and the analysis that they have put into that case is not 
documented to be passed onto the administrative law judge to 
help shorten the administrative law judge's analysis. In fact, 
we are doing it twice under this current system.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Chairman TANNER. Dr. Linder.
    Mr. LINDER. Thank you, Mr. Chairman.
    General O'Carroll, you mention in your testimony that they 
are moving to--you said the law units cost about $24,000 each, 
and the video conferencing on the desktop video would be about 
$8,000 each?
    Mr. O'CARROLL. Yes, Mr. Linder. We are doing an audit right 
now taking a look at the effectiveness of it, whether the 
investment of putting in the video units is worth it. It is 
ongoing now. But, yes, it is expensive, and we are monitoring 
the costs.
    Mr. LINDER. A quick check of the Internet finds that a 
nationwide company offers a video conferencing camera that 
starts at $9.99 along with a free video conferencing calling to 
other network users.
    What do you think of that, Mr. Bertoni?
    Mr. BERTONI. I am not aware of that particular instance, 
but I guess your point is that, to the extent if they can find 
cheaper and as useful tools to get this job done, I think that 
should be the case. I think there are examples in this agency 
and others where, through the procurement and contracting 
functions, that hasn't always been the case. But I would--
hearing that, I would say if there is technology that is 
similar, does the same job, and it is cheaper, that should be 
looked at closely.
    Mr. LINDER. The last laptop I bought, it came with the 
laptop at no additional cost. Thank you all very much.
    Thank you, Mr. Chairman.
    Mr. FELL. May I make one comment on that, please? I am 
actively involved in that. I have a number of video units in my 
office. We are installing a video spoke in Indianapolis, plus I 
am putting a desk top video in Madison, Indiana, shortly. We 
have a closed net IP. We have security issues, privacy issues.
    Also with the administrative law judge, the clarity of this 
system has to be as close as it can to an in-person hearing. So 
before we go on the cheap to put more in, we really have to 
make sure that this is the type of technology that we can use. 
The technology we have now on some of the 58-inch flat screens 
we are getting in is extremely clear. The desktop videos, true 
they are expensive, but the clarity is amazing. My chief judge 
has one in his office. He holds remote hearings with it, and he 
is very impressed with the clarity of it. So I don't think we 
want to sacrifice the clarity and the ability of the judge to 
view what he needs and also the privacy, in making sure we have 
a closed net system. It would have to be, I think, very careful 
analysis before we went out and tried to contract outside. That 
would be my opinion.
    Mr. LINDER. I think if you looked closely, you could buy 
these things pretty secure and very large for a whole lot less 
than $24,000.
    Thank you, Mr. Chairman.
    Chairman TANNER. Your timing is impeccable. We have three 
votes, and we were supposed to be out of the room at 1:30.
    May I, again, thank all of you very much. Your testimony 
will be carefully read. And if we have follow-up, I assume we 
may contact you with respect to any question we may have about 
your testimony.
    Thank you, Ms. Hathaway.
    Thank you all for being here.
    The meeting is adjourned.

    [Whereupon, at 1:31 p.m., the Subcommittee was adjourned.]
    [Questions for the Record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Submissions for the Record follow:]
                   Statement of Cary L. Bartlow, PhD
    Since 1985 I have been an independent Vocational Expert (VE) 
providing expert witness contract services for the Social Security 
Administration's Office of Disability Adjudication and Review (aka 
ODAR). I am writing to ask for your assistance in getting answers to 
what has been, and continues to be a confusing and seemingly 
disorganized merry-go-round process affecting our compensation for 
Expert Witness services in ODAR Hearings.
    As you may know, the current rate for which we are compensated was 
set around 1972. There has not been an increase in the amount the 
Vocational Experts are paid in over thirty-eight years. In 1972 that 
rate of compensation was very fair. Now some thirty-eight years later, 
inflation has almost completely eliminated any way to make a reasonable 
profit when providing these valuable services. Most of us in the 
Vocational Expert field have other job duties, and the work for Social 
Security is not essential to our practice. However, it remains 
essential to Social Security. The agency requires the use of an 
Independent Vocational Expert to provide vocational expert testimony in 
Social Security Hearings for many Title II and Title XVI cases. Through 
our work cases are expedited and move toward completion much faster 
than without our services. I fear some experienced Vocational Experts 
will find it necessary to cease their work due to such poor 
compensation. If this happens the SSA disability case backlog will 
increase ten-fold at a minimum.
    In order to do the Vocational Expert work one must have a College 
Degree. Most VE's have Master's Degrees. I have a Doctor's Degree. I am 
a Licensed Professional Counselor, Certified Rehabilitation Counselor, 
Certified Vocational Evaluator, and a National Board Certified 
Counselor with over 38 years of experience. Yet we are paid at a piece-
rate wage based on standards of pay established 38 years ago. The 
compensation paid by Social Security is not worthy of our training, 
education, work, experience, credentials or degrees. We hope you will 
agree. Undoubtedly many our your colleagues and staff would not remain 
long at a job if your pay was the same as 38 years ago.
    A task force headed by two distinguished colleagues, Mr. Scott 
Stipe of Oregon and Mr. Tom Dunleavy of Illinois, have worked hard to 
bring our request for an increase in pay to light. Finally, in August 
2008 Vocational Experts were pleased and excited to learn in writing by 
SSA that the VE's would all receive a long overdue and reasonable pay 
increase for their vocational expert services. The Vocational Experts 
were finally being recognized for their professionalism, patience and 
willingness to assist SSA in disability claims.
    The August 2008 contract offered for the SSA Vocational Experts, 
including myself presented a long overdue increase in compensation. We 
were asked to complete an application under the new BPA contract 
expeditiously; and VE's across the nation did just that. The new rates 
and provisions of the contract were to go into effect October 1, 2008. 
Through our association, the International Association of 
Rehabilitation Professional, we posted the good news. Medical Doctors 
who serve as experts were also included in the long awaited increase.
    Curiously, some VE's in other regions did not get the new contract, 
but were given yet another extension to the old contract. Everyone 
assumed that the new contract with pay increases would soon reach 
everyone across the nation. We patiently waited for the good news to 
happen in real life. The value of our essential services was finally 
being recognized and appropriately rewarded.
    On September 12, 2008, SSA sent another urgent message to the ODAR 
offices, stating that ``all action should be stopped on the new 
contract.'' The message stated that the contracts would be placed on 
hold until further notice, and the agency was currently in the process 
of assessing some possible changes to the BPA package associated with 
security issues. That was the only explanation we received. Another 
communication came from the ODAR Regional Offices on September 26, 2008 
stating the deadlines had been lifted, and all VE contracts were 
extended through December 31, 2008. Nothing was mentioned about taking 
away the raises.
    A Status Update from the ODAR ME/VE Contractor Workgroup came on 
October 9, 2008. The statement given was, ``We want to reassure you 
that the new BPA is forthcoming. We must issue a new BPA to include PII 
language and fulfill the security requirements. We are also concerned 
about the BPA's expiration date of December 31, 2008. We are speaking 
with Headquarters' Executive Management and others regarding this 
timeline. We anticipate the release of the new BPA by the end of the 
month. Your patience in this matter is greatly appreciated.'' Nothing 
was mentioned about taking away the pay raise.
    The next communication received was an email on January 7, 2009 
which stated, ``Greetings, attached is the newly updated BPA 
Contract''. VE's were shocked, dismayed, disappointed and angry that 
the newly updated contract was rescinded to the old 1972 rates, and 
this contract would be in place until September 2010.
    This insult was worse than a slap in the face. There was no 
explanation other than an email that was forwarded from ODAR stating 
that the August 2008 contract had not been approved.
    One cannot imagine that the contract had not been approved. One 
would naturally assume that it was PRE-approved prior to being offered 
to all VE's across the nation. SSA does not just arbitrarily send out 
blanket contracts without approval first. The January 2009 contract 
made changes in the status of the VE being associated with any 
particular ODAR office. Changes were made as to how we report a monthly 
contractor invoice and request for travel reimbursement. Still yet 
other regional offices did not send out the January 2009 contract, but 
extended the VE contract until March 31, 2009. No reason was given for 
taking away our pay raise. None at all. And, to add to the insult we 
were told we would not be paid mileage for our travel from our office 
to the local SSA hearing site (unless it was over 50 miles away??!!!).
    It is disconcerting to VE's that we find ourselves left to slowly 
swing and die on the limb. Our contract is for a national service 
program. We were told that the funding did not come through for our 
contract because the SSA agency was under a Continuing Resolution. SSA 
knew they were operating on a Continuing Resolution went they sent out 
the original contract, the one that had our pay raise. So, this excuse 
does not hold water.
    Contract hearing monitors and reporters, who take notes and operate 
the recording machines, renegotiated their contracts during this same 
time interval, and many received substantial increases for this same 
period our contract was to cover. Many of them earn more that the VE's; 
and they do not require but a high school diploma to do their work. 
Whereas, VE's are a group of professional highly skilled people who 
have extensive training, education, certifications and years of job 
placement and job development experience. Most provide forensic 
testimony in state and federal courts.
    We strive for excellence in our field and take pride in assisting 
the Social Security Administration in carrying out the legal provisions 
under the Social Security Act. It is a genuine and reasonable fear that 
many VE's will be less available to do this work as the compensation is 
no longer commensurate with what we deserve and can be earned 
elsewhere. Most VE's are now angered, saddened, frustrated and 
disheartened with the recent events.
    To add to our distress, it has been learned Attorneys and 
Representatives for the Disabled Claimant Applicants are going to see 
their compensation increased!!! They do not even have a contract with 
SSA.
    I returned my BPA application for continuing VE services timely on 
the last day of January 2009. Then, get this, on February 15, 2009 I 
received a third and NEW packet to complete for the THIRD TIME.
    We need your help. I would appreciate any assistance that you can 
give me and my Vocational Expert colleagues concerning what is 
happening in the Social Security Administration as it relates to 
Vocational Expert pay and compensation and when we can anticipate an 
increase in compensation.
Yours truly,
Cary L. Bartlow, Ph.D.
Licensed Professional Counselor
Certified Rehabilitation Counselor
Certified Vocational Evaluator
National Board Certified Counselor
Diplomate-American Board of Vocational Experts
Certified Counselor for the U.S. Dept. of Labor
Certified Counselor for Oklahoma Workers Compensation Court

                                 <F-dash>

                      Statement of Dorothea Bawks
    The Social Security Administration is inundated by Baby Boomers 
with disabilities. SSA employees can not keep up with the pace. They 
have not been given the resources to. We all need to cut back on many 
things. But one area which causes the SSA system to be continuously 
back logged has to do with the burden of unnecessary hearings. The 
``Back to Work'' incentives are failing. These incentives have botched 
people with disabilities and the SSA system in general from a `simple 
to solve' level. It has to do with the monthly amount of money an 
individual on SSD or SSI is allowed to earn in order to keep their 
benefits. Just to be clear, going back to work enhances persons with 
disabilities lives on too numerous levels to mention. However, when all 
an individual can manage is part time, the following built in failures 
need to be changed:
    Waive the earned income ceiling during the 3 months every calendar 
year when an employee receives 5 or 3 pay periods a month instead of 
the usual 4 and 2.
    Recognize that controlling one's income is not always the 
purogative of the employee, particularly if the employee is new and has 
not yet earned the time off needed to take a week off from work three 
times a year to stave off losing their benefits by closely monitoring 
their income.
    Acknowledge that this restriction is more often than not an 
`unknown' by the person with a disability. Who is telling them in 
advance? Many people with disabilities end up losing their benefits 
permanently because there was an extra pay period in a given month that 
caused them to supersede the monthly allowed earned income and had no 
idea they were breaking any SSA rules.
    Recognize that many of these people end up requesting hearings due 
to the fact they never received notice of this rule. As a result they 
did not make an informed choice and are miffed as to why their benefits 
have ceased.
    Recognize that discrimination by employers toward people with 
disabilities is still alive and well and that requesting three unpaid 
weeks off per year dually jeopardizes an employee with a disability in 
terms of employment retention. Many people avoid going back to work 
based on the intellectual sophistication of employer/employee 
agreements that would have to be in place in order to comply with this 
rule, or the fear of what would happen if they failed to acquire such 
an agreement.
    Choose to accept a third or fifth pay period three times a year 
without penalty. This will free up the Adjudicator's schedules not only 
due to the lessening of appeals, but also due to the lessening of re-
application for benefits which almost always end up in appeals as well.
    Make it retroactive, for people with intellectual or cognitive 
disabilities (especially mental illness which is loaded with cognitive 
deficits). This alone would free up thousands of people with 
disabilities to stop fearing and make choices to go back to work, ease 
the SSA burden in processing `earned income' records, and allow the 
appeals courts to steadfastly move ahead.
    Finally, recognize with this one change there will be far less 
American Families who are homeless, or without health coverage, heat, 
food, electricity, and/or fuel.

                                 <F-dash>

                        Statement of Earl Tucker
    This is an outline of some of AFGE's concerns at the Social 
Security Administration and some suggested recommendations to improve 
service to the public and reduce the disability backlog.
Underfunding and Understaffing----
    SSA is severely underfunded and understaffed. SSA budget is totally 
inadequate to provide the benefits that workers are entitled to 
receive. SSA budget for FY 2009 should be at least $11.5 billion to 
allow SSA the resources it needs to provide timely SSA benefits to 
workers that have paid into the SSA trust funds. With the additional 
funding, SSA need to hire more staffing in all components (both in 
headquarters and all non-headquarters components) of the agency 
nationwide. In addition, we need extra staffing for field offices, DDSs 
and the Disability Quality Branches. SSA will also need to increase the 
size of the DDS Reconsideration Sections.
Disability Improvements
    SSA should have dedicated staff specifically trained to handle DIB 
interviews. Specialized staff must be trained to better document and to 
probe for underlying developmental requirement to correctly complete 
DIB interviews done by field office employees. We need to prevent the 
grocery shopping attitude that sometimes develop here during the DIB 
interview. Without in-depth training, some employees feel that they are 
shopping for the cook but would like to specialize and know more about 
what is needed to better help the DDSs to properly adjudicate the DIB 
claims.
    Screening of ODAR Cases--Until the ODAR backlog is manageable, 
there should be at least one expeditious screening unit set up in each 
component performing disability work to reduce the ODAR backlogs. These 
units should screen targeted cases without using ODAR's templates, 
written decisions or Staff attorneys to adjudicate the medical aspects 
of the cases. While other components are screening cases for potential 
disability allowances, it seems premature to apply an ODAR legal 
standard when deciding a case at this juncture using the medical 
evidence.
    Prototype States--End all prototype states and reinstate 
reconsiderations in those states so that they will be done by the DDS 
instead of ODAR. We must stem the flow of unnecessary cases going to 
ODAR in the first place. Ending prototype states would do this and the 
DDS would do all reconsiderations. In addition, the DQB should sample 
up to \1/2\ of all DDS reconsideration denials.
    Administrative Law Judge--Open up the opportunity to get into the 
ALJ position to all SSA employees who are not lawyers but have 
disability experience. As you know, at one time most of SSA employees 
who adjudicated claims were lawyers but SSA found out that they did not 
need lawyers to adjudicate initial SSA claims. The same should be true 
for appeals. We don't think you need to be a lawyer to hear each and 
every appeal. Therefore, employees with disability experience should 
have the opportunity to become non-attorney hearing officers.
    The above represents our thinking on ways to help clear some of the 
disability backlog.
Service Delivery Comments
    SSA's new unwritten plans to deliver service to the public can only 
be done at the expense of dedicated employees and quality assurance. 
Quality has disappeared mainly because of the so called 'budget 
constraint'(underfunding and understaffing). It appears, SSA thinks 
they can hide behind budget constraints to reduce employees further and 
hinder premium progress. Now SSA is developing guises and schemes to 
increase production instead of training all employees for one-stop 
shopping to delivering quality service to the public.
    SSA needs to get back to its mission ``to provide the correct 
check, to the correct person in the correct amount.'' SSA needs to 
recognize that we do not provide a commodity to the public. We are 
providing them with their ``income'' to survive in this turbulent 
economic time. SSA was at one time a first class agency who recognized 
that we dealt with individuals and their very specific needs and 
concerns. Social Security applicants and beneficiaries are not just 
anonymous voices at the end of a phone line or internet applications.
    Before we go into the guises and schemes, We need to draw a 
parallel example. Years ago, when you flew you were served food even in 
economy section of a plane. Now you have to buy meals in the economy 
section, if food is available on your flight in the first place. AFGE 
believes that this is where SSA is headed even though we are not in 
business to make a profit like the airline industry.
    In order to cope while underfunded and understaffed, some of the 
most recent guises and schemes seems to be as follows:

          1. SSA's total lack of trust for employees when requesting 
        unexpected time off--In some components, many employees are not 
        respected and valued by SSA especially when they need 
        unforeseen time off work for any personal reason including 
        emergencies. They are requiring employees to bring some type of 
        documentation before final approval of the unexpected leave. If 
        the time is granted, SSA has threaten to investigate the 
        authenticity of the document that they required the employee to 
        obtain.

          2. Recording 800# calls--SSA is changing the philosophy and 
        tradition of never recording 800# calls. Now SSA wants to 
        shorten the length of calls by recording the calls to maximize 
        production for each 800# agent. In the past, employees were 
        allowed to take the necessary time and get each call right in 
        order to provide quality public service. SSA plans to start 
        recording all calls to the 800# in the near future. For over 20 
        years, SSA has utilized monitoring and observation of 800# 
        employees to rate the service delivered by telephone. As a 
        result SSA has the best 800# system in the world with a 96.7% 
        accuracy rate for calls affecting payments in answering the 
        concerns of the public. But according to SSA, 96.7% payment 
        accuracy is not good enough because they want to utilize the 
        recordings to shorten the length of calls and to discipline 
        employees for extended calls. Overall, AFGE sees this as 
        creating a more hostile work environment and an attempt to 
        reduce the number of employees and shortchange the public.

          3. Internet On Line Applications--SSA plans to have the 
        public complete their own application for SSA benefits without 
        human intervention or a face to face interview. The SSA 
        programs are very complicated. Without SSA experience, the 
        public can not answer many of the questions on the application 
        correctly such as month of election, lag wages, onset date, 
        worker comp, railroad earnings, military service credits, 
        resources etc. It takes an employee at least three years to 
        learn any one of the three SSA programs. AFGE believes the 
        public deserves quality service from experienced employees to 
        get the correct benefits upfront. In addition, we believe fraud 
        waste and abuse will run rampant without human intervention in 
        the internet online application process. Identity thieves and 
        hackers are major problems in our society and the limited proof 
        requirements built into the system will not detect fraud, 
        waste, and abuse. The Agency is ignoring the fact that the 
        general public is extremely reluctant to deal with either 
        individuals over the phone or an internet process that they 
        cannot trust. There have been too many instances of vulnerable 
        beneficiaries being preyed upon by bogus individuals and 
        companies both on the phone and online all to ready to divest 
        them of their limited benefits. The Agency is failing to 
        realize the value of the frontline Field employees who not only 
        provide a human face to Social Security but also provide 
        service, preserve privacy, prevent fraud and instill confidence 
        in a program that serves a large part of the general populace.

          3. Virtual Environment--SSA plans to eliminate the 10 
        distinctive regional lines in Office of Quality Performance 
        (OQP) for a virtual environment. This means that a 
        beneficiary's case in Chicago, Illinois can be reviewed by 
        employees in any location. This elimination could do away with 
        the regional validity of our quality performance findings. 
        Therefore, the findings would most likely be national leaving 
        out regional findings. AFGE believes that SSA wants to 
        manipulate staffing with this virtual environment. In locations 
        that are more productive, SSA will put more staffing in those 
        locations and less in others creating a hostile environment 
        everywhere.

          4. Pre-effectuation Reviews (PER)--OQP reviews 50% of all 
        allowances made by the Disability Determination Services (DDS) 
        before payments are made. This review saves the trust fund over 
        $600 million per year. SSA is looking for way to reduce DDS 
        complaints. The DDSs complain about our reversals which in the 
        end save money in the trust fund. SSA is now doing a cursory 
        review instead of a complete review on some of these cases. SSA 
        is investigating new ways to reduce, revise or stop these cost 
        saving reviews even though they are mandated by Law. The 
        proposed PER review changes need thorough investigation, and 
        should be bargained with AFGE. SSA is now doing a cursory 
        review of some PER cases that may be less likely to have a high 
        return rate. They want to put the focus on reviewing claims 
        where, in management's words, they get ``more bang for the 
        buck.'' Namely, cases where younger individuals might collect 
        over more years. This is not only discriminatory against 
        younger individuals in a program that is supposed to serve all 
        citizens, equally, but it also circumvents the intent of PER 
        review established by Congress. PER was intended to be a way 
        for the Agency to protect it's ``integrity'' and the viability 
        of the funds that it was entrusted to distribute. By conducting 
        PER reviews the Agency is able to provide a visible savings of 
        Trust Fund monies and able to demonstrate that it can do a 
        system of checks and balances on itself. To attempt to ``water 
        down'' PER and it's proven value over the years by limiting 
        it's impact is self defeating not only for Social Security but 
        also for the dwindling Trust Fund.

    Staff was told that the time savings in the cursory reviews would 
be used to allow OQP to accomplish other agency goals, such as 
adjudicating ODAR cases at the ALJ level. This is not even a part of 
the OQA mission, and should not be implemented unless employees receive 
adequate compensation for performing work that ODAR staff attorneys 
often do. Management has circumvented the need for bargaining on this 
issue because they claim there is a ``de minimis'' impact on employees. 
This is a ridiculous argument since it completely changes the focus of 
our work.
    Recommendations:

          1. SSA's funding and staffing must be increased dramatically.

          2. We also strongly recommend more training and promotions--
        To improve service delivery to the public, all employees must 
        be trained to provide ``one stop' shopping. One stop shopping 
        means that any employee can process an action to completion 
        without referrals. Currently, one stop shopping does not exist 
        for some employees because they have not been fully trained. As 
        a result, many employees have to refer the work to someone else 
        to process due to lack of training. To train everyone to 
        provide one stop shopping could be expensive because this will 
        require some promotions. However, we don't think SSA has much 
        of a choice in providing one stop shopping if they want to 
        improve service delivery to the public in an electronic 
        environment.

          3. Ratio of employees to management--The ratio of employees 
        to management is quite high at SSA. It varies from component to 
        component. It is lower than 3 to 1 ratio in some components and 
        as high as 20 to 1 in others. Even officials with such a low 
        number of employees seldom process initial case work, with the 
        exception that they evaluate a small sample of the work done by 
        the 5 employees. The ratio should be much higher in all 
        components with proportions less than 20 to 1. There should be 
        a standard, across the board, consistent, management/employee 
        ratios in SSA. OQP differs wildly from region to region. There 
        should be delayering of this complicated and inconsistent 
        management structure, with fewer middle managers especially 
        program leaders. SSA has about 200 Program Leaders in the 
        Office of Quality Performance that are suppose to function as 
        team Leaders or program technical assistants to other 
        employees. If these employees are, in fact, leaders in the 
        program then they should be working cases when they are not 
        providing technical assistant where needed. Since these 
        employees very seldom work a case from start to finish they are 
        not leading anybody in the program or performing the public 
        business as the leaders. These Program Leaders are not in the 
        bargaining unit even though they do not perform any supervisory 
        functions. Also, in my opinion they do not perform any other 
        function that would preclude them from being members of the 
        bargaining unit. In other components of SSA, program leader 
        type positions are called team leaders or technical assistants 
        and they are in the bargaining unit, but not in the OQP unit. 
        The OQP program leaders should be in the bargaining unit to 
        process the work of the public instead of performing 
        unnecessary management related assignments. Basically, the 
        Program Leaders, rightfully, should be processing actual cases 
        and leading the team as members of the bargaining unit

          4. Flexiplace/Telework--Since around 2001, SSA's has allowed 
        a few employees to work at home from 1 to 2 days a week. Up 
        until now, flexiplace had been one of the most productive 
        programs at SSA. SSA is denying employees the same access to 
        SSA computer systems that they granting to the public and their 
        representatives. SSA must expand the number of days to work 
        from home and allow employees access to SSA computer systems 
        from home as well.
          The restriction of flexiplace does not follow federal 
        guidelines on federal workforce telecommuting, which were 
        passed in order to allow for fewer commuters, contributing to 
        energy savings and greater work productivity

          5. Information Technology--SSA's cost for information 
        technology is steadily rising without any quality reviews to 
        ensure the health of these system expenditures. The OQP in SSA 
        should have certified programmers on staff to perform quality 
        reviews in all areas of information technology especially since 
        information technology is requiring more and more of SSA 
        resources. In addition, SSA needs more IT resources to get rid 
        of COBOL and other antiquated software.

    Finally, AFGE believes SSA's management philosophy is that 
electronic and technological advances should somehow automatically 
eliminate employees and drastically reduce the amount of time that is 
needed to process it complex work. AFGE disagrees with that philosophy 
which is not supported by objective evidence from the workplace.
    SSA should model its service delivery in a similar fashion to that 
of those cities that have provided pedestrians with a better method to 
cross busy intersections. In those cities walk lights have second 
counters on them to let pedestrians know when they are running out of 
time to navigate the street crossing. This technology has cleared the 
intersection of pedestrians being caught in the middle of the street 
after the light changes. It is important to realize that cities 
installed these second timers, but did not reduce the amount of time 
for pedestrian to cross the intersection. I recommend that SSA take 
advantage of these electronic and technological advances without 
reducing the amount of time needed to deliver services. If employees 
are given the same amount of time to process SSA's work, the efficiency 
will become self evident.
    It seems to AFGE that SSA is acting like a corporation trying to 
make a profit instead of attempting to deliver world class quality 
service to the public. To think of ourselves as a corporation where 
reviews are supposed to be tailored to bring ``more bang for the 
buck'', is totally inappropriate. We are a government agency that is 
supposed to deliver to our citizens, applicants, and beneficiaries 
information, advice, and benefits that they are entitled to. We believe 
management has lost sight of Social Security's mission to serve the 
public and administer the program in a fair and equitable manner. 
Without proper planning inclusive of employee/union participation, 
staffing, training, funding, and management commitment to service of 
the public, Social Security will continue to fail in its attempts to 
address the problems of rising applications, the backlog of disability 
related appeals, and addressing the information technology needs of the 
workforce and the public they serve.

Earl Tucker
President
AFGE Council 224

                                 <F-dash>

                     Statement of Georgina Huskey,
              National Association of Disability Examiners
    Chairman Tanner, Chairman McDermott, Congressman Johnson, 
Congressman Linder, Members of the Subcommittee on Social Security and 
Members of the Subcommittee on Income Security and Family Support: This 
hearing was called for the purpose of reviewing the Social Security 
Administration's response in addressing the critical issue of the 
increasing backlogs of disability claims and how additional stimulus 
funding could improve service. The National Association of Disability 
Examiners (NADE) appreciates this opportunity to submit comments on 
this important subject. We have had similar opportunities in recent 
years to address this subject before your committees and we commend the 
Subcommittees, their respective Chairmen, and their Members for their 
continuing oversight of this important issue.
Who We Are
    NADE is a professional association whose purpose is to promote the 
art and science of disability evaluation. The majority of our members 
work in the state Disability Determination Service (DDS) agencies 
adjudicating claims for Social Security and/or Supplemental Security 
Income (SSI) disability benefits. As such, our members constitute the 
``front lines'' of disability evaluation. However, our membership also 
includes SSA Central and Regional Office personnel, attorneys, 
physicians, non attorney claimant representatives, and claimant 
advocates. It is the diversity of our membership, combined with our 
extensive program knowledge and ``hands on'' experience, which enables 
NADE to offer a perspective on disability issues that, we believe, is 
both unique and reflective of a programmatic realism.
    NADE members--throughout the DDSs, SSA Regional Offices, SSA 
Central Office, ODAR offices and throughout the private sector, are 
deeply concerned about the integrity and efficiency of both the Social 
Security and the SSI disability programs. Simply stated, we believe 
those who are entitled to disability benefits under the law should 
receive them; those who are not, should not. We believe decisions on 
disability claims should be reached in a timely, efficient and 
equitable manner. The continuing backlogs in disability claims are an 
embarrassment to SSA, to DDSs, to Field Offices, to ODAR, and they are 
a nightmare to those waiting for a decision.
    NADE members are very appreciative of the support Members of the 
House Ways and Means Committee have provided to SSA for so many years. 
Your recognition of the critical need for adequate resources at SSA, 
and your willingness to accept a leadership responsibility on this 
matter, has resulted in vital funding urgently needed for SSA. We 
greatly appreciate the support for funding at a level above the 
President's proposed FY 2009 budget and for the $1.092 billion in 
funding included for SSA in the American Recovery and Reinvestment Act 
of 2009. We hope you will also support the President's FY 2010 Budget 
Request of $11.6 billion for SSA's administrative expenses.
The Problem
    The Social Security Administration is facing an unprecedented 
backlog of more than 1.3 million claims for Social Security and 
Supplemental Security Income disability benefits. The backlog of claims 
seems to be particularly problematic at the hearings stage, where the 
backlogs have more than doubled since 2000--from about 310,000 claims 
to more than 765,000--and the average waiting time per claim has soared 
to nearly 500 days. Even at the DDS level, where few backlogs are 
publicly reported and where the average processing time for an initial 
claim is nearly 100 days, the stark reality is that there are 
tremendous backlogs pending. Just because disability claims have been 
assigned does not mean they are being worked and disability examiners 
who carry caseloads two, three and even four times the number deemed 
reasonable are, in essence, housing a backlog of claims at their desk. 
Unfortunately, this backlog of claims can lead to mistakes in case 
development and contribute to mistakes in judgment, resulting in the 
potential for erroneous decisions. As we have duly noted in our 
previous testimony, the time required to process claims grows longer at 
each stage of the claims process and claimants who are denied at the 
initial level often find themselves waiting years for a final decision 
from the Agency on their appeal. No one within SSA, within the DDSs, 
within Congress and certainly no one among the public will claim this 
represents good customer service.
Addressing the Backlogs
    Addressing the backlogs in disability claims is a high priority for 
NADE. However, of equal concern is the average time it takes to process 
a claim, now 89 days for an initial claim pending at the DDS and nearly 
500 days at the hearing level. Both processing times are too long and 
many people suffer needlessly as a result of these backlogs and 
extended processing times. Individual conditions can worsen during 
these lengthy wait times and can even lead to death. It is critical 
that answers be found to effectively resolve the persistent questions 
surrounding the backlogs and reducing the average processing time at 
all levels in the disability claims process.
    In April, 2008, Representative Jim McCrery, a former Chairman of 
the Social Security Subcommittee and then its ranking member, offered 
the observation that constant under-funding of the disability program 
by the Congress over the past two decades had contributed heavily to 
the current crisis. Other Members of Congress, including Members of 
these Subcommittees, have made similar public comments. These comments 
underscore a primary source for the backlogs while the other primary 
source has been the hard choices made by SSA during these past two 
decades to deal with the realities of inadequate funding and 
insufficient staffing levels.
    Faced with the reality of under-funded budgets and frequent staff 
turnover, caused in part by a heavy retirement wave that swept through 
SSA and the DDSs, SSA made some difficult policy and personnel 
decisions designed to permit the Agency to deal with the increasing 
number of claims with decreasing numbers of personnel. Quite frankly, 
many of these decisions did not produce the desired result and the 
Agency's ability to deal with the increasing number of claims was 
diminished even more so.
    The growing complexity of the Social Security and SSI Disability 
Programs, coupled with the need to produce a huge volume of work, 
justifies even more the need for adequate resources in order to provide 
the service that the American public has come to expect and deserves 
from SSA. We have noted in the past, and we offer this reminder, that 
it takes at least two years for a newly hired disability examiner to 
become fully trained and proficient to the point they can function 
independently, contributing to the process of making timely and high 
quality disability decisions. Thus, decisions not to replace productive 
personnel when they leave can take two or more years to correct even 
after new hires are made. NADE has long maintained that it is critical 
for SSA to be provided with the resources needed to hire and train new 
staff that can perform these duties. Low salaries, hiring restrictions 
and the stress of the job have contributed to high turn-over in some 
DDSs. Given the hiring restrictions and inadequate resources placed on 
the SSA and DDSs, it is surprising the disability backlogs are not even 
higher than they are and that the number of claims processed has 
continued to increase despite inadequate funding and resources.
    SSA over the past decade has made at least three distinct attempts 
to redesign the disability claims process in an effort to create new 
processes that will result in more timely and consistent disability 
decisions. Our own Association has been consulted on these efforts and 
we have, in the past, offered public comment on the various attempts. 
Many of our recommendations, and those of other stakeholders, went 
unheeded and the result was often poorly conceived designs and/or poor 
implementation with the overall results of these redesign efforts 
undertaken by SSA being that they have not produced the results 
expected. In fact, in many cases, they have only slowed the processing 
of claims while employees adjusted to the constant changes. The impact 
of these changes has contributed to the inability to manage the high 
workloads experienced in the past decade and contributed to decreased 
efficiency of operations. We are pleased the current administration at 
SSA has shown an increased willingness to listen to stakeholders and to 
incorporate their expertise in their management and policy decisions. 
We believe this will have an important impact on the Agency's ability 
to handle the backlog of claims.
    In FY 2008, Congress appropriated more money for SSA's 
administrative budget than the President requested. This was the first 
time in 15 years Congress had acted so favorably and we are very 
grateful for this support. When one realizes the President's budget has 
traditionally been much less than the Commissioner had requested, it is 
easy to understand how we arrived at this point and why the backlogs 
exist. The congressional action of FY 2008 is the first step in a long 
road back to management stability for SSA. The action taken by Congress 
regarding SSA's FY 2009 budget demonstrate the ongoing commitment 
Congress has made to finding a solution to this crisis. It now falls to 
SSA, and its components, to utilize these funds for actions that will 
produce the desired outcome. On behalf of our members, and all who have 
an interest in the disability program, we thank the Congress for its 
financial commitment.
    We do wish to caution that congressional and public expectations 
cannot be set to high initially. Years of constant under-funding cannot 
be undone overnight or in one or two budget years. However, we firmly 
believe that the additional funding will allow new hiring of staff and, 
where possible and where needed, payment for overtime for staff to 
reduce the backlogs.
State Furloughs
    We also caution further against increased expectations regarding 
the value of additional funding provided by Congress because such 
positive action may be negated and, in some cases has already been 
negated, by actions taken in some states in their efforts to resolve 
their own budget issues. NADE has previously pointed out, and SSA and 
other witnesses have also pointed out, that some states have adopted 
hiring freezes and furloughs of state employees to reduce their 
expenditures. DDS employees, who are 100% federally funded and who have 
no impact on a state's budget problems, have not, in most states, been 
exempted from these drastic actions in spite of heavy lobbying by SSA 
that the states should exempt DDS employees. NADE has previously shared 
with the Congress our resolution on the matter of furloughs and hiring 
freezes (resolution adopted by NADE January 15, 2009--available for 
viewing at www.nade.org).
    Recent statistics have shown that applications for initial 
disability claims have, not surprisingly, increased by 10% since the 
beginning of this fiscal year. Each week, the number of initial claim 
filings has increased from the week before and the number of new claims 
in calendar year 2009 is up 13.7%. The actions, taken by many states 
and being considered by others, have the effect of reducing the size of 
the workforce processing these claims or reducing the hours available 
for the workforce to process these claims. In effect, these actions 
will reverse the action taken by Congress to address the crisis in 
backlogs and lengthy processing times. If these state actions are not 
abated, then the disabled citizens seeking benefits will almost 
certainly face the prospect of even longer processing times and 
extended appeal times. We also note that the North Carolina State 
Treasurer, Ms. Janet Cowell, commented on March 24, 2009 that furloughs 
are not a long term solution and can, in fact, harm a state's financial 
stability. Actions that can eventually lead to financial instability 
should require more long term examination and we call upon Congress to 
intercede on behalf of all state employees who are 100% federally 
funded. We recognize difficult times require difficult decisions but 
difficult times to not require foolhardy decisions.
Potential Solutions to the Backlogs
    <bullet>  NADE strongly believes the Single Decision Maker (SDM) 
process can help to alleviate some of the backlogs at the initial level 
of case processing. This part of the prototype effort has proven to be 
successful in producing high quality decisions and a time saver when 
processing claims. SSA should expand the SDM initiative to all regions 
and to all case types, not only to reduce initial backlogs, but to 
lower processing times at the initial level. We believe that, with the 
adoption of national standards for SDM and continued improvements in 
the availability of ongoing training for disability examiners, the SDM 
can represent part of the solution to the crisis of backlogs and 
lengthy processing times at the DDS.

    NADE absolutely supports the need for the expert medical advice in 
the DDS that is provided by DDS Medical and Psychological Consultants. 
However, such advice is best utilized on the more complex cases. 
Allowing these medical and psychological experts to invest their years 
of training and practical experience on cases where it is truly needed, 
instead of being used simply to sign off on simple decisions, can have 
a truly positive impact on the quality of the decision-making in the 
DDS which can have the positive effect of lowering the processing time 
for initial claims and diminishing the backlogs of cases pending at 
ODAR.

    <bullet>  Continued increases in staffing at the Field Office, DDS, 
and ODAR are a necessity for any rational expectation that the SSA can 
address the backlogs. It is no coincidence the backlogs have occurred 
after a period of downsizing within SSA. Some downsizing occurred as 
SSA sought to utilize precious financial resources in other areas 
rather than filling vacant positions. With the expectation that new 
designs in service delivery would allow the Agency to absorb the 
workload with fewer staff, SSA chose to invest its limited financial 
resources into technology enhancements. The problem became magnified 
when the new designs for service delivery failed to produce the results 
forecasted and many of the technology improvements equally failed to 
produce the desired results. The Agency was literally caught with no 
back up plan in place. Recent actions to appropriate new and additional 
funding will likely produce positive results toward reducing the 
backlogs but these results cannot reasonably be expected until new 
staff has become adequately trained in requisite job skills to produce 
at the level necessary to make an impact.
    <bullet>  SSA and DDSs will have to initiate the development of a 
career path for employees and adopt other employee friendly steps to 
reduce the increasing attrition rates that have robbed the Agency of 
its program knowledge base. As experienced staff walk out the door, 
either due to retirement or because of career changing decisions, SSA 
and the DDSs have struggled in many parts of the country to attract the 
kind of new hires that will keep the Agency at a level of competence 
required in its service delivery. Prior to the recent economic 
downturn, DDSs were reporting an annual attrition rate approaching 15% 
with more than 22% of newly hired disability examiners leaving by the 
end of their first year. The result has been an increasing lack of 
experienced personnel to process increasingly more complex disability 
claims and forcing the DDSs to utilize limited training funds to 
continually hire new staff, rather than provide ongoing training for 
existing staff. While anecdotal evidence suggests this level of 
attrition has diminished as a result of the economic downturn, it is 
reasonable to expect that, without proper planning and the development 
of proper career paths, the attrition will resume once the economy 
rebounds.

    NADE believes additional staff is needed in SSA's Field Offices and 
tele-service centers. These are the ``Front Doors'' of SSA and people 
walking through these doors deserve the kind of service one should 
expect from SSA. Allowing phones to go unanswered and/or requiring 
people to wait so long in SSA's Field Offices that many give up and 
leave because there are insufficient number of people to answer the 
phones or help them fill out the proper forms, is not the way 
government should serve the people. It is certainly not the level of 
customer service the Agency desires to provide. Field Office personnel 
also perform a valuable service in maintaining program integrity.
    NADE believes additional hiring is needed at the ALJ level, both in 
terms of support staff as well as the need for additional 
administrative law judges. We are pleased to see SSA has recently 
announced plans to hire additional staff at this appellate level and we 
caution that these additional hires, while expected to contribute to a 
reduction in the backlogs, will need time to become sufficiently 
trained and adequately prepared for the task.

    <bullet>  SSA's continued investment in technology enhancements 
will have an impact on the overall quality of the program and can be 
expected to produce a positive impact on reducing the backlogs. New 
initiatives in the exchange of health information technology (HIT), 
development of a new national computer data center, and other steps to 
modernize the Agency's technology infrastructure will be expected to 
have a positive impact on the Agency's ability to address the crisis of 
backlogged claims.
    <bullet>  The increase in applications at the initial level and the 
increase in appeal filings can be expected to continue as long as the 
economy is in its current state of crisis. However, we believe the 
actions taken by Congress and this Administration will lead to a 
revitalization of our national economy and will, in turn, lead to a 
subsequent decline in the number of disability applications to a more 
normal level.
    <bullet>  Other actions, such as shifting workloads to less busier 
offices, have been made possible by the technological improvements to 
date and we expect additional positive action in this regard. With 
fewer staff available, SSA has deferred some workloads. Although we 
caution this practice can have future negative consequences, it does 
enable the limited staff available currently to focus their efforts and 
concentrate on the backlogged claims.

    One Member of this Subcommittee posed the question, ``We give them 
the money, why can't they fix it?'' The obvious answer, which we hope 
we have addressed, is that two decades of under-funding cannot be 
corrected in one or two fiscal years. We appreciate Congress now 
recognizes it has contributed to the problem and has acted to 
appropriate additional funding to correct past mistakes. We fully 
believe positive change will occur but it will not occur overnight and 
we ask that Congress and the American public to be patient while SSA 
acts to coordinate new levels of funding with appropriate management 
decisions regarding how this funding should be allocated. We encourage 
these Subcommittees to continue to provide the necessary oversight 
needed to insure that these funds are spent appropriately.
Continuing Disability Reviews (CDRs) and Program Integrity Issues
    Limited resources in recent years have forced SSA to reduce the 
number of CDRs performed. Of concern to NADE is the past history of 
these types of actions and the resultant impact as the agency falls 
behind in these critical reviews. When a backlog of CDRs occurred 
previously it took a great deal of effort by all components of SSA to 
reach a point where CDR reviews were being conducted as scheduled. It 
took a significant number of years of dedicated funding solely for the 
purpose of conducting CDRs before SSA was current with CDR reviews. 
With the decrease in the number of CDR reviews done in the past few 
years, there is now a real danger the Agency will, once again, find 
itself in the position of having backlogs of overdue CDRs. Thus, it is 
possible the Agency will work itself out of one backlog into another.
    While there are increased administrative costs (including the 
purchase of medical evidence, claimant transportation costs and 
increased utilization of contract medical consultants) with the 
performance of CDRs, there is a potential for significant savings in 
program costs with the elimination of benefits paid to beneficiaries 
who are found to be no longer eligible for disability benefits due to 
no longer meeting the SSA Disability program requirements. The estimate 
is that for every $1 in administrative cost spent on conducting CDRs, 
$10 of program funds is saved. This historical ratio of 10-1 was 
evidenced most recently when, in FY 2008, SSA spent $281 million to 
conduct a limited number of CDRs, with eventual cessation of benefits 
for 36,000 individuals, leading to program cost savings of $3.3 
billion. While NADE agrees that it was necessary to decrease the number 
of CDRs done over the last couple of years given the status of SSA's 
budget and the need to utilize staff to process other case types, this 
decision has repeatedly been described by many, including a former SSA 
commissioner and members of this committee, as ``penny-wise and pound-
foolish''. It is essential to program integrity that CDR reviews be 
conducted in a timely manner to ensure that only those who continue to 
be eligible are receiving disability benefits. Dedicated funding has 
been shown to be the best means of SSA staying current with the CDR 
workload. NADE encourages this committee to recommend appropriating 
dedicated funding for CDRs to ensure this workload gets the attention 
it deserves.
    Anti-fraud efforts such as the Cooperative Disability Investigative 
(CDI) units which effectively utilize the strengths and talents of OIG, 
disability examiners, and local law enforcement, offer a visible and 
effective front-line defense for program integrity and serve as a 
visible and effective deterrent to fraud. SSA's Inspector General 
attributed the success of the CDI units to investigate fraud 
allegations to the efforts of, ``. . . those most qualified to detect 
fraud--DDS adjudicators.'' NADE supports the continued expansion of the 
CDI units to combat fraud and abuse in the disability program. An 
experienced disability examiner can be one of the most effective 
deterrents to fraud and abuse. NADE urges Congress and SSA to take 
appropriate action to ensure the experience level in the DDSs can be 
maintained.
5 Month Cash Benefit Waiting Period and 24 Month Medicare Waiting 
        Period
    It is important to note that in Title II disability claims, persons 
found disabled under the Social Security Disability program must 
complete a full five month waiting period before they can receive cash 
benefits. So, a disability allowance decision, even when it is 
processed quickly, will not resolve the issue of having to wait five 
full calendar months before the claimant will be able to receive any 
cash benefits. NADE believes that requiring some individuals (Title II 
claimants) to serve a waiting period before becoming eligible to 
receive disability cash benefits while not requiring others (Title XVI 
claimants) to serve the same waiting period is a gross inequity to 
American citizens with disabilities.
    We are also deeply concerned about the hardship the 24 month 
Medicare waiting period creates for these disabled individuals, and 
their families, at one of the most vulnerable periods of their lives. 
Most Social Security disability beneficiaries have serious health 
problems, low incomes and limited access to health insurance. Many 
cannot afford private health insurance due to the high cost secondary 
to their pre-existing health conditions.
    It has been proven time and time again that earlier medical 
intervention could help disabled individuals return to the workforce. 
Therefore, NADE supports the total elimination of, or at least 
substantial reductions in, the Five Month Waiting Period for Cash 
Benefits and the 24 Month Waiting Period for Medicare eligibility.
Summary
    The operational challenges facing SSA are substantial and are 
expected to become even more acute in the coming years as our society 
ages, as baby boomers continue to prove the actuaries correct regarding 
their forecasts of the baby boomers most disability prone years, as the 
economy continues to offer periodic setbacks, etc. Decades of 
inadequate resources for SSA, combined with increased workloads and 
less than desirable results from multiple redesign efforts, have not 
only caused backlogs in the number of disability claims pending at the 
initial and hearing levels, but has allowed existing backlogs to 
increase. Processing times, expected to decline with the introduction 
of new technology have, instead, increased due to sufficient resources 
in personnel.
    Recent increases in funding for SSA's administrative budget can be 
expected to produce reductions in the Agency's backlogged claims and 
lead to improvements in processing times at all levels. However, this 
new funding cannot, and will not, overnight, make up for mistakes of 
the past. The need to hire, train and deploy new staff will take 
several years before any realistic expectation that they will 
contribute significantly toward efforts to reduce the backlogs of 
claims. A variety of management strategies can be utilized to help 
diminish the backlogs and produce the desired improvements in 
processing time but these strategies will have future consequences.
    No amount of planning by SSA can reverse the negative impact on 
production and processing times caused by state hiring freezes and 
state employee furloughs that affect DDS personnel. Congress must 
support the Commissioner's efforts to force the states to exempt DDS 
employees, who are 100% federally funded, from state hiring freezes and 
furloughs of state employees.
    The crisis of backlogged disability claims, while a significant 
problem, cannot be used as a reason to abandon program integrity 
initiatives. It remains critically important that the public's 
confidence in the disability program not only be restored but 
maintained.
    A lot of effort has been made to improve the speed at which 
disability claims are processed and to eliminate/reduce the backlogs of 
claims. NADE agrees improvements are needed. However, we wish to remind 
the Members the 5 month waiting period for cash benefits and the 24 
month waiting period for Medicare eligibility will negate the positive 
impact of faster processing times and reduced backlogs. These waiting 
periods should be eliminated or significantly reduced.
    No other agency has a greater impact on the quality of life in this 
nation and the American public will judge the ability of their 
government to meet their needs almost solely by the quality of service 
provided by SSA. Social Security can and must do better in fulfilling 
its promise to America and NADE stands ready, willing, and able to 
assist in fulfilling that promise. People with disabilities, already 
burdened by the challenges of their illness/injury, are often in 
desperate need of benefits to replace lost income. They deserve, and 
should receive, timely and accurate decisions through a fair and 
understandable process. Our challenge, and one which must be met, then 
is to ensure the disability determination and appeals process meets 
those criteria.

                                 <F-dash>

   Statement of James F. Allsup, President, CEO and Founder of Allsup
    Chairman Tanner, Chairman McDermott, and Members of the 
Subcommittees meeting in a joint hearing today, thank you for 
considering my written testimony regarding the Social Security 
Administration's massive disability claim backlog.
    My name is James Allsup and I am the founder, president and CEO of 
Allsup, the country's largest non-attorney Social Security Disability 
Insurance (SSDI) representation company. We have helped more than 
110,000 individuals obtain disability benefits since 1984.
    The focus of today's hearing is the SSDI system's immense 
``official'' backlog, which to date has been ably chronicled by members 
of Congress and the nationwide media. To get a true handle on the 
situation, however, much more attention needs to be paid to the even 
bigger problems that are looming.
A Growing Pre-Backlog Crisis
    One way to think of the SSDI backlog is as a backed-up highway 
tollbooth plaza. Even if you add more lanes or find technological 
ways--like E-Z Pass--to speed cars through the tolls, you won't break 
the blockage if too many other drivers are flooding the highway to take 
their place.
    This is the situation now facing the Social Security 
Administration. Almost three-quarters of a million people with severe 
disabilities and without jobs are waiting for the hearings generally 
required to receive benefits. Unfortunately, behind that group, another 
half million applicants were already moving into the system's ``pre-
backlog'' of claims last year. The irony is that after a very, very 
long wait with at least one rejection, most eventually will be awarded 
the benefits they deserve.
    Social Security employees are working as hard as they can to help 
people who deserve care, but there is simply no way for them to keep up 
when so many individuals with disabilities are ready to take the place 
of those who get through the system.
Recession Increases the Challenge
    The recession is making things even worse. Allsup recently reviewed 
data from recessionary periods during the past 40 years and found that 
Social Security Disability Insurance claims typically increase when 
times get tough.
    The 40-year analysis includes the current recession, which began in 
December 2007, according to National Bureau of Economic Research data. 
Applications have increased during six of the seven recessions in that 
timeframe (January 1980 to July 1980 being the lone exception). 
Overall, the number of disabled workers applying for Social Security 
Disability Insurance grew to 2.3 million from 725,200 in 1969.
    The current period is following that pattern. Commissioner Michael 
Astrue stated earlier this year that his agency is facing an 
unanticipated 10 percent increase in its disability claims caseload. 
That's 250,000 additional cases the SSA needs to review, further 
bogging down the system.
    At this point, there are those who would write those increases off 
as simply a problem of fraud. They ask, fairly, why someone who was 
truly disabled did not apply for benefits before the job market slowed 
down and it became much harder to find work.
    Unqualified applicants certainly can place a burden on the system, 
although there is a difference between individuals with disabilities 
who do not understand the technical requirements for eligibility, and 
out-and-out fraud. This is one way companies like Allsup help the SSA. 
Our system pre-screens applicants to ensure likely eligibility before 
they submit their claims.
    However, it is not true that the recent application increase is 
simply an issue of fraud. As tough as the disability application 
process is, it's no surprise so many people try to avoid it at all 
costs. A process that involves years of tests, hearings and mountains 
of complicated paperwork--all for an uncertain promise of help that 
could be years away--is not something most people will cheerfully take 
on.
    But when the economy takes a sharp downturn, new financial strains 
can force some people to realize they can no longer afford to live 
without the disability benefits they are owed. They may have been 
struggling to keep working with a progressive health problem and now 
lost their job. Perhaps the spouse who had been supporting the family 
suddenly loses his or her job.
    The sad truth is that the current economic downturn will affect the 
system for years to come. Today's new applicants are tomorrow's 
backlog.
Searching For Solutions
    Over the long run, additional resources for the SSA are needed to 
meet the backlog challenge. Unfortunately, the ``long run'' won't help 
many of today's applicants. The good news is that a simple, cost-free 
step could make an immediate difference in the problem.
    Because applicants often don't know help is available, too many 
initial claims are denied for simple mistakes that have nothing to do 
with the applicant's disability status. In other cases, applicants who 
don't meet the standards for disability--but might if their conditions 
worsen over time--bog down the system when a simple pre-screening 
qualification process would let them know they aren't ready yet.
    Congress and the President should therefore immediately direct the 
Social Security Administration to notify applicants that they have 
options for getting help in pursuing their claims. This includes 
``outside help,'' from organizations like Allsup or attorneys.
    This really isn't an unusual concept as expert disability 
representatives work very much like professional tax preparers to help 
guide applicants through a government approval process, comply with the 
rules and laws, and get the benefits they deserve. By the time 
applicants reach the hearing level, about 90 percent are receiving 
assistance. Disability representatives can help solve the SSA's growing 
pre-backlog problem by working to ensure more applicants have help from 
the beginning. The Internal Revenue Service has for many years 
supported the concept that outside assistance is valuable to both the 
individual and the agency. The same approach could work well for the 
SSA.
    In addition, the SSA could attack the backlog directly by 
increasing the use of on-the-record hearing decisions for qualified 
claimants, which eliminate the need for oral hearings in two-thirds of 
our cases. Allsup pioneered the use of on-the-record hearing decisions 
for qualified claimants. When an on-the-record hearing decision is 
warranted, we prepare all the evidence, write the legal brief and 
submit a well developed and accurate claim to a judge for a decision.
    This process has been effective for moving qualified claimants 
through the process. Approximately 70 percent of Allsup claims that 
reach the hearing level are approved on the record. Judges are able to 
make sound, informed decisions and cut off months in the processing 
time of an application. Not only does the individual avoid the hearing 
backlog, the decision is made quickly.
Collaboration, Not Privatization
    I emphasize that this proposal is not a step toward privatization. 
It is a way for government to leverage the existing capabilities of 
expert disability representatives to immediately and positively affect 
the disability backlog.
    Literally hundreds of thousands of government worker-hours could be 
saved if every application processed by the Social Security 
Administration was professionally documented before it was submitted.
    Chairman Tanner, Chairman McDermott, and Members of the 
Subcommittees, I commend you for holding this hearing to raise 
awareness of these issues. Thank you again for the opportunity to 
provide testimony. I look forward to working with you to address this 
growing crisis.

                                 <F-dash>

             Statement of John Yent, Louisiana Committee of
                   Social Security Vocational Experts
    My name is John Yent. I want to thank the Subcommittee for inviting 
public comment on the record for the March 24, 2009 hearing on the 
Social Security Administration's efforts to address the disability 
hearings backlog. I am submitting this letter on behalf of the 
Louisiana Committee of Social Security Vocational Experts (LCSSVE). The 
issues which you will discuss on March 24th are of great importance to 
claimants, to beneficiaries, their representatives, Administrative Law 
Judges (ALJs) and the independent Social Security Vocational Experts 
(SSVEs or VEs) who are an integral part of the disability adjudication 
process.
    The Louisiana Committee of Social Security Vocational Experts is a 
group of independent vocational experts who provide vocational evidence 
in proceedings before the Social Security Administration (SSA) Office 
of Disability Adjudication and Review (ODAR). Our current membership of 
33 VEs in Louisiana, shares the goals and concerns of more than 100 VEs 
in Region 6 of SSA and approximately 800 VEs nationwide. We are 
committed to the highest quality vocational expert services in these 
critical proceedings.
    I am the Coordinator of LCSSVE. While recently undertaking this 
position, I have also provided vocational expert services to SSA/ODAR 
since 1997 and I have provided VE testimony in more than 3,500 Social 
Security disability hearings. My experience in private practice 
vocational rehabilitation and expert witness services includes 
thousands of clients since 1986. I have evaluated and assisted clients 
with the full spectrum of vocational rehabilitation services and job 
placement in the labor markets of Louisiana, Texas, Mississippi, 
Alabama and California. Beyond a Bachelor's and Master's degree, I am a 
Louisiana Licensed Rehabilitation Counselor (LRC), nationally board-
certified as a Certified Rehabilitation Counselor (CRC), and Diplomate 
of the American Board of Disability Analysts. All of the members of 
LCSSVE are similarly qualified and provide services to SSA/ODAR at 
hearing offices located in Alexandria, Metairie, New Orleans, and 
Shreveport, LA. We are proud partners with SSA.
    VEs are closely following developments at SSA, ODAR, and the budget 
affecting the disability backlog. We understand the enormity of the 
task facing ODAR adjudicating the disability backlog of over 700,000 
claims as well as the pressures on Hearing Offices to produce 
decisions. Increased utilization of VEs is essential to reducing that 
backlog.
    As you know, VEs fulfill an important statutory role in the 
disability adjudication process \1\ We provide the expert opinion and 
testimony at disability hearings which includes assessment of a 
claimant's work history, analysis of claimant's transferable skills to 
do other potential work, as well as current statistical data on 
availability of other work in the national and regional economy. We 
offer testimony in response to any number of hypothetical questions 
posed by the Administrative Law Judge, the claimant's attorney/ 
representative, as well as the claimant. We also provide expertise in 
the form of interrogatories posed by Administrative Law Judges and 
Senior Attorneys with ODAR which expedite claims, often making a 
hearing unnecessary. VEs have a substantial impact on the decision-
making process affecting billions of dollars in disability benefits and 
are essential for ODAR to accomplish its mission. In order to do this, 

---------------------------------------------------------------------------
    \1\ 20 CFR Sec. Sec. 404.1566(e), 416.966(e); SSR 00-4p.
---------------------------------------------------------------------------
    Having enough VEs for all of the adult disability hearings ODAR 
needs to schedule is a function of VE availability and of VE 
compensation. Examining the rosters, VEs are committed to SSA as 
evidenced by years--often decades--of reliable service each. VEs still 
on the rosters have continued to schedule hearings. The decision to be 
available for ODAR work has grown more difficult each year since 1972 
\2\ when the current fee schedule was introduced. In the same time 
frame of 1970-2008, Congress approved pay increases for itself 21 
times.\3\ SSA employees and beneficiaries have received numerous 
increases in this period as well, deservedly so. SSA has also approved 
compensation increases for claimant representatives several times, with 
another approved for June 2009.\4\ The only group not receiving a labor 
market cost adjustments as of March 18, 2009 is--ironically--the very 
labor market experts SSA retains to provide vocational testimony. For a 
VE to be available for ODAR hearings (payable at the 1972 compensation 
rates) means that the VE is turning down VE work in other non-SSA 
venues payable at 2009 market rates. Each year that market rates climb 
further away from SSA rates, highly experienced and exceptionally 
qualified VEs leave. The choice to stay is unsustainable long-term.
---------------------------------------------------------------------------
    \2\ 1972 is an estimate of its introduction. Official SSA 
Historian, Mr. Larry DeWitt, has not located this schedule's debut 
date.
    \3\ See Attachment 1: ``Congressional Pay Raises: 1789-2008''
    \4\ National Organization of Social Security Claimant 
Representatives website update (nosscr.org) February 11, 2009.
---------------------------------------------------------------------------
    The VE/ME Workgroup examined VE qualifications and market rates for 
their services. VEs have graduate-level degrees, maintain professional 
continuing education, national board certifications in our field, have 
state licensure (where required) and are practicing vocational 
rehabilitation counselors with ample private sector work (personal 
injury litigation, worker's compensation, etc.). The ODAR disability 
adjudication process benefits from the knowledge base of VEs both from 
their private sector experience as well as experience in typically 
thousands of ODAR hearings. As with any occupational group, the number 
of individuals who hold themselves out as experts in the field and can 
function in a judicial setting to qualify as an expert witness is less 
than 1%.
    Retention of experienced VEs must become a priority. It is our 
understanding that Federal agencies should establish contract pricing 
per regulatory guidance using a variety of sources and techniques. 
Selected price methods and reasonableness of contract rates must also 
be documented.\5\ Further, we understood that the Contracting Officer 
and Project Officer are responsible for research and obtaining pricing 
data.\6\ Having researched the history of VE fees, we identified only 
one report. The Inspector General last produced a report on VE and ME 
fees in 2001 referencing FY 1999.\7\ At that time, ODAR (then Office of 
Hearings and Appeals, ``OHA'') had BPA contracts with 1,337 VEs 
nationwide. Payments to VEs were $21.6 million dollars or about 3.1% of 
OHA's then budget of $687 million dollars for FY 1999. ODAR's 
administrative budget has expanded vastly since 1999; VE fees are 
unchanged.
---------------------------------------------------------------------------
    \5\ 48 C.F.R. Sec. Sec. 15.402(a)(1), 15.403-1(c)(1), 15.406-2 and 
15.406-3.
    \6\ Social Security Acquisition Regulation System, Subpart 
H2301.102-4(c)(1)(i).
    \7\ See Attachment 3:Inspector General Report A-06-99-51005, 
``Vocational Expert and Medical Expert Fees,'' dated 8/21/2001).
---------------------------------------------------------------------------
    More recently, a consultant report commissioned by SSA in 2006 and 
presented in 2007 suggests that the future direction of the 
adjudication process by ODAR involves expansion of the vocational 
expert role in a ``medical-Functional/Vocational'' (mFV) model \8\ The 
authors of that report opined,
---------------------------------------------------------------------------
    \8\ ``Use of Functional/Vocational Expertise'' Project report dated 
5/11/2007 (SSA Contract #SS00-06-60072) submitted to Robert Pfaff, SSA 
Project Coordinator, by Jennifer Christian, MD, MPH, Project Director 
of the SSDC Webility Project Team.
---------------------------------------------------------------------------
    ``To ensure that enough qualified mFV experts are interested in 
participating, and also that a suitable mix of professions is 
interested, increase the fees paid to be reasonably competitive with 
open market rates. The project panel believes that if fees are set 
similar to current VE payment rates, SSA is very unlikely to obtain the 
experts needed. Consider varying rates based on profession, expertise 
level, tasks done, and prevailing regional fee levels.''
    In real terms, the number of VEs has been steadily dropping with 
fewer highly experienced VEs choosing to renew their BPA contracts with 
SSA due to the stagnation of the VE fee schedule. It is clear that VE 
services are statutorily required and are actively sought out by 
Administrative Law Judges as VE testimony is essential at Steps 4 and 5 
of the disability sequential evaluation process. However, the 
disability backlog will continue to grow if fewer experienced VEs are 
available to be scheduled for those hearings.
    We applaud the leadership of Social Security Commissioner Michael 
Astrue to bring funding requests to the attention of Congress. The 
testimony last spring of Chairman Sylvester J. Schieber of the Social 
Security Advisory Board, to the Committee on Ways and Means, provided 
compelling evidence for greater SSA and ODAR funding, and for 
improvements to be made.\9\ Also in testimony again before Ways and 
Means in September 2008, ODAR's Chief Administrative Law Judge, the 
Honorable Frank A. Cristaudo,\10\ further underscored the point that 
hearing office productivity is critical and staff attrition at all 
levels must be addressed with adequate funding.
---------------------------------------------------------------------------
    \9\ Statement of Sylvester J. Schieber, Chairman of the Social 
Security Advisory Board, to the Committee on Ways and Means on April 
23, 2008 ``Clearing the Disability Backlog--Giving the Social Security 
Administration the Resources It Needs to Provide the Benefits Workers 
Have Earned.''
    \10\ Statement of Frank A. Cristaudo Chief Administrative Law 
Judge, Office of Disability Adjudication and Review, Social Security 
Administration, testimony before the House Committee on Ways and Means 
Subcommittee on Social Security, September 16, 2008
---------------------------------------------------------------------------
VE funding has not been mentioned in any testimony records we 
        identified.
    As Chief Judge Cristaudo made clear, despite the best technology, 
and 175 newly hired judges in 2008, hearing offices still require 
appropriate staffing levels at all levels. Adjudication requires Judges 
to obtain vocational evidence from a VE at sequential evaluation steps 
4 and 5, therefore appropriate budgeting for VEs is as important as 
funding for Judges, Senior Attorneys, Decision Writers, Schedulers, 
Clerks and Hearing Reporters.
    The Louisiana Committee of Social Security Vocational Experts 
respectfully requests the support and backing of the Ways and Means 
Subcommittee on Social Security, the Social Security Advisory 
Committee, the Social Security Administration and the Office of 
Disability Adjudication and Review to ensure the retention of 
experienced and qualified VEs to assist with the disability 
adjudication backlog. VE fees commensurate with market rates for VE 
services would ensure continued and expanded VE availability.
    We enjoy our excellent working relationship with the Social 
Security Administration, the Office of Disability Adjudication and 
Review, and look forward to continuing that relationship for many years 
to come. Your response to these concerns is much anticipated and 
greatly appreciated.
    In conclusion, we thank you and all members of this Subcommittee 
for your interest in these issues. I would be pleased to respond to any 
questions you may have.

Sincerely,

John M. Yent, MA, LRC, CRC, CLCP, ABDA
Coordinator, LCSSVE

c.c.:

The Honorable Michael J. Astrue
Commissioner of Social Security
Social Security Administration
6401 Security Blvd.
Baltimore, MD 21235-0001

The Honorable David V. Foster
Deputy Commissioner,
Office of Disability Adjudication and Review
Social Security Administration
5107 Leesburg Pike
Falls Church, VA 22041

The Honorable Robert E. Emrich, Jr.
Associate Commissioner,
Office of Medical and Vocational Expertise
Social Security Administration
Oak Meadow Building
6340 Security Blvd.
Woodlawn, MD 21207

The Honorable Mary Landrieu
United States Senate
328 Hart Senate Office Building
Washington, D.C. 20510-1803

The Honorable David Vitter
United States Senate
516 Hart Senate Office Building
Washington, D.C. 20510-1804

The Honorable Charles W. Boustany, Jr.
United States House of Representatives
1117 Longworth House Office Building
Washington, D.C. 20515-1807

The Honorable Steve Scalise
United States House of Representatives
429 Cannon House Office Building
Washington, D.C. 20515-1801

The Honorable Joseph Quang Cao
United States House of Representatives
2113 Rayburn House Office Building
Washington, D.C. 20515-1802

The Honorable Charlie Melancon
United States House of Representatives
404 Cannon House Office Building
Washington, D.C. 20515-1803

The Honorable John Fleming
United States House of Representatives
1023 Longworth House Office Building
Washington, D.C. 20515-1804

The Honorable Rodney Alexander
United States House of Representatives
316 Cannon House Office Building
Washington, D.C. 20515-1805

                                 <F-dash>

                      Statement of Joyce R. Shoop
    I am a Vocational Rehabilitation Counselor working under contract 
to the North Dallas Office of Disability Adjudication and Review (ODAR) 
to provide Vocational Expert testimony in Social Security Disability 
Hearings. I have worked for SSA/ODAR for the past 17 years and have 
seen how the expertise of VE's has helped move the cases along toward 
resolution. I have noticed that in the past few years there have been 
more and more hearings in which the onset dates have been 1995 to 2000. 
These cases were still not decided after 8-14 years! In many cases, 
there were no experts on the cases when they were originally heard by 
the Administrative Law Judges, and had been remanded--in some cases, 
more than once. I understand the anguish this causes the applicant for 
benefits and the high cost associated with multiple remands. With the 
use of Vocational and Medical Experts, these cases can be adjudicated 
much more quickly and efficiently. It is my understanding that your 
committee is now addressing the problem of the enormous backlog of 
Social Security cases in order to decide how to resolve the issue and 
get the cases moving.
    I would like to suggest that your committee consider how Vocational 
Experts can help in resolving this problem, and would like to call to 
your attention a situation that needs resolution regarding VE fees, 
which should free up our time to work more with the ODAR offices. As 
our fees are now, none of us can afford to work for SSA more than a few 
days per month because our other work pays two to four times more. 
SSA's fee schedule for Vocational Experts has remained unchanged since 
1972. A VE in 2009 is paid the exact same amount for services as a VE 
was paid in 1972. The current fee schedule is so old that even the 
official SSA Historian, Mr. Larry DeWitt, is unable to find the 
original ``debut'' date of the schedule. It is truly mind-boggling that 
any fee increase has been postponed for 37 years but it remains an 
undisputed fact. VEs began to organize a collective response to SSA 
approximately six years ago. SSA formed a VE/ME Workgroup to explore 
fee issues. By mid 2008, a preview of the new fee schedule indicated 
the increase was approved by SSA for the next VE contracting term set 
to coincide with FY 2009 (10/1/2008). In August 2008, the VE contract 
offer from SSA included the fee increase. I was so pleased, and 
completed my packet and submitted it promptly. Sadly, I was told in 
September that the fee increase had been put on hold and we would be 
getting an extension of our old BPA (Blanket Purchase Agreement). 
Realizing that SSA was operating under a continuing resolution with no 
approved budget for FY-09, I remained hopeful for the increase to come 
through when Congress passed a budget. I did receive an extension of my 
BPA for Oct.-Dec., and in December received another extension through 
March. Then in January, I received a new BPA application with the fees 
back at the old rates from 1972. Before completing the packet, I was 
told to disregard it, and wait for another packet (hope returned!). 
Then in March 2009, I received another application packet again 
reinstating the 1972 rates, and taking away mileage and parking 
reimbursement unless we travel over 50 miles--a reduction in our 
contract! In addition, language was removed requiring a professional 
degree (Master's or above) and licensure or national certification, 
which has always been the professional standard for service as a VE. 
This is further evidence of the lack of value that SSA places on the 
expertise that VE's possess. Without this expertise, judges may make 
poor decisions based on poor quality testimony of less qualified 
``experts.'' With this ``slap in the face'' for VE's many are deciding 
NOT to renew their contracts and discontinue working for SSA/ODAR. In 
view of the landmark appropriation which SSA received for FY 2009 and 
the further projected 10% increase for FY 2010, there is no excuse for 
VEs to go any longer without the appropriate fee increase. I believe 
that if this increase is approved, we will see greater availability of 
well qualified VE's and faster movement of cases through the 
adjudication system. Thank you for considering this recommendation of 
the VE/ME fee increases as part of your deliberations in your 
subcommittee hearing.

Respectfully Submitted:

Joyce R. Shoop, M.S., LPC, CRC
Vocational Rehabilitation Counselor/Vocational Expert
8350 Meadow Rd., Dallas, TX 75231
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cda7a2b4bea5a2a2bd8dbeafaeaaa1a2afaca1e3a3a8b9">[email&#160;protected]</a>

                                 <F-dash>

                      Statement of Linda Fullerton
    My name is Linda Fullerton, President/Co-Founder of the Social 
Security Disability Coalition, and it is with great sadness, anguish 
and despair that I submit this testimony to you today. I watched this 
entire hearing on the internet and as always, it was a source of major 
frustration for me.
Call For Open Congressional/SSA Disability Hearings
    I was forced to watch this hearing on the internet, because my 
repeated requests over the last several years to testify in person, 
have been blatantly ignored. I have made it very clear in previous 
written testimony submitted for the hearing record, through faxes, e-
mails and phone calls, to all the Congress people in my district, 
others on this Subcommittee, and many others in both the House and the 
Senate Committees that affect the Social Security Disability Program in 
any way, that I want to testify in person at these important hearings 
that directly affect me and others like myself. For some reason beyond 
my comprehension, you still will not let me do that. I have been 
following these hearings, for over five years now, and I find it deeply 
disturbing, and glaringly obvious, that not one panelist/witness 
selected to appear, is an actual disabled American who has tried to get 
Social Security Disability benefits, and who has experienced this 
nightmare for themselves. Unfortunately this continues to be the case 
with this hearing as well. While the witnesses you continually rely on 
may be very reputable in their fields, unless you have personally tried 
to file a claim for Social Security Disability, you cannot begin to 
understand how bad this situation really is, and therefore the 
panelists you continue to rely on are not fully qualified to be the 
only authority on these issues.
    As a result of my repeatedly denied requests to testify, it is my 
opinion, that you don't want to know what is REALLY going on. I heard 
references during this hearing to a CBS news report from January 2008 
which tried to expose some of the problems you have come here to 
discuss today. What I am sure you are not aware of, is that I 
personally was the source that initiated that whole investigative 
report, and since due to time constraints my interview air time was so 
limited, I plan to release my own video in the coming weeks on the 
internet, to alert the American people to the ugly realities of what it 
is like to try and get the SSDI benefits that they have been forced to 
pay for, and may never survive to actually collect. They need to know 
how the Federal Government continually breaks its social contract with 
them on a daily basis. It seems to me that if you do not have to face 
someone such as myself, that has barely lived through this horrible 
nightmare, and has had their whole life permanently devastated as a 
result of continued neglect of this program, we remain just a bunch of 
SS numbers whose lives can be destroyed without guilt. We are in fact, 
your mothers, fathers, sisters, brothers, children, grandparents, 
friends, neighbors, and honorable veterans who have served this 
country. Something is severely wrong with this picture!
    When you question the SSA Commissioner at these hearings, why have 
you not ordered him to provide the data on how many Americans have 
actually died each year, or have been forced to use state provided 
services, while waiting for their SS Disability claims to be processed? 
Since the SSA also pays out a one time death benefit to a survivor's 
family, and contracts out the medical portion of disability claims to 
the states who provide the Social Service programs that disability 
applicants often need to use, this data should be readily available if 
you bothered to ask for it. These are important questions that need to 
be answered, but it seems to me you don't care enough about the 
disabled to ask them. How can you get an accurate handle on this 
situation without all the facts and appropriate witnesses who wish to 
testify? Who better to give feedback at these hearings than those who 
are actually disabled themselves, and directly affected by the 
program's inadequacies! It seems you have forgotten that WE are the 
customers, and the SSA and Congress work to serve us.
    I find it hard to believe that these hearings cannot be scheduled 
in such a way that different and more appropriate witnesses could be 
allowed to testify. If you continue to do the same thing over and over 
again, as you have for the past several years, you will continually get 
the same poor results, which is exactly what is happening. You ask the 
same questions, of the same people, and wonder why there is little to 
no, improvement between hearings. There is a major piece of the puzzle 
missing--the customers you have been elected to serve--and until you 
really commit to getting the ALL the information needed to fix the 
Social Security Disability program, you are making decisions based on a 
lack of important information, which can be very detrimental, and the 
problems are going to continue to escalate, no matter how much money 
you put toward fixing them. As an actual disabled American, I ask again 
today, as I have in the past, that in future Congressional hearings on 
these matters, that I be allowed to actively participate instead of 
being forced to always submit testimony in writing, after the main 
hearing takes place. I often question whether anybody even bothers to 
read the written testimony that is submitted when I see the continued 
lack of results after previous hearings. I am more than willing to risk 
my very life for the opportunity to testify, should I be permitted to 
do so, since I believe so strongly in the importance of this program. 
In fact, I ask that you call another hearing, and allow me to be the 
sole witness, since the eye opening information I have to share with 
you would fill the entire 1-2 hours, since this program is so badly 
broken, and filled with corruption at every level. I have also come up 
with solutions to all the problems as well, which I would also be 
discussing at that time.
    I want a major role in the Social Security Disability reformation 
process, since any changes that occur have a direct major impact on my 
own wellbeing, and that of millions of other disabled Americans just 
like me. I also propose that Congress immediately set up a task force 
made up of SSDI claimants, such as myself, who have actually gone 
through the claims process, that has major input and influence before 
any final decisions/changes/laws are instituted by the SSA Commissioner 
or members of Congress. This is absolutely necessary, since nobody 
knows better about the flaws in the system and possible solutions to 
those problems, then those who are forced to go through it and deal 
with the consequences when it does not function properly.
Social Security Disability Nightmare--It Happened To Me!
    Social Security Disability is an insurance policy which was created 
to be a safety net for millions of disabled Americans, and for many 
such as myself, it has become their only lifeline for survival. I have 
an inoperable blood clot and tumor in my brain, and suffer from several 
incurable autoimmune disorders that are too numerous to list, which 
have caused me to become permanently disabled and my condition 
continues to deteriorate by the day. I currently receive Social 
Security Disability Insurance/SSDI and Medicare. You can get even more 
detailed information about my personal horror stories, which are not 
for the faint of heart, on my websites:

        ``A Bump On The Head'' http://www.frontiernet.net/lindaf1/
        bump.html Social Security Disability Nightmare--It Could Happen 
        To You! http://
        www.frontiernet.net/lindaf1/
        SOCIALSECURITYDISABILITYNIGHTMARE.html

    I filed an SSDI claim in December 2001, was denied in March 2002 by 
the NYS ODTA (Office Of Temporary And Disability Assistance), filed an 
appeal, and then had to wait until June 2003, due to the severe hearing 
backlog in the Buffalo NY Office Of Hearings & Appeals, before my SSDI 
claim was finally approved.
Permanent Devastation Resulting From The SSDI Claims Process
    Unbearable stress, severe depression and suicidal thoughts are very 
common side effects of the disability claims process. I know this not 
only from my own personal experience, but from thousands of others that 
have contacted me to tell me their horror stories. The abuse and worry 
that applicants are forced to endure, causes even further irreparable 
damage to their already compromised health, and is totally 
unacceptable. Due to the total devastation on their lives and health as 
a result of the SSDI claims process, use of the SS Ticket to Work 
program, or any future chance of possibly getting well enough to return 
to the workforce, even on a part time basis, becomes totally out of the 
question. Plus there is always the stress of having to deal with the SS 
Continuing Disability Review Process every few years, where the threat 
of having your benefits suddenly cut off constantly hangs over your 
head.Many are under the mistaken notion that once the SSDI benefit 
checks come, if one is finally approved for disability benefits, that 
everything will be OK. Often the devastation caused while waiting for 
SSDI claims to be processed leaves, permanent scars on one's health and 
financial wellbeing as it did for me. Even though I won my case, I 
continually deal with enormous stress and face the continued looming 
threat of bankruptcy and homelessness, due to the cost of my healthcare 
and basic living expenses, and I do not qualify for any public 
assistance programs. After almost dying, and continuing to battle 
several incurable diseases, I had to wipe out all my life savings/
pension money, and will never be able to recover from the financial, 
physical and emotional devastation that was caused, due to the enormous 
wait for my SSDI claim to be processed. Due to the 24 month waiting 
period for Medicare, (I didn't become eligible for it until June 2004) 
I had to spend over half of my SSDI check each month on health 
insurance premiums and prescriptions, not including the additional co-
pay fees on top of it. All the SSDI retro pay is gone now as well--used 
to pay off debts incurred while waiting for 1\1/2\ years to get my 
benefits, and even though I am now receiving my monthly SSDI checks 
benefits, they are no where near enough to live on for the rest of my 
life.
    It is hard enough to deal with all the illnesses that I have, but 
then to have my entire life destroyed with the stroke of pen by a 
neglectful government employee, to whom I was just an SS number, is 
more than I can bear. So now, not only will I never recover from my 
illnesses, but now I also will never recover from the permanent 
financial devastation this has had on my life. I don't know how I am 
going to survive without some miracle like winning the lottery. My 
``American Dream'' will never be realized. I have now been forced to 
live the ``American Nightmare'' for the rest of my days, because I 
happened to get sick, and file a claim for Social Security Disability 
benefits, a Federal insurance policy that I paid into for over 30 
years. I am now doomed to spend what's left of my days here on earth, 
living in poverty, in addition to all my medical concerns. I will never 
be able to own a home, or get another car. My current vehicle which is 
on death's door, is the ONLY method of transportation I have for 
survival. When things break down now, I cannot fix them and have to do 
without. I struggle every day to pay for food, medicines, healthcare, 
gas etc. having to decide which things I can do without till the next 
check comes, since I live strictly on the inadequate, monthly SSDI 
check I receive, always teetering on the brink of disaster. This 
totally unbearable, continuing source of stress and frustration, is 
killing me. I did not ask for this fate and would trade places with a 
healthy person in a minute. I tell you this not for pity or sympathy, 
but so you can get an accurate picture of what is really happening to 
the most vulnerable citizens of this nation, whom you were elected to 
serve and protect.
Social Security Disability Claimants Face Death And Destruction When 
        Applying For Benefits
     I must report with great sadness and disgust, that all these 
hearings have not brought about much progress, if any at all, and 
things continue to worsen by the day.In our country you're required to 
have auto insurance in order to drive a car, you pay for health 
insurance, life insurance etc. If you filed a claim against any of 
these policies, after making your payments, and the company tried to 
deny you coverage when you had a legitimate claim, you would be doing 
whatever it took, even suing, to make them honor your policy. Yet the 
government is denying Americans their right to legitimate SSDI benefits 
everyday and this is an outrage!
    I continually hear you talk about hearing waiting times 200 days vs 
600 days, like it was nothing but a number. Everyday that a disabled 
American must wait for their benefits, is a day that their life hangs 
on by a thread, or worse yet, they do not survive. The stress from that 
alone is enough to kill anyone. Since it has been proven over the years 
that the average American has about two weeks worth of savings, 
anything over a 14 day waiting period in any phase of the SSDI process 
is totally unacceptable. Cutting hearing wait times down to even 30 
days, is nothing to tout as some great accomplishment on your part, as 
it still puts claimants lives in jeopardy. If any other private 
company/organization operated with as poor customer service, and 
processing times that the SSA currently does, subjecting people to 
hours, days, weeks, months, and worse yet years, to get their issues 
resolved, all employees would be fired, and they would be shut down 
within weeks. Nobody would even attempt to give them their business, 
yet Americans are held hostage to the SSA since they are required to 
pay for their services out of their wages, and rightfully expect to get 
what they have paid for. This is outrageous when something this 
serious, and a matter of life and death, could be handled in such a 
poor manner. Common sense would also lead you to the conclusion, that 
there is a strong correlation between the crisis that disabled 
Americans face while trying to get their benefits, and the housing, and 
economic meltdown this country is in the midst of. I challenge anyone 
of you to try and live for more than two weeks, not relying on your 
assets (since many SSDI applicants lose all their assets while waiting 
for a decision on their claims), with absolutely no income, and see how 
well you survive. Also keep in mind that you are not disabled on top of 
it, which adds its own challenges to the problem. Based on my own 
experience, and the experiences of thousands of others which have been 
shared with me, and current conditions, I firmly believe that the SSDI/
SSI program is structured to be very complicated, confusing, and with 
as many obstacles as possible, in order to discourage and suck the life 
out of claimants, hoping that they ``give up or die'' trying to get 
their disability benefits! The following statistics back up my 
statement:

          Some Staggering Statistics During 2006 and 2007, at least 
        16,000 people fighting for Social Security Disability benefits 
        died while awaiting a decision (CBS News Report--Disabled And 
        Waiting--1/14/08). This is more than 4 times the number of 
        Americans killed in the Iraq war since it began.
          During 2007, two-thirds of all applicants that were denied--
        nearly a million people--simply gave up after being turned down 
        the first time (CBS News Report--Failing The Disabled--1/15/08) 
        PLEASE NOTE--I personally was the source behind these CBS News 
        reports and was featured in the broadcast of ``Disabled And 
        Waiting.'' Two-thirds of those who appeal an initial rejection 
        eventually win their cases (New York Times 12/10/07) In 2007 
        there were 2,190,196 applications, in 2008 there were 2,320,396 
        applications (a yearly increase of 130,200 new claims) and as 
        of March 2009 there have already been 677,553 new applications 
        (an increase of 113,784 claims for the January--March 2008 
        period) for Social Security Disability Insurance/SSDI benefits.
          There are currently over 1 million people waiting for their 
        claims to be processed, over 154,000 of them are veterans, and 
        many have been waiting for years! Nationally as of March 2009, 
        about 61% of disability cases were denied at the initial stage 
        of the disability claims process and it took from 100.5-106 
        days for claimants to receive the initial decision on their 
        claim. If a claimant appeals the initial denial asking for 
        reconsideration, in all but 10 test states where the 
        reconsideration phase has been removed, 85.4% of cases were 
        denied and the waiting time for this phase was an average of 
        83.7 days. As of March 2009 there were 761,772 cases waiting 
        for hearings with an average wait time of 501 days. As of March 
        2009--266,951 hearings (35%) have already been pending over a 
        year, and there are only 1042.67 Administrative law judges 
        (ALJ's), to hear all those cases, with an average of 685.70 
        cases pending per judge nationwide. If a claimant appeals an 
        ALJ hearing decision to the Federal Appeals Council, the 
        average time from request for AC/Appeals Council Review to 
        Appeal Council's Decision is 8 months. NOTE: It is not unusual 
        to find cases pending for up to 24 months for various reasons. 
        Cases pending longer than 24 months are then considered for 
        expedited processing. In 2006--71% of the 88,907 cases that 
        were sent to the Appeals Council were denied. In 2007--637,686 
        disabled Americans were forced by law to endure the mandatory 
        24 month waiting period for eligibility to receive much needed 
        Medicare benefits. Source: Social Security Administration 
        Reports
          An Office of the Inspector General Audit Report ``Disability 
        Claims Overall Processing Times'' (A-01-08-18011) released in 
        December 2008, found that in 2006, the average overall 
        processing times for disability claims from the date of 
        application to the date of denial or date of benefit payment 
        (including any back payments), that had to complete all phases 
        of the disability claims process (Initial, Reconsideration, ALJ 
        Hearing, Appeals Council and Federal Court) in order to be 
        resolved, took a total of 1,720 days to complete. In 2008 due 
        to the severe backlogs at the SSA especially at the ALJ Hearing 
        level, this overall processing time greatly increased and 
        unless the SSA gets the proper funding and staff it needs to 
        resolve the problems it is encountering, this trend will 
        continue. Federal Disability programs have been designated as 
        ``High Risk'' by the GAO every year since 2003 and continue to 
        be on the GAO High Risk list in 2009. NOTE: GAO's High Risk 
        list serves to identify and help resolve serious weaknesses in 
        areas that involve substantial resources and provide critical 
        services to the public. Source: GAO-09-271--High Risk Series--
        January 2009 According to Health Affairs, The Policy Journal of 
        the Health Sphere, 2 February 2, 2005: Disability causes nearly 
        50% of all mortgage foreclosures, compared to 2% caused by 
        death. ``The escalating pace of foreclosures and rising fears 
        among some homeowners about keeping up with their mortgages are 
        creating a range of emotional problems, mental health 
        specialists say. Those include anxiety disorders, depression, 
        and addictive behaviors such as alcoholism and gambling. And, 
        in a few cases suicide.
          ``Historically, research shows, rates of depression and 
        suicide tend to climb during times of economic tumult.'' 
        ``Studies show a strong connection between financial distress 
        and emotional stress, including anxiety, depression, insomnia 
        and migraines.'' Excerpts from Foreclosures Take Toll On Mental 
        Health--Crisis Hotlines, Therapists See A Surge In Anxiety Over 
        Housing--USA Today--Stephanie Armour--5/15/08 AARP/USA Today: 
        Health Care To Get The Hollywood Treatment--5/28/08--``More 
        middle-class people file for bankruptcy because of healthcare 
        related expenses than for any other reason.'' Market Watch: 
        Illness And Injury As Contributors To Bankruptcy--February 2, 
        2005--found that: Over half of all personal U.S. bankruptcies, 
        affecting over 2 million people annually, were attributable to 
        illness or medical bills. 15% of all homeowners who had taken 
        out a second or third mortgage cited medical expenses as a 
        reason. Dateline NBC--Debt: The Next Big American crisis?--
        Chris Hanson--3/27/09--Medical bills are a leading cause of 
        debt in America. According to an insurance survey, conducted by 
        the International Communications Research of Media, PA from Jan 
        10-14th 2007, on behalf of the National Association of 
        Insurance Commissioners, researchers found 56% of U.S. workers 
        would not be able pay their bills or meet expenses if they 
        become disabled and unable to work. 71% of the 44% who had 
        insurance, stated it was employer provided, so if they lose or 
        change jobs they would no longer have disability coverage. In 
        April 2006, Parade Magazine in an article called ``Is The 
        American Dream Still Possible?''--published the results of 
        their survey of more than 2200 Americans who earned between 
        $30,000 and $99,000 per year, most stating that they were in 
        reasonably good health. 66% say they tend to live from paycheck 
        to paycheck and nearly 83% say that there is not much money 
        left to save after they have paid their bills. Approximately 54 
        million Americans, an estimated 20% of the total population, 
        have at least one disability, making them the largest minority 
        group in the nation, and the only group any of us can become a 
        member of at any time. As our baby boomer population ages and 
        more veterans return from war, this number will double in the 
        next 20 years. It is a diverse group, crossing lines of age, 
        ethnicity, gender, race, sexual orientation and socioeconomic 
        status.
          People with disabilities are nearly twice as likely as people 
        without disabilities to have an annual household income of 
        $15,000 or less. Notwithstanding the strides made in disability 
        rights in the past 25 years, the majority of people with 
        disabilities are poor, under-employed and under-educated due 
        largely to unequal opportunities.

    The source for these statistics: Disability Stats And Facts--
Disability Funders.org http://www.disabilityfunders.org/disability-
stats-and-facts Disabled Americans Unite For Reform Of Social Security 
Disability Insurance Program The Social Security Disability Coalition, 
of which I am President/Co-Founder, is made up of Social Security 
Disability claimants and recipients from all over the nation, and our 
membership increases by the day. It was born out of the frustration of 
my own experience, and the notion that others may be dealing with that 
same frustration. I was proven to be totally correct beyond my wildest 
imagination. Our group is a very accurate reflection and microcosm of 
what is happening to millions of Social Security Disability applicants 
all over this nation. We fill a void that is greatly lacking in the 
SSDI/SSI claims process. While we never represent claimants in their 
individual cases, we are still able to provide them with much needed 
support and resources to guide them through the nebulous maze that is 
put in front of them when applying for SSDI/SSI benefits. In spite of 
the fact that the current system is not conducive to case worker, 
client interaction other than the initial claims intake, we continue to 
encourage claimants to communicate as much as possible with the SSA in 
order to speed up the claims process, making it easier on both the SSA 
caseworkers and the claimants themselves. As a result we are seeing 
claimants getting their cases approved on their own without the need 
for paid attorneys, and when additional assistance is needed we connect 
them with FREE resources to represent them should their cases advance 
to the hearing phase. We also provide them with information on how to 
access available assistance to help them cope with every aspect of 
their lives, that may be affected by the enormous wait time that it 
currently takes to process an SSDI/SSI claim. This includes how get 
Medicaid and other State/Federal programs, free/low cost healthcare, 
medicine, food, housing, financial assistance and too many other things 
to mention here. We educate them in the policies and regulations which 
govern the SSDI/SSI process and connects them to the answers for the 
many questions they have about how to access their disability benefits 
in a timely manner, relying heavily on the SSA website to provide this 
help. If we as disabled Americans, who are not able to work because we 
are so sick ourselves, can come together, using absolutely no money and 
with very little time or effort can accomplish these things, how is it 
that the SSA which is funded by our taxpayer dollars fails so miserably 
at this task?
    Social Security Disability Coalition--offering FREE information and 
support with a focus on SSDI reform http://groups.google.com/group/
socialsecuritydisabilitycoalition Please visit the Social Security 
Disability Coalition (ARCHIVE) website, or the Social Security 
Disability Reform petition website: >Archive Of Old Social Security 
Disability Coalition MSN Group Website http://
ssdcoalitionarchive.multiply.com Sign the Social Security Disability 
Reform Petition--read the horror stories from all over the nation: 
http://www.petitiononline.com/SSDC/petition.html At these two sites you 
will see thousands of stories and over 8000 signatures and comments on 
our petition, from disabled Americans whose lives have been harmed by 
the Social Security Disability program. You cannot leave without seeing 
the excruciating pain and suffering that these people have been put 
through, just because they happened to become disabled, and went to 
their government to file a claim for disability insurance that they 
worked so very hard to pay for. There are three main reasons for the 
disability hearing backlogs:

    <bullet>  Lack of communication and educating the public
    <bullet>  States of denial
    <bullet>  State and private disability companies forcing claimants 
to file disability claims with SSA or risk losing private coverage

    Lack Of Communication Between Claimants, Doctors And SSA, Lack Of 
Education On What Is Needed For A Claimant To Prove A Disability Claim 
Currently there is little to no communication between the SSDI claimant 
and the SSA caseworkers handling their claims. More communication is 
needed and review of records by the claimant should be available at any 
time during all stages of the disability determination process. Before 
a denial is issued at any stage, the applicant should be contacted as 
to ALL the sources being used to make the judgment. It must be 
accompanied by a detailed report as to why a denial might be imminent, 
who made the determination and a phone number or address where they 
could be contacted. Also many times medical records submitted are lost 
or totally ignored. In case info is missing, or the SSA was given 
inaccurate information, the applicant can provide the corrected or 
missing information, before an actual determination at any level is 
made. This would eliminate many cases from having to advance to the 
hearing or appeals phase. Also many times doctors, hospitals etc often 
do not respond to SSA requests for medical information in a timely 
manner, or sometimes ignore these requests entirely. ALL doctors, and 
medical professionals including those at the VA should be required by 
Federal or State law, to fill out any medical forms and submit 
documents requested by the SSA within strict timelines or they will not 
be allowed to practice medicine in this country. Also as part of their 
continuing education program in order to keep their licenses, doctors 
should also be required to attend seminars provided free of charge by 
the SSA, in proper procedures for writing medical reports and filling 
out forms for Social Security Disability and SSI claimants. The major 
criteria used by the SSA to decide a disability claim, is residual 
functionality and the ``Blue Book Of Listings,'' yet this is not 
usually information that the general public is privy to when filing a 
disability claim. In fact it is a pretty well kept secret unless you 
know enough to do some research. In other words since the process is so 
nebulous from beginning to end, the deck is purposely stacked against a 
claimant from the very start. When the average person files a claim 
they seem to think that all they have to do is mention what is wrong 
with them, get their doctors to back up their medical claims, say they 
are disabled and cannot work, fill out a few forms and the checks will 
start coming in the mail. While in a ideal world the process should be 
that simple, nothing could be further from the truth. They do not 
realize, and are never told, that they must not only list their 
illnesses, but more importantly describe HOW their illnesses prevent 
them from doing work and daily activities. They are not told to list 
EVERYTHING that is wrong with them, and often only file a claim for one 
condition, that in itself may not be disabling, when they have several 
of them, that in combination, may in fact render them totally disabled. 
Many file claims because they cannot perform the job they have been 
doing for years, or cannot work as many hours that used to before they 
get sick. They do not fully understand that they have to not be able to 
work ANY job in the national economy, and that the SSA does not pay for 
partial disability. The SSA needs to do a much better job of educating 
the public at the onset of filing a disability claim to avoid 
confusion.
States Of Denial--The REAL Reason Behind The Social Security Disability 
        Hearing Backlogs
    Since Social Security Disability is a Federal program, where you 
live should not affect your ability to obtain benefits. Sadly this is 
not the case. While funding is a major problem that SSA faces, the 
other primary reason for these hearing backlogs, continues to be 
ignored during these proceedings, and that is the initial phase of the 
disability qualification process which is handled by the individual 
state DDS/Disability Determination Services offices. There, the most 
crucial part of your disability claim, the medical portion, is reviewed 
by a caseworker/adjudicator and medical doctor on their staff who never 
sees you, and in most cases never even communicates with you at all. 
Too much weight at the initial time of filing, is put on the SS 
caseworker's opinion of a claim. There needs to be more oversight that 
disability decisions be based with controlling weight given to the 
claimant's own treating physicians opinions and medical records in 
accordance with (DI 24515.004) SSR 96-2p: Policy Interpretation Ruling 
Titles II And XVI: Giving Controlling Weight To Treating Source Medical 
Opinions. Even though this policy ruling is in place, this is very 
often not happening. Excerpts from GAO-09-511T--Further Actions Needed 
to Address Disability Claims and Service Delivery Challenges--3/24/09--
which can be found at: http://www.gao.gov/new.items/d09511t.pdf 
Although SSA is responsible for the program, the law calls for initial 
determinations of disability to be made by state DDS agencies. The work 
performed at DDS offices is federally financed and carried out under 
SSA disability program regulations, policies, and guidelines. See 
42.U.S.C. Sec. 421(a)(1). From September 1998 to January 2006, over 20 
percent of disability examiners hired during that period left or were 
terminated within their first year. DDS officials said the loss of 
experienced staff affects DDS' ability to process disability claims 
workloads because it generally takes newly hired examiners about 2 
years to become proficient in their role. For example in March 2009: 
Ohio had the lowest percentage of approvals at the initial level of 
27.2% >Alaska and Wyoming had the lowest percentage of approvals at the 
reconsideration level of 0%.
    Puerto Rico had the highest percentage of approvals at the initial 
level of 64.1% Puerto Rico had the highest percentage of approvals at 
the reconsideration level of 40.3% >Source: Social Security 
Administration--March 2009
    That is a major fluctuation depending on what state you happen to 
apply for benefits in. Something is extremely wrong with this picture 
and proves the inconsistency of decision making by the state DDS 
offices in handing Federal disability claims. What would be an 
incentive for states to deny Federal claims? Since many Social Security 
Disability claims are SSI or both SSI/SSDI combined claims and many 
states offer to supplement SSI payments at a higher benefit amount, 
therefore they want to keep as many off the rolls as possible so they 
do not have to pay out this supplement. Also since there is a different 
pay scale for government vs state employees who are often underpaid, 
lack training, are overworked, and must meet quotas of cases processed, 
the tendency is greater to rubber stamp denials to move claims off 
their desk when a case needs too much development. Thus the explanation 
for the fluctuation in denial/approval/backlog rates by state. 
Unfortunately there is very little if any training or oversight on the 
state DDS offices to make sure they are making the proper decisions on 
disability claims. This is why so many claimants appeal to the hearing 
level where a huge percentage of bad claims decisions are overturned 
and cases are finally approved. Anyone who doesn't see that a ``Culture 
Of Denial'' has become a pervasive part of an SSDI claimants encounter 
with the SSA, is either totally out of touch with reality or is 
reacting evasively to the subject. Excerpts from GAO Report GAO-04-
656--SSA Disability Decisions: More Effort Needed To Assess Consistency 
of Disability Decisions--Washington--July 2004 which can be found at: 
http://www.gao.gov/new.items/d04656.pdf
    ``Each year, about 2.5 million people file claims with SSA for 
disability benefits . . . About one-third of disability claims denied 
at the state level were appealed to the hearings level; of these, SSA's 
ALJ's have allowed over one-half, with annual allowance rates 
fluctuating between 58 percent and 72 percent since 1985. While it is 
appropriate that some appealed claims, such as those in which a 
claimant's impairment has worsened and prohibits work, be allowed 
benefits, representatives from SSA, the Congress, and interest groups 
have long been concerned that the high rate of claims allowed at the 
hearing level may indicate that the decision makers at the two levels 
are interpreting and applying SSA's criteria differently. If this is 
the case, adjudicators at the two levels may be making inconsistent 
decisions that result in similar cases receiving dissimilar 
decisions.'' ``Inconsistency in decisions may create several problems . 
. . If deserving claimants must appeal to the hearings level for 
benefits, this situation increases the burden on claimants, who must 
wait on average, almost a year for a hearing decision and frequently 
incur extra costs to pay for legal representation . . . SSA has good 
cause to focus on the consistency of decisions between adjudication 
levels. Incorrect denials at the initial level that are appealed 
increase both the time claimants must wait for decision and the cost of 
deciding cases. Incorrect denials that are not appealed may leave needy 
individuals without a financial or medical safety net . . . An appeal 
adds significantly to costs associated with making a decision. 
According to SSA's Performance and Accountability Report for fiscal 
year 2001, the average cost per claim for an initial DDS disability 
decision was about $583, while the average cost per claim of an ALJ 
decision was estimated at $2,157 . . . An appeal also significantly 
increases the time required to reach a decision. According to SSA's 
Performance and Accountability Report for fiscal year 2003, the average 
number of days that claimants waited for an initial decision was 97 
days, while the number of days they waited for an appealed decision was 
344 days . . . In addition, claimant lawsuits against three state DDS's 
have alleged that DDS adjudicators were not following SSA's rulings or 
other decision making guidance . . . However, according to DDS 
stakeholder groups, SSA has not ensured that states have sufficient 
resources to meet ruling requirements, which they believe may lead to 
inconsistency in decisions among states. Furthermore, SSA's quality 
assurance process does not help ensure compliance because reviewers of 
DDS decisions are not required to identify and return to the DDS's 
cases that are not fully documented in accordance with the rulings. SSA 
procedures require only that the reviewers return cases that have a 
deficiency that could result in an incorrect decision.''
    Excerpts from: Statement For The Record Of The National Association 
Of Disability Examiners--Georgina Huskey, President--Prepared For 
Subcommittee on Social Security/Subcommittee on Income Security and 
Family Support Of the Committee on Ways and Means Joint Hearing on 
Eliminating the Social Security Disability Backlog--March 24, 2009 
``Even at the DDS level, where few backlogs are publicly reported and 
where the average processing time for an initial claim is nearly 100 
days, the stark reality is that there are tremendous backlogs pending. 
Just because disability claims have been assigned does not mean they 
are being worked and disability examiners who carry caseloads two, 
three and even four times the number deemed reasonable are, in essence, 
housing a backlog of claims at their desk. Unfortunately, this backlog 
of claims can lead to mistakes in case development and contribute to 
mistakes in judgment, resulting in the potential for erroneous 
decisions.''
    ``As experienced staff walk out the door, either due to retirement 
or because of career changing decisions, SSA and the DDSs have 
struggled in many parts of the country to attract the kind of new hires 
that will keep the Agency at a level of competence required in its 
service delivery. Prior to the recent economic downturn, DDSs were 
reporting an annual attrition rate approaching 15% with more than 22% 
of newly hired disability examiners leaving by the end of their first 
year. The result has been an increasing lack of experienced personnel 
to process increasingly more complex disability claims and forcing the 
DDSs to utilize limited training funds to continually hire new staff, 
rather than provide ongoing training for existing staff.'' All phases 
of disability claims processing should be moved to and handled out of 
the Social Security individual field offices, including the DDS phase 
which is the medical determination phase currently handled by the 
states, and all hearing phases of the disability process. All people 
who process Social Security disability claims should be employees of 
the Federal Government to ensure accuracy and uniform processing of 
disability claims under Federal regulations and Social Security 
policies which is currently not the case. If the states are to continue 
to handle the DDS phase of the disability process, then all state 
employees handling Social Security claims should be required to receive 
a minimum of 3 months standardized training by the Social Security 
Administration, in SSA policies and Federal regulations governing SSDI/
SSI claims processing. If more time and effort were put forth to 
communicate with claimants, and to make the proper decision at the 
onset, there would be no need for all these cases to be appealed to the 
hearings level in the first place. That in itself would be a huge 
factor in reducing the hearing backlogs, but this fact has been greatly 
ignored. Until you properly devote the time and energy to look into and 
reform this crucial part of the problem, the hearing backlogs will 
continue to grow at an uncontrollable rate, no matter how much money 
you give to the SSA. Social Security Disability Program Problems--
Contributing Burden Factor on Medicaid/Social Service Programs For 
States There seems to be a relationship, between SSDI claims processing 
issues/backlogs, and the need for claimants to also apply for state 
funded Medicaid/Social Service programs. Many are forced to file for 
Medicaid, food stamps and cash assistance, another horrendous process. 
For example in New York State, about half the 38,000 people now waiting 
on disability appeals, for an average of 21 months, are receiving cash 
assistance from the state (New York Times 12/10/07). Those who file for 
these programs while waiting to get SSDI benefits, in many states, have 
to pay back the state out of their meager benefit checks once approved. 
As a result they're often kept below the poverty level, almost never 
able to better themselves since they can't work, and now are forced to 
rely on both state and federally funded programs instead of just one of 
them. This practice should be eliminated. Regulation Is Necessary To 
Avoid Improper Social Security Disability Claim Filings Due To State 
And Private Insurance Company Policies There is a growing number of 
claims being filed by people who may not actually qualify for 
disability benefits under Social Security guidelines, but who are being 
forced to file Social Security Disability/SSI claims by their private 
disability and state disability carriers or risk not being eligible for 
benefits under those programs. Recently there has been media coverage 
on this issue which can be found here: Trial Against Unum Over Handling 
of Disability Insurance Claims Opens Today--Market Watch--PRNewswire 
via COMTEX--Boston--9/22/08 http://www.prnewswire.com/cgi-bin/
stories.pl?ACCT=109&STORY=/www/story/09-22-2008/0004890097&EDATE= 
Insurers Faulted As Overloading Social Security--NY Times--Mary 
Williams Walsh--4/1/08 http://www.nytimes.com/2008/04/01/business/
01disabled.html Grassley Works To Strengthen Social Security Disability 
Program--3/27/09 http://grassley.senate.gov/news/
Article.cfm?customel_dataPageID_1502=19961 Exhibit A--Private Insurers 
Policies And Practices http://grassley.senate.gov/private/upload/
EXHIBIT-A.pdf Exhibit D--Letter To Senator Charles Grassley From 
Disability Claimant Who Was Required By Private Insurer To File Claim 
For Social Security Disability Regardless Of Eligibility Or Risk Loss 
Of Private Disability Insurance Benefits--1/21/09 http://
grassley.senate.gov/private/upload/Exhibit-D.pdf Exhibit E--Letter From 
SSA Commissioner To FTC Chairman Regarding Private Disability Companies 
Requiring Their Claimants To File For Social Security Disability 
Benefits--11/26/08 http://grassley.senate.gov/private/upload/Exhibit-
E.pdf Congress and the SSA needs to look into this issue and this 
practice needs to be stopped immediately as this too greatly adds to 
the disability backlog problem. In this case the claimants should not 
be penalized but the insurance companies should be.
Improper CE/IME Medical Exams Ordered By Social Security Result In 
        Higher Rate Of Denials, Hearings And Appeals
    Too much weight at the initial time of filing, is put on the 
independent medical examiner's opinion of a claim. CE/IME examiners are 
paid a fee by Social Security for each person they see, so the more 
claimants they process, the more money they make. Often times they are 
caught saying they performed exams that they in fact never performed, 
make mistakes, or make false, misleading statements about claimants. 
Many times the DDS offices or ALJ's are sending claimants to doctors 
that have very limited knowledge of their specific health conditions, 
who are not specialists, or even the proper type of doctor, to be 
examining a claimant for the type of medical conditions that they have. 
These doctors have no real idea how a patient's medical problems affect 
their lives after only a brief visit with them, and yet their opinion 
is given greater authority than a claimant's own treating physician who 
sees them in a much greater capacity? Something is way out of line with 
that reasoning, yet it happens every day. Even though a claimant's 
treating physicians are supposed to be given greater weight in decision 
making, this is often not the case. Whenever SSA required medical exams 
are necessary, they should only be performed by board certified 
independent doctors who are specialists in the disabling condition that 
a claimant has (example--Rheumatologists for autoimmune disorders, 
Psychologists and Psychiatrists for mental disorders). Common sense 
dictates that these poorly executed, and often unnecessary, medical 
exams result in a waste of time, money and energy, for both the 
claimants and the SSA, especially when the claimant ends up appealing a 
denial based on these improper SSA ordered examinations.
Utilize Hearing On The Record/Pre-Hearing Review Option To Reduce 
        Backlogs
    More emphasis and support staff need to be devoted to the pre-
hearing review process which could greatly reduce the current hearing 
backlog. This would obviously and should require more communication 
between hearing office staff and claimants or their representatives to 
update case files. Once the files have been updated, many would be able 
to be decided solely on the records in the file without having a full 
hearing in front of an ALJ.
Changes/Proper Funding Necessary For SSA To Accomplish It's Goals And 
        Properly Serve Disabled Americans
    I continually hear talk at these hearings about increasing the 
funding for the SSA, and you asking witnesses for answers, on how much 
the SSA will need to fix the current problems, and prevent new ones 
from arising in the future. One thing is said at the hearings, but when 
push comes to shove to vote for the SSA budget money, other programs or 
projects become higher priority, even though properly funding the SSA 
is literally a matter of life and death for millions of Americans. 
Nothing is more important than the health and wellbeing of the American 
people, and as elected officials it is crucial that you never lose 
sight of that priority! Still I see that the SSA is under funded almost 
every year, and there is a continued challenge to get the money that 
the SSA requests. SSA should not have to compete each year for funding 
with the Departments of Labor, HHS and Education which are highly 
publicized and therefore, often more popular programs. All money that 
is taken out of American's paychecks for Social Security should not be 
allowed to be used for anything else other than to administer the 
program and pay out benefits to the American people. As stated in the 
previous testimony provided by Witlold Skierwczynski--President--
National Council Of Social Security Administration Field Operation 
Locals to the House Ways And Means Committee on 4/23/08 it is 
recommended that: Congress should enact off budget legislation 
including SSA administrative expenses with benefits which are already 
off budget. Congress should retain appropriations and oversight 
authority albeit unencumbered by artificial budget caps and scoring 
restrictions. Congress should enact legislation requiring the 
Commissioner to submit the SSA appropriation request directly to 
Congress. Congress should support the House Budget Committee 
recommendation to increase the SSA administrative budget by $240 
million over the President's budget request.
Oversight is Crucial!
    In an editorial letter from SSA Commissioner Astrue dated 8/21/08 
to the Atlanta Journal Constitution in regards to the severe hearing 
backlogs it was stated that ``We have taken a big step toward resolving 
that problem by bringing onboard 175 additional administrative law 
judges and additional staff to support them..'' In reality: At of the 
end of fiscal year 2007 the amount of ALJ's available to hear cases was 
at 1006, and at the end of fiscal year 2008 the amount of ALJ's 
available to hear cases dropped to 960.13. As of March 2009 there were 
in fact only 1042.67 ALJ's currently available to hear cases. Source: 
Social Security Administration Reports The 175 new ALJ's that the SSA 
Commissioner has hired, may actually already be factored into the March 
2009--1042.67 number--the report does not distinguish. So even with the 
so called 175 new ALJ's we are still not much above the 2007 level. 
Basically this is still inadequate amount of ALJ's, since it does not 
account for the fact that more judges may continue to leave for various 
reasons (retirement etc), and that the level of disability claims 
continues to increase instead of decrease, based on past history. The 
Commissioner has failed to publicly account for this fact, so he makes 
it sound like there is going to be several additional ALJ's above and 
beyond previous years, when he is in reality replacing judges who are 
leaving and not actually increasing by any substantial amounts, the 
number of the additional staff he truly needs. Also very often these 
judges have not even been allocated to the areas that have the largest 
hearing backlogs and there is no oversight on the SSA Commissioner to 
make sure they go where they are needed most. So the likelihood of the 
claims backlog being resolved with this so called ``fix'' is slim to 
none. In other words ``this is like putting a band aid on a gushing 
wound.'' More investigation of this problem by Congress, the Inspector 
General and GAO needs to happen immediately!
Horrendous Customer Service
    In a January 2007 Harris poll designed to evaluate the services 
provided by 13 federal agencies, the public rated SSA at the bottom of 
the public acceptance list and it was the only agency that received an 
overall negative evaluation. SSA Field Offices have lost over 2,500 
positions since September 2005 and nearly 1,400 positions since 
September 2006. In 2007 SSA Field Offices saw about 43 million visitors 
a week, and that number is expected to increase by over a million more 
in 2008. Constituents visiting these local Field Offices continue to 
experience lengthy waiting times and the inability to obtain assistance 
via the telephone. Here is just a small sampling of some of the major 
problems with the current Social Security Disability program and State 
Disability (DDS) offices who process the initial phase/medical portion 
of disability claims: Severe under staffing of SSA workers at all 
levels of the program Claimants waiting for weeks or months to get 
appointments, and hours to be seen by caseworkers at Social Security 
field offices Extraordinary wait times between the different phases of 
the disability claims process Very little or no communication between 
caseworkers and claimants throughout the disability claims process 
before decisions are made. Employees being rude/insensitive, not 
returning calls, not willing to provide information to claimants or not 
having the knowledge to do so Complaints of lost files and in some 
states, case files being purposely thrown in the trash rather than 
processed properly Security Breaches--Complaints of having other 
claimants information improperly filed/mixed in where it doesn't belong 
and other even worse breaches Fraud on the part of DDS/OHA offices, 
ALJ's, IME's--purposely manipulating or ignoring information provided 
to deny claims, or doctors stating that they gave medical exams to 
claimants that they never did. Claimants being sent to doctors that are 
not trained properly, or have the proper credentials in the medical 
field for the illnesses which claimants are being sent to them for. 
Complaints of lack of attention/ignoring--medical records provided and 
claimants concerns by Field Officers, IME doctors and ALJ's. Employees 
greatly lacking in knowledge of and in some cases purposely violating 
Social Security and Federal Regulations (including Freedom of 
Information Act and SSD Pre-Hearing review process). Claimants cannot 
get through on the phone to the local SS office or 800 number (trying 
for hours even days) Claimants getting conflicting/erroneous 
information depending on whom they happen to talk to at Social 
Security--causing confusion for claimants and in some cases major 
problems including improper payments Proper weight not being given to 
claimants treating physicians according to SSA Federal Regulations when 
making medical disability determinations on claims. Complaints of ALJ's 
``bribing'' claimants to give up part of their retro pay (agreeing to 
manipulation of disability eligibility dates) or they will not approve 
their claims Poor/little coordination of information between the 
different departments and phases of the disability process Complaints 
of backlogs at payment processing centers once claim is approved 
Federal Quality Review process adding even more wait time to claims 
processing, increasing backlogs, no ability to follow up on claim in 
this phase NOTE: These complaints refer to all phases of the SSDI 
claims process including local field offices, state Disability 
Determinations offices, CE/IME physicians, Office of Hearings and 
Appeals, the Social Security main office in MD (800 number).
Fraud/Program Integrity--The Stigma Encountered By Social Security 
        Disability Claimants
    SSDI is not welfare, a hand out, reward, golden parachute or 
jackpot by any means, and most people would be hard pressed to survive 
on it. Yet, often claimants are treated like criminals--viewed as 
frauds trying to scam the system, and that the SSA must ``weed out'' 
them out by making it as hard as possible to get benefits. Yes, I'm 
well aware as I write this, that there's some who've abused the system 
and that's a shame, because it casts a bad light on those who really 
need this help. The percentage of claims that in fact, aren't 
legitimate is very miniscule. In March 2009, the average monthly Social 
Security Disability Insurance (SSDI) benefit was only $1061.86. Nobody 
in their right mind would want to go through this process, and end up 
living in poverty on top of their illnesses, if they could in fact 
work. I have heard nothing in these hearings or this hearing today that 
addresses the fraud on the part of the Federal Government used to deny 
deserving claimants their benefits. I have heard nothing about the 
rubber stamping of denials, the tossing out of claimant files, the 
security breaches of highly sensitive data, the total disregard of 
overwhelming evidence by claimants treating physicians, subjecting 
claimants to unnecessary fraudulent CE/IME exams, and the cases of 
ALJ's ``bribing'' claimants to give up years of back benefits or they 
will not approve them. All these things are criminal at best. Most 
Americans do not know their rights under the law, that they are allowed 
to get copies of their SSA claim files. If more people exercised this 
right, they would be horrified to know what was happening behind their 
backs, and the true perpetrators of fraud would come to light. in a 
major way. The SSA currently spends way more resources to evaluate 
cases (Federal Quality Review Process) that are approved, more than any 
that are denied unjustly.
Electronic/Internet VS In Person/Paper Filing Of Disability Claims
    If a person files a claim online rather than filing in person, the 
claimant is not allowed to submit crucial medical records and 
documentation that is necessary to speed up and adequately process a 
claim in a timely manner. We always encourage claimants to submit as 
much information as possible at the onset of filing, so that SSA 
workers do not have to spend extra time hunting down medical records 
etc and can get their claims resolved faster. We believe it is 
important to help SSA workers to help us in order to streamline the 
process, and for the hearing backlog problem to be resolved. Online/
internet filing does not give claimants the opportunity to do this. In 
closing, in spite of my own horrible experience, I have vowed to do 
everything humanly possible to get total reform of the Social Security 
Disability program so that nobody else will ever have to endure the 
hell that I have had to. Since my time is quickly running out, I hope 
you will join me soon in my quest to accomplish this final lifetime 
goal, to make our country a better place for our most vulnerable 
citizens. Thank you for your time and consideration.

Sincerely,

Linda Fullerton--President/Co-Founder--Social Security Disability 
Coalition

<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb98988f88848a87829f828485ab83849f868a8287c5888486">[email&#160;protected]</a> Please introduce/support--Fullerton--Edwards 
Social Security Disability Reform Act: http://groups.google.com/group/
socialsecuritydisability
coalition/web/fullerton-edwards-social-security-disability-reform-act

                                 <F-dash>

    Statement of National Association of Disability Representatives
    The National Association of Disability Representatives is a 
professional organization comprised of non-attorneys and attorneys who 
assist people in applying for disability income assistance from the 
Social Security Administration. Our members help individuals and their 
families navigate an often complex and lengthy process to demonstrate 
their eligibility for disability benefits. As advocates for claimants, 
we want to commend Chairman Tanner, Chairman McDermott, Ranking Member 
Johnson, Ranking Member Linder, and all of the Members of both 
Subcommittees who have demonstrated a keen interest in pushing for 
improvements in the SSA disability determination process, and 
especially in the unconscionable delays that are part of the current 
system.
    NADR members are on the ``front lines'' helping persons with 
disabilities complete applications, gather and submit evidence, and 
attend Administrative Law hearings with applicants. We see first-hand 
the serious toll that the long wait for decisions can take on people, 
most of whom are already experiencing significant life changes, 
traumas, and hardships. Last year, the average processing time for 
cases at the hearing level nationwide was 535 days. This year, SSA 
estimates that the average processing time will be 506 days. While this 
indicates that things are moving in the right direction, an average 
waiting time of almost one-and-a-half years is still much too long for 
claimants to wait for benefits to which they are entitled.
    Beyond this unconscionable hearing delay, claimants must again wait 
for a decision, and if successful, must wait still longer for actual 
payment of their claims. Those facing grave or terminal illnesses may 
not live to see the fiduciary promise they paid for each week in their 
paycheck from their Social Security taxes. Families who need care-
givers or other assistance to provide necessary relief and support in 
helping their loved ones may be burdened for years, trying to balance 
family needs without any help. This strains marriages, parent/child 
relationships, and impoverishes people at a time when their need is 
greatest.
    As an illustration of the hardship real people have suffered as a 
result of the hearing backlog, following are stories of claimants 
represented by NADR members:

    <bullet>  Stella, age 52, was in a motor vehicle accident and 
suffered severe trauma to the left side, including her arm, leg and 
foot. She had no real useful ability on that side, and also had COPD, 
PTSD and severe depression. She applied for benefits in August 2006 and 
was finally approved after a hearing on June 31, 2008, but not before 
she was forced out of her home and robbed of all her possessions while 
living on the street.
    <bullet>  Marie, age 46, suffered from seizures and cirrhosis. She 
filed for benefits in June of 2006. She was in a coma in the hospital 
for almost a month before she died of liver failure on February 27, 
2009. Her favorable on-the-record decision was dated March 4, 2009, too 
late to help Marie.
    <bullet>  David filed concurrent claims for Social Security 
Disability Insurance Benefits and Supplemental Security Income 
disability benefits on November 9, 2004, alleging onset of disability 
on June 15, 2004. Medical records indicated David suffered from 
diabetes mellitus, hypertension, hypotension, chronic anemia, arterial 
calcification of his left lower extremity and chronic diarrhea. The 
initial claim was denied on February 25, 2005. Upon reconsideration, 
the claim again was denied on June 24, 2005. An ALJ hearing was 
requested July 22, 2005. On March 13, 2008, nearly 3\1/2\ years after 
David filed his initial claim, a fully favorable decision was issued. 
Unfortunately, at that point David had been dead for almost a year and 
a half.
    <bullet>  Charlene, age 45, had previously been in SSDI payment 
status. After trying unsuccessfully to return to work, she reapplied 
and currently is waiting for a hearing that is not expected to be 
scheduled for at least a year. After being denied initially and 
awaiting Reconsideration (her second level of appeal), she had a 
serious suicide attempt. No state transitional assistance is available 
to her and she is losing her home due to nonpayment of rent. Recently 
she was in a motor vehicle accident that caused severe brain injury. 
Charlene's only option at this point is to enter a nursing home as she 
can't afford to live at home with help.

    Amazingly, these stories are happening to individuals who are 
``insured'' for disability, having paid their Social Security taxes, 
including those that fund SSA disability benefits. Most assume that 
these benefits will only be needed at retirement. Yet, when accidents 
or illness strike, people reasonably expect to receive the critical 
support that disability payments can offer. And, they most certainly 
expect to get it within a reasonable timeframe. Unfortunately, many 
Americans are not finding their government reliable in this arena.
    We applaud Congress' recent efforts to address the backlog. For FY 
2008, Congress appropriated--for the first time in 15 years--$148 
million more than the President's budget request for SSA administrative 
expenses. The FY 2009 omnibus appropriations bill provided SSA with 
more than $700 million over the FY 2008 level. And the American 
Recovery and Reinvestment Act of 2009 provided SSA with an additional 
$500 million to handle the increase in retirement and disability 
applications due to the economic downturn, as well as funds to replace 
its old and out-dated National Computer Center.
    While these are important steps, sustained increases in funding 
over several years are needed to get the backlog under control. The 
President has requested $11.6 billion for SSA's administrative expenses 
for FY 2010, a 10 percent increase over FY 2009. NADR strongly supports 
the President's request. We believe this level of funding is necessary 
in order for SSA to truly have an impact on the disability backlog, 
while continuing to carry on other related administrative functions to 
serve beneficiaries and applicants.
    That said, it will take more than additional funding to address the 
issues SSA faces as a result of the dwindling resources and increased 
workload it has sustained over the past decade. As a member of the 
Consortium for Citizens with Disabilities' Social Security Task Force, 
NADR was a signatory on testimony presented to the Subcommittees by 
Task Force Co-Chair Peggy Hathaway, and supports the recommendations 
for improving the disability-claims process and eliminating the backlog 
included in that testimony.
    In particular, we want to bring to the Subcommittees' attention the 
need to make permanent the fee demonstrations in the Social Security 
Protection Act of 2004 (SSPA), P.L. 108-203. These programs were 
designed to improve access to representation for claimants applying for 
Social Security disability and Supplemental Security disability 
benefits, and have proven effective over time. Section 303 of the Act 
established a demonstration project to allow withholding and direct 
payment of fees to eligible non-attorney representatives. Section 302 
authorized the withholding and direct payment of fees in Supplemental 
Security Income cases. Both programs are scheduled to sunset on March 
1, 2010.
Fee Withholding for Qualified Non-Attorney Representatives
    Section 303 of the SSPA established a demonstration program to 
examine the effectiveness of non-attorney representatives who qualify 
for fee withholding. To qualify for the program, non-attorney 
representatives must possess a bachelor's degree (or equivalent 
experience); prove they carry up-to-date malpractice insurance coverage 
at all times; undergo a criminal background check; and pass an exam 
developed by Administrative Law Judges that tests their knowledge of 
the Social Security disability system. Participants also must complete 
a minimum of 12 hours of qualifying continuing education courses 
dealing specifically with Social Security disability matters during the 
initial 18-month period and complete 24 hours of instruction in each 
subsequent 2-year period. Pursuant to Title III of the Act, the 
Government Accountability Office (GAO) released a report in October 
2007 analyzing the performance of non-attorney representatives in 
disability cases before the SSA (GAO-08-05).
    As part of its study, GAO surveyed both claimants and 
Administrative Law Judges on representatives' expertise, and examined 
available SSA records to analyze representatives' caseloads. The study 
results indicated that non-attorney representatives who met the 
criteria for fee withholding demonstrated levels of knowledge and 
success rates at least equal to that of practicing attorneys.
    Key points in the GAO study include the following:

    <bullet>  Non-attorneys eligible for fee withholding have the most 
experience representing disability claimants and are most likely to 
specialize in disability representation;
    <bullet>  Most eligible non-attorneys had at least a college 
degree; approximately one-quarter had prior experience as an SSA 
employee, and another quarter had experience working as a paralegal or 
in a legal setting;
    <bullet>  Administrative law judges expressed equal satisfaction 
with the performance of attorneys and eligible non-attorneys on key 
elements of disability representation, including submission of all 
relevant evidence, knowledge of applicable laws and regulations, and 
case knowledge;
    <bullet>  Judges expressed satisfaction with the implementation of 
the demonstration project, and some went on to say that ``non-attorneys 
tend to be better prepared and more familiar with the details of their 
cases than attorneys'';
    <bullet>  The judges surveyed did not view lack of legal experience 
as an obstacle, as long as the non-attorney representative had a 
demonstrated competence of the disability claims process: ``Many of 
these judges expressed the view that experience in disability 
representation rather than formal legal training is the key to 
effective representation, or that it is not necessary to have a law 
degree to effectively represent disability claimants.''

    The positive responses GAO received from judges and claimants alike 
about the effectiveness of eligible non-attorney representatives 
demonstrate that lack of a law degree is not an obstacle to successful 
representation of disability claimants--and should not be an obstacle 
to fee withholding.
    Disability representatives can only receive a fee when the claim 
results in a favorable determination. The demonstration program to 
provide fee withholding for non-attorney representatives has been 
extremely effective in improving access to qualified representatives 
for claimants. Just as important, many NADR members work with claimants 
from the time of filing the initial application. This serves not only 
to expedite valid claims, but also to provide counseling that can weed 
out inappropriate cases before they enter the system. Once a claimant 
does enter the system, qualified representatives who understand the 
requisite objective documentary needs can assist the claims examiner 
and adjudicators to gather this critical information in a timely 
manner. All this leads to savings of time and resources.
    The demonstration program to provide fee withholding for non-
attorney representatives has been extremely effective in improving 
access to qualified representatives for claimants while saving 
administrative costs, and most importantly, time.
Withholding and Direct Payment of Fees in SSI Cases
    Section 302 of the SSPA amended Section 1631(d)(2) of the Act to 
extend the Title II attorney fee withholding and direct payment 
procedures to claims under Title XVI of the Act. This authority will 
not apply to claims for benefits with respect to which the claimant and 
the representative enter into an agreement for representation after 
February 28, 2010. Because this provision has increased opportunities 
for SSI claimants to obtain representation, NADR supports making this 
provision permanent.
Increasing and Indexing the Fee Cap
    Finally, NADR supports H.R. 1093, legislation introduced by Rep. 
John Lewis (D-GA) to raise the current fee cap from $5,300 to 
$6,264.50--which is what it would have been had it been adjusted for 
inflation since the last increase in 2002. We also vigorously support 
the bill's provision calling for ongoing annual COLA adjustments to the 
cap. If enacted, these changes will help to assure that there is a 
knowledgeable, experienced pool of representatives available to 
represent claimants.
Conclusion
    For all these reasons, NADR urges Congress to act this year to make 
permanent both demonstration programs. They have demonstrated their 
effectiveness in improving access to qualified representation for 
claimants while saving the system tax dollars and time, and helping in 
a small, but very meaningful, way to reduce the backlog. We also urge 
swift congressional action to enact H.R. 1093, legislation to increase 
and index the fee cap.
    We appreciate the opportunity to present our views on ways to 
reduce the social security backlog. Our goal is to help our clients get 
the assistance they need in the most efficient way possible. We have a 
long way to go in transforming SSA's disability program into a more 
timely and responsive safety net, but your leadership and attention 
gives many of us reason to hope for improvements. We look forward to 
continuing to work with Congress and with SSA Commissioner Michael 
Astrue to assure that SSA is able to provide people with disabilities 
the benefits to which they are entitled in a timely fashion.

                                 <F-dash>

              Statement of National Council on Disability
    I am pleased to write to you on behalf of the National Council on 
Disability (NCD), an independent federal agency, to submit for the 
record the executive summary of our 2005 report entitled ``The Social 
Security Administration's Efforts to Promote Employment for People with 
Disabilities: New Solutions for Old Problems.'' We are making this 
submission in order to be considered part of the testimony for the 
March 24, 2009 joint hearing of the Subcommittee on Income Security and 
Family Support and the Subcommittee on Social Security entitled 
``Eliminating the Social Security Disability Backlog.''
    NCD is composed of 15 members, appointed by the President with the 
consent of the U.S. Senate. The purpose of NCD is to promote policies, 
programs, practices, and procedures that guarantee equal opportunity 
for all individuals with disabilities, and that empower individuals 
with disabilities to achieve economic self-sufficiency, independent 
living, and integration into all aspects of society. To accomplish 
this, we gather stakeholder input, review federal programs and 
legislation, and provide advice to the President, Congress and 
governmental agencies. Much of this advice comes in the form of timely 
reports and papers NCD releases throughout each year.
    In light of the subject matter of Tuesday's hearing on the 
disability application backlogs, we respectfully submit a summary of 
our 2005 report on Social Security Administration programs to assist in 
providing greater context to the topic at hand. The executive summary 
of that report is attached. The Council believes that the severity of 
the backlogs continues to negatively influence individuals who may 
otherwise consider leaving the Social Security Disability Income (SSDI) 
rolls in pursuit of employment. With the knowledge that they will once 
again have to face lengthy wait periods to access financial assistance 
should their attempts to work be unsuccessful, many likely believe that 
the risks outweigh the benefits of making the attempt in the first 
place. While a correlation between the two is difficult to prove, the 
sad fact that less than 1% of the individuals living on SSDI ever 
return to gainful employment is indicative of the value they place on 
this program of support.
    We applaud the Social Security Administration for the progress it 
has made in addressing the backlog that has impacted thousands of 
qualified individuals with disabilities each year who depend on the 
system when their lives are disrupted due to disability. However, we 
also recognize that there is much more to be done before the system 
will operate as Congress intended.
    If you have any questions about this submission or any matter 
related to disability policy, please contact NCD Executive Director 
Michael Collins by phone at (202) 272-2004, or email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aac7c9c5c6c6c3c4d9eac4c9ce84cdc5dc84">[email&#160;protected]</a> On behalf of NCD, thank you for your leadership in 
focusing attention on this important topic. I also thank you for the 
opportunity to submit this statement for the record.

Respectfully,

John R. Vaughn
Chairperson
The Social Security Administration's Efforts to Promote Employment for 
People with Disabilities: New Solutions for Old Problems

National Council on Disability
November 30, 2005

National Council on Disability
1331 F Street, NW, Suite 850
Washington, DC 20004

Read the full report at:
http://www.ncd.gov/newsroom/publications/2005/ssa-
promoteemployment.htm#exec
Executive Summary
    Americans with disabilities remain underemployed, despite the fact 
that many are willing and able to work. Although the Social Security 
Administration (SSA) has instituted a number of incentives to reduce 
the numerous obstacles to employment faced by its Supplemental Security 
Income (SSI) and Social Security Disability Insurance (DI) 
beneficiaries, such efforts have had little impact because few 
beneficiaries are aware of these incentives and how they affect 
benefits and access to healthcare.
Introduction to the Problem
    Social Security beneficiaries with disabilities must spend months 
or even years convincing SSA that they are unable to work as a 
condition of eligibility. Yet, upon their receipt of benefits, SSA 
begins to communicate to beneficiaries that work is an expectation for 
them. Congress and SSA have developed a variety of work incentives and 
special programs designed to encourage beneficiaries to attempt to 
obtain and sustain employment. Yet SSA's efforts to eliminate work 
disincentives have often added to the complexity of the entire program, 
confusing beneficiaries and making them leery of any actions that might 
unknowingly jeopardize their benefits.
    Current SSA benefit amounts are quite small and merely allow 
beneficiaries to live at a basic subsistence level. SSI resource limits 
make it very difficult to accumulate the financial resources necessary 
to move toward economic self-sufficiency. Tying eligibility for 
Medicaid or Medicare to eligibility for SSA benefits forces individuals 
with high-cost medical needs who could otherwise work to choose between 
pursuing a career and retaining the medical insurance that sustains 
their very lives.
    The fear of losing benefits and medical insurance through an 
unsuccessful employment attempt starts well before adulthood with SSI 
beneficiaries. Many SSI recipients first apply for benefits as children 
while enrolled in public schools. These individuals often remain on the 
rolls well into adulthood, with very few transitioning from high school 
into substantial employment after graduation (GAO, 1996b; GAO, 1998b). 
Failure to focus on Social Security and other public benefits during 
transition is not only a missed opportunity, but harm may be caused 
when students and family members are not educated or prepared for the 
effect of earnings on cash benefits and medical insurance (Miller and 
O'Mara, 2003).
    There is also the problem with poor educational attainment of DI 
beneficiaries who enter the disability system later in life. Efforts to 
help this population return to work are stymied by their lack of 
education and marketable job skills--particularly in today's highly 
competitive information economy. It is now more important than ever 
that people of all ages have access to higher education and the 
financial means with which to pay for training and education (Moore, 
2003).
Response of Congress and the Social Security Administration to the 
        Problem
    Well aware of the enormity and seeming intractability of this 
problem, Congress and SSA have initiated multiple efforts to promote 
employment and return to work among SSA beneficiaries. In recent years, 
a number of work incentives for SSI and DI beneficiaries have been 
implemented, allowing individuals to keep more of their earnings while 
retaining their benefits. Work incentives are aimed at reducing the 
risks and costs associated with the loss of benefit support and medical 
services as a result of returning to work. Some of the most commonly 
used incentives are Section 1619(a) and (b) provisions; impairment-
related work expenses (IRWE); trial work period (TWP); Plan for 
Achieving Self-Support (PASS); extended period of eligibility (EPE); 
and continued payment under a vocational rehabilitation program.
    However, despite efforts by SSA and the Federal Government that 
have led to more favorable conditions for returning to work, most SSI 
and DI beneficiaries continue to stay on the disability rolls. The work 
incentives offered by SSA remain largely underutilized; in March 2000, 
of the total number of eligible working beneficiaries, only 0.3 percent 
were using PASS, 2.8 percent were using IRWEs, 7.5 percent were 
receiving Section 1619(a) cash benefits, and 20.4 percent were 
receiving Section 1619(b) extended Medicare coverage (SSA, 2000). The 
major reasons cited for the extreme underutilization of these work 
incentives by beneficiaries were (1) few beneficiaries knew that the 
work incentives existed, and (2) those who were aware of the incentives 
thought they were complex, difficult to understand, and of limited use 
when entering low-paying employment (GAO, 1999).
    The Office of Program Development and Research (OPDR) and the 
Office of Employment Support Programs (OESP) under the Deputy 
Commissioner for Disability and Income Security Programs are primarily 
responsible for the implementation of multiple components of the Ticket 
to Work and Work Incentives Improvement Act of 1999 (TWWIIA). The 
TWWIIA provides a number of new program opportunities and work 
incentives for both SSI and DI beneficiaries, including the Ticket to 
Work (TTW) and Self-Sufficiency Program; development of a work-
incentives support plan through the creation of national network of 
Benefits Planning, Assistance, and Outreach (BPAO) programs; and new 
work incentives, including expedited reinstatement (EXR) of benefits 
and postponement of continuing disability reviews.
    The National Council on Disability's Study of the Problem
    It is not known whether the new TWWIIA programs will have any more 
success than past attempts by SSA to impact the employment rate and 
earnings of beneficiaries. What is clear is that there has not been, in 
recent times, a comprehensive, research-based examination of the 
practices that are most likely to support the employment of SSI and DI 
beneficiaries. This study has been undertaken in response to the need 
for such a comprehensive analysis. The study was designed to address 
four research questions:

    <bullet>  What are the evidence-based practices that promote the 
return to work of working-age beneficiaries of DI and SSI programs?
    <bullet>  What policy changes are needed, given recent trends in 
program participation and employment?
    <bullet>  Are there proven and documented practices that work 
better for some populations of people with disabilities and not others?
    <bullet>  Which factors ensure that documented and evidence-based 
practices could be adapted/ adopted by SSA and other entities that seek 
to ensure the employment of people with disabilities? Which factors 
prevent adaptation/adoption?

    A four-step approach was taken to implement the study. First, a 
comprehensive literature synthesis was completed through a review of 
published and unpublished literature. Second, detailed structured 
interviews were conducted with key stakeholders, including SSA 
beneficiaries, federal SSA officials, representatives of other federal 
agencies, consumer and advocacy organizations, service organizations, 
community service providers, and business representatives. Third, a 
preliminary list of findings, evidence-based practices, and 
recommendations based on the literature review and structured 
interviews was used to develop seven topic papers. These papers were 
used to facilitate discussion and obtain reaction from participants who 
were invited to a consensus-building conference at the end of January 
2005. Individuals with disabilities (including current and former SSI 
and DI beneficiaries), advocacy organizations, service providers, and 
policymakers who attended the conference had the opportunity to further 
develop the recommendations that appear throughout the report.
Major Findings of the Study
Purpose and Mission of SSA's Disability Benefit Programs
    Our nation's current disability benefit programs are based on a 
policy principle that assumes that the presence of a significant 
disability and lack of substantial earnings equates to a complete 
inability to work. The current SSA eligibility determination process 
thwarts return-to-work efforts, because applicants are required to 
demonstrate a complete inability to engage in substantial gainful 
activity (SGA) in order to qualify for benefits. The definition fails 
to recognize that, for many consumers, disability is a dynamic 
condition. The length of the application process in our current 
programs actually contributes to the ineffectiveness of our return-to-
work efforts and our inability to intervene early in the disability 
process.
    For DI individuals, lack of a gradual reduction in benefits as 
earnings increase and lack of attachment to the DI and Medicare 
programs after an individual has maintained employment for an extended 
period of time make return to work unfeasible. For SSI beneficiaries, 
the program's stringent asset limitations thwart efforts toward asset 
development and economic self-sufficiency. Inconsistencies in program 
provisions lead to confusion and inequities for beneficiaries of both 
programs.
Beneficiary Perspective and Self-Direction
    To receive benefits, applicants must characterize their situation 
as an inability to work long-term. They must demonstrate that they are 
unable to work in any significant way. Once they are determined to be 
eligible for disability benefits, beneficiaries face a host of complex 
program rules and policies related to continuing eligibility for cash 
benefits and access to healthcare. Many beneficiaries are confused or 
uninformed about the impact of return to work on their life situation 
and have shied away from opportunities to become self-sufficient 
through work.
    Beneficiaries report that their experience with SSA is often 
unfavorable. Insufficient staffing has led to long lines and poor 
services. Misinformation is frequent, and mistrust common. Local SSA 
field office staff members are overburdened with accurate and timely 
processing of post-entitlement earnings reporting, which often leads to 
overpayments to beneficiaries. Beneficiaries do not trust SSA to make 
appropriate and timely decisions. There is prevalent fear that work 
attempts would result in either a determination that the disability had 
ended or the need to repay benefits.
    SSA has implemented many legislative changes, program 
modifications, training initiatives, and automation efforts in the past 
15 years to improve its customer service. Although efforts to 
streamline processing and improve customer service should be lauded, 
they have not significantly improved beneficiaries' ability to direct 
and control their own careers.
Income Issues and Incentives
    A multitude of rules regarding employment income, continued 
eligibility for disability benefits, waiting periods, earnings 
reporting, management of benefit payments, and management of assets 
(among many others) come into play once an individual is determined to 
be eligible for DI or SSI. SSA rules regarding employment and income 
are such that many beneficiaries will actually be worse off financially 
if they work full time. Disincentives to employment in the current 
benefits programs include a sudden loss of cash benefits as a result of 
earnings above the SGA level for DI beneficiaries. Despite a number of 
programs that are designed to encourage asset building among SSI 
beneficiaries, it remains very difficult for beneficiaries to save and 
accumulate resources under SSI, which contributes to long-term 
impoverishment and dependence on public benefits.
    Over the past decade, SSA has devoted considerable resources to 
promoting employment and return to work among SSI and DI beneficiaries. 
The agency has aggressively implemented a number of new initiatives 
authorized under the TWWIIA, such as the Ticket to Work and Self-
Sufficiency Program, the BPAO program, area work incentive 
coordinators, and Protection and Advocacy for Beneficiaries of Social 
Security. It has modified program rules to provide increased work 
incentives to beneficiaries, such as the EXR and protection from 
continuing disability review provisions of TWWIIA, indexing the SGA 
threshold, and increasing the level of earnings allowed during the 
Trial Work Period (TWP). The agency has also launched or is planning to 
initiate a number of demonstrations that will test the efficacy of new 
modifications to work incentives within the DI program and services 
targeted toward youth with disabilities. Yet, while SSA has taken steps 
to improve its return-to-work services through the provision of work 
incentives, these efforts are hampered by the underlying program rules 
that were designed for individuals assumed to be permanently retired 
from the workforce and individuals who were viewed as unable or 
unlikely to work in the future.
Coordination and Collaboration Among Systems
    Expansion of the disability programs and the poor employment rates 
of adults with disabilities have become major concerns for SSA and 
disability policymakers across the country. Too often, the alarming 
growth of the Social Security disability rolls has been represented and 
perceived as SSA's problem to solve in isolation, when in fact it is a 
larger societal problem with myriad complex causes. Receipt of Social 
Security disability benefits is merely the last stop on a long journey 
that many people with disabilities make from the point of disability 
onset to the point at which disability is so severe that work is not 
possible. All along this journey, individuals encounter the policies 
and practices of the other systems involved in disability and 
employment issues. When these systems fail to stem the progression of 
disability or work at cross-purposes with one another to prevent 
successful employment retention or return to work, it is the Social 
Security disability system that bears the eventual brunt of this 
failure. Any meaningful effort to slow down or reverse this relentless 
march toward federal disability benefits will require significant and 
sustained collaboration and coordination among SSA and the other 
federal agencies with a stake in developing disability and employment 
policy.
    The complex obstacles to employment faced by SSA beneficiaries 
require a comprehensive set of solutions. New approaches must be 
identified that emphasize beneficiary control of career planning and 
the ability to access self-selected services and supports. Public and 
private healthcare providers must develop new collaborations and new 
approaches to combining coverage from multiple sources to improve 
program efficiencies. SSA must continue to work with the Rehabilitation 
Services Administration (RSA) and the Department of Labor (DOL) to 
improve implementation of the TTW program and identify new approaches 
that will overcome the traditional inability of SSA beneficiaries to 
benefit from services provided by the nation's employment and training 
programs. Secondary and postsecondary educational institutions must 
emphasize benefits counseling and financial management training as the 
foundation for beneficiary self-direction and economic self-
sufficiency. Federal agencies and the business community must realize 
that collaborative approaches to incorporating beneficiaries into the 
workforce are needed as a way to reduce dependence on federal benefits 
while simultaneously enhancing the productivity and competitiveness of 
large and small business.
Recommendations
    A total of 38 specific recommendations have been developed in the 
areas of Beneficiary Perspective and Self-Direction, Income Issues and 
Incentives, and Coordination and Collaboration Among Multiple Public 
and Private Systems. The recommendations are presented and justified in 
Chapters III, IV, and V of the report, and a complete list is provided 
in Chapter VI. The key recommendations resulting from the study are 
summarized below.
Beneficiary Perspective and Self-Direction
    Customer Service--SSA should take immediate steps to improve the 
services provided to beneficiaries by improving the accessibility of 
SSA field offices and Web sites; redesigning field office personnel 
roles, staffing patterns and work assignments; continuing efforts to 
automate work reporting procedures; and enhancing outreach efforts to 
beneficiaries.
    Ticket to Work Program--Congress and SSA should address current 
shortcomings in the TTW program by (1) expanding Ticket eligibility to 
include beneficiaries whose conditions are expected to improve and who 
have not had at least one continuing disability review (CDR), childhood 
SSI beneficiaries who have attained age 18 but who have not had a 
redetermination under the adult disability standard, and beneficiaries 
who have not attained age 18; (2) modifying the TTW regulations to 
ensure that Ticket assignment practices do not violate the voluntary 
nature of the program and beneficiary rights to grant informed consent; 
and (3) implementing a strong national marketing program to inform 
beneficiaries about TTW and other SSA programs.
    Facilitate Beneficiary Choice--Congress should authorize and direct 
SSA, the Rehabilitation Services Administration (RSA), the Centers for 
Medicare and Medicaid Services (CMS), the Department of Housing and 
Urban Development (HUD), and the Department of Labor Employment and 
Training Administration (DOLETA) to develop and implement an integrated 
benefits planning and assistance program that coordinates resources and 
oversight across several agencies that enables beneficiaries to access 
benefit planning services within multiple federal systems. Congress 
should also authorize and direct these agencies to consider changes to 
the existing BPAO initiative to improve the accuracy and quality of 
services provided to individual beneficiaries.
    Reduce SSA Overpayments to Beneficiaries--Congress and SSA should 
implement a series of procedural reforms to reduce overpayment to 
beneficiaries by increasing the use of electronic quarterly earnings 
data and automated improvements to expedite the processing of work 
activity and earnings; piloting the creation of centralized work CDR 
processing in cadres similar to PASS and Special Disability Workload 
Cadres; and enhancing efforts to educate beneficiaries on reporting 
requirements, the impact of wages on benefits, and available work 
incentives.
    Eliminate the Marriage Penalty--Congress and SSA should undertake a 
complete review of the SSI program and make program modifications that 
eliminate the financial disincentive to marriage inherent in the 
present program, including amending the current Title XVI disability 
legislation to modify the manner in which 1619(b) eligibility is 
applied to eligible couples.
Income Issues and Incentives
    Ease the SGA Cash Cliff for DI Beneficiaries--Congress should 
modify the current Title II disability legislation to eliminate SGA as 
a post-entitlement consideration for continued eligibility for Title II 
disability benefits and provide for a gradual reduction in DI cash 
benefits based on increases in earned income.
    Reduce Restrictions on Assets for SSI Beneficiaries--Congress 
should direct SSA to (1) develop and test program additions and 
regulatory modifications that will enable SSI beneficiaries to 
accumulate assets beyond existing limits through protected accounts and 
other savings programs, and (2) change current program rules and work 
with other federal agencies to modify and expand the value of 
individual development account (IDA) programs to SSA beneficiaries.
    Decrease the Complexity of the DI/SSI Program Rules Governing 
Income and Resources--Congress should direct SSA to (1) simplify 
regulatory earnings definitions and wage verification processes so that 
they are consistent across the SSI and DI programs, and (2) direct SSA 
to modify regulations related to the treatment of earnings in the DI 
program by applying the same rules currently applied in the SSI 
program.
Coordination and Collaboration Among Multiple Public and Private 
        Systems
    Health Care Systems--Centers for Medicare and Medicaid Services 
(CMS) and SSA should work together closely to (1) modify existing 
program regulations in order to uncouple Medicare and Medicaid coverage 
from DI/SSI cash payments; (2) identify and eliminate the many 
employment disincentives currently built into the Medicaid waiver, 
Medicaid buy-in, and Health Insurance Premium Payment (HIPP) programs; 
(3) expand benefits counseling services to include the full range of 
financial education and advisement services; and (4) work 
collaboratively with public and private insurance providers and 
business representatives to design public-private insurance 
partnerships that will expand access to healthcare for individuals with 
disabilities.
    Vocational Rehabilitation (VR) System--SSA should modify TTW 
program regulations to allow the SSA's traditional VR cost 
reimbursement program to carry on as a parallel program to the 
Employment Network (EN) outcome or outcome-milestone payment 
mechanisms, and ensure that an EN is able to accept Ticket assignment 
from a beneficiary, refer that individual to the VR agency for needed 
services, and not be required to reimburse the VR agency for those 
services.
    Federal Employment and Training System--Congress, SSA, and the 
Department of Labor should undertake an analysis of the impact of 
allowing DOL One-Stop Career Centers to receive cost reimbursement 
payments for successfully serving beneficiaries under the TTW program, 
evaluate the impact of the Workforce Investment Act (WIA) performance 
standards on beneficiary participation in WIA programs, and design and 
test a set of waivers that will assist beneficiaries in accessing and 
benefiting from WIA core and intensive services, as well as individual 
training accounts.
    Educational System--Congress should direct SSA to work with the 
Department of Education (ED) to (1) ensure that benefits planning and 
financial management services are available to the transition-aged 
population; (2) expand the current student earned income exclusion 
(SEIE) and the Plan for Achieving Self-Support (PASS) to encourage 
involvement of SSA beneficiaries in postsecondary education and 
training; and (3) implement a policy change that would disregard all 
earned income and asset accumulation limits for beneficiaries who are 
transitioning from secondary education to postsecondary education or 
employment for at least one year after education or training is 
completed.
    Employers, Business Community, and Private Insurance Industry--
Congress should direct SSA and the Department of the Treasury to (1) 
evaluate the possible effects of a disabled person tax credit as a 
means of increasing the use of disability management programs in 
business to prevent progression of injured and disabled workers onto 
the public disability rolls, and (2) collaborate with Department of 
Labor's Employment and Training Administration (DOLETA), the Small 
Business Administration (SBA), and the Rehabilitation Services 
Administration (RSA) to develop and implement an employer outreach 
program targeted toward small and mid-size businesses.

                                 <F-dash>

                      Statement of Renee B. Jubrey
    I am writing to you with great concern regarding the matter of the 
Social Security Vocational Expert Rate Raise. As a Vocational Expert I 
have provided testimony in court for the Office of Disability, 
Adjudication and Review (ODAR) specific to individual documented 
limitations, past relevant work and numbers of jobs in the local 
economy as well as the nation. The judges I work for continue to use my 
services as it helps them make an informed decision and fewer cases are 
remanded. They have told me my participation in these hearings is 
invaluable, assisting in clearing the much touted backlog and I could 
be scheduled more than I am now.
    Vocational Experts working for ODAR have not had a raise in our 
rates since 1972 and therefore the current rate of pay is substantially 
below what we are paid in the private sector. Although we continue to 
work for this amount, it is only with the thought that a sense of fair 
play and justice will prevail. The new rates were provided to us, and 
some of us even had contracts mailed to us, only to be rescinded. We 
had been told that the language of the contract needed to be altered 
and they would be redistributed and ``up and running'' by 1/1/09. Since 
then we have waited patiently for the continuing resolution to play 
out, and now that we have seen the budget approved for Social Security 
we remain hopeful. If the purpose of increasing the Social Security 
budget in 2009 as well as 2010 is to reduce the backlog, then 
Vocational Experts will play a crucial role in this endeavor.
    The Social Security Commission funded a panel a few years back to 
conduct a needs assessment related to current administration needs. The 
panel report (found at) made clear the need for Vocational Experts as 
well as Medical Experts to receive an increase in fees. I feel that we 
Vocational Experts have been more than patient and beseech you to 
address this on our behalf. I am a member of the International 
Association of Rehabilitation Professionals (IARP) and we hope for your 
support in this matter.

Sincerely,

Renee B. Jubrey, MS, CVE
RBJ Vocational Experts
674 Prospect Avenue
Hartford, CT 06105

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
